<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011</title>
<body><pre>[Senate Hearing 111-]
[From the U.S. Government Publishing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2011

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's note.--At the direction of the subcommittee 
chairman, the following statements received by the subcommittee 
are made part of the hearing record on the Fiscal Year 2011 
Energy and Water Development Appropriations Act.]

                      DEPARTMENT OF DEFENSE--CIVIL

                         Department of the Army

                       Corps of Engineers--Civil

       Prepared Statement of the San Mateo County Harbor District

          OYSTER POINT MARINA/PARK BREAKWATER RECONFIGURATION

    The San Mateo County Harbor District requests your support for a 
fiscal year 2011 appropriation of $400,000 to the U.S. Army Corps of 
Engineers Continuing Authorities section 107 account to complete this 
vital project, which will facilitate the first new water transit 
service on San Francisco Bay and essential waterborne emergency 
response capability serving the northern San Francisco Peninsula. 
Through this project, the breakwater entrance has been widened to 
enable safe, fast, and comfortable access by new ferryboat service to 
and from the Marina serving east San Francisco Bay.
    Completion of the project requires installation of wave attenuators 
and adaptive management to dissipate wave energy now entering the 
Marina's berthing area because of the entrance widening. This last task 
will provide increased protection to berthed vessels from southeasterly 
storm surges and protection of Marina facilities and property.
    Oyster Point Marina/Park is located in the city of South San 
Francisco, and is operated for the city by the Harbor District under a 
Joint Powers Agreement. Oyster Point was designated by the San 
Francisco Bay Area Water Emergency Transportation Authority (WETA) as 
the initial expansion terminal facility for WETA's new regional ferry 
service on San Francisco Bay. This is due to the significant employee 
base working near the Marina in and around South San Francisco in life 
science industries. There are currently around 25,000 employees within 
a 4.5 mile radius from the Marina, which is forecasted to double by 
2015. Many of these workers commute over the Bay bridges and 
contribute, and are adversely affected by, traffic congestion and air 
pollution. Water transit is an economically and environmentally viable 
alternative.
    Additionally, the Marina has been identified as a vital component 
of WETA's emergency response plan for San Francisco Bay. The breakwater 
project including the wave attenuators is required to accommodate rapid 
waterborne emergency response activities, expanded vessel traffic, 
improve vessel access and safety, and new ferry traffic.

          NORTHERN HALF MOON BAY SHORELINE IMPROVEMENT PROJECT

    The San Mateo County Harbor District requests your support for a 
fiscal year 2011 appropriation of $100,000 to the U.S. Army Corp of 
Engineers Continuing Authorities section 111 account for this project. 
Project goals are (a) to halt shoreline erosion now threatening the 
Coast Highway, which, as the only coastal artery in the region, is a 
homeland security concern as evidenced by the recent tsunami advisory 
for the California coast; (b) to enable restoration of anchorage area 
to the only designated Harbor of Refuge between San Francisco and 
Monterey Bay; (c) to restore public shoreline access and use adjacent 
to a major metropolitan area; (d) to demonstrate beneficial sand 
replenishment methods that may have broader environmentally sound 
applicability; and (e) overall, to insure that the Federal Pillar Point 
Harbor breakwater performs as intended.
    The Pillar Point Harbor breakwater was built around 1960 to create 
a harbor of refuge for the commercial fishing fleet and other vessels. 
While serving its primary function, the breakwater has caused erosion 
of the adjacent beach and bluff areas by preventing sand movement along 
the shoreline and by scouring the area next to the breakwater. This 
shoreline erosion has increased over time, destroying one road and 
threatening California Highway 1 and several structures, and causing 
loss of a heavily used public beach. A July 2009 Army Corps of 
Engineers Initial Appraisal concluded that there is sufficient cause 
for Federal interest in a shoreline improvement project, which is 
supported by government agencies and the public.

                    PILLAR POINT HARBOR, CALIFORNIA

    The San Mateo County Harbor District requests your support for a 
fiscal year 2011 appropriation of $2.2 million to the U.S. Army Corps 
of Engineers Operation and Maintenance account to complete storm damage 
repairs to the Federal breakwater at Pillar Point Harbor. Completion of 
repairs already in progress will restore breakwater integrity and 
navigation safety to a designated critical Harbor of Refuge vital for 
the fishing industry, waterborne commerce, recreational boating, and 
local and regional economies.
    Breakwater-caused shoreline impacts south of the breakwater are 
adversely affecting adjacent State highway safety, causing loss of 
public beach use, and affecting shoreline property, and must be 
addressed by a demonstration project. The recent tsunami advisory for 
the California coast highlighted the need for the proposed action, 
especially as State Highway 1 is the only traffic artery on this 
stretch of coast available for emergency response needs. This project 
element will address damage prevention or mitigation along the northern 
open-ocean shoreline of Half Moon Bay that are attributable to 
construction of the Federal breakwater.
    The eroding beach shoreline fronts on Monterey Bay National Marine 
Sanctuary waters, which are administered for this sanctuary under 
agreement by the Gulf of the Farallones National Marine Sanctuary. 
Project performance will show how human activities can be sustained 
without causing adverse impacts on Sanctuary resources.
    This project thus addresses urgent Federal concerns with navigation 
safety, homeland security, marine resource protection, and public use, 
and will complete work already begun.
                                 ______
                                 
     Prepared Statement of the American Shore & Beach Preservation 
                              Association

    I am Mayor Harry Simmons of Caswell Beach, North Carolina and 
President of the American Shore & Beach Preservation Association. ASBPA 
appreciates this opportunity to provide written testimony to the Senate 
Energy and Water Appropriations Subcommittee on the fiscal year 2011 
budget of the Corps of Engineers. Over the years, the Appropriations 
Committees, and Congress as a whole, have been extremely supportive of 
what is known as the Federal shore protection program. We are very 
grateful for the many times you stood up to what has seemed like the 
never-ending efforts of one administration after another to cripple or 
terminate this program.
    The Federal coastal restoration program represents our Nation's 
commitment to responsible coastal stewardship. Our coasts are the 
gateway to America. They provide the seagoing and intracoastal water 
highways which carry most of America's commerce. They are the home to 
hundreds of animal and plant species that are not likely to be found 
elsewhere. They sustain tens of thousands of middle-class and service 
worker jobs which, together with taxes on business profits, bring 
billions of dollars into the Federal Treasury each year.
    This administration has been far more willing to discuss and budget 
for coastal programs and projects than at any time since 1995. That is 
indeed refreshing. However, the recommendation the President has made 
in his fiscal year 2011 budget of approximately $55 million is only 
one-tenth of what ASBPA's national survey shows as the need for $460 
million for the Federal cost-share of what is needed to fund authorized 
shoreline projects and studies. Inevitably and regrettably, this 
optimal funding number increases each year that we have done this 
analysis. The Federal Government has not provided its share of the cost 
of studies and projects while non-Federal sponsors have their 35 to 50 
percent share in hand because they have set aside funds in advance.
    Following are our recommendations for funding some of the national 
programs promoting coastal stewardship. They are not listed in priority 
order. ASBPA hopes the subcommittee will give consideration to each of 
these requests. Thank you for considering our views. We look forward to 
continuing to work with the subcommittee on the funding and 
effectiveness of coastal programs.

              NATIONAL PLANNING CENTERS OF EXPERTISE (GI)

    The Corps of Engineers designated six national Planning Centers of 
Expertise and identified their roles in support of plan formulation and 
complex technical evaluations associated with plan formulation. These 
Planning Centers of Expertise provide specialized planning talent to 
enhance and supplement the capabilities of the districts. They include 
Deep Draft Navigation and Small Boat Harbors, Inland Navigation, 
Ecosystem Restoration, Coastal Storm Damage Reduction, Flood Risk 
Management, and Water Management and Reallocation Studies.
    ASBPA has found that the Coastal and Storm Damage Reduction 
Planning Center of Expertise (Coastal PCX) has been extremely helpful 
to Districts and their customers and has increased the quality of the 
Corps work product and re-instilled confidence on the part of local 
sponsors in the Corps of Engineers. In fiscal year 2009, Congress 
designated some funding allocated to the Planning Support Program (GI 
account) for the 6 centers. In fiscal year 2010, the Senate bill 
designated funding specifically for the Coastal PCX. This was not 
carried over in conference.
    ASBPA Request.--$1,500,000 for the 6 PCX's as a separate line item 
under the GI account. No funding is included in the President's budget 
request.

                 WATER RESOURCE PRIORITIES REPORT (GI)

    Section 2032 of WRDA 2007 provides the Corps of Engineers with the 
direction and authority to examine risk assessment and risk reduction 
in the broadest and yet most practical approach imaginable. We 
understand the Corps has requested but not received funding from 
Congress to do the report.
    ASBPA Request.--$2 million to undertake what is likely to be a 2-
year effort to meet the mandate of section 2032. No funding is included 
in the President's budget request.

 SECTION 2038--NATIONAL SHORELINE EROSION CONTROL DEVELOPMENT PROGRAM 
                                  (CG)

    Section 227 of WRDA 1992 created a program to test new technologies 
that will improve the performance of Federal beach restoration projects 
and reduce their cost. Section 2038 of WRDA section 2038 moved the 
section 227 program into the section 103 Small Shoreline Protection 
Projects Continuing Authorities Program. The President has earmarked 
every dollar of the funding he requested for section 103 projects, and 
not one of those dollars is requested for the Shoreline Erosion Control 
development program.
    ASBPA Requests.--$8,975,000 to plan, construct, and/or monitor at 
least 9 demonstration projects. No funding is included in the 
President's budget request.

          REGIONAL SEDIMENT MANAGEMENT RESEARCH PROGRAM (O&M)

    RSM is not a faster way to plan and execute water resources 
projects; it is a better way. It is a systems-based approach that 
solves sediment-related issues through integrated management of 
littoral, estuarine, and riverine sediments and projects to achieve the 
type of balanced and sustainable approach that is lacking when planning 
and funding is done on a project-by-project basis. RSM will be a major 
factor in protecting environmental resources while also bringing 
efficiencies and greater effectiveness that would otherwise not be 
achievable.
    ASBPA Request.--$9 million to continue Federal, State, and local 
cooperative RSM efforts in almost a dozen States. The President has 
requested $2 million for this program.

REGIONAL SEDIMENT MANAGEMENT PROGRAM AUTHORIZED BY SECTION 2037 OF WRDA 
                               2007 (CG)

    This is now known as the section 204 program and is separate from 
the RSM research program above. This program enables the Corps to do at 
least two things that the Research program cannot do: (1) Construction 
RSM projects; and (2) Cooperate with States that have initiated their 
own RSM studies.
    ASBPA Request.--$15 million to fund the planning and construction 
phases of RSM projects from New England to California. There is no 
funding included in the President's budget request.

                 NATIONAL COASTAL MAPPING PROGRAM (GI)

    This is an interagency effort to survey the U.S. shoreline on a 
recurring basis to support regional sediment management, construction, 
operations and maintenance, and regulatory functions in the coastal 
zone. With this data, governmental entities at all levels will be 
better able to manage America's coastal resources.
    ASBPA Request.--$13 million to complete the first survey of the 
entire U.S. shoreline of the lower 48 States. The President has 
requested $7 million for this program.

               COASTAL FIELD DATA COLLECTION PROGRAM (GI)

    Without good data, there can be no project planning for the present 
and no systems planning for the future. CFDC includes the Corps' Field 
Research Facility which obtains data on longer-term coastal processes, 
the Wave Information Study to develop and analyze new surge and wave 
data. This line items also includes several other programs such as 
SWIMS, PILOT, and MORPHUS.
    ASBPA Request.--$6,600,000 to complete construction of projects and 
continue monitoring and evaluation of completed projects. The President 
has requested $1.4 million for all of the programs under this heading.

                 COASTAL DATA INFORMATION PROGRAM (O&M)

    This is the first year the President has proposed funding a 
separate line item. Nevertheless, this program was established in 1975 
and has now been deployed at over 142 stations and has archived 200 GB 
of wave duty, The CDIP also contains information that is accessed daily 
by the Navy, Coast Guard, Marines, as well as those commercial 
fisherman and others in the private sector.
    ASBPA Request.--$5 million. The President's budget request contains 
$3 million for this line item, which does not permit to expand to the 
east coast.

                NATIONAL SHORELINE MANAGEMENT STUDY (GI)

    Authorized by WRDA 1999, this study will provide the first detailed 
report since 1971 on which sections of the U.S. shoreline are accreting 
and which are eroding. Without this basic information, none of us knows 
how serious a problem coastal erosion is.
    ASBPA Request.--$500,000. The President has requested $375,000 for 
this study.

                    NATIONAL HURRICANE PROGRAM (GI)

    This program is a cooperative effort with FEMA. The studies 
provided by the National Hurricane Program (NHP) help State and local 
communities establish evacuation plans by determining the probable 
effects of a hurricane; predicting public response to the threat and 
advisories, and identifying appropriate shelters. Specifically, NHP 
conducts hazard and vulnerability analyses for coastal communities 
considering different types of storm threats. This includes an 
assessment of storm surge and wind impacts; existing road and other 
transportation systems, population (e.g., demographics, behavior 
analysis) and shelters. This information helps officials determine 
where individuals are most likely to go when evacuating from a storm.
    The NHP assists coastal communities by developing evacuation zones, 
which helps determine where and when the public should be ordered to 
evacuate as a storm approaches. This recommendation is negotiated among 
decisionmakers within each community. Once the evacuation zones are 
established, the NHP provides each community with corresponding 
evacuation maps and suggested clearance times for the various types of 
storm categories. The communities determine how to utilize these tools 
and recommendations, in developing their evacuation plans.
    ASBPA Request.--$3 million as a separate line item in O&M. It is 
currently part of the National Emergency Preparedness Program and was 
allocated $1 million from that program in fiscal year 2010.

              FLOOD CONTROL AND COASTAL EMERGENCIES (FCCE)

    According to the President's budget justification for this 
important category of funds: ``FISCAL YEAR 2011 DISASTER PREPAREDNESS: 
This activity consists of functions required to ensure that USACE 
activities are ready to provide baseline response to disasters and 
emergencies . . . Planning and preparedness funding should be sought as 
part of the regular budget process, instead of relying on emergency 
supplementals. Recent earthquakes, Nor'easters, ice storms and tsunamis 
illustrate the need for preparedness funding and the ability to provide 
trained staff and resources immediately after or even prior to an 
event.'' ASBPA agrees with the need to include FCCE funding in the 
regular appropriations bill. Unfortunately, this has not been the case 
in recent years. When emergencies arise, the Corps has no money on hand 
to deal with them and must wait for a Supplemental Appropriations bill 
for that purpose.
    ASBPA Request.--$50 million. The President has requested $30 
million which is substantially below his fiscal year 2010 request.
                                 ______
                                 
        Prepared Statement of the Fifth Louisiana Levee District

    The Board of Commissioners for the Fifth Louisiana Levee District 
respectfully requests that construction funding for Mississippi River 
Levees be increased from the $29,150,000 contained in the proposed 
budget for fiscal year 2011, to the U.S. Army Corp of Engineers' 
capability of $56,238,000, and the Mississippi River Levee maintenance 
allocation be increased from the proposed $7,582,000 to $20,270,000.
    Reduced funding, combined with the inability to let construction 
contracts under a continuing contract clause, has left thousands of 
people in Louisiana vulnerable to the adverse effects of a deficient 
levee system. Construction of levee enlargements is essential if the 
levee is to contain the ``Project Flood'' which is estimated to be 20 
percent greater than the record Flood of 1927.
    The effect of fully funded contracts for levee construction, now 
required under Public Law 109-103, (sec. 106 and 108), adopted by the 
109th Congress in 2005, as opposed to the previous system of continuing 
contract clauses, has virtually halted enlargement of the Mississippi 
River Levee System in Louisiana. Year after year, as the cost of 
projects and maintenance has increased, funding for levee systems and 
flood control has been reduced. The current proposed budget is no 
exception, with only $240 million allocated for the entire Mississippi 
River and Tributaries (MR&T) project. We request that be increased to 
the Corp's capabilities of $550 million.
    Since the Mississippi River and Tributaries project was 
established, less than $11 billion has been invested. This investment 
provides benefits far beyond their actual cost to the taxpayer by 
offering protection to the 4 million citizens, 1.5 million homes, 
33,000 farms, and countless vital transportation routes from 
destructive floods.
    With the help of Congress, great progress has been made in the 
Mississippi River Valley over the years, but there is still much to be 
done, and because of that, we urge Congress to increase funding to the 
Corp of Engineers in fiscal year 2011, to insure that the Corp is not 
forced to halt or delay contracts for levee construction essential to 
the well being of this Nation. It is vital that the MR&T project(s) be 
completed at the earliest possible date. This can only be accomplished 
through adequate funding and repeal of the mandate for contracts to be 
fully funded prior to the beginning construction.
                                 ______
                                 
 Prepared Statement of the Board of Levee Commissioners for the Yazoo-
                           Mississippi Delta

    These are changing times for this country's flood control community 
and those whom they seek to protect. As you in your wisdom consider 
such weighty matters as Levee Certification coupled with FEMA's new 
mapping initiative, the Clean Water Act, new Objectives, Principles and 
Standards for the Corps of Engineers and a related Executive order, a 
new WRDA bill and 2011 funding for the Mississippi River and 
Tributaries Project, we urge you to do so with one guiding principle: 
First do no harm.
    As you craft a new approach to flood control activities for the 
21st century, we urge you not to lose sight of the successes of the 
20th and what they have meant to this country. The land in and around 
the Mississippi River Valley is among the most fertile and bountiful on 
earth. Not only is it home to the salt-of-the-earth men and women of 
the Nation's heartland, but within it is produced a significant slice 
of the U.S. export pie--the food and fiber that feed and clothe this 
Nation and the rest of the world.
    You in this body and we in the flood control community are its 
stewards and as we move forward, we must do so always keeping in mind 
our duty to protect it. Update the Clean Water Act, but maintain its 
critical Navigable Waters clause; write new guidelines and standards, 
but avoid any radical departure from what has worked; enact a new WRDA 
bill, but enact one whose principal theme is to preserve and protect.
    We are also keenly aware of the fiscal tightropes which must be 
walked in this country's current economic environment. Every dollar is 
critical and every expenditure must be prioritized. But what priority 
trumps the protection of our people and the wealth they produce? What 
role of government is more critical?
    The administration proposes 2011 funding for the MR&T, truly one of 
this Nation's success stories with a virtually unmatched benefit to 
cost ratio, at $240 million, an amount far less than you appropriated 
for 2010 and an amount even farther less than the Corps of Engineers' 
capability. But the final word is that of Congress, and we urge you to 
fund the MR&T umbrella of needed public works at the Corps capability 
level of $550 million.
    As a local levee board, our first priority should be and is the 
protection of the lives and livelihoods of our people. Simply put, the 
Mainline Mississippi River Levee makes life and development possible 
within the Mississippi Delta. Therefore, we ask you to fund Mississippi 
River levees construction at $56.238 million and their maintenance at 
$20.270 million.
    Our levee board is proud to have been the sponsor of the Upper 
Yazoo Projects, one of the most successful such endeavors in the 
country, given testament by the fact that it faces absolutely no 
environmental opposition. To advance its completion, we urge that you 
appropriate $13.3 million.
    Mississippi's four flood control reservoirs have proven to be 
remarkably successful structures, but they are aging and we request the 
appropriation of a total of $54.113 million for their maintenance.
    Also of primary importance to us is the Delta Headwater Project, 
which helps to prevent our Delta streams from filling with soils eroded 
from the hills. We ask that it be funded at $23.2 million.
    The other investigations, construction projects and maintenance 
efforts of importance to our levee district are as follows. We ask they 
be funded in 2011 at their respective Corps of Engineers capability 
levels:
  --Channel Improvements--$59.646 million.
  --Big Sunflower River--$2.2 million.
  --Main Stem--$25,000.
  --Yazoo Basin Reformulation--$1.6 million.
  --Channel Maintenance--$89.484 million.
  --Revetments and Dikes--$72.328 million.
  --Vicksburg Harbor Maintenance--$750,000.
  --Big Sunflower Maintenance--$1.684 million.
  --Main Stem Maintenance--$3.4 million.
  --Tributaries--$1.017 million.
  --Whittington Auxiliary Channel--$400,000.
                                 ______
                                 
      Prepared Statement of the Big Bear Municipal Water District

    The Big Bear Municipal Water District appreciates the opportunity 
to submit this testimony for the record in support of the $650,000 
request in the fiscal year 2011 appropriations for the Santa Ana River 
and Tributaries, Big Bear Lake, CA for the general investigations 
budget of the U.S. Army Corps of Engineers. The Big Bear Municipal 
Water District is an independent special district of the State of 
California, responsible for the overall management of Big Bear Lake, 
Southern California's Premier recreational Lake.
    Located 100 miles east of Los Angeles, the Big Bear Lake 
recreational area attracts visitors from across southern California and 
beyond. Annually, the greater Big Bear area receives over 6.5 million 
visitors from around the world. The Lake is a unique recreational and 
natural resource, offering some of the most beautiful high elevation 
scenery in southern California. The lake has a depth of 72 feet, and is 
about 7 miles in length and about 1.5 miles wide at its greatest width.
    The problems at Big Bear Lake are very similar to the more 
publicized environmental problems at Lake Tahoe. The purpose is to 
implement a project for aquatic habitat restoration in Big Bear Lake. 
Most of the Lake's environmental problems are created by the activities 
in the Federal owned lands in the surrounding watershed. The removal of 
nutrient laden sediment that has accumulated is critical to improving 
the Lake's water quality, controlling nuisance aquatic plant growth, 
enhancing the wildlife habitat, and maintaining boating and fishing 
access. The Lake is on the EPA's 303d list of impaired water bodies, 
with listings for nutrients (phosphorous and nitrogen), invasive 
aquatic plants, and mercury. Big Bear Lake dry year TMDL's for 
nutrients and invasive aquatic plants have been developed. Removal of 
sediment loads is a major remediation requirement. Big Bear Lake is 
adjacent to the Pacific Flyway and is home to numerous waterfowl, 
including the wintering bald eagle. Most recently, the Lake is 
threatened by the introduction of the invasive species, Quagga Mussel.
    We are in the 8th year of an ecosystem restoration feasibility 
study being conducted by the U.S. Army Corps of Engineers, general 
investigations program. We are seeking funds for completion of the 
feasibility phase. The water district is the cost-sharing sponsor and 
has met all our local cost sharing responsibilities.
    The Congressional Interests for this feasibility study are Senator 
Barbara Boxer, Senator Dianne Feinstein and Congressman Jerry Lewis (R-
41st).
    Our Contact information is: Mr. Scott Heule, General Manager, Big 
Bear Municipal Water District, P.O. Box 2863, Big Bear Lake, CA 92315-
2863. Telephone: 909-866-5796, Fax: 909-866-6485, e-mail Address: 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4f3c272a3a232a0f2d2d22382b61203d2861">[email&#160;protected]</a>
                 recommendation for your consideration
    We support the $650,000 request to provide in the U.S. Army Corps 
of Engineers General Investigation Budget, for fiscal year 2011 to 
advance the Santa Ana Tributaries, Big Bear Lake, CA aquatic habitat 
restoration study being conducted by the Corps. Thank you.
                                 ______
                                 
        Prepared Statement of The Little River Drainage District

    Dear Senator Dorgan: My name is Sam M. Hunter, DVM of Sikeston, 
Missouri. I am a veterinarian, landowner, farmer and resident of 
southeast Missouri.
    I am the President of The Little River Drainage District, the 
largest such entity in the Nation. Our District serves as an outlet 
drainage and flood control District to parts of seven counties in 
southeast Missouri. We provide flood control protection to a sizable 
area of northeast Arkansas as well. Our District is solely tax 
supported by more than 3,500 private landowners in southeast Missouri.
    My remarks will be directed toward the Mississippi River and 
Tributaries Project (MR&T) and the St. Francis River Basin portion of 
the MR&T. Those funds when properly expended are investments yielding a 
return of substantial benefits to the American taxpayer throughout this 
Nation. They are used to prevent flooding to much of our valuable 
farmland, to industrial sites, and to upgrade our ever aging locks and 
dam system on our navigable streams which will prevent unscheduled lock 
closures, modernize our hydro-electric plants, and restore some of our 
environmental assets. MR&T authorized by Congress in 1928 and still not 
completed is returning back to our Nation $25 for every dollar 
expended. What a good investment.
    The $4.6 billion of stimulus funding provided the Corps of 
Engineers in 2009 was greatly appreciated. Several needed projects were 
commenced and completed which otherwise would not have occurred. Much 
more needs to be done to provide the Mississippi Valley the flood 
protection its citizens need and the extreme need to modernize our 
inland waterway system.
    Many jobs would be realized and many products would be purchased 
throughout the entire Mississippi Valley and the watersheds which 
discharge into this system if an aggressive modernization of our Inland 
Waterway was put in motion. We must put people back to work and this 
will help considerably. The stimulus funds helped, however, there still 
remains room for more funding. This District supports the request of 
the Mississippi Valley Flood Control Association for funding levels at 
$550 million for the MR&T Project. This project as well as all of the 
subsidiary projects within it are returning back to the U.S. Treasury a 
minimum of $6 for each $1 invested.
    Many of our locks and dams are over 70 years old and we are sitting 
idly by letting them deteriorate further. The current administration 
pledged to improve the infrastructure in this Nation. We are waiting to 
see that promise fulfilled. These much needed improvements are 
investments in this Nation's future. When they are fully underway many 
jobs will be created in the private sector thus serving a twofold 
purpose. Please hear us and help us improve this vital part of our 
Nation.
    We believe Congress needs to intervene and reverse the trend of 
OMB, this administration and of past administrations. We have not 
seriously invested in our waterway infrastructure for decades but we 
must. Local economies will be affected positively by these investments. 
Local labor will be used. Local businesses will provide needed 
materials. This would be a major boost to our economy. Each year OMB 
and recent administrations have submitted low budget amounts for this 
worthwhile project and we have had to rely on Congress to ``fix'' the 
problem. You should not be burdened with this task. Someone needs to 
inform OMB what projects need funding which are assets to our Nation 
and not a liability.
    Investing in our waterways is a great way to stimulate the economy, 
which currently is very much needed, and at the same time be building 
and making investments into a system for the future which will return 
back more dollars than expected. We petition you to give this vital 
industry of our Nation a strong endorsement and do all you can to 
ensure our waterways system and carriers stay competitive with our 
foreign competitors.
    I have the following additional comments for your benefit and 
consideration.

                             INFRASTRUCTURE

    The current administration stated often during its campaign and 
after that a genuine concerted priority would be to invest in this 
country's future, its infrastructure. When are we going to commence?
    Our Federal road systems are crumbling. We must not wait for 
bridges to fail as recently happened in Minnesota before we act. We 
need to move forward across our entire Nation upgrading our Federal 
highway system in its entirety. This will take long term commitments 
not just a ``stimulus'' now and then. We need to put a plan in place, 
work the plan and fund it properly each year until we have completed 
the task.
    Are we truly interested in fuel independence--a cleaner 
environment--a better economy? If we are why don't we have someone step 
forward to be a champion for our ``waterways'' system? We have locks 
and dams which are an average of 50 years old. Parts are having to be 
fabricated since they are no longer manufactured. Tows are having to be 
broken up to pass because our locks and dams are too short and not 
modernized. Many undue delays are occurring. This does not permit our 
carriers to compete fairly with the foreign shipping industry. We must 
start a concerted effort to improve this part of our Nation's 
infrastructure.
    Locks, dams, hydropower, recreation, flood control, water supplies 
and all other benefits from the construction, operation and maintenance 
of these features on our rivers benefit our entire Nation not just a 
few. It is a national asset and it must be operated and funded as a 
national benefit. Private industry can not and will not operate this 
system fairly and in the best interest of our Nation.
    Environmentally moving goods and freight throughout our Nation via 
of water is much cleaner, less intrusive, and far more environmentally 
acceptable than highways or rail. Noise pollution, air pollution, land 
pollution are substantially less when we move the mass amount of goods 
possible by water.
    Fuel efficiency comparison is a ``no brainer''. For instance 1 
gallon of fuel moves 155 tons of freight by truck, 413 tons of freight 
by rail and 576 tons of freight by water. What part of this do we not 
understand? Why can't we realize such an endeavor would reduce much of 
our fuel needs and take much pressure off our highway system?
    Economically investing wisely in our waterways effects much of our 
Nation--not just a regional portion. Consider it being possible to 
board a waterborne vessel at the Port of New Orleans, Louisiana and one 
can touch 36 States of this Nation and 6 provinces in Canada without 
ever getting onto land. Over 75 percent of our population lives along 
water. Only two of our major cities are not on water, namely, Atlanta, 
Georgia and Denver, Colorado. With the many ports throughout the 
Mississippi Valley, which network many more people inland, it is 
evident many local economies will be benefited when investments are 
made in our water infrastructure.
    We seem to be ready, willing, and capable of improving the 
infrastructure of other nations at the expense of our taxpayers but 
seem reluctant to do the same for our Nation. It is far past time to 
reward the American taxpayer with a return for the money he provides 
each year and stop using those funds to benefit those nations who are 
our enemies.
    It has been estimated our waterway infrastructure needs $100 to 
$120 billion to modernize, upgrade and be made functional. Lets start 
now by setting a 10 year goal to modernize that system and then plan to 
meet that goal and exceed same when possible. Currently we are spending 
$13 billion each month to fight terrorism in Iraq and Afghanistan which 
is more spent in 1 year of what is needed to bring our waterways up to 
a finished plan. Perhaps we could cut the 10 year plan to even 5 years 
by eliminating much of that funding, lets try.
    I wish to thank you very much for your time and kind attention and 
for taking the time to review the above. We would be very appreciative 
of anything this subcommittee can do to help us improve our 
environment, improve our livelihood, and improve the area in which we 
live and work which ultimately is good for America. We are also very 
appreciative of all this subcommittee has done in the past. We trust 
you will hear our pleas once more and act accordingly.
                                 ______
                                 
          Prepared Statement of the City of Flagstaff, Arizona

    Chairman Dorgan, Ranking Member Bennett, and distinguished members 
of the subcommittee, thank you for allowing me to testify on behalf of 
the city of Flagstaff, Arizona in support of $8 million in the Army 
Corps of Engineers budget for the Rio de Flag flood control project in 
fiscal year 2011. The Rio de Flag flood control project is critically 
important to the city, to northern Arizona, and, ultimately, to the 
Nation.
    As you may know, Mr. Chairman, with this subcommittee's help over 
the last several fiscal years, Rio de Flag received more than $20 
million to continue construction on this important project. We are 
extremely grateful that the subcommittee boosted this project well 
above the President's request every year, and we would appreciate your 
continued support for this project in fiscal year 2011.
    Like many other projects under the Army Corps's jurisdiction, Rio 
de Flag received no funding in the President's fiscal year 2011 budget, 
although the Corps has expressed a capability of $8 million to continue 
construction on the project and have been unwavering in their support 
of it. We are hopeful that the subcommittee will fund the Rio de Flag 
project at $8 million when drafting its bill in order to keep the 
project on an optimal schedule.
    Flooding along the Rio de Flag dates back as far as 1888. The Army 
Corps has identified a Federal interest in solving this long-standing 
flooding problem through the Rio de Flag, Flagstaff, Arizona--
Feasibility Report and Environmental Impact Study (EIS). The 
recommended plan contained in this feasibility report was developed 
based on the following opportunities: (1) flood control and flood 
damage reduction; (2) environmental mitigation and enhancement; (3) 
water resource management; (4) public recreation; and (5) redevelopment 
opportunities. This plan will result in benefits to not only the local 
community, but to the region and the Nation.
    The feasibility study by the Corps of Engineers has revealed that a 
500-year flood could cause serious economic hardship to the city. In 
fact, a devastating 500-year flood could damage or destroy 
approximately 1,500 structures valued at more than $450 million. 
Similarly, a 100-year flood would cause an estimated $100 million in 
damages. In the event of a catastrophic flood, over one-half of 
Flagstaff's population of more than 60,000 would be directly impacted 
or affected.
    In addition, a wide range of residential, commercial, downtown 
business and tourism, and industrial properties are at risk. Damages 
could also occur to numerous historic structures and historic Route 66. 
The Burlington Northern and Santa Fe Railway (BNSF), one of the primary 
east-west corridors for rail freight, could be destroyed, as well as 
U.S. Interstate 40, one of the country's most important east-west 
interstate links. Additionally, a significant portion of Northern 
Arizona University (NAU) could incur catastrophic physical damages, 
disruptions, and closings. Public infrastructure (e.g., streets, 
bridges, water, and sewer facilities), and franchised utilities (e.g., 
power and telecommunications) could be affected or destroyed. 
Transportation disruptions could make large areas of the city 
inaccessible for days.
    Mr. Chairman, the intense wildfires that have devastated the West 
during the last several years have only exacerbated the flood potential 
and hazard in Flagstaff. An intense wildfire near Flagstaff could strip 
the soil of ground cover and vegetation, which could, in turn, increase 
runoff and pose an even greater threat of a catastrophic flood.
    In short, a large flood could cripple Flagstaff for years. This is 
why the city believes it is important to ensure that this project 
remains on schedule and that the Corps is able to utilize its expressed 
capability of $8 million in fiscal year 2011 for construction of this 
flood control project.
    In the city's discussions with the Corps, both the central office 
in Washington and its Los Angeles District Office also believe that the 
Rio de Flag project is of the utmost importance and both offices 
believe the project should be placed high on the subcommittee's 
priority list. We are hopeful that the subcommittee will consider this 
advice and also place the project high on its priority list and fully 
fund the project at $8 million for fiscal year 2011.
    It is important to note that the city has secured the necessary 
property rights to begin construction, and the city is prepared to 
assume the costs for the non-Federal portion of the cost-sharing 
agreement.
    The city of Flagstaff, as the non-Federal sponsor, is responsible 
for all costs related to required Lands, Easements, Rights-of-Way, 
Relocations, and Disposals (LERRD's). The city had already secured the 
necessary property rights to begin construction in 2004. Implementation 
of the city's Downtown and Southside Redevelopment Initiatives ($100 
million in private funds) are entirely dependent on the successful 
completion of the Rio de Flag project. The Rio de Flag project will 
also provide a critical missing bike/pedestrian connection under Route 
66 and the BNSF Railroad to replace the existing hazardous grade 
crossings.
    Mr. Chairman, the Rio de Flag project is exactly the kind of 
project that was envisioned when the Corps was created because it will 
avert catastrophic floods, it will save lives and property, and it will 
promote economic growth. In short, this project is a win-win for the 
Federal Government, the city, and the surrounding communities.
    Furthermore, the amount of money invested in this project by the 
Federal Government and the city--approximately $54 million (as 
authorized by WRDA)--will be saved exponentially in costs to the 
Federal Government in the case of a large and catastrophic flood, which 
could be more than $450 million. It will also promote economic growth 
and redevelopment along areas that are currently underserved because of 
the flood potential.
    In conclusion, the Rio de Flag project should be considered a high 
priority for this subcommittee, and I encourage you to support full 
funding of $8 million for this project in the fiscal year 2011 Energy 
and Water Development Appropriations bill. Thank you in advance for 
your consideration.
                                 ______
                                 
     Prepared Statement of the Port of Harlingen--Harlingen, Texas

                         HISTORY AND BACKGROUND

    Port Harlingen, also known as the Rio Hondo Port, is on the Arroyo 
Colorado and Farm Road 106, on the eastern city limits of Harlingen. 
The channel connecting Arroyo Colorado with the Gulf Intracoastal 
Waterway was completed and dedicated on February 27, 1952. It is 12 
feet deep and 125 feet wide and has a turning basin measuring 400 by 
600 feet. By 1962 the port was handling $2.5 million in commerce. In 
1983 commodity shipments amounted to 455,430 short tons, and they 
increased to 801,003 short tons in 1984, when the port housed 10 
industries with commercial leases. In 1989 Port Harlingen handled 
728,954 short tons.
    The port is located 4 miles east of Harlingen, Texas on Highway 
106. It is 25 miles west of Mile Marker 646 on the Gulf Intracoastal 
Waterway, which stretches from the Mexican border at Brownsville, 
Texas, along the entire coast of the Gulf of Mexico to St. Marks, 
Florida. The Gulf Intracoastal Waterway provides over 1,300 miles of 
protected waterway. The Harlingen channel is maintained to a width of 
125 feet and a depth of 12 feet and is supplied by the Arroyo Colorado, 
a fresh water river.

                          PROJECT DESCRIPTION

    The project is located in the vicinity of Rio Hondo and Harlingen 
in Cameron and Willacy Counties, Texas. The project consists of a 
channel 25.8 miles long. The channel extends with the main channel of 
the GIWW through the Arroyo Colorado to the turning basin at Harlingen. 
It also included a barge-mooring basin near the channel's junction with 
the GIWW. Authorized channel dimensions are 12 feet by 125 feet. One 
hundred percent of all the sugar (180,000 tons), 95 percent of all 
commercial fertilizer products and 30 percent of all gasoline products 
for south Texas is shipped through the Port of Harlingen. The Corps of 
Engineers has determined a need for levee work in Harlingen Channel 
that were destroyed during recent storms in Texas.

                ECONOMIC IMPACT OF THE PORT OF HARLINGEN

    The Port of Harlingen provides efficient and economical 
transportation to points as close as Corpus Christi and as far as the 
Great Lakes. Terminal docks and other facilities ease shipments into 
and out of the Port of Harlingen, and over 150 acres of on-and-off 
channel sites are available for industrial firms requiring economical 
transportation and attractive land lease rates. The port is also an 
important link in the comprehensive transportation network of the Rio 
Grande Valley of Texas. Southern Pacific Company rail lines at the 
port, along with switching capabilities with Union Pacific Railways, 
keep products moving to Texas locations and on throughout the U.S. and 
Mexico. Additionally, as was stated in the project description above, 
100 percent of all the sugar (180,000 tons), 95 percent of all 
commercial fertilizer products and 30 percent of all gasoline products 
for south Texas is shipped through the Port of Harlingen.

                     COMMUNITY AND INDUSTRY SUPPORT

    One industry the Port of Harlingen is involved in is sugar. The 
Port of Harlingen Authority has bid and is building a $3.8 million 
sugar transfer building to load barges of sugar for shipment to 
Louisiana. The sugar mill shipped 171,962 short tons of sugar to 
Louisiana in 2006-2007 and should ship in excess of 180,000 short tons 
in 2007-2008. The mill cannot ship raw sugar by rail because the finish 
mills in Louisiana are not currently capable of receiving raw sugar by 
rail, and instead are organized to ship finished sugar by rail. To ship 
the sugar by truck would take over 6,878 truckloads at 4 times the 
cost. If this occurs, recent economic studies have determined that it 
would put the mill out of business.
    Additional industries present at the Port are Agro Alliance, Helena 
Chemical, UAP and Wilber Ellis, which have facilities at the port or 
down stream that handle 99 percent of all of the commercial liquid and 
dry fertilizer for south Texas. CMX also has a terminal at the port 
that handles much needed concrete sand shipped from Victoria and Cement 
shipped in from Mexico.
    Valero Energy Corporation, which once actively sent gas and diesel 
fuel to the Port of Harlingen by barge, also has projects underway at 
the Port. In October 2005, Valero finished a pipeline to the valley to 
service all three terminals and stopped all barge traffic. In July 2006 
they started barging (about two barges a month) ultra low sulfur diesel 
to the valley. They are currently shipping the entire ultra low sulfur 
diesel by barge and the traffic is almost back to levels achieved 
before their pipeline was built.

         WHAT WE NEED FROM THE SUBCOMMITTEE IN FISCAL YEAR 2011

    The administration's fiscal year 2011 budget did not include 
funding for the levee work needed in Harlingen Channel. As 
deliberations on the Energy and Water Subcommittee on Appropriations 
commence, we would appreciate your help in securing the Corps 
capability of $805,000 so that this project can move forward and ensure 
that the Gulf Intracoastal Waterway--Port of Harlingen received the 
important levee work identified by the USACE.
                                 ______
                                 
  Prepared Statement of the Brazos River Harbor Navigation District--
                            Freeport, Texas

                         HISTORY AND BACKGROUND

    Port Freeport is an autonomous governmental entity authorized by an 
act of the Texas Legislature in 1925. It is a deep-draft port, located 
on Texas' central gulf coast, approximately 60 miles southwest of 
Houston, and is an important Brazos River Navigation District 
component. The port elevation is 3 to 12 feet above sea level. Port 
Freeport is governed by a board of six commissioners elected by the 
voters of the Navigation District of Brazoria County, which currently 
encompasses 85 percent of the county. Port Freeport land and operations 
currently include 186 acres of developed land and 7,723 acres of 
undeveloped land, 5 operating berths, a 45 feet deep Freeport Harbor 
Channel and a 70 feet deep sink hole. Future expansion includes 
building a 1,300-acre multi-modal facility, cruise terminal and 
container terminal. Port Freeport is conveniently accessible by rail, 
waterway and highway routes. There is direct access to the Gulf 
Intracoastal Waterway, Brazos River Diversion Channel, and State 
Highways 36 and 288. Located just 3 miles from deep water, Port 
Freeport is one of the most accessible ports on the gulf coast.

                          PROJECT DESCRIPTION

    The fiscal year 2002 Energy and Water Appropriations signed into 
law included a $100,000 appropriation to allow the United States Army 
Corps of Engineers (USACE) to conduct a reconnaissance study to 
determine the Federal interest in an improvement project for Freeport 
Harbor, Texas. The USACE, in cooperation with the Brazos River Harbor 
Navigation District as the local sponsor, has completed that study. The 
report indicates that ``transportation savings in the form of National 
Economic Development Benefits (NED) appear to substantially exceed the 
cost of project implementation'', thus confirming ``a strong Federal 
interest in conducting the feasibility study of navigation improvements 
at Freeport Harbor''. Congress has to date appropriated over $ 4 
million for the study phase of the channel improvement project. This 
last phase of study for PED will move the project to completion of the 
feasibility report and ready the channel for construction.
    Port Freeport has the opportunity to solidify significant new 
business for Texas with this improvement project. In addition, the 
improvement to the environment by taking a huge number of trucks off of 
the road, transporting goods more economically and environmentally 
sensitive by waterborne commerce is infinitely important to the 
community, the State, and the Nation. Moreover, the enhanced safety of 
a wider channel cannot be overstated. The emergence of an LNG facility 
at Port Freeport--a joint venture of Conoco-Philips and Cheniere Energy 
further solidifies the importance of keeping this critical waterway at 
optimum depth and width.

                    ECONOMIC IMPACT OF PORT FREEPORT

    Port Freeport is 13th in foreign tonnage in the United States. It 
is responsible for augmenting the Nation's economy by over $9 billion 
annually and generating over nearly 24,000 jobs in Texas, over 11,000 
direct. It also augments the economy by providing annual State and 
local taxes of over $150,000 and an additional of over $300 million in 
Federal tax revenues. Its chief import commodities are bananas, fresh 
fruit and aggregate while top export commodities are rice and 
chemicals. The port's growth has been staggering in the past decade, 
becoming one of the fastest growing ports on the gulf coast. Port 
Freeport's economic impact and its future growth is justification for 
its budding partnership with the Federal Government in this critical 
improvement project.
    Examples of existing tenants at the Port include:
    Dole Fresh Fruit.--Dole has a weekly sailing arriving at Port 
Freeport with green fruit and other exotic fruits, mainly from 
Guatemala and Honduras. Dole has been a tenant of Port Freeport for the 
past 23 years, occupying lease sites comprising of 12 acres and has 
just renewed its lease for another 5 years. There are approximately 450 
jobs associated with this operation.
    Chiquita Fresh North America.--Chiquita is very similar to the Dole 
operation. Chiquita also has a weekly sailing and has been a tenant of 
Port Freeport for the past 12 years. There are about 400 jobs 
associated with this operation.
    Turbana Banana & Isabella Shipping.--Turbana and Isabella, 
divisions of Uniban, based in Colombia import 2,000 pallet loads of 
green fruit and other exotic fruits into Port Freeport weekly. The 
fruit is processed in a newly built chiller, which the Port undertook 
and built 2 years ago at a cost of $7 million. In addition to their 
import activities, they also export general cargo back weekly to ports 
in Costa Rica and Colombia. Since moving to Freeport 2 years ago, 
Turbana has increased their business 38 percent. This highly labor-
intensive company accounts for 500+ jobs. Turbana and Isabella recently 
announced a significant expansion of their Freeport operations that 
will double their cargo throughput within the next 4 months.
    American Rice Inc./Grupo SOS.--As a 20-year tenant of the Port, 
this company has the largest rice milling operation in the United 
States located on water. They are one of the largest suppliers to Iraq 
in the effort to help rebuild their economy. American Rice was recently 
acquired by the Spanish firm Grupo SOS, based in Madrid.
    Grupo SOS recently announced an expansion project at the Port 
Freeport site totaling $150 million dollars. Once all the new 
facilities are built, Port Freeport will be the distribution center for 
all North America, sending product out by ship, truck, and rail to 
Mexico, Canada, the Tropics, and South America as well as throughout 
the United States. With the expansion, there will be approximately 
2,000 jobs associated with this operation.
    Freeport LNG/ConocoPhillips.--Port Freeport was successful 4 years 
ago in attracting Freeport LNG to a site on Quintana Island, owned by 
the Port. This facility, the first new liquefied natural gas plant to 
be built in the United States in the last 25 years, will begin 
operations in the first quarter of 2008. The volume of natural gas 
imported in Phase I will be equal to 10 percent of the total gas 
production of the State of Texas and Phase II will equal over 20 
percent of the entire State's production from this one terminal. The 
docks at the terminal are designed to handle the largest LNG ships 
being designed for the future, will require a wider ship channel which 
will need to be maintained for these larger ships. The investment in 
the LNG facility is $1 billion. The importance of this facility cannot 
be understated. With gas prices spiking at $13/bcf (from $3) recently, 
local petrochemical plants had to shut down some production units, as 
an example, Dow Chemical Freeport purchases $1 million of LNG daily to 
fire up their various production facilities.
    In addition to the Port tenants listed above there a numerous U.S. 
and international chemical and crude processing facilities in the 
immediate area. Some of the larger international corporations utilizing 
the Freeport ship channel are as follows:
    Dow Chemical.--A diversified chemical company that offers a broad 
range of products and services to customers in more than 175 countries, 
helping them to provide everything from fresh water, food and 
pharmaceuticals to paints, packaging and personal care products. Dow 
has annual sales of $49 billion and employs 43,000 people worldwide, 
with 4,000 full time employees in the Texas operations and another 
3,000 contract employees. Texas Operations in Freeport is Dow's largest 
integrated site where 44 percent of Dow's products are sold in the 
United States and more than 21 percent of Dow's products sold globally 
are manufactured. Dow's Freeport Marine Terminal and Operations (FMTO) 
uses the Freeport Harbor channel and handles the movement of 100 
different Dow products at 15 billion pounds annually. Marine vessels 
transport 46 percent of Dow's volume through Dow docks on the Freeport 
channel.
    ConocoPhillips owns and operates a 247,000 bpd refinery at Old 
Ocean, Texas, that relies heavily on marine operations for the delivery 
of crude oil and other feedstock supplies; and, to a lesser extent, for 
product shipments. In particular, ConocoPhillips utilizes both its own 
proprietary terminal and the Teppco crude oil terminal at Port 
Freeport. Maintaining and improving the Port Freeport channel is 
critical to overall refinery operations.
    Seaway Crude Pipeline Company is a partnership between wholly owned 
subsidiaries of TEPPCO and ConocoPhillips. The pipeline transports 
crude oil from the Texas gulf coast to Cushing, OK, a crude 
distribution point for the central United States and a delivery point 
for the New York Mercantile Exchange (NYMEX). The Seaway system is a 
critical link in the crude oil supply chain for Central and Midwest 
refining centers. Seaway also provides marine terminaling and storage 
services for Texas gulf coast area refineries. TEPPCO is the operator 
of Seaway Crude Pipeline. The Freeport, TX, marine terminal is the 
origin point for the 30-inch diameter crude pipeline. Three large 
diameter lines carry crude oil from Freeport to the Jones Creek Tank 
Farm, which has 6 storage tanks capable of handling approximately 3.3 
million barrels of crude. This private terminal also acts as the 
receiving terminal for crude delivered to the Bryan Mound Strategic 
Petroleum Reserve operated by the Department of Energy.
    Schenectady Chemical, Shintech, Air Liquide, Nalco, Rhodia, Rhone-
Poulenc, S F Sulfur Corp and Silica Products are other large 
international companies in the immediate area. All of these companies 
depend on, in some form or fashion the delivery or dispatch of product, 
crude or feedstock by vessel. There is well over $100 billion in assets 
in the immediate area, assets that are in the ground, provide for 
30,000 direct jobs supplying our country with everything from gasoline 
for our vehicles to baby diapers.
    Recent Port improvements include the Velasco Terminal, which was 
launched last October as our first major container terminal. This 
facility, presently under construction will boast a berthing line of 
2,400 linear feet with 90 acres of backland for development. Phase I, 
building Velasco terminal will cost $35 million dollars and should be 
completed in 18 months. We have three, large international companies 
submitting proposals to act as terminal operators. Overall build out 
cost could go as high as $200 million and is designed to handle as many 
as 700,000 containers.

                     DEFENSE SUPPORT OF OUR NATION

    Port Freeport is a strategic port in times of National Defense of 
our Nation. It houses a critically important petroleum oil reserve--
Bryan Mound. Its close proximity to State Highways 36 and 288 make it a 
convenient deployment port for Fort Hood. In these unusual times, it is 
important to note the importance of our ports in the defense of our 
Nation and to address the need to keep our Federal waterways open to 
deep-draft navigation.

                     COMMUNITY AND INDUSTRY SUPPORT

    This proposed improvement project has wide community and industry 
support. The safer transit and volume increase capability is an 
appealing and exciting prospect for the users of Freeport Harbor and 
Stauffer Channel. The anticipated positive benefit to cost ratio that 
was indicated from the Corps of Engineers reconnaissance study firmly 
solidified the Federal interest.

         WHAT WE NEED FROM THE SUBCOMMITTEE IN FISCAL YEAR 2011

    The administration included no funding for PED for the widening and 
deepening project for Port Freeport; therefore, we need an add on of 
$500,000 to initiate PED. The administration did include $3,538,000 in 
O&M for maintenance of Freeport Harbor; however, that amount falls 
short of the Corps capability. Maintenance dredging of Federal harbors 
is a Federal responsibility; therefore, we respectfully request the 
additional funding of $7,374,000 to restore the harbor to its 
authorized depth. The Corps will need to continue to move this 
important project through the system on an optimum schedule and most 
cost-efficient timeframe for the Federal Government and the local 
sponsor. We respectfully request that the full amount of the Corps 
capability for PED and O&M be included in the House mark-up.
    Not only is the widening and deepening project currently under 
consideration as a feasibility study by the Corps needed to ensure the 
continued growth of the port and surrounding industries, we need 
continued support from the Federal Government to insure our channel is 
maintained at it's Federal authorized depth of 45 feet to assure our 
current customers that we will continue to be able to serve them.
                                 ______
                                 
   Prepared Statement of the Chambers County-Cedar Bayou Navigation 
                            District, Texas

                         HISTORY AND BACKGROUND

    The Rivers and Harbor Act of 1890 originally authorized navigation 
improvements to Cedar Bayou. The project was reauthorized in 1930 to 
provide a 10 foot deep and 100 foot wide channel from the Houston Ship 
Channel to a point on Cedar Bayou 11 miles above the mouth of the 
bayou. In 1931, a portion of the channel was constructed from the 
Houston Ship Channel to a point about 0.8 miles above the mouth of 
Cedar Bayou, approximately 3.5 miles in length. A study of the project 
in 1971 determined that an extension of the channel to project Mile 3 
would have a favorable benefit to cost ratio. This portion of the 
channel was realigned from mile 0.1 to mile 0.8 and extended from mile 
0.8 to Mile 3 in 1975. In October 1985, the portion of the original 
navigation project from project Mile 3 to 11 was deauthorized due to 
the lack of a local sponsor.
    In 1989, the Corps of Engineers, Galveston District completed a 
Reconnaissance Report dated June 1989, which recommended a study for an 
improvement to a 12 foot by 125 foot channel from the Houston Ship 
Channel Mile 3 to Cedar Bayou Mile 11 at the State Highway 146 Bridge. 
Subsequently, at the completion of the feasibility report, the 
preferred plan recommendation was to construct a 10 foot by 100 foot 
channel. The feasibility report was approved by both the ASA of Civil 
Works for the Army Corps of Engineers and the Office of Management and 
Budget.
    The Texas Legislature created the Chambers County-Cedar Bayou 
Navigation District in 1997 as an entity to improve the navigability of 
Cedar Bayou. The district was created to accomplish the purpose of 
section 59, Article XVI, of the Texas Constitution and has all the 
rights, powers, privileges and authority applicable to Districts 
created under chapters 60, 62, and 63 of the Water Code--Public Entity. 
The Chambers County-Cedar Bayou Navigation District then became the 
local sponsor for the Cedar Bayou Channel.

                PROJECT DESCRIPTION AND REAUTHORIZATION

    Cedar Bayou is a small coastal stream, which originates in Liberty 
County, Texas, and meanders through the urban area near the eastern 
portion of the city of Baytown, Texas, before entering Galveston Bay. 
The bayou forms the boundary between Harris County on the west and 
Chambers County on the east. The project was authorized in section 349 
of the Water Resources Development Act 2000, which authorized a 
navigation improvement of 12 feet deep by 125 feet wide from mile 2.5 
to mile 11 on Cedar Bayou. Corps studies have indicated that the 
preferred plan is to widen the channel to 100 feet and deepen it to 10 
feet which is the current plan of action.

                   JUSTIFICATION AND INDUSTRY SUPPORT

    First and foremost, the channel must be improved for safety. The 
channel is the home to a busy barge industry. The most cost-efficient 
and safe method of conveyance is barge transportation. Water 
transportation offers considerable cost savings compared to other 
freight modes (rail is nearly twice as costly and truck nearly four 
times higher). In addition, the movement of cargo by barge is 
environmentally friendly. Barges have enormous carrying capacity while 
consuming less energy, due to the fact that a large number of barges 
can move together in a single tow, controlled by only one power unit. 
The result takes a significant number of trucks off of Texas highways. 
The reduction of air emissions by the movement of cargo on barges is a 
significant factor as communities struggle with compliance with the 
Clean Air Act. Several navigation-dependent industries and commercial 
enterprises have been established along the commercially navigable 
portions of Cedar Bayou. Several industries have docks at the mile 
markers that would be affected by this much-needed improvement. These 
industries include: Reliant Energy, Bayer Corporation, Koppel Steel, 
CEMEX, US Filter Recovery Services and Dorsett Brothers Concrete, to 
name a few.

                       PROJECT COSTS AND BENEFITS

    Congress appropriated $100,000 in fiscal year 2001 for the Corps of 
Engineers to conduct the feasibility study to determine the Federal 
interest in this improvement project. The study indicated a benefit to 
cost ratio of the project of 2.8 to 1. The estimated total cost of the 
project is $16.8 million with a Federal share estimated at $11.9 
million and the non-Federal sponsor share of approximately $4.9 
million. Total annual benefits are estimated to be $4.8 million, with a 
net benefit of $3 million. Congress thus far has appropriated nearly 
$1.7 million for this project.
    It has also become an important project for the Port of Houston 
Authority--the Nation's busiest port in foreign tonnage. They hope to 
institute a container on barge facility as soon as this project is 
accomplished. We would appreciate the subcommittee's support of the 
required add of the $100,000 to initiate construction of this important 
improvement project. The users of the channel deserve to have the 
benefits of a safer, most cost-effective Federal waterway.

                             CURRENT STATUS

    In July 2006, the project feasibility report was accepted and 
approved by Assistant Secretary of the Army John P. Woodley and OMB as 
a viable, economically justified and environmentally accepted project. 
The project is ready for construction. The Federal Government has 
already invested nearly $1 million for the studies to justify this 
project and the local sponsor has advanced the total local share. We 
are ready to begin construction.
                                 ______
                                 
 Prepared Statement of The Port Authority of New York and New Jersey; 
 State of New Jersey, Department of Transportation; State of New York, 
                  Empire State Development Corporation

    Endorsed By: APM Terminals; Association of Bi-State Motor Carriers, 
Inc.; Board of Commissioners of Pilots of the State of New York; 
Business Council of New York State; Cashman Dredging Company; 
ConocoPhillips Bayway Refinery; CSX Corporation; Donjon Marine Co., 
Inc.; Environmental Defense Fund; Hudson County Chamber of Commerce; 
Great Lakes Dredge and Dock Company; Greater Maritime Port Council of 
New York/New Jersey and Vicinity; I.L.A. Local 1235; International 
Union of Operating Engineers Local 25 Marine Division; Maher Terminals; 
Manhattan Chamber of Commerce; Maritime Association of the Port of NY/
NJ; Marine Engineers Beneficial Association; Maritime Trades Department 
AFL-CIO; Matrix Development Group; Nation'sPort; NJ Sandy Hook Pilots 
Association; New Jersey Alliance for Action; New Jersey State AFL-CIO; 
New York Sandy Hook Pilots; New York Shipping Association; New York-New 
Jersey Port Promotion Association; Newark Regional Business 
Partnership; Norfolk Dredging Company; Norfolk Southern Corporation; 
Seafarers International Union; Weeks Marine Inc.
    This subcommittee has consistently supported the Nation's 
navigation system, including the Port of New York and New Jersey. We 
thank you for your continued support. Now more than ever, we are in 
need of your assistance as we near the end of the construction of the 
New York and New Jersey Harbor Deepening Project (HDP), but face a $33 
million reduction from last year's funding level. The HDP has received 
strong financial support since 2004, which has enabled the Federal 
Government and us to improve the infrastructure required to handle 
cargo growth in our region and the Nation. In order to keep this top 
priority project on schedule, we respectfully ask that the President's 
request for the NY & NJ Harbor Deepening Project be augmented to 
$80,000,000, which is less than the level that was appropriated this 
fiscal year. We also respectfully request added funds totaling 
$5,000,000 to construct the vital Liberty State Park wetlands 
restoration project, $1,500,000 to move forward on other essential 
Hudson-Raritan Estuary (HRE) restoration projects, and $50,838,000 to 
address critically important operations and maintenance needs.
    We understand the fiscal constraints facing the subcommittee and 
the Nation, but would like to emphasize that the Federal investment in 
the Port has yielded great returns. New York and New Jersey marine 
terminals handled over 4 million TEU's in 2009. This freight moved 
throughout the region and to most States in the continental United 
States accounting for approximately 13 percent of the Nation's 
containerized imports and exports and 22 percent of the Nation's import 
of refined petroleum products such as heating oil. The Port supports 
more than 269,000 on and off-terminal jobs locally and nation-wide, and 
the NY/NJ port industry contributed $5.8 billion in local, State and 
Federal tax revenues. The Port continues to serve as a critical 
economic engine in these trying times of an economic downturn.
    The Port and its partners are mindful of the need to balance 
commerce with protection of the environment. The Port Authority has 
dedicated funds to expand its rail capacity in New York and New Jersey 
in order to reduce truck congestion and associated air emissions. The 
funds also financed the acquisition of environmentally sensitive land 
for preservation and studies to identify and prevent sources of 
contamination from entering the harbor estuary. The Port Authority has 
also spent over $20 million for emission-offset programs associated 
with the HDP. In 2010 we will have reduced 796 tons of NO<INF>X</INF> 
emissions annually in the Harbor due to these efforts; by 2013, we will 
have reduced NO<INF>X</INF> emissions by over 1,100 tons per year. 
These improvements and emissions reductions are a legacy to this 
region; their benefits continuing long after the HDP is completed. Over 
40 million cubic yards of dredged material will be removed in 
association with the HDP. To date 100 percent of the material dredged 
has been beneficially reused within the region to improve the Historic 
Area Remediation Site, enhance artificial reefs within the coastal 
waters of New York and New Jersey, and support upland activities such 
as landfill closures and brownfield remediation projects. Additionally, 
terminal operators have voluntarily installed electric cranes, switched 
to ultra-low sulfur diesel and replaced cargo-handling equipment with 
cleaner models--a strong signal of private sector commitment toward 
greening the Port. In addition the Port Authority, together with its 
sister agencies and port partners, has developed and is implementing a 
Clean Air Strategy for the Port of New York and New Jersey. The HDP, 
including our partnership with the Corps, is the centerpiece of a 
commitment to make this important American gateway internationally 
competitive while restoring the harbor estuary and protecting our 
environment. We invite all members of the subcommittee and staff to 
visit the Port to learn more about its role in the environment and the 
U.S. transportation system. Below are our comments on the fiscal year 
2011 budget request. We respectfully request that the subcommittee 
appropriate additional funds for the specific projects as discussed 
below.

------------------------------------------------------------------------
                                         President's
            Construction              Fiscal Year 2011    Port Request
                                           Budget
------------------------------------------------------------------------
New York and New Jersey Harbor......       $57,000,000       $80,000,000
Liberty State Park..................  ................         5,000,000
                                     -----------------------------------
      TOTAL.........................        57,000,000        85,000,000
------------------------------------------------------------------------

    New York and New Jersey Harbor.--This project was authorized by 
section 101(a)(2) of WRDA 2000 (Public Law 106-541). We respectfully 
request that the President's request for the NY and NJ Harbor Deepening 
Program be augmented to $80,000,000, which while higher than the budget 
request would be 12 percent lower than the appropriated level for the 
current year. The continuing NY and NJ Harbor Deepening Project will 
improve transportation efficiency and benefit the national markets 
served by this port. In order to complete the 50-foot deepening of the 
pathways to the container-handling facilities in the Harbor by fiscal 
year 2013 and reap the full benefits of the Federal Government's 
investment, a significant number of contracts must be awarded over the 
next 2 years. Project slippage will have serious negative impacts on 
maritime commerce and the regional and national economy. The 
President's budget allows for the construction of this project to 
continue, but does jeopardize the timeline at a critical juncture. The 
project currently stands near the 50 percent completion mark. With only 
3 years remaining in the schedule, reduced funding at this time hampers 
construction efficiencies, delays the benefits of sections already 
constructed, and subjects the project to possible further delays and 
increased cost as the price of labor and construction inevitably rises 
in the next years. Any hindrance to the timely completion of this 
project risks the possible delay of the realization of first year 
economic benefits to the Nation in the range of $140 million. In 
addition, a delay in funding could mean that this nationally important 
project would not be completed by the opening of the Panama Canal's 
third set of locks. For these reasons, we urge adoption of our 
$80,000,000 funding recommendation, which is a continuation of the 
funding levels the subcommittee has approved in previous fiscal years. 
This approach is consistent with the stated goal of the administration 
of placing priority and resources on the completion of Corps projects 
already underway.
    Liberty State Park.--We also request $5,000,000 to execute the 
Project Partnership Agreement with the State of New Jersey and 
construct the critical wetlands restoration project within Liberty 
State Park. The project was authorized for construction in WRDA 2007. 
This project will both restore critical habitat within the estuary and 
also provide significant public access and education opportunities.
    Continuing Authority Program (CAP).--We request that CAP sections 
1135 and 204 are funded to fund the following ongoing projects within 
the Jamaica Bay complex: Plumb Island, NY ($500,000) and Spring Creek, 
NY ($50,000).

------------------------------------------------------------------------
                                         President's
          Surveys (Studies)           Fiscal Year 2011    Port Request
                                           Budget
------------------------------------------------------------------------
HRE, Hackensack-Meadowlands, NJ.....          $200,000          $250,000
HRE, Lower Passaic River, NJ........           200,000           250,000
HRE New York & New Jersey...........           200,000         1,000,000
                                     -----------------------------------
      TOTAL.........................           600,000         1,500,000
------------------------------------------------------------------------

    HRE-Hackensack Meadowlands.--We respectfully request an increase in 
funding of an additional $50,000 for a total of $250,000 to continue 
design work. The area's wildlife habitat preserves are threatened by 
dwindling open marshes. In April 2003, the Corps executed the FCSA with 
the NJ Meadowlands Commission, and initiated the feasibility study.
    HRE-Lower Passaic.--An increase in funding by $50,000 for a total 
of $250,000 is needed for the HRE-Lower Passaic River to complete a 
Draft Comprehensive Restoration Plan for the entire lower 17-mile 
watershed. The plan is critical component of the integrated Remedial 
Investigation/Feasibility Study underway with EPA as a pilot project of 
the joint Corps-EPA Urban Rivers Restoration Initiative. Many changes 
have occurred over the last year and it is important that the positive 
momentum gained not be lost on this critical project.
    HRE (overall), NY and NJ.--There is a critical need to increase 
funding to $1,000,000 to allow the Corps to complete the Comprehensive 
Restoration Plan (CRP) that will outline the unified vision of a 
restored estuary based on specific science based and stakeholder 
endorsed ecosystem targets. It will also continue the feasibility study 
and programmatic Environmental Impact Statement, which is needed to 
implement the CRP. This study, as well as the Hackensack Meadowlands 
and Lower Passaic River studies, were authorized by House Resolution 
dated April 25, 1999 and are critical components to achieving the 
common stakeholder vision of a World Class Harbor estuary that 
recognizes ecological restoration as being of equal importance with 
economic development. This project directly aligns with other 
administration initiatives and focus for the Corps in fiscal year 2011.

------------------------------------------------------------------------
                                         President's
      Operation and Maintenance       Fiscal Year 2011    Port Request
                                           Budget
------------------------------------------------------------------------
Newark Bay, Hackensack and Passaic            $100,000       $10,200,000
 Rivers, NJ.........................
Project Condition Surveys, NJ.......         1,506,000         1,953,000
Raritan River to Arthur Kill Cut-              100,000         1,450,000
 off, NJ............................
Raritan River, NJ...................            80,000           120,000
Buttermilk Channel, NY..............         8,600,000        10,000,000
East River, NY......................         2,800,000         3,350,000
East Rockaway Inlet, NY.............           200,000         1,750,000
Eastchester Creek, NY...............           150,000           150,000
Flushing Bay and Creek, NY..........           100,000           100,000
Hudson River Channel, NY............           100,000           200,000
Jamaica Bay, NY.....................           120,000           120,000
New York and New Jersey Channels, NY         6,150,000         6,150,000
New York Harbor, NY.................         3,796,000         3,998,000
Portchester Harbor, NY..............            60,000            60,000
Project Condition Surveys, NY.......         1,928,000         2,092,000
Westchester Creek, NY...............           100,000           100,000
New York Harbor, NY and NJ (Drift            7,200,000         7,900,000
 Removal)...........................
New York Harbor, NY and NJ (Prevent          1,045,000         1,145,000
 Obstructive Deposits)..............
                                     -----------------------------------
      TOTAL.........................        34,135,000        50,838,000
------------------------------------------------------------------------

    Operation & Maintenance.--Maintenance projects are critical to the 
commerce, navigation and security of this National Priority port 
system, its channels and the Nation. Billions of public and private 
dollars are continuing to be spent to deepen the Port's channels and 
improve landside infrastructure. The considerable investment in 
deepening the network of channels is devalued if the system is not 
adequately maintained, especially in one of the most highly utilized 
ports in the country. Additionally, the risk of groundings will 
increase. The new budget continues the unfortunate pattern of past 
budgets that enable only partial channel maintenance, leaving 
significant areas and in some cases whole shipping lanes at inefficient 
and potentially unsafe depths. The Port is the Nation's busiest 
petroleum port, and the Arthur Kill (under NY and NJ Channels) is 
critical to that trade, which serves the greater NY/NJ Metropolitan 
area and much of the Northeast. Channel maintenance in this National 
Strategic Port is needed to support the industry and military. 
Maintenance also protects and perpetuates the Federal infrastructure 
investment. We identified several critical projects with pressing 
channel safety concerns and it is important to state for the record 
that this part of the fiscal year 2011 budget is insufficient to meet 
the practical needs of commerce. The irony is that the budget proposes 
using only around 50 percent of the estimated Harbor Maintenance Trust 
Fund receipts for the fiscal year. As such the Harbor Maintenance Trust 
Fund is fully capable of covering the full cost of dredging in our port 
and a good many others. To provide additional perspective, a January 
2010 report from the Congressional Research Service (7-5700) notes that 
the NY/NJ port is a ``large net generator'' of Harbor Maintenance Tax 
revenue. It also illustrates how the NY/NJ port is one of most 
efficient ports when measured in HMTF maintenance expenditures per ton 
of cargo. We respectfully request the budget be increased as shown in 
the above list.
    Conclusion.--The Port of New York and New Jersey continues to be a 
major international gateway for the Nation and a significant producer 
of Harbor Maintenance Tax revenue to support the Nation's port system. 
Furthermore we would be remiss if we did not highlight the importance 
of continuing contracts as a valuable tool in managing the complexities 
of channel deepening and maintenance. National projects, like the NY 
and NJ Harbor Deepening Project, are better served with 2-year 
continuing contracts supported by a 5 and 10 year Corps priority 
project schedule. The Corps' Civil Works Program, coupled with public 
and private sector investments, has served the Nation's economic and 
security interests well for the better part of two centuries. We are 
proud of our part in that history. We commit to continuing our 
productive partnership with the Federal Government and to ensuring that 
continued development and use of the Port and its supporting 
infrastructure is balanced between commerce and the environment.
                                 ______
                                 
          Prepared Statement of the City of Maricopa (Arizona)

    Chairman Dorgan, Ranking Member Bennett, and distinguished members 
of the subcommittee, thank you for allowing me to testify in support of 
$150,000 for the city of Maricopa, Arizona for a Flood Plain Management 
Services (FPMS) study under General Investigations for the Army Corps 
of Engineers in the fiscal year 2011 Energy and Water Development bill.
    Maricopa is a small but thriving community 35 miles south of 
Phoenix. Incorporated in 2003 with a population of approximately 1,000 
people, Maricopa is now a burgeoning community of more than 40,000 and 
growing at the rate of approximately 200 people per month. Maricopa is 
located in Pinal County, which is one of the fastest growing regions in 
one of the fastest growing States in the Nation. With this newfound 
growth has brought increased risk of death and the loss of public and 
private property due to flooding of the Santa Cruz River that splits 
the city. Mitigating this potential flood hazard is critical to this 
area's growth and prosperity. A major flood today would devastate 
homes, businesses, schools, infrastructure and more. It is only a 
matter of time before another devastating flood hits this area. Flood 
control improvements are urgent and necessary to protect the public 
health and safety.
    The Santa Cruz River Basin consists of 8,200 square miles in 
southern Arizona and 400 square miles in Sonora, Mexico. The Basin has 
a long history of damaging floods. Damages included a broad range of 
categories, including agricultural, commercial and residential 
structures, utility lines, and transportation facilities. These 
flooding problems have been studied repeatedly by Federal, State, and 
local agencies, but no comprehensive solution has been implemented due 
to a lack of economic viability.
    The Bureau of Reclamation had previously carried out appraisal 
investigations of the Santa Cruz River in 1965 when the city and areas 
within the basin were largely agricultural. It became apparent at that 
time that the municipal and industrial water-supply needs of the Santa 
Cruz River Basin were of far greater magnitude and urgency than had 
been previously estimated.
    In 1976, Congress, under the authority of the Flood Control Act of 
1938 funded a Corps of Engineers/Bureau of Reclamation study of the 
Lower Santa Cruz River from the Red Rock area to the river's confluence 
with the Gila River. The Corps was tasked with evaluating the flood 
control problems, and the Bureau of Reclamation was tasked with 
evaluating the development potential of water resources. The results of 
this study, released in August 1983 found no economically justified 
solution. Benefits to cost ratios (BCR) ranged from 0.3 to 0.7 for 
three different alternatives for diversion of floodwaters from the 
Greene's Canal area to the Tat Momolikot Dam reservoir. In October 
1983, a flood along the Santa Cruz River caused over $45 million (1994 
dollars) in damages, including extensive damage to many of the channel 
and dike improvements constructed by the agricultural flood control 
districts in the area. A similar devastating flood occurred in 1993. At 
this time, the city of Maricopa had very little residential or 
commercial infrastructure and less than 1,000 residents.
    After the floods, the Corps reevaluated the alternatives in their 
study and were able to develop a BCR of 1.03. Since the 1983 and 1993 
floods, construction of the Central Arizona Project lateral canals, and 
associated irrigation infrastructure, have added additional potential 
damages from future events due to changes in the hydraulic 
characteristics of the flood prone areas. In addition, extreme land 
subsidence is extensive over portions of the Santa Cruz River Basin.
    In June 1989, Pinal County requested a flood control study of the 
Lower Santa Cruz River from the Corps of Engineers. The Corps released 
the Lower Santa Cruz River Feasibility Analysis Summary Report in 
September 1994. This report developed several alternative plans and 
found that the best alternative was still diversion to the Tat 
Momolikot Dam with a BCR of 1.05. The 1994 report concluded that 
additional engineering work was needed due to geotechnical issues in 
the area and also the altered hydraulic characteristics of the area due 
to the Central Arizona Project and irrigation district infrastructure. 
The study was terminated without a recommendation.
    With the recent influx of residential growth into Maricopa and most 
of Pinal County since 2001, the flood prone areas of the Lower Santa 
Cruz River had become candidates for development. Several large master 
planned residential projects have been proposed along the Lower Santa 
Cruz River from the Red Rock area to the city of Maricopa, which has, 
at this point, the largest and most expansive development. These 
projects have been planned in Maricopa, Casa Grande, and many other 
flood prone locations in Pinal County's Santa Cruz River Basin. The 
loss of life and property has increased exponentially since the Corps 
conducted its initial studies. The time to act is now.
    Maricopa is one of the fastest growing communities in Arizona. By 
2020, it is estimated to have nearly 200,000 residents. Similarly, 
other cities, such as Eloy and Casa Grande are expected to see similar 
growth of their communities. Larger communities will translate into 
larger damages and loss of life in the event of a catastrophic flood 
event. An FPMS study would help us begin to address this problem before 
its too late.
    It is important to note that a large stakeholder group is being 
formed to work on a collaborative solution for this growing problem. 
Stakeholders include the city of Maricopa, the Ak-Chin Indian 
Community, the Gila River Indian Community, Pinal County, numerous 
irrigation and flood control districts, and the University of Arizona. 
Realizing the importance of this endeavor, the city of Maricopa has 
committed $9 million over the next 3 years to begin this important 
project.
    Therefore, I respectfully request that the subcommittee includes 
$150,000 for the city of Maricopa, Arizona for a Flood Plain Management 
Services (FPMS) study under General Investigations for the Army Corps 
of Engineers in the fiscal year 2011 Energy and Water Development bill.
    Thank you for the opportunity to testify, as well as your time and 
attention to this important matter.
                                 ______
                                 
   Prepared Statement of the Association of State Floodplain Managers

    The Association of State Floodplain Managers (ASFPM) is submitting 
comments on three items in the budget request: under Investigations--
Planning Assistance to States and Flood Plain Management Services and 
under Operation and Maintenance--National (Levee) Flood Inventory.
    ASFPM and its 29 Chapters represent over 14,000 State and local 
officials and other professionals who are engaged in all aspects of 
managing and mitigating flood risk to address the loss of life and 
property from natural hazards. These aspects include land management, 
hazard mitigation, mapping, engineering, planning, building codes and 
permits, community development, hydrology, forecasting, emergency 
response, water resources and insurance. Most of our members work with 
the Nation's 21,000 flood prone communities to reduce losses from all 
flood related hazards.
    ASFPM strongly believes that the USACE can contribute significantly 
to better informed flood hazard reduction decisions in our Nation's 
communities through providing technical advice and assistance. As the 
Corps moves toward helping States and local governments with a 
comprehensive approach to flood risk management, the Flood Plain 
Management Services (FPMS) and Planning Assistance to States (PAS) 
programs are essential. For many years, these valuable programs have 
been funded at about one-half of their authorized levels. The budget 
request for fiscal year 2011 would continue that level of funding. The 
request for FPMS is $8 million. The request for PAS is $7 million. 
ASFPM recommends funding both programs at a significantly higher level 
and at their fully authorized amounts if possible.
    We support the budget request of $15 million for the National 
(Levee) Flood Inventory. We urge that the inventory proceed 
expeditiously and that it include not only Corps built, owned and 
maintained levees, but all levees. Information on the number and 
location of levees in the Nation and a general assessment of their 
condition is critical as the Congress and Federal Government move to 
develop a national levee safety program. Because of its importance to 
addressing the hazards to public safety and property associated with 
levee failure or overtopping, it is important that the levee inventory 
proceed with deliberate speed.
    The Association of State Floodplain Managers appreciates this 
opportunity to share our views on these important Army Corps programs.
                                 ______
                                 
          Prepared Statement of the Stockton Port District, CA

    The Port of Stockton (``Port'') appreciates the opportunity to 
submit this testimony for the record in support of the fiscal year 2011 
appropriations for the U.S. Army Corps of Engineers Civil Works 
Operations and Maintenance and Construction General Programs. The 
funding amounts are detailed in the paragraphs below.
    Stockton has an unemployment rate of 21.9 percent (Source: CA 
Economic Development Dept., Jan. 2010). San Joaquin County has an 
unemployment rate of 18.4 percent. With the highest home foreclosure 
rate in the Nation, this region continues to suffer the hardest impacts 
of the national and global economic recession.
    The Port of Stockton is widely viewed as one of the primary 
economic engines for the recovery of this distressed region. The 
positive economic outlook for the Port includes introduction of new 
container facilities at the Port in year 2011, thanks to the DOT TIGER 
grant for marine highways. Significant developments are also expected 
for Rough and Ready Island. The Port has been, and will continue, to 
focus on jobs creation at a family wage level for this region.
    The Port of Stockton's recovery, and the regional recovery, is 
dependent on adequate funding of the four projects shown below in the 
Army Corps of Engineers civil works budget.
    The San Joaquin River--Stockton Channel is our highest priority 
appropriations request in the Corps O&M budget. Federal 
responsibilities include annual maintenance dredging of the Federal 
channel and maintaining existing riverbank protection. This project is 
consistently under funded so that the authorized 35-foot ship channel 
has been blocked at depths of 32-33 foot feet. These blockages, often 
last 6 months or more, have denied a stable 35-foot ship channel for 
much of the past 5 years. Past O&M appropriations have been primarily 
in the $2.6 million to $3.1 million range, insufficient for the State's 
largest inland port and fourth busiest California port.
    An amount of $9.8 million is requested for the San Joaquin River--
Stockton Channel project in fiscal year 2011 to adequately maintain the 
ship channel at a safe year round Federal depth and satisfy additional 
State water quality requirements for environmental sampling, testing, 
and disposal of maintenance dredged material.
    The San Francisco Bay to Stockton (John F. Baldwin and Stockton 
Channels) is our second highest priority request in the Corps 
Construction General budget. This $141 million project would deepen the 
Stockton ship channel to 40-feet. The State Transportation Commission 
has designated this project for a $17.5 million construction grant; 
construction must begin in year 2012. Last year, our appropriations 
request for $2 million was zeroed out of the fiscal year 2010 budget 
for reasons unknown to us. With a zero appropriation for the project, 
the Port must recapture the schedule, including possible reprogramming 
of funds.
    Two million dollars in Construction General funding is requested 
for the San Francisco Bay to Stockton project in fiscal year 2011. We 
have recently added strong cost sharing partners with the Western 
States Petroleum Association, along with our long time partner, Contra 
Costa County.
    The Rough and Ready Island Storm Water Drainage Project is our 
third priority request in the Corps Construction General budget. The 
current storm water system on Rough and Ready Island is obsolete and 
must be replaced. The EPA is demanding a replacement. Based on WRDA 
2007, Public Law 110-114, section 5158, $3 million is authorized for 
this storm water system, which includes drainage detention and lift 
facility. The project will also minimize environmental problems, 
increase flood protection and create more usable land for economic 
growth.
    An amount of $925,000 is requested in the Corps fiscal year 2011 
Construction General budget for the Rough and Ready Island, Storm Water 
Drainage Project. This project is authorized in accordance with Public 
Law 102-580, 1992, section 219 Environmental Infrastructure and 
subsequent Water Resources Development Acts.
    The Pinole Shoal, CA Management Study (Delta Long Term Management 
Strategy) is an ongoing study that we support with Contra Costa County 
and many regulatory resources agencies. Authorized in Public Law 108-
447, page 905 of Conference Report (Consolidated Appropriations Act,) 
this study has been funded since fiscal year 2005. Funding would be 
used to develop and approve a joint agency permit and general regional 
water quality control board order for dredging and beneficial reuse of 
dredged material; implement a Delta Dredging and Reuse Management Team 
with a MOU, charter, and operating principles; develop regional 
disposal and reuse of dredged sediment alternatives; initiate a 
programmatic biological assessment, and conduct a pilot project. Fiscal 
year 2011 Federal funds would be used as follows: salaries $300,000, 
A&E and professional service contracts $2,200,000.
    An amount of $2.5 million is requested in the Corps fiscal year 
2011 O&M budget for the Pinole Shoal, CA Management Study.
    Thank you for your consideration.
                                 ______
                                 
         Prepared Statement of the Red River Valley Association

    Mr. Chairman and members of the subcommittee, I am Wayne Dowd, 
President, and pleased to represent the Red River Valley Association, 
629 Spring St., Shreveport, Louisiana. Our organization was founded in 
1925 with the express purpose of uniting the citizens of Arkansas, 
Louisiana, Oklahoma and Texas to develop the land and water resources 
of the Red River Basin.
    The resolutions contained herein were adopted by the Association 
during its 85th Annual Meeting in Shreveport, Louisiana, on February 
18, 2010 and represent the combined concerns of the citizens of the Red 
River Basin area as they pertain to the goals of the Association. A 
summary of the civil works projects and requested funding is included 
in this testimony.
    The President's fiscal year 2011 budget included $4.9 billion for 
the civil works programs. This is a drastic 10 percent cut from what 
Congress appropriated in fiscal year 2010. The administration fails to 
recognize the Corps' critical role as stewards of our Nation's water 
resources, and the vital importance of our water resources 
infrastructure to our economic and environmental well-being. The 
problem is also how the administration distributes funds. A few 
projects received the full ``Corps Capability'' to the detriment of 
many projects that receive no funding. The $4.9 billion level does not 
come close to the real needs of our Nation. A more realistic funding 
level to meet the existing needs of the civil works program is $6 
billion for fiscal year 2011. The traditional civil works programs 
remain at the low, unacceptable level as in past years. These projects 
are the backbone to our Nation's infrastructure for waterways, flood 
prevention, water supply, recreation and ecosystem restoration. We 
remind you that civil works projects are a true ``jobs program'' in 
that up to 85 percent of project funding is contracted to the private 
sector; 100 percent of the construction, as well as much of the 
architect and engineering work. Not only do these projects provide 
jobs, but provide economic development opportunities for our 
communities to grow and prosper, creating permanent jobs.
    Congress did appropriate funding for the civil works program 
through the American Recovery and Reinvestment Act of 2009. The 
majority of those funds went toward backlog maintenance (O&M) at 
completed Corps projects, no construction funds were received in the 
Red River Valley. Many critical maintenance items were addressed; 
however, that should not be a reason to reduce the Corps' fiscal year 
2011 budget. We have the opportunity to truly reduce our maintenance 
backlog, but a reduced Corps budget will allow those issues to increase 
and hinder our ability to catch up.
    We want to point out that we appreciate the funding Congress 
enacted in fiscal year 2010 and that an appropriation bill was enacted 
in November 2009. We encourage Congress to increase the ``water'' share 
of the total Energy and Water bill closer to the $6 billion Corps 
capability.
    We have a serious issue for the J. Bennett Johnston Waterway O&M in 
the President's budget. The administration allocated $7,745,000 for 
fiscal year 2011, $3,733,000 less than appropriated in fiscal year 2010 
($11,478,000)! This drastic reduction will directly impact the ability 
to conduct maintenance dredging and the authorized 9 foot channel will 
not be maintained. It is difficult to understand why the administration 
would fund the O&M at the $11 million range for 5 years and suddenly 
make a drastic reduction that will have such a negative impact on a 
Waterway that has yearly increased its tonnage. If the required funding 
level of at least $11 million is not appropriated the Waterway may 
actually shut down to all traffic and industry will see the Waterway as 
unreliable and choose alternative modes of transportation, impacting 
ports and jobs.
    A national issue that must be addressed is levee certification. 
FEMA has mandated that all levee systems go through a certification 
process. If a levee district does not meet their designated deadline 
their levee will be taken off the flood plain maps. This will greatly 
increase the current flood insurance paid by landowners and discourage 
economic development. The requirements of the engineering analysis for 
levee certification are cost prohibitive by most all districts. 
Considering that many of these levees were constructed over 80 years 
ago construction criteria then do not meet current methods and 
procedures. Additionally, levees have deteriorated and weathered over 
time. Levee districts can not be expected to absorb the expense to 
upgrade their levees to meet current criteria. There must be a national 
program to address this issue. It is too large an expense to be 
absorbed in the civil works underfunded budget. We recommend Congress 
address this issue and develop a program that would be funded through 
FEMA and executed by the Corps of Engineers and cost shared with levee 
districts.
    We have great concerns over the issue of ``earmarks''. Civil Works 
projects are not earmarks. Civil Works projects go through a process; 
reconnaissance study, feasibility study, benefit to cost ratio test, 
EIS, peer review, review by agencies, public review and comment, final 
Chief of Engineer approval, authorization by all of Congress in a WRDA 
bill and signed by the President. WRDA 2007 added an independent review 
of major projects. No other Federal program goes through such a 
rigorous approval process. Each justified project ``stands alone'', are 
proven to be of national interest and should be funded by project. For 
most projects there is local sponsor cost sharing during the 
feasibility study, construction and for O&M. Those who have 
contributed, in most cases--millions of dollars--to the process, must 
have the ability to have a say for their projects to get funded. That 
voice is through their Congressional delegation. We believe that 
earmarks are not in the national interest, but it does not pertain to 
the civil works program. For civil works it is an issue of priority of 
projects to be funded and who will determine that, OMB or Congress. We 
hope Congress keeps their responsibility to set civil works priorities 
and to determine how its citizen's tax dollars are spent.
    The Inland Waterways Trust Fund (IWTF) is inadequately funded by 
the existing fuel tax rate. There is no doubt that something must be 
done to increase the revenue in the fund. The needs of the IWTF should 
be analyzed and determine what increase to the existing fuel tax would 
maintain the necessary income flow to keep projects funded from the 
Inland Waterway Trust Fund. The final proposal must be fair to 
tributary waterways and be applied equally to all industries using the 
waterways.
    I would now like to comment on some of our specific requests for 
the future economic well being of the citizens residing in the four 
State Red River Basin regions.
    Navigation.--The J. Bennett Johnston Waterway is living up to the 
expectations of the benefits projected. We are extremely proud of our 
public ports, municipalities and State agencies that have created this 
success. This upward ``trend'' in usage will continue as new industries 
commence operations. A major power company, CLECO, has invested $1 
billion in its Rodemacher Plant near Boyce, Louisiana, on the lower Red 
River and has started moving over 3 million tons of ``petroleum coke'' 
and limestone, by barge. This project is a reality and there are many 
more industries considering using our Waterway and locating at the 
ports.
    You are reminded that the Waterway is not complete, 12 percent 
remains to be constructed, $246 million. We appreciate Congress' 
appropriation level in fiscal year 2010 of $6,613,000. There is a 
capability for $20 million of work, but we realistically request $12 
million to keep the project moving toward completion, ``J. Bennett 
Johnston Waterway (CG)''.
    Now that the J. Bennett Johnston Waterway is reliable year round we 
must address efficiency. Presently a 9-foot draft is authorized for the 
J. Bennett Johnston Waterway. All waterways below Cairo, Illinois are 
authorized at 12-feet, to include the Mississippi River, Atchafalaya 
River, Arkansas River and Gulf Intracoastal Waterway. A 12-foot channel 
would allow an additional one-third capacity, per barge, which will 
greatly increase the efficiency of our Waterway and further reduce 
transportation rates. This one action would have the greatest, positive 
impact to reduce rates and increase competition, bringing more 
industries to use waterborne transportation. We request a 1-year 
reconnaissance study be funded to evaluate this proposal, at a cost of 
$100,000. Fact: Approximately 95 percent is already at 12-feet year 
round.
    The feasibility study to continue navigation from Shreveport-
Bossier City, Louisiana, into the State of Arkansas will be completed 
in CY 2012. This region of SW Arkansas and NE Texas continues to suffer 
major unemployment and this navigation project, although not the total 
solution, it will help revitalize the economy. Due to the time lapsed 
in the study the ``freight rates'' calculated a number of years ago 
they must be re-evaluated this year. We request funding of $50,000 to 
conduct the re-evaluation of freight rates, ``Navigation into SW 
Arkansas Study''.
    Flood Prevention.--What will happen when we ignore our levee 
systems? We know the Red River levees in Arkansas do not meet Federal 
standards, which is why we have the authorized project, ``Red River 
Below Denison Dam, TX, AR & LA''. Now is the time to bring these levees 
up to standards, before a major flood event.
    We continue to consider flood control a major objective and request 
you continue funding the levee rehabilitation projects ongoing in 
Arkansas. Five of 11 levee sections have been completed and brought to 
Federal standards. The Red River Levee District (AR) is prepared to 
provide lands, easements and rights of way for the next major 
rehabilitation of the Lafayette County levees.
    The levees in Louisiana have been incorporated into the Federal 
system; however, they do not meet current safety standards. These 
levees do not have a gravel surface roadway, threatening their 
integrity during times of flooding. It is essential for personnel to 
traverse the levees during a flood to inspect them for problems. 
Without the gravel surface the vehicles will cause rutting, which can 
create conditions for the levees to fail. A gravel surface will insure 
inspection personnel can check the levees during the saturated 
conditions of a flood.
    Appropriations of $12 million will construct one more levee section 
in Lafayette County, Arkansas and continue the rock surfacing of levees 
in Louisiana, ``Red River Below Denison Dam, AR & LA''.
    Bank Stabilization.--One of the most important, continuing 
programs, on the Red River is bank stabilization in Arkansas and North 
Louisiana. We must stop the loss of valuable farmland that erodes down 
the river and interferes with the navigation channel. In addition to 
the loss of farmland is the threat to public utilities such as roads, 
electric power lines and bridges; as well as increased dredging cost in 
the navigable waterway in Louisiana. These bank stabilization projects 
are compatible with subsequent navigation into Arkansas and we urge 
that they be continued in those locations designated by the Corps of 
Engineers to be the areas of highest priority. We appreciated the 
congressional funding in past fiscal years and request you fund this 
project at a level of $11.3 million in fiscal year 2011, ``Red River 
Emergency Bank Protection''.
    Water Quality.--The Assistant Secretary of the Army (Civil Works), 
in October 1998, agreed to support a re-evaluation of the Wichita River 
Basin tributary of the project. The re-evaluation report was completed 
and the Director of Civil Works signed the Environmental Record of 
Decision. The plan was found to be economically justified. Then the ASA 
(CW) directed that construction would not proceed until a local sponsor 
was found to assume 100 percent of the O&M for the project. The 2007 
WRDA bill included language that clarified that all aspects of this 
project will be at full Federal expense, to include O&M.
    Over the past years there has been a renewed interest by the 
Lugart-Altus Irrigation District to evaluate construction of Area VI, 
of the Chloride Control Project, in Oklahoma. They have obtained the 
support of many State and Federal legislators, as well as the Oklahoma 
Governor in support of a re-evaluation report.
    Total request for the ``Chloride Control Project'': $8,300,000 for 
the Texas and Oklahoma areas.
    Studies.--We have a number of General Investigation (GI) studies 
that have been funded and have local sponsors prepared to cost share 
feasibility studies. Some of those important studies include: Bossier 
Parish Flood Control Study, LA--$250,000; Cross Lake Water Supply 
Study, LA--$100,000; SE Oklahoma Water Resource Study, OK--$500,000; SW 
Arkansas Study, AR--$50,000; Washita River Basin, OK--$500,000 and 
Wichita River Basin, TX--$100,000. These studies are important to have 
projects ready for future construction.
    Operation & Maintenance.--Full O&M capability levels are not only 
important for our Waterway project but for all our Corps projects and 
flood control lakes. The backlog of critical maintenance only becomes 
worse and more expensive with time. We request that the Corps O&M 
projects be funded at the expressed, full Corps capability.
    Thank you for the opportunity to present this testimony and project 
details of the Red River Valley Association on behalf of the 
industries, organizations, municipalities and citizens we represent 
throughout the four State Red River Valley region. The Civil Works 
program directly relates to national security by investing in economic 
infrastructure. If waterways are closed companies will not relocate to 
other parts of the country--they will move over seas. If we do not 
invest now there will be a negative impact on our ability to compete in 
the world market threatening our national security.
    Grant Disclosure.--The Red River Valley Association has not 
received any Federal grant, sub-grant or contract during the current 
fiscal year or either of the two previous fiscal years.

                    RED RIVER VALLEY ASSOCIATION FISCAL YEAR 2011 APPROPRIATIONS CIVIL WORKS
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                          RRVA Fiscal   President
                                             Fiscal Year   Year 2011   Fiscal Year   Local Sponsor  Requirements
                                             2010 Approp    Request    2011 Budget
----------------------------------------------------------------------------------------------------------------
                Studies (GI)

Navigation into SW Arkansas: Feasibility...  ...........          $50  ...........  (ARRC)
Red River Waterway, LA--12 foot Channel,     ...........          100  ...........  (RRWC)
 Recon.
Bossier Parish, LA.........................         $278          250  ...........  (Bossier Levee)
Cross Lake, LA Water Supply Supplement.....           90           50  ...........  (Shreveport)
SE Oklahoma Water Resource Study:                    233          500  ...........  (OWRB)
 Feasibility.
SW Arkansas Ecosystem Restoration: Recon             170           47  ...........  (ANRC/AR Game & Fish)
 Study.
Cypress Valley Watershed, TX...............           90          175  ...........  (NETWD)
Sulphur River Basin, TX....................  ...........        1,000  ...........  (Sulphur Auth)
Washita River Basin, OK....................          171          500  ...........  (L)
Wichita River Basin above Lake Kemp, TX:     ...........          100  ...........  (L)
 Recon.
Red River Above Denison Dam, TX & OK: Recon  ...........          100  ...........  (L)
Red River Waterway, Index, AR to Denison     ...........           44  ...........  (?)
 Dam.
Mountain Fork River Watershed, OK & AR,      ...........  ...........  ...........  (?)
 Recon.
Walnut Bayou, Little River, AR.............  ...........          100  ...........  (ANRC)
Little River County/Ogden Levee, AR, Recon.  ...........          100  ...........  (ANRC)
Red River Waterway, Index to Denison,        ...........  ...........  ...........  (?)
 Bendway Weir.

         Construction General (CG)

Red River Waterway: J. B. Johnston                 6,613       20,000       $1,500  (RRWC)
 Waterway, LA.
Chloride Control Project, TX & OK Texas-           1,332        8,300  ...........  N/A
 7,500/Oklahoma-800.
Red River Below Denison Dam; AR & LA.......        2,035       12,000  ...........  (Levee Districts)
    Bowie County Levee, TX.................  ...........  ...........  ...........  ............................
Red River Emergency Bank Protection........        1,986       11,300  ...........  (Levee Dist.)
Big Cypress Valley Watershed, TX: Section          1,450  ...........  ...........  (Jefferson)
 1135.
Palo Duro Creek, Canyon, TX: Section 205...  ...........           90  ...........  (Canyon, TX)
Millwood, Grassy Lake, AR: Section 1135....          181          100  ...........  (ANRC)
McKinney Bayou, AR, PED....................  ...........  ...........  ...........  (?)
Miller County Levee, AR, Section 1135......  ...........  ...........  ...........  (Miller Levee)

      Operation and Maintenance (O&M)

J. Bennett Johnston Waterway, LA...........       11,478       23,864        7,745  ............................
Lake Kemp, TX--Total Need..................          311          817          467
    Basic Annual O&M.......................  ...........          214  ...........  ............................
    Reallocation Study.....................  ...........          350  ...........  ............................
    Service Bridge & Gate Repair...........  ...........          253  ...........  ............................
Lake Texoma, TX & OK--Total Need...........        8,740       31,617       10,057  ............................
    Basic Annual O&M.......................  ...........        7,000  ...........  ............................
    Shoreline Management Plan..............        1,158  ...........  ...........  ............................
    Backlog Maintenance....................  ...........       24,617  ...........  ............................
Chloride Control Project, TX & OK..........        1,481        2,025        1,439  ............................
Old River Lock, LA (MR&T)..................        9,854       12,755        9,255  ............................
----------------------------------------------------------------------------------------------------------------
NOTE.--Local Sponsor Column--Sponsor indicated in ( ); (?) indicates No Sponsor identified and need one to
  continue (L) indicates Sponsor not required now but need one for feasibility; N/A--No Sponsor required.

                                 ______
                                 
  Prepared Statement of The Missouri River Association of States and 
                                 Tribes

    Dear Chairman Dorgan and Ranking Member Bennett: We are requesting 
your support for four items in the fiscal year 2011 budget for the U.S. 
Army Corps of Engineers (USACE), related to the Missouri River Basin. 
These include: (1) $78.4 million to continue implementation of the 
Missouri River Recovery Program, (2) $5.5 million to continue funding 
for the Missouri River Authorized Purposes Study, (3) $10 million to 
increase the operations and maintenance budget for the Northwestern 
Division, Omaha District, for protection of cultural and historical 
sites impacted by the operation of the Missouri River Mainstem 
Reservoir System and (4) inclusion of a provision in the fiscal year 
2011 budget to allow reimbursement of travel expenses by tribal, State 
and non-governmental members of the Missouri River Recovery 
Implementation Committee to attend its meetings. No new funds are 
required for this action as the travel reimbursement can be paid with 
funds appropriated for the Missouri River Recovery Program, if the 
prohibition against reimbursement of travel in section 5018 WRDA 2007 
is amended by a provision in the budget bill.
    The Missouri River Association of States and Tribes (MoRAST) is an 
association of representatives of the Governors of the States of 
Wyoming, Montana, North Dakota, South Dakota, Nebraska, Iowa and Kansas 
and many of the American Indian tribes in the Missouri River Basin. 
MoRAST is interested in the proper management and protection of natural 
resources, including water resources, fish and wildlife and other 
related issues of interest to the States and tribes in the basin, 
including cultural resources. The programs and operations of the USACE 
are very important to our members, especially due to the legal 
responsibilities of the States and tribes related to water and the fish 
and wildlife resources in the basin, as well as the trust 
responsibilities of the USACE to the tribes. The following paragraphs 
provide detailed information regarding the bases for our support of the 
four items referred to above for fiscal year 2011 budget of the USACE, 
as outlined below:
    Funding for Missouri River Recovery Program.--$119 million is 
needed for compliance with the Biological Opinion (BiOP). We strongly 
support the $78.4 million in the President's budget as the minimum 
necessary for current year compliance with the BiOP. The Missouri River 
Recovery Program (MRRP) was established by the USACE as a collaborative 
program to protect, recover and restore the Missouri River ecosystem 
and its native species, including the endangered pallid sturgeon, least 
tern and piping plover. This program is authorized by sections 3109, 
3176 and 5018 of the Water Resources Development Act (WRDA) 2007. 
Support for this program is critical to ensure at least enough funding 
is available for compliance with the Biological Opinion, as amended in 
2003. Compliance with the BiOP also protects economic uses as failure 
to comply with the Biological Opinion could require changes to 
reservoir operations and negatively impact other purposes.
    The USACE, various tribal, State and Federal cooperating agencies 
and the Missouri River Recovery Implementation Committee (MRRIC) that 
includes various Stakeholders, are also in the process of developing a 
collaborative study and plan known as the Missouri River Ecosystem 
Restoration Plan (MRERP) to identify and guide long term actions 
required to restore ecosystem functions, mitigate habitat losses, and 
recover native fish and wildlife on the Missouri River, while seeking 
to balance social, economic, and cultural values for future 
generations.
    In addition to recovery and mitigation projects on the Missouri 
River Mainstem, a project to provide for fish passage through a 
diversion dam on the Yellowstone River near Intake, Montana is 
especially important to the recovery of the endangered Pallid Sturgeon, 
as it will open up a large segment of free flowing river. Work on this 
important tributary project is underway with fiscal year 2010 funding 
and is being implemented through a cooperative effort of the U.S. 
Bureau of Reclamation, USACE, U.S. Fish and Wildlife Service (USFWS) 
and the State of Montana.
    In summary, funding the Missouri River Recovery Program at a 
minimum of $78.4 million for fiscal year 2011 is essential to ensure 
compliance with the Biological Opinion on the Missouri River and to 
implement the project on the Yellowstone River near Intake, Montana, 
both of which are of critical importance to the recovery of endangered 
species and the restoration of the ecosystem.
    Funding for the Missouri River Authorized Purposes Study (MRAPS).--
We strongly support appropriation of $ 5.5 million to continue funding 
for MRAPS in fiscal year 2011. Congress appropriated $4.483 million in 
fiscal year 2010. MRAPS was authorized to study the Missouri River 
Projects under the 1944 Flood Control Act (FCA) to determine whether 
changes to the purposes and existing Federal infrastructure may be 
needed. The study was authorized for a total cost of $25 million at 
full Federal expense.
    The Missouri River Basin Project (Pick-Sloan Program) envisioned a 
comprehensive system of projects and facilities in the Missouri River 
basin constructed by both the Bureau of Reclamation and the USACE. The 
plan was only partially completed and there continue to be water needs 
and related issues in the basin, many of which are different than they 
were in 1944. This study is important for many reasons. It has been 
about 65 years since the 1944 FCA was enacted and many changes have 
occurred. The Missouri River Mainstem Reservoir System continues to be 
operated in accordance with the 1944 FCA for various authorized 
purposes including flood control, water supply, water quality, 
irrigation, hydropower, navigation, recreation and fish and wildlife. 
However, while the construction of the reservoir system and other works 
have resulted in large project benefits from some of the authorized 
purposes and much less for others, it has also created substantial 
negative impacts on the economies and resources of Indian tribes and 
others, as well as large environmental losses, such as wetlands and 
habitat for a number of native species, including three that are 
threatened or endangered.
    In summary, there have been many changes in the physical, economic 
and environmental conditions that affect the Missouri River Projects 
and the basin since 1944. The USACE needs $5.5 million for the study in 
fiscal year 2011. That amount should be provided so the study can 
objectively determine whether changes are needed to the 1944 FCA in 
order to best meet the contemporary needs of the Missouri River Basin. 
Once the study is complete, Congress can decide whether the law should 
be changed or not.
    Funding to Protect Tribal Cultural Resources.--It is requested that 
Congress specifically appropriate $10 million for fiscal year 2011 as a 
line item for the Omaha District, Northwestern Division, USACE for the 
stabilization of cultural and historic sites that continue to be 
negatively impacted by the operation of the Missouri River Mainstem 
Reservoir System. Funding for the protection of cultural and historic 
sites within the Omaha District has remained at $3 million for the past 
several years. Past funding through the USACE operation and maintenance 
budget has been woefully inadequate to address the ongoing damage to 
sites from operation of the Missouri River Mainstem Reservoir System.
    The USACE has identified over 400 historic and cultural sites 
protected by Federal law that will be potentially damaged by the 
current annual operations plan and the tribal nations in the Missouri 
River Basin have identified many more sites that could be impacted. 
However, there have only been funds to mitigate damage to a few sites 
each year. The USACE has a unique trust responsibility to the 28 
Missouri River Basin tribes arising from the government-to-government 
relationship between the tribes and the United States Government, as 
well as an obligation under section 106 of the National Historic 
Preservation Act, applicable Executive orders, and other Federal laws, 
which require the USACE to either halt any Federal undertaking that 
will damage or destroy sites protected, or to mitigate the potential 
damage.
    Funding for Travel and Participation in MRRIC and MRRP 
Activities.--We support inclusion of a provision in the fiscal year 
2011 budget bill to remove the prohibition on Federal reimbursement of 
travel expenses for non-Federal members of the Missouri River Recovery 
Implementation Committee (MRRIC) to attend its meetings. No new funds 
are required for this action as it can be funded through the Missouri 
River Recovery Program (MRRP), but this action is needed to improve the 
functionality and chances for success of MRRIC.
    Section 5018 of WRDA 2007 authorized the creation of MRRIC, but 
prohibited Federal reimbursement of travel expenses for non-Federal 
members of the committee. The same section of WRDA 2007 also authorized 
the development of a Missouri River Ecosystem Restoration Plan (MRERP), 
which is a part of the MRRP. The failure to reimburse travel expenses 
is a hardship for some MRRIC members. It also hinders participation and 
prevents balanced representation by tribal, State and non-governmental 
members on the committee. Lack of travel reimbursement also makes 
participation difficult by States and tribes difficult as cooperating 
agencies for the MRERP study, especially during these trying economic 
times and budget shortfalls for States, tribes and others.
    The USACE has a unique trust responsibility to the 28 Missouri 
River Basin tribes and their participation in both MRRIC and MRERP 
activities is vital to the success of efforts to restore the ecosystem 
of the Missouri River consistent with the social, cultural and economic 
needs in the Basin. The failure to fund travel for the tribes to attend 
these meetings will not save money and may result in delay or the need 
for more extensive government-to-government consultations if the tribes 
are not able to participate adequately during the course of efforts by 
MRRIC to make recommendations to the USACE regarding recovery programs 
and the development MRERP.
    We recognize that section 5018 could also be amended by the next 
WRDA bill to remove the prohibition on travel reimbursement for 
attendance at MRRIC meetings. However, that may take more time, while 
the need to fund travel reimbursement should begin as soon as possible 
so that all members can participate, receive the background materials, 
develop relationships and provide meaningful recommendations to the 
USACE and other agencies regarding Missouri River Recovery programs as 
may be appropriate through the MRRIC process.
    In summary, we believe each of these programs is essential to the 
success of efforts to properly manage and protect the natural resources 
of the Missouri River Basin, satisfy the USACE trust responsibilities 
to the Indian nations in the basin and operate its projects in 
accordance with applicable Federal law. We would appreciate your help 
in providing adequate funding for these important programs and 
projects. Please let David Pope, MoRAST executive director, or me know 
if you have questions.
                                 ______
                                 
 Prepared Statement of the Louisiana Department of Transportation and 
                              Development

    On behalf of LADOTD, Office of Public Works and Intermodal 
Transportation, we present recommendations for fiscal year 2011 
appropriations for U.S. Army Corps of Engineers Civil Works Projects in 
Louisiana.
    Louisiana contains the terminus of the Mississippi River, third 
largest drainage basin in the world, draining 41 percent, or 1\1/4\ 
million square miles, of the contiguous United States and parts of two 
Canadian provinces. Consequently, a comprehensive and extensive flood 
control system is required to ensure that these drainage flows are 
contained and safely passed to the gulf. Almost 3,000 miles of levees 
(1,500 in the MR&T system) constructed jointly by Federal, State and 
local entities allow Louisiana to be habitable year-round. Concentrated 
behind these levees are the vast majority of Louisiana's urban centers 
and petro-chemical complexes. Nearly 75 percent of the population lives 
and works in those same areas. Approximately 60 percent of the State's 
agricultural products are produced in these protected areas. Louisiana 
has the second largest refining capacity in the Nation, producing 15 
billion gallons of gasoline annually at 19 refineries. Louisiana ranks 
second in produced natural gas and third for oil production. The 
pipeline system which supplies much of this Nation with natural gas and 
refined petroleum products originates in Louisiana. It is important to 
note that the petrochemical, oil and gas industries in Louisiana that 
contribute significantly to the economic well being of the entire 
Nation are almost totally dependent on this Federal constructed flood 
control system to protect their facilities.
    It is equally important to note that this same river drainage 
system forms the backbone of the Federal constructed Inland Waterway 
System which provides the Nation's heartland cost effective access to 
the global marketplace via the 230 mile deepwater channel of the lower 
Mississippi River from Baton Rouge to the gulf. This strategic gateway 
to international markets is the largest port complex in the world. The 
Inland Waterway System--the whole system--allowed industrial facilities 
scattered throughout the central portion of the Nation to obtain raw 
materials and fuel from distant locations and to reach worldwide 
markets. These industries, and most of the agricultural industries in 
mid-America, are heavily dependent on the Federal maintained navigable 
waterways to remain globally competitive in transporting their 
products. Unfortunately, the administration's budget proposals in 
recent years indicate a lack of concern for the preservation and 
efficient operation of this system which is rapidly deteriorating due 
to lack of maintenance and is in desperate need of renovation and 
modernization.
    The Mississippi River and Tributaries Project (MR&T), which 
encompass both flood control and navigation features, has been underway 
since 1928 and isn't scheduled for completion until beyond 2031. We 
strongly support the Mississippi Valley Flood Control Association's 
request for the MR&T Project and urge your support of this level of 
funding.

  SUMMARY OF RECOMMENDED APPROPRIATIONS FISCAL YEAR 2011 FOR LOUISIANA
    FLOOD CONTROL, NAVIGATION, HURRICANE PROTECTION & WATER RESOURCES
                                PROJECTS
------------------------------------------------------------------------
                                                             LOUISIANA
                   LOUISIANA PROJECTS                         REQUEST
------------------------------------------------------------------------

             GENERAL INVESTIGATIONS STUDIES

Amite River-Ecosystem Restoration, LA...................        $500,000
Calcasieu Lock, LA......................................       2,000,000
Red River (JBJWW) Recon Study...........................         100,000
Southwest Coastal LA Hurricane Protection, LA...........       1,500,000
St. Charles Parish Urban Flood Control, LA..............         445,000
West Shore--Lake Pontchartrain, LA......................         500,000
Bossier Parish Levee & FC...............................         250,000
Cross Lake Water Supply.................................          50,000
Ouachita River and Tribs................................         200,000
Ouachita and Black......................................         100,000

                           PED

Bayou Sorrel Lock, LA...................................       2,239,000
Calcasieu River Basin, LA...............................         250,000
Calcasieu River & Pass Navigation, LA...................       1,000,000
Port of Iberia, LA......................................       1,000,000

                       NEW STUDIES

South Central LA Coastal Protection.....................         100,000
Port Fourchon Enlargement, LA...........................         100,000
Cameron Loop, Calcasieu Pass............................         100,000
East Fork, Calcasieu Pass...............................         100,000
University Lakes........................................         200,000
Bayou Rigaud Ext. Dredging & Breakwater Prot............         100,000
Chenier Caminada Levee Ext. & Levee Armoring Grand Isle,         100,000
 LA.....................................................
Laurel Ridge Levee Ext., Ascension Parish...............         100,000

                           CAP

Kenner Environmental Infrastructure.....................         500,000
Lafourche Parish Environmental Infrastructure...........         500,000
Plaquemines Parish Environmental Infrastructure.........         500,000
St. Bernard Environmental Infrastructure................         500,000
St. Charles Environmental Infrastructure................         500,000
St. James Environmental Infrastructure..................         500,000
St. John the Baptist Environmental Infrastructure.......         500,000
St. Tammany Environmental Infrastructure................         500,000
West Baton Rouge Environmental Infrastructure...........         500,000

                  CONSTRUCTION GENERAL

Comite River, LA........................................      25,000,000
East Baton Rouge Parish, LA.............................      25,000,000
Larose to Golden Meadow.................................       5,500,000
IHNC Lock...............................................      13,000,000
Red River Below Den Dam (AR, LA)........................      12,000,000
Ouachita River Levees...................................       2,600,000
J Bennett Johnston WW, Miss. R. to Shreveport...........      20,000,000
Calcasieu River & Pass, Dredged Material Management           12,000,000
 Program................................................
Southeast Louisiana.....................................      21,200,000
Violet Freshwater Diversion.............................       5,500,000
West Bank & Vicinity, LA................................       5,000,000
Ascension Parish Environmental Infrastructure...........       2,000,000
East Baton Rouge Environmental Infrastructure...........       2,000,000
Livingston Parish Environmental Infrastructure..........       2,000,000

            OPERATIONS & MAINTENANCE GENERAL

Atchafalaya River, Bayous Chene, Boeuf & Black..........      36,700,000
Barataria Bay Waterway..................................         135,000
Bayou Lafourche.........................................       4,300,000
Bayou Segnette..........................................          37,000
Bayou Teche.............................................       8,900,000
Bayou Teche & Vermilion.................................         650,000
Calcasieu River & Pass..................................      57,233,000
Freshwater Bayou........................................      14,875,000
Gulf Intracoastal Waterway..............................      41,000,000
Houma Navigation Canal..................................       7,100,000
Mermentau River.........................................      11,410,000
Mississippi River, Baton Rouge to the Gulf..............     170,169,000
Mississippi River Gulf Outlet at Venice.................       8,338,000
Waterway Empire to the Gulf.............................          47,000
WW. IWW to Bayou Dulac..................................          30,000
Ouachita & Black Rivers (AR, LA)........................      24,135,000
Bayou Bodcau............................................       6,922,000
Caddo Lake..............................................         347,000
Wallace Lake............................................         886,000
Bayou Pierre............................................          49,000
J Bennett Johnston Waterway.............................      23,864,000
Lake Providence Harbor..................................       1,200,000
Madison Parish Port.....................................         150,000
Inspection of Completed Works (N.O.)....................       1,161,000
Inspection of Completed Works (V).......................       1,000,000
------------------------------------------------------------------------


  SUMMARY OF RECOMMENDED APPROPRIATIONS FISCAL YEAR 2010 FOR LOUISIANA
                    MISSISSIPPI RIVER AND TRIBUTARIES
------------------------------------------------------------------------
                                                             LOUISIANA
                   LOUISIANA PROJECTS                         REQUEST
------------------------------------------------------------------------

             FC, MR&T GENERAL INVESTIGATIONS

Alexandria to the Gulf (PED)............................  ..............
Donaldsonville to the Gulf..............................      $1,200,000
Houma Navigation Canal Deepening (PED)..................         500,000
Morganza to the Gulf (PED)..............................       3,000,000
Spring Bayou Area, LA...................................          50,000

                  FC, MR&T CONSTRUCTION

Atchafalaya Basin.......................................      25,000,000
Atchafalaya Basin Floodway System.......................       2,631,000
Channel Improvement (N.O. Dist.)........................      11,861,000
Mississippi Delta Region................................  ..............
Mississippi River Levees, LA (N.O. Dist.)...............      15,338,000
Mississippi River Levees (LA) (V. Dist.)................      30,000,000
Channel Improvement (LA) (V. Dist.).....................      27,930,000

                  FC, MR&T MAINTENANCE

Atchafalaya Basin.......................................      39,900,000
Atchafalaya Basin Floodway System.......................       1,878,000
Baton Rouge Harbor (Devil's Swamp)......................          42,000
Bayou Cocodrie and Tributaries..........................          47,000
Bonnet Carre Spillway...................................       5,300,000
Channel Improvement (N.O. Dist.)........................      14,128,000
Dredging (N.O. Dist.)...................................         700,000
MS Delta Region.........................................       1,921,000
Old River...............................................      12,755,000
Mississippi River Levees (LA) (N.O. Dist.)..............       6,500,000
Mississippi River Levees (LA) (V. Dist.)................       4,400,000
Revetments & Dikes (LA) (V. Dist.)......................      21,052,000
Dredging (LA) (V. Dist.)................................       5,023,000
Boeuf & Tensas Rivers...................................       3,244,000
Red River Backwater.....................................       9,496,000
Lower Red River.........................................         498,000
Inspection of Completed Works (V).......................         681,000
Inspection of Completed Works (N.O.)....................         940,000
------------------------------------------------------------------------

                                 ______
                                 
 Prepared Statement of the Mississippi Valley Flood Control Association

    The Mississippi Valley Flood Control Association respectfully 
requests that the sum of $550 million be appropriated in fiscal year 
2011 for the Mississippi River and Tributaries Project.
    In view of the fact that there are some new members of the 
subcommittee, it seems appropriate to very briefly explain a little of 
the history of the Flood Control Association that was first organized 
in 1922 by a group of interested citizens from the States of Arkansas, 
Mississippi and Louisiana. From that first meeting, held in Memphis, 
Tennessee, a group was selected to come to Washington in an attempt to 
convince both the Congress and the executive branch that the prevention 
of catastrophic floods in the lower Mississippi River Valley was beyond 
the capabilities of the local people and was in fact too large for any 
group other than the United States Government. This group of dedicated 
citizens was without luck until the record flood of 1927 swept through 
the Mississippi River Valley with the fury of devastation not seen 
before. An unknown number of people perished along with thousands of 
heads of livestock and all manner and large numbers of wildlife. Some 7 
percent of all the productive land on this planet was under water for a 
period of almost half a year. The Congress, after extensive hearings, 
passed the Flood Control Act of May 15, 1928 that was signed into law 
by then President Calvin Coolidge.
    The Flood Control Association, acting under the erroneous 
assumption that the United States Government would provide all that was 
needed to prevent flooding in the valley, disbanded. In 1935 it became 
apparent that additional legislation was required and the association, 
under the leadership of then Senator John Overton from Louisiana, was 
re-organized and has been in continuous and active existence since. 
This is our 75th year to hold a meeting in Washington, to request funds 
for the Mississippi River and Tributaries Project.
    We have been fortunate since 1935 to have as our President and two 
Vice Presidents, Members of the United States Congress with Congressman 
Ed Whitfield from the Commonwealth of Kentucky serving as our president 
and Congressmen Mike Ross from Arkansas and Phil Hare from Illinois 
serving as our vice presidents.
    We appear before you today after having carefully considered the 
President's fiscal year 2011 budget for the Mississippi River and 
Tributaries Project. We find, as usual, that the executive department 
has sadly un-funded the Corps of Engineers civil works budget for the 
up-coming fiscal year. We also note that the Corps has stated that they 
have a capability under the Mississippi River and Tributaries Project 
to use $550 million in fiscal year 2011. We would respectfully request 
that the Congress appropriate the amount of $550 million for the 
Mississippi River and Tributaries Project.
    This Nation is still faced with a war on terror and the economic 
situation is poor to say the least. We are ever mindful of these facts 
but we feel that we are justified in requesting additional 
appropriations for the Mississippi River and Tributaries Project 
because the assets and resources of this great Nation must not be 
neglected at this time. We are unaware of any other appropriation that 
contributes as much to national wealth and resources as does flood 
control and navigation for the major rivers of this country and that is 
certainly true for the mightiest of them all, the Mississippi, the 
third largest watershed on the planet.
    Millions of acres of what were once overflow lands are now highly 
productive and contributes to our national wealth. These lands by 
reason of their geographic location are the most fertile of the Nation 
and ample water is available so that they can produce an abundance of 
food and fiber for the general welfare and prosperity of the country. 
This is only possible because of the coordinated work performed by the 
triad of the United States Corps of Engineers, the United States 
Congress and the local people. The appropriations made by the Congress 
for the Mississippi River and Tributaries Project are investments in 
this Nation's future.
    We are aware of the ever increasing demand on the Federal dollars 
and the many complex problems that the Congress is confronted with, but 
we believe that this project is economically sound, environmentally 
necessary, and we urge its completion with all deliberate haste. Our 
request of $550 million is required to meet this goal.
    The ultimate goal to be accomplished with the passage of the act of 
1928 was that the lower valley would never again be destroyed by a 
flood such as that of the fateful year of 1927. By law, the Mississippi 
River and Tributaries Project provides protection against the 
``greatest possible flood'' even though not yet completed. For over 80 
years the project has worked to perfection with not one acre flooded 
that was designed not to be flooded. The project has also insured the 
permanency of location for harbor facilities and industrial sites and 
to obtain a more reliable navigation channel. With the help of the 
Congress we have made great strides in the Mississippi River Valley but 
the job is not yet completed. All the people of the valley will not 
feel or be safe until the job is completed.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy

    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to present The Nature Conservancy's recommendations for 
fiscal year 2011 appropriations for the U.S. Army Corps of Engineers 
(Corps) and Bureau of Reclamation.
    Our recommendations represent a priority set of efforts that are 
both individually important and collectively designed to demonstrate 
innovations in restoration to help guide future resource allocation. If 
done well, ecosystem restoration projects pay dividends through 
services such as provision of more reliable and higher quality water, 
natural flood attenuation, sustaining commercial fisheries, and 
supporting economically-important outdoor recreation. Moreover, the 
Nation's resiliency to climate change will be substantially dictated by 
the health of our ecosystems. We believe the public investments we are 
requesting now will pay dividends for decades to come.

                     CORPS CONSTRUCTION PRIORITIES

    Continuing Authorities Program.--We thank the subcommittee for 
continuing its strong support of the section 1135: Project 
Modifications for Improvement of the Environment and section 206: 
Aquatic Ecosystem Restoration programs. However, demand for these 
programs continues to outstrip funding. The Nature Conservancy (the 
Conservancy) requests that the programs be fully funded by 
appropriating $40 million for section 1135 and $50 million for section 
206.
    The Conservancy seeks funding for two projects under the Continuing 
Authorities Program in fiscal year 2011: Spunky Bottoms (sec. 1135), 
and Emiquon East (sec. 206). Both are model projects to restore 
floodplain wetlands by reconnecting them to the Illinois River. Each 
project needs funding to complete its respective feasibility study, 
develop a project partnership agreement, and begin designs for the next 
phase. The Conservancy is the non-Federal cost share partner for both 
projects, and we request $500,000 for the Spunky Bottoms project and 
$185,000 for the Emiquon East project. Additional funds will be 
necessary for the planning, specification, construction and monitoring 
phases.
    We continue to be concerned about the subcommittee's guidance for 
these programs. The prioritization requirements and ``no new starts'' 
rule included in the fiscal year 2009 report and renewed in fiscal year 
2010 block the implementation of important conservation priorities that 
enjoy strong support from their local communities. We urge the 
subcommittee to adopt a more flexible approach. Appropriating the 
requested amounts will help address the backlog in these programs.
    Upper Mississippi River Navigation and Ecosystem Sustainability 
Program.--The Navigation and Ecosystem Sustainability Program (NESP) is 
a dual purpose authority for integrated management of the Upper 
Mississippi River (UMR) system's habitat and navigation facilities. All 
activities implemented under the existing Environmental Management 
Program (EMP) can be transitioned into NESP, but it is critical to fund 
both programs until the transition is complete. In recognition of the 
current budgetary constraints, we request a NESP fiscal year 2011 new 
start of $15 million. The Conservancy also supports $25 million for EMP 
in fiscal year 2011.
    Illinois River Basin Restoration Program.--This Federal-State 
partnership sustains the health of the entire Illinois River Basin 
through projects that restore habitats, species, and the natural 
processes that sustain them. It complements other Federal programs such 
as EMP and NESP, but is unique in its basin-wide approach to 
restoration. The Conservancy supports $7.9 million in Construction 
funding and $1 million in Investigation funding for this program in 
fiscal year 2011.
    Aquatic Nuisance Species Dispersal Barrier.--The Conservancy 
supports funding for the construction and maintenance of the Dispersal 
Barriers on the Chicago Sanitary and Ship Canal (CSSC) at no less than 
$12,650,000 in fiscal year 2011. Additionally, we request at least $1 
million in fiscal year 2011 to conduct an expedited feasibility study 
of the comprehensive set of permanent solutions to prevent the movement 
of all invasive species though the CSSC. We note that the Corps has the 
capacity to effectively expend up to $23,650,000 on construction and 
$2,500,000 on the separation study, and we encourage the subcommittee 
to consider this greater investment to address this urgent problem.
    Missouri River Fish and Wildlife Recovery Program (MRRP).--Under 
this program, the Corps has completed 30 projects in the lower Missouri 
Basin States to assist in the recovery of three listed species, 
restoring more than 40,000 acres of habitat. New authority allows 
expenditures in the upper basin States as well. Construction of fish 
passage and screens at Intake Dam is a priority for the recovery of the 
endangered pallid sturgeon and other warm-water fish. The Conservancy 
supports $119 million for the MRRP in fiscal year 2011, including $20 
million to continue progress on the design and construction of fish 
passage and screens at Intake Dam.
    Cartersville Diversion Dam Fish Passage.--This project would 
construct a fish passage at Cartersville Dam, allowing fish, including 
the Federal listed endangered pallid sturgeon, to reach the upstream 
portions of the Yellowstone River. This project, along with its 
companion project at Intake Dam, would open an additional 296 miles of 
habitat, which is critically needed for successful recovery of the 
sturgeon population. The Conservancy supports $300,000 for this project 
in fiscal year 2011.
    South Florida Ecosystem Restoration Program.--Corps flood control 
projects, coupled with agricultural and urban development, have 
degraded the Everglades, one of the most diverse and ecologically rich 
wetlands ecosystems in the world. WRDA 2007 authorized construction of 
the first projects under the Comprehensive Everglades Restoration Plan 
(CERP), and we support funding for the Indian River Lagoon South, 
Picayune Strand, and the Site 1 Impoundment. We place priority on 
funding the Kissimmee River Restoration Project, which is almost 75 
percent complete and already a success story. The Conservancy requests 
$246 million for the South Florida Ecosystem Restoration program in 
fiscal year 2011.
    Hamilton City Flood Damage Reduction and Ecosystem Restoration.--
This project will increase flood protection for Hamilton City, CA and 
surrounding agricultural lands and restore approximately 1,500 acres of 
riparian habitat. The PED phase for this project was completed in 2009, 
the non-Federal sponsor is in place and the project received 
construction authorization in WRDA 2007. The Conservancy supports $15 
million in fiscal year 2011 to complete the first phase of 
construction.
    Chesapeake Bay Oyster Recovery.--Native oyster populations in the 
Chesapeake Bay have been decimated from historical levels by a century 
of overfishing, disease and pollution. This project will help move 
oyster populations toward sustainable levels. The requested 
appropriation will create more than 60 acres of oyster habitat. The 
Conservancy supports $6 million in fiscal year 2011.

                       SUSTAINABLE RIVERS PROJECT

    The Sustainable Rivers Project (SRP) is an initiative launched by 
the Corps in partnership with the Conservancy that recognizes the 
urgent need to update decades-old water management practices to meet 
society's needs today and in the coming decades. Currently working in 
eight demonstration river basins, the SRP is developing and 
demonstrating innovative approaches to reservoir operations that 
restore critical ecosystems and valuable ecosystem services, while 
continuing to provide for (and often improving) water supply and flood 
risk management. The Conservancy supports funding for several 
initiatives that will support the SRP:
    Global Change Sustainability.--Evolving and accumulating challenges 
to water management, such as expanding water and energy demands, 
shifting economic and land use patterns and environmental degradation, 
require innovation in our water management practices. This project will 
allow the Corps to advance a variety of new practices through several 
initiatives, including the SRP, working with other Federal agencies to 
develop a national strategy for climate change adaptation, updating 
drought contingency plans, and others. The Conservancy supports $10 
million in fiscal year 2011 for this program.
    National Portfolio Assessment for Reallocations.--Launched in 
fiscal year 2008, this assessment is a national effort to learn from 
past water management techniques and improve upon them. A national 
database will incorporate data from water supply surveys, climate 
studies, drought contingency plans, and other sources, helping the 
Corps assess its past practices and make project- and basin-scale 
predictions for the future. The SRP will be part of this effort, 
developing new methods that can be used at Corps dams nationwide. The 
Conservancy supports $1 million in fiscal year 2011 for this program.
    Willamette River Floodplain Restoration Study.--The Corps and the 
Conservancy are working together to identify ecological flow 
requirements downstream of Corps dams, and to incorporate those flows 
into dam operations. The ultimate goal of this study is to enable 
system-wide changes in dam operation and floodplain management that 
improve fish and wildlife habitat and community flood protection. The 
Conservancy supports $153,000 in fiscal year 2011 to continue this 
study.
    Connecticut River Watershed Study.--This project will restore 410 
miles of river flow and thousands of acres of natural habitat in the 
Connecticut River Basin. The basin is a priority landscape for the 
Conservancy due to its high quality tributary systems, unique natural 
communities and multitude of ESA-listed species. The study identifies 
dam management modifications for environmental benefits while 
maintaining beneficial human uses. We support $750,000 in fiscal year 
2011 for this project.
    White River Basin-wide Comprehensive Study.--The ecology of the 
White River Basin is impacted by Federal impoundments, water 
withdrawals for agriculture, power generation, and modifications for 
navigation. This project will help determine the condition of the basin 
and its future ecological and human needs. The Conservancy supports 
$1,500,000 in fiscal year 2011 for this study.
    Big Cypress Basin Watershed Study.--This study, part of a project 
to restore the natural river flow of Big Cypress Bayou to enhance 
aquatic ecosystem health and the globally significant Caddo Lake 
wetlands, would allow the Corps to evaluate the potential ecosystem 
restoration benefits and impacts of flow recommendations developed with 
the Conservancy. It would also develop sediment and nutrient load 
guidelines and consider modifying the Caddo Lake weir to allow 
manipulation of lake levels for bald cypress regeneration and aquatic 
plant control. We support $175,000 in fiscal year 2011 for this study.

                  OTHER CORPS INVESTIGATION PRIORITIES

    Puget Sound Nearshore Ecosystem Restoration Project.--The recovery 
of Puget Sound is a top priority for Washington State and the Corps' 
Puget Sound Nearshore Ecosystem Restoration Project (PSNERP) comprises 
one of the most important pieces of the Governor's recovery plan. The 
Conservancy requests $1.5 million in fiscal year 2011 (in the 
Investigations account) to advance this critical project. The 
Conservancy also requests $7 million (in the Construction account) in 
fiscal year 2011 for the Puget Sound and Adjacent Waters Program--a 
program that provides funding for early action projects to restore 
Puget Sound.
    Long Island Sound Oyster Restoration.--This project will develop a 
comprehensive Master Plan for the restoration of oysters and other 
shellfish in Long Island Sound, supporting both ecological and economic 
well-being by providing a sustainable oyster fishery and creating 
habitat for other coastal and marine species. The Conservancy supports 
$250,000 in fiscal year 2011 for this important effort.
    Lower Mississippi River Resource Assessment.--Flood control and 
drainage systems have accelerated erosion and habitat loss along the 
954-mile Lower Mississippi River and its tributaries. Working with the 
U.S. Department of Interior, the Corps will evaluate the state of river 
management, habitat and public access along the Lower Mississippi and 
recommend action to address current and future needs. The Conservancy 
supports $200,000 in fiscal year 2011 for this project.
    West Pearl River Navigation Study.--The aquatic communities of the 
Pearl, West Pearl and Bogue Chitto Rivers are severely disrupted by old 
and disused navigation structures. This study will allow the Corps to 
consider removing them or repurposing the structures to accommodate 
environmental and recreational needs. The Conservancy supports $100,000 
in fiscal year 2011 for the Reconnaissance study.
    Thames River Basin Watershed Study.--The Thames River Basin 
ecosystem depends on naturally variable water flow, good water quality 
and suitable habitat. This study will determine which research and 
measures are necessary to improve the management of water control 
structures in the basin. We support $100,000 in fiscal year 2011 to 
complete the reconnaissance phase.
    Middle Potomac River Watershed Comprehensive Study.--This study 
will develop a comprehensive, multi-jurisdictional sustainable 
management plan for the Middle Potomac watershed, balancing the 
ecological functions and services provided by the river with the human 
demands upon it. To help complete the watershed assessment, we support 
$68,000 in fiscal year 2011.
    Yellowstone River Corridor Comprehensive Study.--Funding this 
ongoing study of economics, fisheries, and wetlands studies will help 
ensure that the longest free-flowing river in the lower 48 States 
maintains its natural functions while supporting irrigation and other 
economic uses of its waters. The Conservancy supports $750,000 for 
fiscal year 2011.
    Susquehanna River Basin Low Flow Management and Environmental 
Restoration.--Drought conditions, combined with current and projected 
demands for water use, have the potential to impact natural ecosystems 
in the Susquehanna River basin and the upper Chesapeake Bay. This 
basin-wide study will investigate low flow conditions and establish 
goals and standards for low flow management. The Conservancy supports 
$400,000 in fiscal year 2011 for this project.

                             CORPS EXPENSES

    Mid-Atlantic River Basin Commissions.--The Delaware, Potomac, and 
Susquehanna River Basin Commissions are essential to advancing and 
coordinating the water management and conservation interests of the 
Federal Government, the affected States, and the Conservancy. Funding 
was restored in fiscal year 2009, but it was not continued in fiscal 
year 2010. The Conservancy requests that the Federal Government 
continue support of the Commissions' work by appropriating $2,365,000 
in fiscal year 2011.

                         BUREAU OF RECLAMATION

    Upper Colorado River Endangered Fish Recovery and San Juan River 
Basin Recovery Programs.--These programs take a balanced approach to 
restore four endangered fish species in the Colorado River system while 
allowing water use to continue in the arid West. A full appropriation 
will fund work on remaining major capital projects. The Conservancy 
supports $8,354,000 in fiscal year 2011 for these Programs.
    Platte River Recovery Implementation Program.--An agreement between 
the Governors of Wyoming, Nebraska and Colorado and the Secretary of 
Interior sets forth a plan to restore habitat for five endangered or 
threatened species in the Platte River basin. The Conservancy supports 
$12,707,000 for this recovery effort in fiscal year 2011.
    Basin Studies and WaterSMART.--Basin Studies are a component of the 
new WaterSMART program that helps the Bureau of Reclamation address the 
threat of climate change across our Nation's western waters. The Basin 
Study being conducted on the Colorado River will assess and work to 
resolve water supply and demand issues that may be exacerbated by 
climate change, while considering impacts on the basin's ecological 
resiliency. The WaterSMART program can complement that study by 
delivering grants to local stakeholders developing mechanisms to 
improve both water supply imbalances and environmental flows. The 
Conservancy supports a $62 million appropriation to the Bureau of 
Reclamation for the WaterSMART program in fiscal year 2011, including 
$6 million for its Basin Studies.
    Thank you for the opportunity to present our comments on the Energy 
and Water Appropriations bill.
                                 ______
                                 
     Prepared Statement of the Ventura Port District of California

    Mr. Chairman: Thank you for the opportunity to present testimony on 
behalf of the Ventura Port District of California. My name is Richard 
W. Parsons. I am the Dredging Program Manager of the Port. The 
President's fiscal year 2011 request within the operations, maintenance 
and dredging component of the civil works budget for the U.S. Army 
Corps of Engineers is $2,840,000 for the annual dredging of Ventura 
Harbor. Informal communications with the Corps indicate that $4,300,000 
will be required to meet dredging needs of the port between October 1, 
2010 and September 30, 2011. This higher amount is consistent with the 
dredging requirements of the past several years. Accordingly, it is 
respectfully requested that the Congress appropriate an additional 
$1,460,000 beyond the President's request to meet anticipated Corps of 
Engineer requirements. It is worthy of note that employment associated 
with the commercial fishing industry in the Port of Ventura area is 
directly related to the dredging activities of the Corps. An estimated 
71 million pounds of seafood were unloaded at the facilities associated 
with the Port of Ventura which provides significant employment in the 
area. Thank you very much for your favorable consideration of this 
request.
                                 ______
                                 
      Prepared Statement of the City of Santa Barbara, California

          OPERATIONS AND MAINTENANCE DREDGING--FUNDING REQUEST

    As your distinguished subcommittee writes the fiscal year 2011 
Energy and Water Resources Appropriations bill, I would like to bring a 
very important Corps of Engineers' project to your attention. The city 
of Santa Barbara requests $3,700,000 from the Army Corps of Engineers' 
(ACOE) Operation and Maintenance (O&M) Account in fiscal year 2011 
Energy and Water Development Appropriations bill for essential annual 
maintenance dredging of Santa Barbara Harbor's Federal Navigational 
Channel.

                         PROJECT JUSTIFICATION

    In 1970 Congress authorized (Public Law 91-611, sec. 114) full 
funding for ACOE maintenance dredging for the Harbor's Federal Channel 
to reduce storm damage, shoaling and navigational hazards. Today more 
than ever, the Harbor continues to serve and support our National 
interests. The Harbor is home port for the 87 foot U.S. Coast Guard 
Cutter Blackfin and NOAA R/V Shearwater serving Channel Islands 
National Marine Sanctuary (CINMS). Blackfin's harbor location is 
crucial to its mission of patrolling waters all the way to Morro Bay 
(100 miles north) and is critical to ocean safety and rescue, together 
with emerging Homeland Security Defense System (USCG) requirements 
along the California coastline. Santa Barbara Harbor also provides a 
staging area, facilities and resources required for oil spill 
prevention and response, and is a designated harbor of safe refuge.
    Santa Barbara Harbor was constructed in the late 1920's providing 
the closest harbor of refuge to the notoriously dangerous waters off 
Pt. Conception. Various improvements over the years have created an 
all-weather harbor with 1,133 slips for vessels ranging from 20 feet to 
150 feet in length serving hundreds of thousands of people annually. 
The Harbor serves as a key economic engine for the city. In addition, 
the Harbor both directly and indirectly creates several thousand jobs, 
which are vital to the local economy, commercial fishing, businesses 
and maritime industry.
    Santa Barbara Harbor impedes the transport of sand downcoast 
resulting in shoaling of the Federal Channel and potential coastal 
erosion at several nearby coastal communities. The Corps of Engineers 
conducted comprehensive studies of the harbor in the 1950's and 
determined that annual dredging of the harbor was necessary to maintain 
navigability and nourish downcoast beaches preventing erosion. It is 
essential to dredge approximately 250,000 cubic meters (c.m.) of sand 
from the Federal Channel every year to maintain access for the 
commercial fishing fleet (annual catch is valued at $25 million), U.S. 
Coast Guard Cutter Blackfin, NOAA R/V Shearwater serving Channel 
Islands National Marine Sanctuary as well as thousands of recreational 
vessels.
    Annual dredging costs of the Federal Channel have recently been as 
low as $1,650,000 for minimal critical maintenance dredging and can 
cost over $3 million depending on winter storms and sand accumulation. 
Army Corps of Engineers (Corps) contracts with a private dredge company 
to undertake annual dredging between October and March of the fiscal 
year.
    A recap of the last several years demonstrates the continuing trend 
of reduced dredge funding, which could impact Harbor operations and 
eventually accumulated sand could close the channel during winter 
storms.
    Fiscal Year 2008: Conference.--$1,940,000
    Fiscal Year 2009: Omnibus Bill.--$1,940,000
    Fiscal Year 2010: Conference Report.--$1,606,000

                            FUNDING REQUEST

    The President's fiscal year 2011 budget recommendation includes 
$2,040,000 for operations and maintenance dredging for Santa Barbara 
Harbor. I respectfully request that the U.S. Senate, through your 
subcommittee, support that level of funding contained in the 
President's budget submittal for dredging of the Harbor. In addition, 
the city of Santa Barbara is requesting that the subcommittee recommend 
an additional, $1.7 million for maintenance dredging for fiscal year 
2011 (Total $3.7 million).
    Dredging costs per cubic yards removed, have increased dramatically 
in recent years. Due to these escalating costs, the Corp of Engineers 
has increased the project costs to $3.7 million for maintaining the 
Federal Channel in Santa Barbara Harbor.
    We respectfully request your support for this requirement to 
maintain the Federal Channel and thank you for the opportunity to 
submit this statement.
                                 ______
                                 

                       DEPARTMENT OF THE INTERIOR

                         Bureau of Reclamation

   Prepared Statement of the Perkins County Rural Water System, Inc.

    Perkins County Rural Water System, Inc. respectfully submits this 
written testimony to the Appropriations Subcommittee on Energy and 
Water Development for appropriations of $3.142 million for fiscal year 
2011. This project was authorized under Public Law 106-136.
    Perkins County Rural Water System, Inc. (PCRWS) gained the approval 
of the Office of Management and Budget and the Bureau of Reclamation to 
proceed with construction in 2004. With funding for 2010, we have been 
appropriated to date $16.9 million. In 2009 and 2010, we received $2.65 
million and $1.0 million respectively. Three million dollars is 
basically the lowest amount that we could receive and still do enough 
construction to move our project forward. Cost share for the System is 
75 percent Federal, 25 percent State and local funds. The State of 
South Dakota has legislated to loan PCRWS the local share for 40 years 
at 3 percent interest to keep costs down to the consumer. We have used 
all of our State of South Dakota funds. With local and State funds to 
date, we would now be able to cost share up to $36.4 million. Total 
project funds are projected at $32.0 million to finish with $24 million 
of that amount to be Federal funds.

            BREAKDOWN FOR THE PROJECT FOR 2011 IS AS FOLLOWS
------------------------------------------------------------------------

------------------------------------------------------------------------
2010 BUDGET:
    INCOME:
        BUREAU OF RECLAMATION...........................      $3,142,000
        STATE OF SOUTH DAKOTA...........................  ..............
        LOCAL FUNDS.....................................          25,000
                                                         ---------------
          TOTAL.........................................       3,167,000

    EXPENSE:
        NORTH DAKOTA STATE WATER COMMISSION.............         886,760
        FINISH CONSTRUCTION ON DISTRIBUTION.............       2,280,240
                                                         ---------------
          TOTAL.........................................      $3,167,000
------------------------------------------------------------------------

    PCRWS would need $3.167 million for the next year to complete the 
project by 2011. This consists of 250 miles of various pipe sizes 
ranging from 1.5 inch to 8 inch, booster stations, and a pump station 
capable of moving 800 gallons of water per minute, two or more storage 
tanks and telemetry to operate the whole system from one localized 
location.
    The chart below shows the amount of Federal funds in comparison to 
State and local funds. The amount of State and local funds has exceeded 
the cost share for both. Therefore, all funds except for approximately 
$25,000 per year will have to be Federal funds.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The quality of water in northwest South Dakota is the main concern 
for the health and well being of the people. Although the water 
typically meets primary standards established by the USEPA, most of the 
dissolved solids are exceedingly high by the State of South Dakota 
standards. Water quality and quantity in Perkins County, South Dakota 
has been a plague for the county over many years.
    Droughts, such as the one Perkins County is in now, are a fact of 
life for the people in this area. With surface water gone and wells 
being depleted, farmers and ranchers are desperately trying to hold 
onto their livestock herds. Rains will raise grass and small crops, but 
water for drinking is a constant problem for all.
    On behalf of the Board of Directors of PCRWS and the people of 
Perkins County, South Dakota, thank you for allowing us to enter this 
testimony in the subcommittees report.
                                 ______
                                 
 Prepared Statement of the Colorado River Basin Salinity Control Forum

          BUREAU OF RECLAMATION--FISCAL YEAR 2011 APPROPRIATION
------------------------------------------------------------------------

------------------------------------------------------------------------
Colorado River Basin Salinity Control Forum's
 Recommendation:
    Title II Program (Basinwide Program) Authorized in       $17,500,000
     1995 (Public Law 104-20)...........................
    Colorado River Water Quality Improvement Program....         ( \1\ )
    Paradox Valley Unit and Grand Valley Unit...........         ( \1\ )
------------------------------------------------------------------------
\1\ Administration request.

    This testimony is in support of funding for the title II Colorado 
River Basin Salinity Control Program. The Congress has designated the 
Department of the Interior, Bureau of Reclamation (Reclamation), to be 
the lead agency for salinity control in the Colorado River Basin. This 
role and the authorized program were refined and confirmed by the 
Congress when Public Law 104-20 was enacted. A total of $17,500,000 is 
requested for fiscal year 2011 to implement the needed and authorized 
program. Failure to appropriate these funds will result in significant 
economic damage in the United States and Mexico.
    In recent years, the President's requests have dropped to below $10 
million. The Colorado River Basin Salinity Control Forum (Forum) finds 
this unacceptable. Reclamation has requests for funding of many very 
cost-effective proposals through its Basinwide Program that far exceed 
this funding level. In the judgment of the Forum, this amount is 
inappropriately low. Water quality commitments to downstream United 
States and Mexican water users must be honored while the Basin States 
continue to develop their Colorado River Compact-apportioned waters. 
Concentrations of salts in the river cause about $353 million in 
quantified damage in the United States with significantly greater 
unquantified damages. Damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    The Forum, therefore, believes implementation of the program needs 
to be accelerated to a level beyond that requested by the President in 
the past.
    The program authorized by the Congress in 1995 has proven to be 
very successful and very cost effective. Proposals from the public and 
private sector to implement salinity control strategies have far 
exceeded the available funding and Reclamation has a backlog of 
proposals. Reclamation continues to select the best and most cost-
effective proposals. Funds are available for the Colorado River Basin 
States' cost sharing for the level of Federal funding requested by the 
Forum. Water quality improvements accomplished under title II of the 
Colorado River Basin Salinity Control Act also benefit the quality of 
water delivered to Mexico. Although the United States has always met 
the commitments of the International Boundary & Water Commission's 
(Commission) Minute No. 242 to Mexico with respect to water quality, 
the United States Section of the Commission is currently addressing 
Mexico's request for better water quality at the International 
Boundary.
    Some of the most cost-effective salinity control opportunities 
occur when Reclamation can improve irrigation delivery systems at the 
same time that the U.S. Department of Agriculture's (USDA) program is 
working with landowners (irrigators) to improve the on-farm irrigation 
systems. Through the USDA Environmental Quality Incentives Program, 
adequate on-farm funds appear to be available and adequate Reclamation 
funds are needed to maximize the effectiveness of the effort. These 
salinity control efforts have secondary water conservation benefits at 
the point of use and downstream at other points of use.

                                OVERVIEW

    In 2000, the Congress reviewed the program as authorized in 1995. 
Following hearings, and with administration support, the Congress 
passed legislation that increased the ceiling authorized for this 
program by $100 million. Reclamation has received cost-effective 
proposals to move the program ahead and the Basin States have funds 
available to cost-share up-front.
    The Colorado River Basin Salinity Control Program was originally 
authorized by the Congress in 1974. The title I portion of the Colorado 
River Basin Salinity Control Act responded to commitments that the 
United States made, through Minute No. 242, to Mexico concerning the 
quality of water being delivered to Mexico below Imperial Dam. Title II 
of the Act established a program to respond to salinity control needs 
of Colorado River water users in the United States and to comply with 
the mandates of the then newly legislated Clean Water Act. Initially, 
the Secretary of the Interior and Reclamation were given the lead 
Federal role by the Congress. This testimony is in support of adequate 
funding for the title II program.
    After a decade of investigative and implementation efforts, the 
Basin States concluded that the Salinity Control Act needed to be 
amended. The Congress revised the act in 1984. That revision, while 
leaving implementation of the salinity control policy with the 
Secretary of the Interior, also gave new salinity control 
responsibilities to the USDA and to the Bureau of Land Management 
(BLM). The Congress has charged the administration with implementing 
the most cost-effective program practicable (measured in dollars per 
ton of salt removed). The Basin States are strongly supportive of that 
concept as the Basin States cost share is 30 percent of Federal 
expenditures up-front for the salinity control program, in addition to 
proceeding to implement salinity control activities for which they are 
responsible in the Colorado River Basin.
    The Forum is composed of gubernatorial appointees from Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming. The Forum 
has become the seven-State coordinating body for interfacing with 
Federal agencies and the Congress to support the implementation of the 
program necessary to control the salinity of the river system. In close 
cooperation with the Environmental Protection Agency (EPA) and pursuant 
to requirements of the Clean Water Act, every 3 years the Forum 
prepares a formal report analyzing the salinity of the Colorado River, 
anticipated future salinity, and the program elements necessary to keep 
the salinities at or below the concentrations in the river system in 
1972 at Imperial Dam, and below Parker and Hoover Dams.
    In setting water quality standards for the Colorado River system, 
the salinity concentrations at these three locations have been 
identified as the numeric criteria. The plan necessary for controlling 
salinity and reducing downstream damages has been captioned the ``Plan 
of Implementation.'' The 2008 Review of water quality standards 
includes an updated Plan of Implementation. The level of appropriation 
requested in this testimony is in keeping with the agreed upon plan. If 
adequate funds are not appropriated, significant damages from the 
higher salt concentrations in the water will be more widespread in the 
United States and Mexico.

                             JUSTIFICATION

    The $17.5 million requested by the Forum on behalf of the seven 
Colorado River Basin States is the level of funding necessary to 
proceed with Reclamation's portion of the Plan of Implementation. In 
July 1995, the Congress amended the Colorado River Basin Salinity 
Control Act. The amended act gives Reclamation new latitude and 
flexibility in seeking the most cost-effective salinity control 
opportunities, and it provides for utilization of proposals from 
project proponents, as well as more involvement from the private as 
well as the public sector. The result is that salt loading is being 
prevented at costs often less than one-half the cost under the previous 
program. The Congress recommitted its support for the revised program 
when it enacted Public Law 106-459. The Basin States' cost sharing up-
front adds 43 cents for every Federal dollar appropriated. The 
federally chartered Colorado River Basin Salinity Control Advisory 
Council, created by the Congress in the Salinity Control Act, has met 
and formally supports the requested level of funding. The Basin States 
urge the Energy and Water Development Subcommittee to support the 
funding as set forth in this testimony.

                     ADDITIONAL SUPPORT OF FUNDING

    In addition to the funding identified above for the implementation 
of the most recently authorized program, the Forum urges the Congress 
to appropriate funds requested by the administration to continue to 
maintain and operate salinity control facilities as they are completed 
and placed into long-term operation. Reclamation has completed the 
Paradox Valley unit which involves the collection of brines in the 
Paradox Valley of Colorado and the injection of those brines into a 
deep aquifer through an injection well. The continued operation of this 
project and the Grand Valley Unit will be funded primarily through the 
Facility Operations activity.
    The Forum also supports funding to allow for continued general 
investigation of the Salinity Control Program as requested by the 
administration for the Colorado River Water Quality Improvement 
Program. It is important that Reclamation have planning staff in place, 
properly funded, so that the progress of the program can be analyzed, 
coordination between various Federal and State agencies can be 
accomplished, and future projects and opportunities to control salinity 
can be properly planned to maintain the water quality standards for 
salinity so that the Basin States can continue to develop their 
Colorado River Compact-apportioned waters.
                                 ______
                                 
     Prepared Statement of the Colorada River Commission of Nevada

    Dear Chairman Dorgan: As a Nevada representative of the Colorado 
River Basin Salinity Control Forum, the Colorado River Commission of 
Nevada (CRCN) submits this written testimony in support of $17.5 
million for funding the fiscal year 2011 budget for the Bureau of 
Reclamation's Colorado River Basin Salinity Control Program. The CRCN 
urges the Congress to appropriate funds requested by the administration 
to continue to maintain and operate salinity control facilities as they 
are completed and placed into long-term operations. Reclamation has 
completed the Paradox Valley Unit which involves the collection of 
brines in the Paradox Valley of Colorado and the injection of those 
brines into a deep aquifer through an injection well. The continued 
operation of this project and the Grand Valley Unit will be funded 
primarily through the Facility Operations activity. The CRCN also 
supports funding to allow for continued general investigation of the 
Salinity Control Program as requested by the administration for the 
Colorado River Water Quality Improvement Program.
    Salinity remains one of the major problems in the Colorado River. 
Congress has recognized the need to confront this problem with its 
passage of Public Law 93-320 and Public Law 98-569. Your support of the 
Forum's current funding recommendations in support of the Colorado 
River Basin Salinity Control Program is essential to move the program 
forward so that the congressionally directed salinity objectives 
embodied in Public Law 93-320 and Public Law 98-569 are achieved.
                                 ______
                                 
     Prepared Statement of the Grand Valley Water Users Association

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
    Prepared Statement of the Tri-County Water Conservancy District

    Dear Chairman Dorgan and Senator Bennett: The Tri-County Water 
Conservancy District Board respectfully requests your support for an 
appropriation in the President's recommended budget for fiscal year 
2011 of $8,354,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation we seek is as 
follows: $7,154,000 for construction activities for the Upper Colorado 
River Endangered Fish Recovery Program; $800,000 for construction 
activities for the San Juan River Basin Recovery Implementation 
Program; and $400,000 for Fish and Wildlife Management and Development 
activities to avoid jeopardy. This funding is authorized by Public Law 
106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    We appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the Wyoming Water Association

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
  Prepared Statement of The Nature Conservancy and Western Resources 
                               Advocates

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    We appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
               Prepared Statement of PNM Resources, Inc.

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
       Prepares Statement of the Orchard Mesa Irrigation District

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
               Prepared Statement of the State of Wyoming

    Dear Chairman Dorgan and Senator Bennett: I am Requesting your 
support for the appropriation of $8,354,000 to the Bureau of 
Reclamation included in the Presidents fiscal year 2011 recommended 
budget in the Upper Colorado Region budget line-item entitled 
``Endangered Species Recovery Implementation Program.'' This budget 
line-item designates $800,000 for construction and construction 
management activities for the San Juan River Basin Recovery 
Implementation Program; $7,154,000 for construction and construction 
management activities for the Upper Colorado River Endangered Fish 
Recovery Program; and $400,000 for Fish and Wildlife Management and 
Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list; while at the same time water use and 
development has been able to continue in our growing western 
communities. These programs are unique efforts involving the States of 
New Mexico, Colorado, Utah and Wyoming, Indian tribes, Federal agencies 
and water, power and environmental interests. They are achieving 
Endangered Species Act (ESA) compliance for water projects and fully 
complying with interstate river compacts and the participating States' 
water law.
    Since 1988, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for over 1,850 Federal, 
tribal, State and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. The Department of the Interior 
recognized these programs with its nation-wide Cooperative Conservation 
Award in April 2008 as outstanding collaborative partnerships 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding exceeding 50 percent is 
embodied in both programs.
    As we do each year in support of these two region-wide cooperative 
recovery programs, the State of Wyoming again requests the 
subcommittee's assistance: it is absolutely essential that fiscal year 
2011 funding be provided within the Bureau of Reclamation's budget 
appropriation to assure that agency's continued financial participation 
as directed by Public Law 106-392, as amended.
    The State of Wyoming thanks you for the past support and assistance 
of your subcommittee; it has greatly facilitated the ongoing and 
continued success of these multi-state, multi-agency programs.
                                 ______
                                 
              Prepared Statement of the State of Colorado

    Dear Chairman Dorgan and Senator Bennett: I am Requesting your 
support for the appropriation of $8,354,000 to the Bureau of 
Reclamation included in the Presidents fiscal year 2011 recommended 
budget in the Upper Colorado Region budget line-item entitled 
``Endangered Species Recovery Implementation Program.'' This budget 
line-item designates the following: $800,000 for construction and 
construction management activities for the San Juan River Basin 
Recovery Implementation Program; $7,154,000 for construction and 
construction management activities for the Upper Colorado River 
Endangered Fish Recovery Program; and $400,000 for Fish and Wildlife 
Management and Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list; while at the same time water use and 
development has been able to continue in our growing western 
communities. These programs involve New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, multiple Federal agencies and water, power and 
environmental interests in providing Endangered Species Act (ESA) 
compliance for water projects in the region. They also fully complying 
with interstate river compacts and the participating States' water law.
    Since 1988, the two programs have collectively provided ESA section 
7 compliance (without litigation) for over 1,850 Federal, tribal, State 
and privately managed water projects. The Department of the Interior 
recognized these programs as outstanding collaborative partnerships 
with its nation-wide Cooperative Conservation Award in April 2008 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding, exceeding 50 percent, is 
embodied in both programs.
    As I have done in the past, I am writing to support these two 
region-wide cooperative recovery programs. On behalf of the State of 
Colorado, I request the subcommittee's assistance. It is essential that 
fiscal year 2011 funding be provided within the Bureau of Reclamation's 
budget appropriation to assure that agency's continued financial 
participation, as directed by Public Law 106-392.
    On behalf of the State of Colorado, I thank you for the continued 
support and assistance of your subcommittee; it has greatly facilitated 
the ongoing and continued success of these multi-state and multi-agency 
programs.
                                 ______
                                 
             Prepared Statement of the State of New Mexico

    Dear Chairman Dorgan and Senator Bennett: I am Requesting your 
support for the appropriation of $8,354,000 to the Bureau of 
Reclamation included in the Presidents fiscal year 2011 recommended 
budget in the Upper Colorado Region budget line-item entitled 
``Endangered Species Recovery Implementation Program.'' This budget 
line-item designates $800,000 for construction and construction 
management activities for the San Juan River Basin Recovery 
Implementation Program; $7,154,000 for construction and construction 
management activities for the Upper Colorado River Endangered Fish 
Recovery Program; and $400,000 for Fish and Wildlife Management and 
Development activities to avoid jeopardy.
    The Upper Colorado and San Juan recovery programs are highly 
successful collaborative conservation partnerships working to recover 
the four species of endemic Colorado River fish on the Federal 
endangered species list. These programs are unique efforts involving 
the States of New Mexico, Colorado, Utah and Wyoming, Indian tribes, 
Federal agencies and water, power and environmental interests. The 
programs provide Endangered Species Act (ESA) compliance for historic 
and developing water projects throughout the Upper Colorado River and 
San Juan River basins, and respect State water laws and interstate 
compacts. The requested fiscal year 2011 appropriation for the San Juan 
River recovery program includes funding to construct a fish screen to 
prevent entrainment of endangered fish by diversions for historic 
Navajo tribal water uses in New Mexico.
    Since 1988, the two programs, collectively, have provided ESA 
section 7 compliance (without litigation) for over 1,850 Federal, 
tribal, State and privately managed water projects depleting more than 
3.7 million acre-feet of water per year. The Department of the Interior 
recognized these programs with its nation-wide Cooperative Conservation 
Award in April 2008 as outstanding collaborative partnerships 
accomplishing substantial on-the-ground conservation results. 
Substantial non-Federal cost-sharing funding exceeding 50 percent is 
embodied in both programs.
    The past support and assistance of your subcommittee has greatly 
facilitated the success of these multi-state, multi-agency programs. 
The State of New Mexico gratefully thanks you for that support. We 
again request the subcommittee's assistance for fiscal year 2011 
funding to ensure the Bureau of Reclamation's continuing financial 
participation in these two region-wide cooperative recovery programs as 
authorized and directed by Public Law 106-392, as amended.
                                 ______
                                 
          Prepared Statement of the San Juan Water Commission

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Pulic Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of the Central Utah Water Conservancy District

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of the Colorado Water Congress

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
          Prepared Statement of the Southern Ute Indian Tribe

    Dear Chairman Dorgan and Senator Bennett: On behalf of the Southern 
Ute Indian Tribe, I am requesting your support for an appropriation in 
the President's recommended budget for fiscal year 2011 of $8,354,000 
to the Bureau of Reclamation (``Reclamation'') within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation the tribe seeks 
on behalf of Reclamation is as follows: $7,154,000 for construction 
activities for the Upper Colorado River Endangered Fish Recovery 
Program; $800,000 for construction activities for the San Juan River 
Basin Recovery Implementation Program; and $400,000 for Fish and 
Wildlife Management and Development activities to avoid jeopardy. This 
funding is authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, the Southern Ute Indian Tribe, the Ute Mountain Ute Indian 
Tribe, the Navajo Nation, and the Jicarilla Apache Nation, Federal 
agencies and water, power and environmental interests. The programs' 
objectives are to recover endangered fish species while water use and 
development proceeds in compliance with the Endangered Species Act.
    The tribe appreciates the subcommittee's past support and requests 
the subcommittee's assistance for fiscal year 2011 funding to ensure 
Reclamation's continuing financial participation in these vitally 
important programs.
                                 ______
                                 
                   Prepared Statement of Denver Water

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
     Prepared Statement of the Colorado River Energy Distributors 
                          Association (CREDA)

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    CREDA is a non-profit organization representing the majority of the 
firm electric service customers of the Colorado River Storage Project. 
CREDA has participated in these programs since inception, and power 
revenues have been a key funding source of the programs. These ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests are intended to recover endangered fish species 
while water use and development proceeds in compliance with the 
Endangered Species Act.
    We appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
           Prepared Statement of The Jicarilla Apache Nation

    Dear Chairman Dorgan and Senator Bennett: On behalf of the 
Jicarilla Apache Nation, I am requesting your support for an 
appropriation in the President's recommended budget for fiscal year 
2011 of $8,354,000 to the Bureau of Reclamation within the budget line 
item entitled ``Endangered Species Recovery Implementation Program'' 
for the Upper Colorado Region. The funding designation is as follows: 
$7,154,000 for construction activities for the Upper Colorado River 
Endangered Fish Recovery Program; $800,000 for construction activities 
for the San Juan River Basin Recovery Implementation Program; and 
$400,000 for Fish and Wildlife Management and Development activities to 
avoid jeopardy. This funding is authorized by Public Law 106-392, as 
amended.
    The Nation has been a voluntary participant in the highly 
successful and widely supported program to recover endangered fish 
species in the San Juan River basin since 1992 and fully supports the 
same effort underway in the Upper Colorado River. More than 1,800 
Federal, tribal and non-Federal water projects are involved in the 
recovery efforts, these actions have resulted in compliance with the 
Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
   Prepared Statement of The Southwestern Water Conservation District

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
  Prepared Statement of the Uncompahgre Valley Water Users Association

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
 Prepared Statement of the Northern Colorado Water Conservancy District

    Dear Chairman Dorgan and Senator Bennett: On behalf of the Board of 
Directors of the Northern Colorado Water Conservancy District (Northern 
Water), I am requesting your support for an appropriation in the 
President's recommended budget for fiscal year 2011 of $8,354,000 to 
the U.S. Bureau of Reclamation within the budget line item entitled 
``Endangered Species Recovery Implementation Program'' for the Upper 
Colorado Region. The funding designation we seek is as follows: 
$7,154,000 for construction activities for the Upper Colorado River 
Endangered Fish Recovery Program; $800,000 for construction activities 
for the San Juan River Basin Recovery Implementation Program; and 
$400,000 for Fish and Wildlife Management and Development activities to 
avoid jeopardy. This funding is authorized by Public Law 106-392, as 
amended.
    These highly successful, cooperative programs are ongoing 
partnerships among: the States of New Mexico, Colorado, Utah and 
Wyoming; Indian tribes; Federal agencies; and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water usage and development continue in 
compliance with the Endangered Species Act.
    Northern Water appreciates the subcommittee's past support and 
requests the subcommittee's assistance for fiscal year 2011 funding to 
ensure the U.S. Bureau of Reclamation's continuing financial 
participation in these vitally important programs.
                                 ______
                                 
                   Prepared Statement of Aurora Water

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
      Prepared Statement of the Colorado River Board of California

    This testimony is in support of fiscal year 2011 funding for the 
Department of the Interior for the title II Colorado River Basin 
Salinity Control Program (Public Law 93-320). By statute, Congress 
designated the Department of the Interior, Bureau of Reclamation 
(Reclamation) to be the lead agency for salinity control in the 
Colorado River Basin. This successful and cost effective program is 
carried out pursuant to the Colorado River Basin Salinity Control Act 
and the Clean Water Act (Public Law 92-500). California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of million of dollars per year due to the River's salinity.
    The Colorado River Board of California (Colorado River Board) is 
the State agency charged with protecting California's interests and 
rights in the water and power resources of the Colorado River system. 
In this capacity, California and the other six basin States through the 
Colorado River Basin Salinity Control Forum (Forum), the interstate 
organization responsible for coordinating the basin States' salinity 
control efforts, established numeric criteria in June 1975 for salinity 
concentrations in the River. These criteria were established to lessen 
the future damages in the Lower Basin States, as well as, assist the 
United States in delivering water of adequate quality to Mexico in 
accordance with Minute 242 of the International Boundary and Water 
Commission.
    To date, Reclamation has been successful in implementing projects 
for preventing salt from entering the River system; however, many more 
potential projects for salt reduction have been identified that could 
be implemented through Reclamation's Basin-wide Salinity Control 
Program. In the past, the Forum has presented testimony to Congress in 
which it has stated that the rate of implementation of the program 
beyond that which has been funded in the past is essential. This is 
still the case, and California urges the Congress to fully fund 
Reclamation's continuing implementation of this critical program.
    In 2000, Congress reviewed the salinity control program as 
authorized in 1995. Following hearings, and with the administration's 
support, the Congress passed legislation (Public Law 106-459) that 
increased the ceiling authorization for this program from $75 million 
to $175 million. Reclamation has received proposals to move the program 
ahead and the seven basin States have agreed to up-front cost sharing 
on an annual basis, which adds 43 cents for every Federal dollar 
appropriated.
    In recent years, the Bureau of Reclamation's Basin-wide Salinity 
Control Program funding has dropped to below $10 million. In the 
judgment of the Forum, this amount is inappropriately low. Water 
quality commitments to downstream U.S. and Mexican water users must be 
honored while the basin States continue to develop their Compact 
apportioned waters from the Colorado River. Concentrations of salts in 
the River cause about $376 million in quantified damage in the United 
States. However significant un-quantified damages also, occur. For 
example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the use of water and the cost of water treatment, 
        and an increase in sewer fees in the industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling and reuse of the 
        water due to groundwater quality deterioration; and
  --Increased use of imported water for leaching and the cost of 
        desalination and brine disposal for recycled water.
    For every 30 milligram per liter increase in salinity 
concentrations, there are $75 million in additional damages in the 
United States. The Forum, therefore, believes implementation of the 
program needs to be accelerated to a level beyond that which has been 
requested by the administration for the past recent years.
    Some of the most cost-effective salinity control opportunities 
occur when Reclamation can improve irrigation delivery systems in a 
coordinated fashion with the activities of the U.S. Department of 
Agriculture's (USDA) program through working with landowners 
(irrigators) to improve on-farm irrigation systems. With the USDA's 
Environmental Quality Incentive Program, more on-farm funds are 
available and adequate funds for Reclamation are needed to maximize 
Reclamation's effectiveness in addressing water delivery system 
improvements. The Advisory Council, at its meeting in October 2009, in 
Phoenix, Arizona, recommended a funding level of $17,500,000 for 
Reclamation's Basin-wide Salinity Control Program to continue 
implementation of needed projects.
    In addition, the Colorado River Board recognizes that the Federal 
Government has made significant commitments to the Republic of Mexico 
and to the seven Colorado River Basin States with regard to the 
delivery of quality water to Mexico. In order for those commitments to 
be honored, it is essential that in fiscal year 2011, and in future 
fiscal years, that Congress provide funds to the Bureau of Reclamation 
for the continued operation of completed projects.
    The Colorado River is, and will continue to be, a major and vital 
water resource to the 18 million residents of southern California, 
including municipal, industrial, and agricultural water users in 
Ventura, Los Angeles, San Bernardino, Orange, Riverside, San Diego, and 
Imperial counties. Preservation and improvement of Colorado River water 
quality through an effective salinity control program will avoid the 
additional economic damages to users in California and the other States 
that rely on the Colorado River.
                                 ______
                                 
     Prepared Statement of the Irrigation and Electrical Districts 
                         Association of Arizona

    The Irrigation and Electrical Districts Association of Arizona 
(IEDA) is pleased to present written testimony regarding the fiscal 
year 2011 proposed budgets for the Bureau of Reclamation (Reclamation) 
and the Western Area Power Administration (Western).
    IEDA is an Arizona nonprofit association whose 26 members and 
associate members receive water from the Colorado River directly or 
through the facilities of the Central Arizona Project (CAP) and 
purchase hydropower from Federal facilities on the Colorado River 
either directly from Western or, in the case of the Boulder Canyon 
Project, from the Arizona Power Authority, the State agency that 
markets Arizona's share of power from Hoover Dam. IEDA was founded in 
1962 and continues to represent water and power interests of Arizona 
political subdivisions and other public power providers and their 
consumers.

                         BUREAU OF RECLAMATION

    IEDA has reviewed the Reclamation budget and found, not 
unexpectedly, that it does not address the enormous backlog of needs of 
the agency's aging infrastructure. We are aware, for example, that the 
Imperial Dam Electrification Project needs $5 million, money that will 
be repaid to the Treasury with interest. However, we do support 
important projects and programs that are included in the proposed 
budget. We are especially mindful that the Yuma Desalting Plant is 
undergoing a pilot project, which is an essential element of the 
problem solving mechanisms being put in place for the Colorado River 
and especially the Lower Colorado River. Problem solving on the Lower 
Colorado River will be substantially improved by using the plant as a 
management element.
    We also wish to call to the subcommittee's attention the issue 
concerning increased security costs at Reclamation facilities post-9/
11. Legislation has passed Congress addressing that issue and a budget 
approved for Reclamation for fiscal year 2011 should reflect that this 
legislation became law and affects Reclamation operations. We believe 
security costs under that legislation should be reduced because of a 
declining Consumer Price Index.

                   WESTERN AREA POWER ADMINISTRATION

    IEDA has reviewed the testimony submitted by Western's 
administrator, Tim Meeks. We note that both this subcommittee and the 
Senate Energy and Natural Resources Committee Water and Power 
Subcommittee have a concern over the limited appropriation for 
construction funding proposed for fiscal year 2011. We believe this 
shortfall is irresponsible. Western has over 15,000 miles of 
transmission line for which it is responsible. It has on the order of 
14,000 megawatts of generation being considered for construction that 
would depend on that Federal network. The existing transmission 
facilities cannot handle all of these proposals. Moreover, the region 
is projected, by all utilities operating in the region, to be short of 
available generation in the 10-year planning window that utilities and 
Western use.
    The appropriation proposed in this category cannot come even close 
to keeping existing transmission construction going. Repairs and 
replacements will have to be postponed and considerable hardships to 
local utilities that depend on the Federal network are bound to occur. 
In Western's Desert Southwest Region, our region, work necessary just 
to maintain system reliability will have to be postponed.
    We would be the first to support additional customer financing of 
Federal facilities and expenses through the Contributed Funds Act 
authority under Reclamation law that is available to Western. However, 
programs utilizing non-Federal capital formation require years to 
develop. One such program proposed by the Arizona Power Authority in a 
partnership with Western died because it was enmeshed in bureaucratic 
red tape at the Department of Energy. There is no way that Western 
customers can develop contracts, have them reviewed, gain approval of 
these contracts from Western and their own governing bodies, find 
financing on Wall Street and have monies available for the next fiscal 
year. It is just impossible, especially in this economy.
    There are impediments to using existing Federal laws to facilitate 
non-Federal financing for construction of Federal electric transmission 
facilities and Congress should eliminate them. In the meantime, 
artificially designating customer funding for construction, in lieu of 
real solutions, is bad public policy and should not be countenanced. We 
urge the subcommittee to restore a reasonable amount of additional 
construction funding to Western so it can continue to do its job in 
keeping its transmission systems functioning and completing the tasks 
that it has in the pipeline that are critical to its customers 
throughout the West.

                               CONCLUSION

    Thank you for the opportunity to submit this written testimony. If 
we can provide any additional information or be of any other service to 
the subcommittee, please do not hesitate to get in touch with us.
                                 ______
                                 
                       Prepared Statement of APS

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
      Prepared Statement of the Dolores Water Conservancy District

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
            Prepared Statement of Colorado Springs Utilities

    Dear Chairman Dorgan and Senator Bennett: We are requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species while water use and development proceeds in 
compliance with the Endangered Species Act.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
Prepared Statement of the Oglala Sioux Rural Water Supply System, West 
 River/Lyman Jones Rural Water System, Rosebud Rural Water System, and 
                   the Lower Brule Rural Water System

                        FISCAL YEAR 2011 REQUEST

    The Mni Wiconi Project beneficiaries respectfully request $37.222 
million in appropriations for construction and $11.093 million for 
operation and maintenance (OMR) activities for fiscal year 2011, a 
total request of $48.315 million:

                     FISCAL YEAR 2011 TOTAL REQUEST
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Construction............................................     $37,222,000
OMR.....................................................      11,093,000
                                                         ---------------
      Total.............................................      48,315,000
------------------------------------------------------------------------

    The construction request includes $1.0 million for Bureau of 
Reclamation oversight, and the OMR request includes $1.447 million for 
Bureau of Reclamation oversight.
                           construction funds
    Construction funds would be utilized as follows:

------------------------------------------------------------------------
                                                           Construction
                      Project Area                        Request Fiscal
                                                             Year 2011
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................         ( \1\ )
    Distribution........................................     $22,069,000
Wesr River/Lyman-Jones RWS..............................       3,719,000
Rosebud RWS.............................................      11,434,000
                                                         ---------------
      Total.............................................      37,222,000
------------------------------------------------------------------------
Complete.

    As shown in the table below, the project will be 88 percent 
complete at the end of fiscal year 2010. Construction funds remaining 
to be spent after fiscal year 2010 will total $54.518 million within 
the current authorization (in October 2009 dollars). Additional 
administrative and overhead costs of extending the project, additional 
construction costs, and inflation at 3.7 percent over the next 3 years 
are expected to increase remaining project costs to $111.667 million 
after fiscal year 2010.

------------------------------------------------------------------------

------------------------------------------------------------------------
Total Federal Construction Funding (Oct 2009 dollars)...    $460,014,364
Estinated Federal Spent Through Fiscal Year 2010........    $405,496,000
Percent Spent Through Fiscal Year 2010..................           88.15
Amount Remaining after 2010:
    Total Authorized (Oct 2009 dollars).................     $54,518,364
    Adjusted for Extension to Fiscal Year 2013 and Other    $103,958,000
     Cost...............................................
    Adjusted for Annual Inflation.......................    $111,667,000
Completion Fiscal Year (Statutory Fiscal Year 2013;                 2013
 Public Law 111-161)....................................
Year to Complete........................................               3
Average Annual Required for Finish in Fiscal Year 2013..     $37,222,000
------------------------------------------------------------------------

    Cost indexing over the last 5 years has averaged 3.66 percent for 
pipelines, primarily due to a 7.7 percent reduction last year during 
recession. Pipelines are the principal components yet to be completed 
(see chart below). Assuming average 3.66 percent inflation in 
construction costs over the remaining 3 years, average funding of 
$37.222 million is required.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    This is an increase in the annual rate of appropriations needed to 
complete the project since last year's estimate of $31.4 million. 
Appropriations were limited to $22 million last year, which increases 
the average annual rate of funding needed to complete in 2013 on the 
statutory schedule.
    The request will create an estimated 298 full-time equivalent (FTE) 
construction jobs and 89 OMR jobs in an area of the Nation with the 
lowest per capita income and deepest poverty.

            OGLALA SIOUX RURAL WATER SUPPLY SYSTEM (OSRWSS)

Core System
    The Oglala Sioux Tribe has completed the core system. The 
completion of the OSRWSS core system was an historic milestone and 
permits greater focus in remaining years of the Project on completion 
of the distribution systems.
Distribution System
    The Pine Ridge Indian Reservation will receive significantly more 
water from the OSRWSS core system in fiscal year 2010. This is another 
historic year, but considerable work remains to distribute the water 
supply throughout the reservation. Over 40 percent of the project's 
population resides on the Pine Ridge Indian Reservation, and only 52 
percent of the distribution system is complete. The reservation public 
received its first Missouri River supply in small amounts in 2009 after 
waiting 15 years for construction of core facilities to the 
reservation.
    Project funds in fiscal year 2011 will continue building the on-
reservation transmission system between the community of Wounded Knee 
and Pine Ridge Village. The latter community is the largest on the 
reservation and the point of greatest demand. Funding will also be used 
for transmission and service line development east of Pine Ridge 
Village toward Wakpamni, Batesland and Allen and south toward the 
Nebraska State line where groundwater is the most feasible water source 
for the future. This area has been deferred in the past due to funding 
constraints.
    Delivery of Missouri River water to Kyle in fiscal year 2010, 
delayed due to funding, will allow distribution to completed OSRWSS 
pipelines that serve the communities of Kyle, Sharps Corner, Rocky 
Ford, Red Shirt, Manderson, Evergreen and Porcupine and the large 
number of rural homes between the communities along these pipelines. 
Fiscal year 2011 funds will be used to extend service south of Wanblee 
to Hisle.
    As set forth above, activity on the Pine Ridge Indian Reservation 
in fiscal year 2011 continues to focus on constructing the transmission 
system that serves as the ``backbone'' of the project on the 
reservation from the White River in the northeast corner of the 
reservation to Pine Ridge Village. The tribe will continue focus on the 
disinfection requirements to blend Missouri River water and high 
quality groundwater without creating harmful contaminants. State-of-
the-art designs are being implemented for water quality control and 
SCADA systems, and the project will serve as a model for other projects 
requiring these facilities.
    The Oglala Sioux Tribe is supportive of the funding request of 
other sponsors.

               WEST RIVER/LYMAN-JONES RURAL WATER SYSTEM

    West River/Lyman-Jones RWS projects for fiscal year 2011 include 
standby generation facilities, conversion of community water systems, 
storage reservoirs, SCADA, and cold storage additions.
    The Upper Midwest and specifically the Mni Wiconi Project area 
regularly experience power outages as the result of winter weather 
conditions. Regulatory authorities in South Dakota have recommended 
standby generation as the result of statewide power outages experienced 
during the winters of 2005-2006 and 2009-2010. The Bureau of 
Reclamation has concurred in the addition of standby generation to the 
Mni Wiconi plan of work. WR/LJ has outlined a 3 year standby generation 
project schedule.
    The WR/LJ project includes four areas in which area ranchers are 
served by a common well of limited capacity and unacceptable water 
quality. The construction of WR/LJ facilities to serve them as 
individual members of WR/LJ will provide the pipeline capacity and 
water quality meeting Mni Wiconi project design standards.
    Water storage needs include an elevated tower in the Reliance 
service area, a ground storage reservoir in Mellette County and 
supplemental storage in the Elbon service area.
    System Control and Data Acquisition (SCADA) capability provides 
accurate and efficient transmission of data and allows remote control 
of pumping and storage facilities. The WR/LJ SCADA system will be 
completed using the requested funding.
    Storage facilities at the Murdo and Philip operations centers will 
complete the building components of the WR/LJ project.
    Previous Federal appropriations to the Mni Wiconi Project have made 
possible the delivery of much needed quality water to members of the 
West River/Lyman-Jones RWS and to the livestock industry in the project 
area. This would not have been possible with State and Federal 
assistance.

           ROSEBUD SIOUX RURAL WATER SYSTEM--FISCAL YEAR 2011

    In fiscal year 2011 work on the Rosebud Sioux Rural Water System 
(RSRWS or Sicangu Mni Wiconi) focuses on supplying high quality water 
to southern Todd County. It was hoped that this area of the Rosebud 
Reservation would not need to be connected to the Mni Wiconi Project 
because of the presence of the Ogallala aquifer. The estimated demands 
for the area were however included in system planning and it now 
appears this foresight was beneficial because portions of the aquifer 
have high nitrates and other areas are not as high yielding as 
originally thought.
    Because of quality and quantity limitations of the aquifer, high 
quality surface water from the OSRWSS will be conveyed by a 
transmission pipeline to a new elevated storage reservoir at Sicangu 
Village. The elevated reservoir is being constructed in fiscal year 
2010 with ARRA funds. Sicangu Village is an expanding housing area and 
the local wells cannot meet the demands associated with expansion. The 
transmission line and elevated reservoir will provide a reliable supply 
of high quality water to the development corridor centered on Highway 
83 between Mission and Sicangu Village.
    The other major projects will extend service to two schools in 
southern Todd County. The wells that supply water to the schools have 
high nitrates. The Mni Wiconi Project will ensure that future 
generations on the Rosebud Reservation, both Indians and non-Indians 
alike, will be supplied with water that meets safe drinking water 
standards.
    While supply to meet the demands in southern Todd County was 
included as a contingency in the tribe's Needs Assessment and the Mni 
Wiconi Final Engineering Report, costs of infrastructure were not. In 
order to supply these schools, other areas may not be served unless an 
amendment authorizing an increase in the project ceiling and extending 
the sunset date is enacted.
    The ongoing effort to connect rural homes to transmission and 
distribution lines will also continue in 2011. This work is undertaken 
through the tribe's force account program that not only provides a 
reliable source of high quality water to rural homes but also provides 
employment to numerous tribal members and helps circulate dollars on 
the reservation thereby stimulating the local economy.

                                  OMR

    The Sponsors will continue to work with Reclamation to ensure that 
their budgets are adequate to properly operate, maintain and replace 
(OMR) respective portions of the core and distribution systems. The 
Sponsors will also continue to manage OMR expenses to ensure that the 
limited funds can best be balanced between Construction and OMR.
    The project is treating and delivering more water each year from 
the OSRWSS Water Treatment Plant near Fort Pierre as construction 
advances in the Rosebud, WRLJ and Oglala service areas. Completion of 
significant core and distribution pipelines has resulted in more 
deliveries to more communities and rural users. The need for sufficient 
funds to properly operate and maintain the functioning system 
throughout the project has grown as the project has now reached 88 
percent completion. The OMR budget must be adequate to keep pace with 
the system that is placed in operation.
    The Lower Brule Rural Water System (LBRWS) is essentially complete 
with all major components such as the water treatment plant, booster 
stations and tanks/reservoirs in full operation. As a result, LBRWS's 
operation and maintenance portion of the budget has reached a baseline 
amount to which only slight adjustments along with inflation should be 
made each year. The portion of the LBRWS OM&R budget that is somewhat 
variable is the Replacement Additions and Extraordinary (RAX) 
maintenance items. LBRWS will continue to work with the Bureau of 
Reclamation and the other sponsors to prioritize their needs and ensure 
that their system is operating to the standards that have been 
established over the past several years. With that in mind, the LBRWS 
request for OMR for fiscal year 2011 is $1,550,000.
    The Mni Wiconi Project tribal beneficiaries (as listed below) 
respectfully request appropriations for OMR in fiscal year 2011 in the 
amount of $11.093 million.

                          FISCAL YEAR 2011 OMR
------------------------------------------------------------------------
                      Project Area                            Request
------------------------------------------------------------------------
Oglala Sioux Rural Water Supply System:
    Core................................................      $2,719,000
    Distribution........................................       3,100,000
Lower Brule.............................................       1,550,000
Rosebud RWS.............................................       2,277,000
Reclamation.............................................       1,447,000
                                                         ---------------
      Total.............................................      11,093,000
------------------------------------------------------------------------

                          TRUST RESPONSIBILITY

    Public Law 100-516, the Mni Wiconi Project Act, provides that ``. . 
. United States has a trust responsibility to ensure that adequate and 
safe water supplies are available to meet the economic, environmental, 
water supply, and public health needs of the . . .  Indian 
reservation[s] . . .''
    The field staff and the Regional Office of the Bureau of 
Reclamation have been extremely helpful in advancing this project, but 
there is growing concern that Reclamation mid-managers are making 
unilateral decisions that harm the trust relationship. We are also 
concerned with the manner of budgeting. The following are specific 
instances:
  --Reclamation has re-distributed funds allocated to the Oglala Sioux 
        Tribe to West River/Lyman Jones without the urging of West 
        River Lyman Jones to further Reclamation performance 
        objectives. While OSRWSS has consistently carried funds over 
        from one fiscal year to another, there has never been an 
        instance or a threat of an instance of not spending funding 
        appropriated in the same year and the year that follows. The 
        Oglala Sioux Tribe strongly feels that this hampers the ability 
        of the OSRWSS to complete the OSRWSS distribution system 
        prescribed by the statutory completion date.
  --To our complete satisfaction on construction, Reclamation has 
        yielded to the leadership of the Indian and non-Indian sponsors 
        to permit their collaborative development of annual funding 
        allocations and budgets. On the other hand, Reclamation has 
        imposed its structure and budget specifics in lieu of Indian 
        leadership on the formulation of annual OMR allocations and 
        budgets;
  --Reclamation has prioritized total budgeted funds with a separation 
        between Construction and OMR accounts based on its trust 
        responsibility for OMR, which constrains the budgeted funds 
        available to complete construction. OMR budgeting has been held 
        relatively constant with higher percentages of construction 
        completion, and construction budgeting has decreased. The fixed 
        level of OMR funding has constrained the activities needed on 
        the Indian distribution systems. The construction budget is 
        diminishing at a time when acceleration of construction is 
        needed to deliver the benefits of the project to the Indian 
        people. At a minimum, the construction budget should be a 
        priority and should be held at a level needed to complete the 
        project on the statutory schedule in 2013 while providing an 
        adequate OMR budget. The trust responsibility for ensuring 
        adequate and safe water supplies for the reservations involved 
        necessarily includes both the construction and OMR activities;
  --Mid-level managers often view the project as a Reclamation project, 
        rather than as an Indian project as provided by Public Law 100-
        516, and their vision is affected.
                                 ______
                                 
  Prepared Statement of the Colorado River Water Conservation District

    Dear Chairman Dorgan and Senator Bennett: I am requesting your 
support for an appropriation in the President's recommended budget for 
fiscal year 2011 of $8,354,000 to the Bureau of Reclamation within the 
budget line item entitled ``Endangered Species Recovery Implementation 
Program'' for the Upper Colorado Region. The funding designation we 
seek is as follows: $7,154,000 for construction activities for the 
Upper Colorado River Endangered Fish Recovery Program; $800,000 for 
construction activities for the San Juan River Basin Recovery 
Implementation Program; and $400,000 for Fish and Wildlife Management 
and Development activities to avoid jeopardy. This funding is 
authorized by Public Law 106-392, as amended.
    These highly successful, cooperative programs are ongoing 
partnerships among the States of New Mexico, Colorado, Utah and 
Wyoming, Indian tribes, Federal agencies and water, power and 
environmental interests. The programs' objectives are to recover 
endangered fish species in compliance with the Endangered Species Act, 
while maintaining water use and development.
    I appreciate the subcommittee's past support and request the 
subcommittee's assistance for fiscal year 2011 funding to ensure the 
Bureau of Reclamation's continuing financial participation in these 
vitally important programs.
                                 ______
                                 
       Prepared Statement of the San Diego County Water Authority

    Dear Chairman Dorgan: Your support is needed to secure adequate 
fiscal year 2011 funding for the U.S. Bureau of Reclamation's 
participation in the Federal/State Colorado River Basin Salinity 
Control Program. Reclamation is the lead agency for this successful and 
cost-effective program, which mitigates problems caused by excess 
salinity in the Colorado River.
    The Colorado River is the primary source of drinking and irrigation 
water for more than 3 million people in San Diego County. Excess 
salinity causes economic damages in the San Diego region worth millions 
of dollars annually. It also hinders local water agency efforts to 
stretch limited supplies by recycling and reusing water. The local 
impacts of excess salinity include:
  --Reduced crop yields for farmers, who produce more than $1 billion 
        of agricultural products in the San Diego region;
  --Reduced useful life of commercial and residential water pipe 
        systems, water heaters, faucets, garbage disposals, clothes 
        washers, and dishwashers;
  --Increased household use of expensive bottled water and water 
        softeners;
  --Increased water treatment facility costs;
  --Difficulty meeting Federal and California wastewater discharge 
        requirements; and
  --Fewer opportunities for water recycling due to excess salt in the 
        product water, which limits usefulness for commercial and 
        agricultural irrigation.
    Reclamation has been successful in implementing projects that 
prevent salt from entering the river system. Additional projects for 
salt reduction have been identified that could further improve river 
water quality. Some of the most cost-effective salinity control 
opportunities occur when Reclamation can improve irrigation delivery 
systems at the same time that the U.S. Department of Agriculture's 
(USDA) program is working with landowners (irrigators) to improve the 
on-farm irrigation systems. Adequate funding is needed to maximize 
Reclamation's effectiveness.
    The Colorado River Basin Salinity Control Forum, the interstate 
organization responsible for coordinating the seven Colorado River 
Basin States' salinity control efforts, in October 2009 recommended a 
funding level of $17,500,000 for Reclamation's Basin-wide salinity 
control program for fiscal year 2011. This funding would allow 
Reclamation to continue its coordinated efforts to reduce salinity in 
the Colorado River. The Water Authority agrees with the Forum's 
recommendation, and urges your support for these needed funds. The 
seven Colorado River Basin States are sharing costs for salinity 
control, contributing 43 cents for every appropriated Federal dollar.
    The Water Authority appreciates your support of the Colorado River 
Basin Salinity Control Program and asks for your assistance in securing 
adequate funding for fiscal year 2011.
                                 ______
                                 
   Prepared Statement of the Metropolitan Water District of Southern 
                               California

    Dear Senator Dorgan: The Metropolitan Water District of Southern 
California (Metropolitan) has adopted a position supporting funding for 
the Bureau of Reclamation's Colorado River Basin Salinity Control Title 
II Program.
    For 70 years Metropolitan has provided imported water to the 
Southern California region from the Colorado River and the State Water 
Project originating in Northern California. Our mission is to provide 
high quality, reliable drinking water supplies primarily for municipal 
and industrial use. Metropolitan is the Nation's largest provider of 
imported water to an urban area. The population today in our service 
area is 19 million and it is projected to rise to 25 million within the 
next 25 years. Metropolitan is comprised of 26 member public agencies 
that serve an area spanning 5,200 square miles and 6 southern 
California counties.
    Water imported via the Colorado River Aqueduct (CRA) has the 
highest salinity of Metropolitan's imported sources of supply, 
averaging around 630 milligrams per liter since 1976 and causing 
economic damages. For example, damages occur from:
  --A reduction in the yield of salt sensitive crops and increased 
        water use for leaching in the agricultural sector;
  --A reduction in the useful life of galvanized water pipe systems, 
        water heaters, faucets, garbage disposals, clothes washers, and 
        dishwashers, and increased use of bottled water and water 
        softeners in the household sector;
  --An increase in the use of water for cooling, and the cost of water 
        softening, and a decrease in equipment service life in the 
        commercial sector;
  --An increase in the cost of water treatment and sewer fees in the 
        industrial sector;
  --A decrease in the life of treatment facilities and pipelines in the 
        utility sector;
  --Difficulty in meeting wastewater discharge requirements to comply 
        with National Pollutant Discharge Elimination System permit 
        terms and conditions, and an increase in desalination and brine 
        disposal costs due to accumulation of salts in groundwater 
        basins, and fewer opportunities for recycling due to 
        groundwater quality deterioration;
  --Increased use of imported water for leaching; and
  --Increased cost of desalination and brine disposal for recycled 
        water.
    Concern over salinity levels in the Colorado River has existed for 
many years. To deal with the concern, the International Boundary and 
Water Commission approved Minute No. 242, Permanent and Definitive 
Solution to the International Problem of the Salinity of the Colorado 
River in 1973, and the President approved the Colorado River Basin 
Salinity Control Act in 1974. High total dissolved solids in the 
Colorado River as it entered Mexico and the concerns of the seven 
Colorado River Basin States regarding the quality of Colorado River 
water in the United States drove these initial actions. To foster 
interstate cooperation on this issue and coordinate the Colorado River 
Basin States' efforts on salinity control, the seven basin States 
formed the Colorado River Basin Salinity Control Forum (Forum).
    The salts in the Colorado River system are indigenous and 
pervasive, mostly resulting from saline sediments in the basin that 
were deposited in prehistoric marine environments. They are easily 
eroded, dissolved, and transported into the river system.
    The Colorado River Basin Salinity Control Program reduces salinity 
by preventing salts from dissolving and mixing with the River's flow. 
Irrigation improvements (sprinklers, gated pipe, lined ditches) and 
vegetation management reduce the amount of salt transported to the 
Colorado River. Point sources such as saline springs are also 
controlled. The Federal Government, basin States, and contract 
participants spend close to $50 million annually on salinity control 
programs.
    The Program, as set forth in the act, benefits both the Upper 
Colorado River Basin water users through more efficient water 
management and the Lower Basin water users, hundreds of miles 
downstream from salt sources in the Upper Basin, through reduced 
salinity concentration of Colorado River water. California's Colorado 
River water users are presently suffering economic damages in the 
hundreds of millions of dollars per year due to the river's salinity.
    By some estimates, concentrations of salts in the Colorado River 
cause approximately $350 million in quantified damages in the lower 
Colorado River Basin States each year and significantly more in 
unquantified damages. Salinity control projects have reduced salinity 
concentrations of Colorado River water on average by over 100 
milligrams per liter with an economic benefit of $264 million per year 
(2005 dollars) in avoided damages.
    In recent years, the Bureau of Reclamation Basin-wide Salinity 
Control Program funding has dropped to below $10 million. In the 
judgment of the Forum, this amount is inappropriately low. Water 
quality commitments to downstream U.S. and Mexican water users must be 
honored while the Upper Basin States continue to develop their Compact 
apportioned waters from the Colorado River.
    Metropolitan urges this subcommittee to support funding for the 
Colorado River Basin Salinity Control Program for fiscal year 2011 of 
$17.5 million for the Department of the Interior--Bureau of 
Reclamation's Basin-wide Salinity Control Program for the Colorado 
River Basin Salinity Control Program.
    Over the past years, the Colorado River Basin Salinity Control 
program has proven to be a very cost effective approach to help 
mitigate the impacts of increased salinity in the Colorado River. 
Continued Federal funding of this important basin-wide program is 
essential.
    I would appreciate it if you make this statement a part of the 
formal hearing record concerning fiscal year 2011 appropriations for 
the Bureau of Reclamation. I thank you for your subcommittee's support 
of this program in years past and hope that you will again support 
funding to continue this valuable program.
                                 ______
                                 
Prepared Statement of the New Mexico State Engineer and Secretary, New 
                  Mexico Interstate Stream Commission

                                SUMMARY

    This statement is submitted in support of fiscal year 2011 
appropriations for the Colorado River Basin Salinity Control Program of 
the Department of the Interior's Bureau of Reclamation (Reclamation). 
Congress designated Reclamation to be the lead agency for salinity 
control in the Colorado River Basin by the Colorado River Basin 
Salinity Control Act of 1974, and reconfirmed Reclamation's role by 
passage of Public Law 104-20. A total of $17.5 million is requested for 
fiscal year 2011 to implement the authorized salinity control program 
of the Bureau of Reclamation. Recent years have followed a trend of 
inadequate funding for the needs of the program. An appropriation of 
$17.5 million for Reclamation's salinity control program is necessary 
to restore the program to the level needed to protect water quality 
standards for salinity and to prevent unnecessary levels of economic 
damage from increased salinity in water delivered to the Lower Basin 
States of the Colorado River. In addition, funding for operation and 
maintenance of existing projects and sufficient general investigation 
funding is required to identify new salinity control opportunities.

                               STATEMENT

    The water quality standards for salinity of the Colorado River must 
be protected while the basin States continue to develop their compact 
apportioned waters of the river. The salinity standards for the 
Colorado River have been adopted by the seven basin States and approved 
by the Environmental Protection Agency. While currently the standards 
have not been exceeded, salinity control projects must be brought on-
line in a timely and cost-effective manner to prevent future effects 
that could result in unnecessary damages from higher levels of salinity 
in the water delivered to the Lower Basin States of the Colorado River.
    The Colorado River Basin Salinity Control Act was authorized by 
Congress and signed into law in 1974. The seven Colorado River Basin 
States, in response to the Clean Water Act of 1972, formed the Colorado 
River Basin Salinity Control Forum (Forum), a body comprised of 
gubernatorial representatives from the seven States. The Forum was 
created to provide for interstate cooperation in response to the Clean 
Water Act and to provide the States with information necessary to 
comply with sections 303(a) and (b) of the act. The Forum has become 
the primary means for the basin States to coordinate with Federal 
agencies and Congress to support the implementation of the salinity 
control program for the Colorado River Basin.
    Bureau of Reclamation studies show that quantified damages from the 
Colorado River to U.S. water users are about $350 million per year. 
Unquantified damages are significantly greater. Damages are estimated 
at $75 million per year for every additional increase of 30 milligrams 
per liter in salinity of the Colorado River. Control of salinity is 
necessary for the States of the Colorado River Basin, including New 
Mexico, to continue to develop their compact-apportioned waters of the 
Colorado River.
    Timely appropriations for the funding of the salinity control 
program are essential to comply with the water quality standards for 
salinity, prevent unnecessary economic damages in the United States, 
and protect the quality of the water that the United States is 
obligated to deliver to Mexico. The basin States and Federal agencies 
agree that increases in the salinity of the Colorado River will result 
in significant increases in damages to water users in the Lower 
Colorado River Basin. Although the United States has always met the 
water quality standard for salinity of water delivered to Mexico under 
Minute No. 242 of the International Boundary and Water Commission, the 
United States through the U.S. section of IBWC is currently addressing 
a request by Mexico for better quality water. Continued strong support 
and adequate funding of the salinity control program is required to 
control salinity-related damages in the United States and Mexico.
    Congress amended the Colorado River Basin Salinity Control Act in 
July 1995 (Public Law 104-20). The salinity control program authorized 
by Congress by the amendment has proven to be very cost-effective, and 
the Basin States are standing ready with up-front cost-sharing. 
Proposals from public and private sector entities in response to 
Reclamation's requests for proposals and funding opportunity 
announcements have far exceeded available funding appropriated in 
recent years. Basin States cost-sharing funds are available for the 
$17.5 million appropriation request for fiscal year 2011. The basin 
States' cost-sharing adds 43 cents for each Federal dollar 
appropriated.
    Public Law 106-459 gave the Bureau of Reclamation additional 
spending authority for the salinity control program. With the 
additional authority in place and significant cost-sharing available 
from the basin States, it is essential that the salinity control 
program be funded at the level requested by the Forum and basin States 
to protect the water quality of the Colorado River. Some of the most 
cost-effective salinity control opportunities occur when Reclamation 
improves irrigation delivery systems concurrently with on-farm 
irrigation improvements undertaken by the U.S. Department of 
Agriculture's Environmental Quality Incentives Program (EQIP). The 
basin States cost-share funding is available for both on-farm and off-
farm improvements. The EQIP funding appears to be adequate to 
accomplish the on-farm work. Adequate funding for Reclamation's off-
farm work is needed to maintain timely implementation and effectiveness 
of salinity control measures.
    Maintenance and operation of Reclamation's salinity control 
projects and general investigations to identify new cost-effective 
salinity control projects are necessary for the continued success of 
the salinity control program. Investigation of new opportunities for 
salinity control is critical while the basin States continue to develop 
and use their compact-apportioned waters of the Colorado River. The 
water quality standards for salinity are dependent on timely 
implementation of salinity control projects, adequate funding to 
maintain and operate existing projects, and sufficient general 
investigation funding to determine new cost-effective opportunities for 
salinity control.
    Continued funding primarily through Reclamation's Facility 
Operation activity to support maintenance and operation the Paradox 
Valley Unit and the Grand Valley Unit is critically needed. General 
Investigation funding through Reclamation's Colorado River Water 
Quality Improvement Program needs to be restored to a level that 
supports the need for identification and study of new salinity control 
opportunities to maintain the levels of salinity control needed to meet 
water quality standards and control economic damages in the Lower 
Colorado River Basin.
    I urge the Congress to appropriate $17.5 million to the Bureau of 
Reclamation for the Colorado River Basin Salinity Control Program, plus 
adequate funding for operation and maintenance of existing projects and 
adequate funding for general investigations to identify new salinity 
control opportunities. Also, I fully support testimony by the Forum's 
Executive Director, Jack Barnett, in request of this appropriation, and 
the recommendation of an appropriation of the same amount by the 
Federal chartered Colorado River Basin Salinity Control Advisory 
Council.
                                 ______
                                 
       Prepared Statement of the Wyoming State Engineer's Office

    Dear Chairman Dorgan and Ranking Member Domenici: This letter is 
sent in support of fiscal year 2011 funding for the Bureau of 
Reclamation's Colorado River Basin Salinity Control Project--Title II 
Program. A total of $17.5 million is requested for Reclamation's fiscal 
year 2011 activities to implement authorized Colorado River Basin 
salinity control program programs. Failure to appropriate these funds 
will directly result in significant economic damages being accrued by 
U.S. and Mexican water users.
    The State of Wyoming also supports funding for Salinity Control 
Program general investigations as requested within the Colorado River 
Water Quality Improvement Program budget line-item. It is important 
that Reclamation have properly funded planning staff in place, so that 
the program's progress can be monitored, necessary coordination among 
Federal and State agencies can be accomplished, and future projects and 
opportunities to control salinity can be properly planned. Maintaining 
the water quality standards for salinity in the Colorado River is 
essential so as to allow the seven Colorado River Basin States to 
continue to develop their compact-apportioned waters of the Colorado 
River.
    In addition to the funding identified above for the implementation 
of the most recently authorized program, the State of Wyoming urges the 
Congress to appropriate funds, as requested by the administration, to 
maintain and operate completed salinity control facilities, including 
the Paradox Valley Unit. At facilities located within the Paradox 
Valley of Colorado subsurface saline brines are collected below the 
Delores River and are injected into a deep aquifer through an injection 
well. The continued operation of this project, and the Grand Valley 
Unit, are funded primarily through the Facility Operations activity.
    The Colorado River provides municipal and industrial water for over 
30 million people and irrigation water to nearly 4 million acres of 
land in the United States. The River is also the water source for some 
2.5 million people and 500,000 acres in Mexico. Limitations on water 
users' abilities to make the greatest use of this critically important 
water supply on account of the River's high concentration of total 
dissolved solids (hereafter referred to as the salinity of the water) 
are a major concern in both the United States and Mexico. Salinity in 
water supplies affects agricultural, municipal, and industrial water 
users.
    While economic detriments and damages in Mexico are unquantified, 
the Bureau of Reclamation presently estimates direct and computable 
salinity-related damages in the United States amount to $376 million 
per year. The River's high salt content is in almost equal part due to 
naturally occurring geologic features that include subsurface salt 
formations and discharging saline springs; and the resultant 
concentrating effects of our users man's storage, use and reuse of the 
waters of the River system. Over-application of irrigation water by 
agriculture is a large contributor of salt to the Colorado River as 
irrigation water moves below the crop root zone, seeps through saline 
soils and then returns to the river system.
    The Environmental Protection Agency's interpretation of the 1972 
amendments to the Clean Water Act required the seven basin States to 
adopt water quality standards for salinity levels in the Colorado 
River. In light of the EPA's regulation to require water quality 
standards for salinity in the basin, the Governors of Arizona, 
California, Colorado, Nevada, New Mexico, Utah and Wyoming created the 
Colorado River Basin Salinity Control Forum as an interstate 
coordination mechanism in 1973. To address these international and 
regionally important salinity problems, the Congress enacted the 
Colorado River Basin Salinity Control Act of 1974. Title I addressed 
U.S. obligations to Mexico to control the River's salinity to ensure 
the U.S.A.'s water deliveries to Mexico are within the specified 
salinity concentration range. Title II of the act authorized control 
measures upstream of Imperial Dam and directed the Secretary of the 
Interior to construct several salinity control projects, most of which 
are located in Colorado, Utah, and Wyoming.
    Title II of the act was again amended in 1995 and 2000 to direct 
the Bureau of Reclamation to conduct a basin-wide salinity control 
program. This program awards grants to non-Federal entities, on a 
competitive-bid basis, which initiate and carry out salinity control 
projects. The basin-wide program has demonstrated significantly 
improved cost-effectiveness, as computed on a dollar per ton of salt 
basis, as compared to the prior Reclamation-initiated projects. The 
Forum was heavily involved in the development of the 1974 Act and its 
subsequent amendments, and continues to actively oversee the Federal 
agencies' salinity control program efforts.
    During the past 37 years, the seven-State Colorado River Basin 
Salinity Control Forum has actively assisted the Federal agencies, 
including the Bureau of Reclamation, in implementing this unique and 
important program. At its October 2009 meeting, the Forum recommended 
that the Bureau of Reclamation seek to have appropriated and should 
expend $17.5 million for Colorado River Basin salinity control in 
fiscal year 2011. We strongly believe the combined efforts of the 
salinity control efforts of the Bureau of Reclamation, Department of 
Agriculture and the Bureau of Land Management constitute one of the 
most successful Federal/State cooperative non-point source pollution 
control programs in the United States.
    The State of Wyoming greatly appreciates the subcommittee's support 
of the Colorado River Salinity Control Program in past years. We 
strongly believe this important basin-wide water quality improvement 
program merits continued funding and support by your subcommittee. 
Thank you in advance for inclusion of this letter in the formal hearing 
record concerning fiscal year 2011 appropriations.
                                 ______
                                 

                          DEPARTMENT OF ENERGY

 Prepared Statement of the State Teachers' Retirement System, State of 
                               California

                                SUMMARY

    Acting pursuant to congressional mandate, and in order to maximize 
the revenues for the Federal taxpayer from the sale of the Elk Hills 
Naval Petroleum Reserve by removing the cloud of the State of 
California's claims, the Federal Government reached a settlement with 
the State in advance of the sale. The State waived its rights to the 
Reserve in exchange for fair compensation in installments stretched out 
over an extended period of time. The State respectfully requests an 
appropriation of at least $9.7 million in the subcommittee's bill for 
fiscal year 2011, in order to meet the Federal Government's obligations 
to the State under the Settlement Agreement.

                               BACKGROUND

    Upon admission to the Union, States beginning with Ohio and those 
westward were granted by Congress certain sections of public land 
located within the State's borders. This was done to compensate these 
States having large amounts of public lands within their borders for 
revenues lost from the inability to tax public lands as well as to 
support public education. Two of the tracts of State school lands 
granted by Congress to California at the time of its admission to the 
Union were located in what later became the Elk Hills Naval Petroleum 
Reserve.
    The State of California applies the revenues from its State school 
lands to assist retired teachers whose pensions have been most 
seriously eroded by inflation. California teachers are ineligible for 
Social Security and often must rely on this State pension as the 
principal source of retirement income. Typically the retirees receiving 
these State school lands revenues are single women more than 75 years 
old whose relatively modest pensions have lost as much as half or more 
of their original value to inflation.

            STATE'S CLAIMS SETTLED, AS CONGRESS HAD DIRECTED

    In the National Defense Authorization Act for fiscal year 1996 
(Public Law 104-106) that mandated the sale of the Elk Hills Reserve to 
private industry, Congress reserved 9 percent of the net sales proceeds 
in an escrow fund to provide compensation to California for its claims 
to the State school lands located in the Reserve.
    In addition, in the act Congress directed the Secretary of Energy 
on behalf of the Federal Government to ``offer to settle all claims of 
the State of California . . . in order to provide proper compensation 
for the State's claims.'' (Public Law 104-106, Sec. 3415). The 
Secretary was required by Congress to ``base the amount of the offered 
settlement payment from the contingent fund on the fair value for the 
State's claims, including the mineral estate, not to exceed the amount 
reserved in the contingent fund.'' (Id.)
    Over the year that followed enactment of the Defense Authorization 
Act mandating the sale of Elk Hills, the Federal Government and the 
State engaged in vigorous and extended negotiations over a possible 
settlement. Finally, on October 10, 1996 a settlement was reached, and 
a written Settlement Agreement was entered into between the United 
States and the State, signed by the Secretary of Energy and the 
Governor of California, under which the State would receive 9 percent 
of the sales proceeds in annual installments over an extended period.
    The Settlement Agreement is fair to both sides, providing proper 
compensation to the State and its teachers for their State school lands 
and enabling the Federal Government to maximize the sales revenues 
realized for the Federal taxpayer by removing the threat of the State's 
claims in advance of the sale.

   FEDERAL REVENUES MAXIMIZED BY REMOVING CLOUD OF STATE'S CLAIM IN 
                          ADVANCE OF THE SALE

    The State entered into a binding waiver of rights against the 
purchaser in advance of the bidding for Elk Hills by private 
purchasers, thereby removing the cloud over title being offered to the 
purchaser, prohibiting the State from enjoining or otherwise 
interfering with the sale, and removing the purchaser's exposure to 
treble damages for conversion under State law. In addition, the State 
waived equitable claims to revenues from production for periods prior 
to the sale. The Reserve thereafter was sold for a winning bid of $3.53 
billion in cash, a sales price that substantially exceeded earlier 
estimates.

   CONGRESS SHOULD APPROPRIATE $9.7 MILLION FOR THE FISCAL YEAR 2011 
                 INSTALLMENT OF ELK HILLS COMPENSATION

    The State's 9 percent share of the adjusted Elk Hills sales price 
of $3.53 billion is $317.70 million. To date, Congress has appropriated 
seven installments of $36 million and one installment of $48 million 
that was reduced to $47.52 million by the 1 percent across-the-board 
rescission under the fiscal year 2006 Defense Appropriations Act, for 
total appropriations to date of $299.52 million of Elk Hills 
compensation owed to the State. Accordingly, the Elk Hills School Lands 
Fund should have a positive balance of at least $18.18 million.
    In the past, Department of Energy personnel have proffered 4 
purported grounds for suspending further payments of Elk Hills 
compensation to the State. Each of these is a ``red herring'':
    Red Herring No. 1.--Finalization of respective equity shares of 
Federal Government and ChevronTexaco as selling co-owners of Elk Hills 
oil field still not completed. The administration's fiscal year 2011 
budget request states that ``the timing and levels of any future budget 
request (for Elk Hills compensation) are dependent on the schedule and 
results of the equity finalization process'' between the Federal 
Government and ChevronTexaco to determine the relative production over 
the years from their respective tracts in the Elk Hills field. (fiscal 
year 2011 budget appendix, at p. 435). But DOE already has held back 
$67 million, including $6.03 million from the State's share, to protect 
the Federal Government's interests in a ``worst case scenario'' for 
this equity process. The State has agreed to a ``hold-back'' of that 
amount to protect the Federal Government's interest. This reduces the 
available balance in the Elk Hills School Lands Fund to $12.15 million. 
In addition, DOE's fiscal year 2011 budget request detail states that 
the equity determination is in its final stages: ``Of the four 
applicable zones (in Elk Hills), the Dry Gas Zone and Carneros Zone are 
finalized. The Office of Hearings and Appeals is asking for additional 
briefs from both parties before rendering their decision on the Stevens 
Zone (the largest in Elk Hills). A final recommendation for the Shallow 
Zone is pending.'' (p. 754). Accordingly, remaining uncertainty in the 
equity process thus provides no basis for withholding further payment 
of the State's Elk Hills compensation.
    Red Herring No. 2.--There is no money left in the Elk Hills School 
Lands Fund right now. The administration's fiscal year 2011 budget 
request states: ``Under the Act (that mandated the sale of Elk Hills), 
9 percent of the net proceeds were reserved in a contingent fund in the 
Treasury for payment to the States. . . . Under the settlement 
agreement, $300 million has been paid to the State of California.'' 
(fiscal year 2011 budget appendix, at p. 435). The fiscal year 1999 
budget request at the time of the sale notes that $324 million was 
deposited into the Elk Hills School Lands Fund. (fiscal year 1999 
budget appendix, at pp. 378-9). A post-sale adjustment to the Elk Hills 
sales price reduced this amount to $317.7 million. Accordingly, after 
deducting the $300 million in payments to the State to date and the $6 
million hold-back to protect the Federal Government's interests in the 
``worst case'' scenario for the equity process, the Elk Hills Fund has 
ample funds available for appropriation of a further payment of 
compensation to the State.
    Red Herring No. 3.--No payment can be made to the State because of 
pending litigation between ChevronTexaco and DOE. DOE has pointed to 
pending litigation brought by ChevronTexaco against DOE in the U.S. 
Court of Federal Claims (Docket No. 04-1365C) as a reason to suspend 
further payments to the State. This litigation alleges DOE personnel 
committed misconduct in the equity finalization process by having 
improper ex parte contacts and having the same DOE staff serve as both 
advocate for DOE's position and advisor preparing the decision 
documents for the decisionmaker. However, the California State Attorney 
General has analyzed this litigation and advised that this litigation 
is a claim for money damages for DOE staff misconduct that has no 
effect on the Federal Government's equity share, and so there is no 
effect on the State's share of compensation. Indeed, under the 
governing agreement between DOE and Chevron, Chevron had waived any 
right to contest the final equity determination in court. In any event, 
the trial in this litigation was completed at the end of 2009, and a 
decision is expected by Spring.
    Hence this litigation provides no basis for withholding the rest of 
the State's compensation.
    Red Herring No. 4.--No payment can be made to the State because the 
State's share must be reduced by the equity finalization costs and 
environmental remediation costs and the final amount of such costs is 
not yet known. The State's share of compensation is properly reduced by 
the ``direct costs of sale'' as required by Congress. Since the sale 
took place over a decade ago, those costs are fixed and known. The 
State has agreed to bear its share of these sales expenses. However, 
DOE is seeking to charge against the State's share two additional 
categories of costs--costs of determining the equity ownership and 
environmental remediation--that constitute ongoing costs of operating 
the oil field, not sales expenses. The California State Attorney 
General advises that these do not properly constitute sales expenses 
chargeable against the State's share.
    More specifically, the Settlement Agreement between the Federal 
Government and the State provides that the Federal Government shall pay 
the State ``9 percent of the proceeds from the sale of the Federal Elk 
Hills Interests that remain after deducting from the sales proceeds the 
costs incurred to conduct such sale.'' This reflects the congressional 
direction that, ``In exchange for relinquishing its claim, the State 
will receive 7 (9 in the final legislation) percent of the gross sales 
proceeds from the sale of the Reserve that remain after the direct 
expenses of the sale are taken into account.'' (House Rept. No. 104-
131, Defense Authorization Act for fiscal year 1996, Public Law 104-
106).
    The State has agreed that the $27.13 million incurred for 
appraisals, accounting expenses, reserves report, and brokers' 
commission are appropriate sales expenses. Accordingly, the State's 9 
percent share of these proper sales expenses reduces the available 
balance of the Elk Hills School Lands Fund by $2.44 million to $9.7 
million.
    Costs of conducting the equity adjustment are properly viewed as 
ongoing costs incurred due to the joint operation of the Elk Hills oil 
field by the Federal Government and ChevronTexaco, since the equity 
adjustment already was required under their joint operating agreement 
and related to pre-sale production revenues. Similarly, costs of 
environmental remediation of the Elk Hills field was a cost 
attributable to the prior operation of the field, which created any 
environmental problems that exist. The ongoing operational nature of 
this cost is underscored by the fact that the Federal Government is 
currently engaged in the phased environmental remediation of a Naval 
Petroleum Reserve that it is not selling--NPR-3 (Teapot Dome), as 
evidenced by the fiscal year 2011 budget request.
    In conclusion, of the current Elk Hills School Lands Fund balance 
of $18.18 million, taking into account the ``hold-back'' for worst case 
scenario under equity finalization and deducting the appropriate direct 
costs of conducting the sale, the State respectfully requests the 
appropriation of at least $9.7 million for Elk Hills compensation in 
the subcommittee's bill for the fiscal year 2011 installment of 
compensation, in order to meet the Federal Government's obligations to 
the State under the Settlement Agreement.
                                 ______
                                 
         Prepared Statement of Precision Custom Components, LLC

    Dear Mr. Chairman and ranking member: Precision Custom Components, 
LLC (PCC), located in York, PA, is a manufacturer of custom fabricated 
pressure vessels, reactors, casks, and heavy walled components for the 
nuclear power industry and U.S. Navy. Since 1876 the company has made 
large industrial turbines, nuclear reactor internals for the first 
commercial nuclear power plant in Shippingport, PA, and spent nuclear 
fuel shipping casks for the Navy and commercial power plants. In sum, 
PCC has been an integral part of the U.S. manufacturing base for well 
over a century.
    The President's request for $38.8 million for research, development 
and demonstration of small, modular nuclear power reactors is a modest 
but well thought out program involving both public and private 
investments. This request for funding is coming at just the right time 
when engineering and design firms have presented credible new reactor 
designs that are well within the capabilities of the U.S. manufacturing 
industry, including PCC. But it is the time consuming and costly 
regulatory review process at the NRC where joint Federal-private 
assistance is needed.
    The benefits of small, modular nuclear reactors are well 
documented; from creating U.S. jobs, to creating new sources of carbon-
free baseload power, to improving the financial risk otherwise 
associated with larger power plants. These innovations will also 
incorporate some of the latest safety features and proliferation 
resistant technologies bringing additional public benefits and export 
opportunities.
    If you could make this correspondence part of the record for 
outside witness testimony PCC would like to be on record as supporting 
the President's budget request for $38.8 million for the Department of 
Energy's small, modular reactor program in fiscal year 2011, including 
and encompassing light water reactor (LWR) based designs and other 
technologies.
                                 ______
                                 
   Prepared Statement of the National Insulation Association and the 
   International Association of Heat and Frost Insulators and Allied 
                                Workers

  FEDERAL FUNDING FOR MECHANICAL INSULATION WILL CREATE SHOVEL READY, 
     GREEN ENERGY JOBS ALL WHILE SAVING ENERGY AND PROTECTING THE 
                              ENVIRONMENT

    Chairman Dorgan, Ranking Member Bennett, and members of the 
Subcommittee on Energy and Water Development, on behalf of the National 
Insulation Association (NIA) and the International Association of Heat 
and Frost Insulators and Allied Workers (International Union), we are 
writing in support of a programmatic increase to $3.5 million in fiscal 
year 2011 for the Department of Energy's Industrial Technologies 
Program specifically for a national mechanical insulation education and 
awareness program.
    NIA represents 95 percent of the products utilized in the 
mechanical insulation industry, with members across the country at 800 
corporate locations, and the International Union represents more than 
25,000 workers and families employed in the mechanical insulation 
sector across the country. Together, our members, of which the vast 
majority are small businesses, have more than a century-long track 
record of providing large- and small-scale, long-term energy 
efficiency, emissions reductions, cost savings, and safety benefits at 
manufacturing facilities, power plants, refineries, hospitals, 
universities, and government buildings across the country.
    We have joined together to advocate for a national comprehensive 
advocacy program for increased use, maintenance, and retrofits of 
mechanical insulation in the commercial and industrial sectors because 
of its potential to create tens of thousands of jobs now, reduce carbon 
emissions, increase energy savings, and provide a safer working 
environment.
    Buildings are responsible for 40 percent of U.S. energy demand and 
40 percent of all greenhouse gas emissions, making efficiency gains in 
this area crucial if we are to markedly reduce America's energy 
consumption and effectively combat climate change. The industrial 
sector is similar in energy efficiency opportunities. At the 
residential level, insulation is well publicized for its efficiency 
benefits. However, the same cannot be said in the commercial and 
industrial sectors, which together consume 2\1/2\ times more energy 
than homes, according to the Energy Information Administration. 
Commercial and industrial insulation--collectively known as mechanical 
insulation--has the potential to slash the energy demand for the 
building and industrial sector.
    Congress has already signaled its support for a mechanical 
education and awareness program through both the appropriations and 
authorization process. Congress directed $500,000 be allocated in the 
Department of Energy's budget for a mechanical insulation education and 
awareness campaign in the fiscal year 2010 Energy and Water 
Appropriations bill (Public Law 111-85). This funding was a critical 
start, and we thank members of the Appropriations Committee for 
recognizing the value of this program, but more is needed to carry out 
a successful campaign. Further evidence of Congress' support for such a 
program is the inclusion of language to authorize a 5-year, $3.5 
million a year national industrial energy efficiency education and 
training initiative focused on mechanical insulation in H.R. 2454, the 
American Clean Energy and Security Act of 2009 (section 275, page 521).
    By increasing awareness and use of this energy-saving technology, 
Congress will both create jobs now and reduce carbon emissions. 
Creating jobs, particularly green jobs, is a top priority for Congress 
and the administration. Using government data, NIA conservatively 
estimates that maintenance of insulation at industrial facilities and 
going beyond minimum levels in new construction can generate $4.8 
billion in energy savings per year, reduce 43 million metric tons of 
carbon dioxide and other greenhouse gas emissions, and create 89,000 
jobs annually.
    Best of all, these jobs don't require additional research and 
development. Mechanical insulation opportunities can be easily 
identified, with potential energy savings and emissions reduction 
determined with proven DOE-utilized software technology, and in many 
applications implemented in weeks, making projects truly shovel-ready.
    For facility owners and operators, the savings are swift and last 
for many years; the return on investment from mechanical insulation is 
typically less than 2 years (and sometimes as little as 6 months). 
Mechanical insulation also improves infrastructure in the public, 
educational, and health-care sectors, among others.
    Fiscal year 2010 funding for mechanical insulation education 
programs is insufficient to make an economic impact in the industrial 
and commercial sector through energy savings, emissions reduction, and 
job creation. Increased funding from Congress in fiscal year 2011 would 
enable Federal agencies and industry partners to gather more data, work 
with engineering schools, and reach out to facility managers and 
owners, engineering and design professionals, and others to educate 
them about the benefits of increasing their focus on the benefits of 
mechanical insulation technology. Congressional funding would also 
ensure the promotion of the most energy-efficient uses of mechanical 
insulation in new construction, increased education about the energy 
savings that can be realized through proper maintenance and a renewed 
focus on retrofitting mechanical insulation in older buildings and 
manufacturing facilities that together will generate substantial carbon 
emissions reductions and sustainable jobs.
    NIA and the International Union have cumulatively contributed $3.0 
million in developing and beginning the implementation of the campaign 
and are committed to matching the fiscal year 2011 funding to a 
$500,000 level. As such, we have outlined program elements for a 
comprehensive, persuasive awareness campaign to engage and motivate 
industrial and commercial decisionmakers to take action.
    Elements of the program would include:
  --Develop curriculum and conduct NIA-led educational sessions
  --Utilize web-based information for educational programs
  --Provide educational programs at industry and government conferences 
        and workshops
  --Implement awareness and educational marketing and advertising 
        campaign
  --Develop needed data and seek media coverage of success stories and 
        the facts
  --Engage NIA and Union members and other allies to actively support 
        the campaign
    NIA, its members, and the International Union are committed to 
working with Congress, the Department of Energy, other Federal 
agencies, and key stakeholder groups on these and other initiatives 
that will lead to greater energy efficiency nationwide. We have formed 
alliances with engineering and other industry trade organizations and 
have offered to work with the Department of Energy to bring together a 
coalition to help develop, implement, and provide educational awareness 
programs established and funded by Congress.
    Thank you for the opportunity to submit testimony in support of a 
program that is critical to job creation, economic growth, energy 
savings, and emissions reductions.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists

    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this statement for the official record to support the requested 
level of $5.12 billion for the Department of Energy's Office of Science 
for fiscal year 2011. The testimony highlights the importance of 
biology, particularly plant biology, as the Nation seeks to address 
vital issues including climate change and energy security. We would 
also like to thank the subcommittee for its consideration of this 
testimony, for its strong support for the basic research mission of the 
Department of Energy's Office of Science, and for recognizing that 
funding for the Office of Science is an investment in America's future.
    ASPB is an organization of more than 5,000 professional plant 
biologists, educators, graduate students, and postdoctoral scientists. 
A strong voice for the global plant science community, our mission--
which is achieved through engagement in the research, education, and 
public policy realms--is to promote the growth and development of plant 
biology and plant biologists and to foster and communicate research in 
plant biology. The Society publishes the highly cited and respected 
journals Plant Physiology and The Plant Cell, and it has produced and 
supported a range of materials intended to demonstrate fundamental 
biological principles that can be easily and inexpensively taught in 
school and university classrooms by using plants.

  FOOD, FUEL, CLIMATE CHANGE, AND HEALTH--PLANT BIOLOGY RESEARCH AND 
                            AMERICA'S FUTURE

    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are almost always the primary 
producers in the Earth's ecosystems. Indeed, plant biology research is 
making many fundamental contributions in the areas of fuel security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of basic biological principles that underpin improvements in the health 
and nutrition of all Americans. To go further, plant biology research 
can help the Nation both predict and prepare for the impacts of climate 
change on American agriculture, and it can make major contributions to 
our Nation's efforts to combat global warming.
    In particular, plant biology is at the center of numerous 
scientific breakthroughs in the increasingly interdisciplinary world of 
alternative energy research. For example, interfaces among plant 
biology, engineering, chemistry, and physics represent critical 
frontiers in both basic biofuels research and bioenergy production. 
Similarly, with the increase in plant genome sequencing and functional 
genomics, the interface of plant biology and computer science is 
essential to our understanding of complex biological systems ranging 
from single cells to entire ecosystems.
    Despite the fact that plant biology research--the kind of research 
funded by the DOE--underpins so many vital practical considerations for 
our country, the amount invested in understanding the basic function 
and mechanisms of plants is relatively small when compared with the 
impact it has on multibillion dollar sectors of the economy like energy 
and agriculture.

                            RECOMMENDATIONS

    ASPB is in an excellent position to articulate the Nation's plant 
science priorities as they relate to bioenergy and, specifically, with 
regard to recommendations for bioenergy research funding through the 
Department of Energy's Office of Science. Our recommendations, in no 
particular order, are as follows:
  --We commend the DOE Office of Science, through their Divisions of 
        Basic Energy Sciences (BES) and Biological and Environmental 
        Research (BER) for funding the Bioenergy Research Centers (BER) 
        and the Energy Frontier Research Centers (BES). Although these 
        efforts are well designed and a significant step forward, these 
        large centers will not have a monopoly on good ideas. 
        Therefore, ASPB strongly encourages the appropriation of 
        additional funds for the DOE Office of Science that would be 
        specifically targeted to the funding of individual or small 
        group grants for bioenergy research.
  --The DOE Office of Science is the primary funding agency for 
        physical science research. Past experience teaches us that many 
        major scientific and technical breakthroughs occur at the 
        interface between traditional scientific disciplines. Indeed, 
        the importance of disciplinary integration is a central theme 
        of the recent National Research Council report ``A New Biology 
        for the 21st Century: Ensuring the United States Leads the 
        Coming Biology Revolution.'' Therefore, ASPB recommends 
        appropriations that would specifically target the interface 
        between plant biology and the physical sciences to encourage 
        multidisciplinary and cross-disciplinary research that would 
        address significant problems in bioenergy research.
  --Photosynthetic research is one clear example of an interface 
        between the physical sciences and biology. The DOE Office of 
        Science has been the major source of funds for fundamental 
        studies of photosynthesis, which is the primary source of 
        chemical energy on the planet. After all, fossil fuels are just 
        photosynthetic energy that was trapped eons ago and converted 
        through natural processes into the forms in which we use it 
        today. However, the current funding available for 
        photosynthetic research is not commensurate with the central 
        role that photosynthesis plays in energy capture and carbon 
        sequestration. Hence, ASPB calls for an increase in 
        appropriations to the Office of Science to expand its research 
        portfolio in the area of photosynthesis and carbon capture.
  --There are significant questions that must be answered as to how 
        climate change will impact food production and the environment. 
        There are also clear opportunities to use biological systems to 
        ameliorate climate change, such as through carbon sequestration 
        or modification of plants to resist environmental stress. 
        Therefore, ASPB calls for additional funding focused on studies 
        of the effect of climate change on agricultural cropping 
        systems, basic studies of effects on plant growth and 
        development, and targeted research focused on modification of 
        plants to resist climate change and for use in carbon 
        sequestration.
  --Current estimates predict a significant shortfall in the needed 
        scientific and engineering workforce in the energy area. Given 
        the expected need for additional scientists and engineers who 
        are well-grounded in interdisciplinary research and development 
        activities, ASPB applauds DOE's Early Career Research Program 
        and calls for additional funding of specific programs (e.g., 
        training grants) that are targeted to provide this needed 
        workforce over the next 10 years and to adequately prepare them 
        for careers in the interdisciplinary energy research of the 
        future. It should be noted that this recommendation is also 
        directly in-line with the above mentioned ``New Biology'' 
        report from the NRC.
  --Computational biology is a relatively new discipline that arose 
        from the interface of computer science and biology. These new 
        technologies and approaches provide the only means by which 
        these large biological datasets can be integrated and mined for 
        new, relevant biological knowledge. Therefore, as discussed in 
        item 2 above, ASPB calls for additional funding that would 
        target this interface between biology and computer science. 
        Specifically, we call for additional funding to develop 
        computational platforms to develop a systems-level view of 
        biology through the integration of data obtained from a variety 
        of functional genomics approaches. This is clearly a ``grand 
        challenge'' that is currently limiting the utility of this 
        information. The above mentioned NRC report reinforces this 
        point through the recommendation that ``priority be given to 
        the development of new information technologies.'' One means to 
        address this need would be to expand the BER KnowledgeBase 
        initiative that is now only a pilot program.
  --Considerable research interest is now being paid to the use of 
        plant biomass for energy production. If biomass crops are to be 
        used to their full potential, however, considerable effort must 
        be expended to improve our understanding of their basic biology 
        and development, as well as their agronomic performance. 
        Therefore, ASPB calls for additional funding that would be 
        targeted to efforts to increase the utility and agronomic 
        performance of bioenergy crops.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists. Please do not hesitate to contact 
the American Society of Plant Biologists if we can be of any assistance 
in the future.
                                 ______
                                 
      Prepared Statement of the National Mining Association (NMA)

    Excess Uranium Sale.--Under current law, the Department of Energy 
(DOE) can sell excess Government uranium inventories only after a 
Secretarial Determination that such sales or transfers (1) will not 
adversely impact the domestic uranium mining, conversion or enrichment 
industries and (2) will obtain fair market value for such sale or 
transfer. In December 2008, after obtaining a consensus agreement from 
the nuclear industry, DOE published a plan to manage the sale or 
transfer of excess Government uranium inventories. Critical to the plan 
were (1) gradually ramped up sales in the early years of the plan (2) 
sales of initial cores for new domestic reactors and (3) the 
establishment of an emergency reserve for current nuclear reactors. In 
July 2009, DOE announced plans to not follow the plan and to use 
uranium barter transactions to fund accelerated cleanup of the 
Portsmouth Ohio Enrichment Plant. Last year, the Energy and Water 
Appropriations members responded to DOE's proposal and directed GAO to 
evaluate the Department's management of the excess uranium inventories. 
The members also increased funding for the Portsmouth cleanup. Over the 
domestic mining industry's objections and USEC's acknowledgment that 
DOE's proposal would adversely impact the uranium market, DOE initiated 
the barter transaction with USEC in the fourth quarter of 2010. The 
current budget request for Portsmouth cleanup will remove the need for 
adverse excess uranium sales, allow DOE to follow its management plan, 
and accelerate cleanup reducing the total amounts required to complete 
cleanup of the site.
    Loan Guarantee Program.--NMA was pleased to see the DOE move 
forward in its request for additional authorizations for the title XVII 
loan guarantee program. We firmly believe that this program, in 
conjunction with other Federal financial incentives, can be used to 
encourage the development of clean energy sources. We are however 
concerned that the additional authorizations did not include all clean 
energy sources such as coal with advanced technologies and carbon 
capture and sequestration. Given the substantial role coal plays in our 
energy mix, we encourage the Department of Energy to include them as 
they continue to advance funding mechanisms for other clean energy 
sources.

Office of Fossil Energy
    Background.--NMA is disappointed that the U.S. Department of Energy 
(DOE) fiscal year 2011 request severely reduced the overall fossil 
energy budget, with steep declines in funding for coal programs. While 
we recognize that the economic stimulus package enacted last year 
included demonstration project and Clean Coal Power Initiative funding, 
we do not believe that such funding justifies the 20 percent cut to all 
fossil energy programs, in the fiscal year 2011 budget request. 
Reductions of this magnitude will compromise advances in clean coal and 
carbon capture and sequestration efforts. Such cuts also jeopardize 
future funding of the projects by forcing them to continually rely on 
supplemental spending bills. We would encourage the administration to 
submit line item requests for these programs through the regular budget 
process. In providing greater budgeting stability these programs will 
be better equipped to achieve their intended goals within a timely 
manner.
  --NMA fully supports and urges maximum funding for carbon capture and 
        storage (CCS) projects that avoid, reduce or store air 
        pollutants and greenhouse gases while contributing long-term 
        economic growth and international competitiveness. Substantial 
        Federal funding for continued research, development and 
        demonstration of CCS technologies will be required before CCS 
        can be applied to large-scale commercial power plants. The 
        construction and operation of near-zero emission and low carbon 
        projects, such as the proposed FutureGen project in Mattoon, 
        Illinois are indispensable to demonstrate that the technology 
        necessary to meet domestic energy demands of the 21st century 
        are available on a commercial scale. NMA strongly supports the 
        recent agreement between the DOE and the FutureGen Alliance to 
        proceed with a reconfigured carbon capture and storage energy 
        facility at Mattoon, Illinois. We support the $1 billion from 
        the American Recovery and Reinvestment Act for use in this 
        endeavor along with the $800 million for the Clean Coal Power 
        Initiative (CCPI). Although CCPI received the necessary funding 
        to complete solicitations for the third round of the program, 
        we believe additional funding is necessary to meet the 
        administration's programmatic goal of wide scale CCS deployment 
        by 2016. The number of large scale commercial demonstration 
        projects that are currently underway is insufficient to meet 
        this deadline. We remain concerned that DOE continues to not 
        request any funding for large scale applications of CCS 
        technology as has been the case in fiscal year 2010 and fiscal 
        year 2011. NMA encourages DOE to provide support for a strong 
        domestic CCS program and to initiate a CCPI Round 4 program.
  --Funding for basic research and development of new, innovative clean 
        coal technologies is necessary to continue the progress made 
        over the last 35 years. Regulated emissions from coal-based 
        electricity generation have decreased by nearly 40 percent 
        since the 1970s, while the use of coal has tripled. Well-funded 
        basic coal research by DOE and clean coal technology 
        demonstrations undertaken by DOE-private sector partnerships 
        will continue this significant progress in energy production 
        and environmental improvement. Technological advancements 
        achieved in the base coal research and demonstration programs 
        such as gasification, advanced turbines and carbon 
        sequestration provide the component technologies that will 
        ultimately be integrated into the FutureGen project as recently 
        reconfigured. NMA supports funding several of these programs at 
        levels higher than the President's request, specifically $80 
        million for IGCC/gasification (DOE's requested amount: $55 
        million), $45 million for advanced combustion (DOE's request 
        does not include direct funding) and $31 million for advanced 
        turbines (DOE's request: $31 million). We are, however, pleased 
        that DOE provides nearly $143 million for the Carbon 
        Sequestration Research & Development program and Carbon 
        Sequestration Injection Tests combined. We hope that DOE will 
        work with industry to identify specific programmatic activities 
        and funding for these programs. The increase in funding for 
        these and other programs will ensure that the FutureGen project 
        meets the intended goals outlined in DOE's 2004 report to 
        Congress, ``FutureGen, Integrated Sequestration and Hydrogen 
        Research Initiative--Energy Independence through Carbon 
        Sequestration and Hydrogen from Coal.''
  --In addition, NMA recommends $3 million of funding for the Center 
        for Advanced Separation Technologies (CAST), which is a 
        consortium of seven universities lead by Virginia Tech. CAST 
        has developed many advanced technologies that are used in 
        industry to produce cleaner fuels in an environmentally 
        acceptable manner, with some having cross-cutting applications 
        in the minerals industry.

Coal Tax Provisions
    NMA objects to the fiscal year 2011 budget singling out coal mining 
for $2.3 billion worth of tax increases. U.S. coal producers play an 
integral role in fostering the Nation's continued economic prosperity 
by meeting much of America's growing energy needs. To maintain 
affordable energy prices and preserve jobs, Congress should reject 
these unwarranted proposals to eliminate longstanding tax rules 
affecting coal mining.
    NMA does not support the administration's proposal to eliminate the 
capital gains treatment of coal and lignite royalties. Under current 
law, royalties received on the disposition of coal or lignite generally 
qualify for treatment as long-term capital gain, and the royalty owner 
does not qualify for percentage depletion with respect to the coal or 
lignite. The fiscal year 2011 budget proposes to repeal the capital 
gain treatment of coal and lignite royalties and to tax those royalties 
as ordinary income. There is no tax policy reason to single out coal 
royalties for changes to the capital gains rules.
    NMA does not support the administration's proposal to eliminate the 
domestic manufacturing deduction. Under current law, a deduction is 
allowed with respect to income attributable to domestic production 
activities (the manufacturing deduction). The fiscal year 2011 budget 
proposes to repeal the manufacturing deduction for gross receipts 
derived from the sale, exchange or other disposition of coal, other 
hard mineral fossil fuels, or a primary product thereof. Present law 
should be retained as Congress enacted an across-the-board domestic 
manufacturing deduction in order to reduce the effective corporate 
income tax rate on domestic manufacturing activities and preserve U.S. 
manufacturing jobs.
    NMA does not support the administration's proposal to eliminate the 
present law tax-expensing of coal exploration costs. Under current law, 
taxpayers may elect to expense (i.e., deduct in the year the costs are 
incurred) mining exploration and development costs with respect to 
domestic ore and mineral deposits. The fiscal year 2011 budget proposes 
to repeal expensing and 60-month amortization of exploration and 
development costs relating to coal and other hard mineral fossil fuels. 
The expensing of coal mining exploration costs is part of the current 
calculation for appropriately measuring taxable income from coal and 
other mining operations. That appropriate measurement of taxable income 
under present law should not be changed as a way of increasing taxes on 
the coal industry.
    NMA does not support the administration's proposal to eliminate the 
percentage depletion tax-deduction for mining activities. Under current 
law, the capital costs of mines are recovered through the depletion tax 
deduction. Under the percentage depletion method, the amount of the 
deduction is a statutory percentage of the gross income from the mining 
property. The fiscal year 2011 budget proposes to repeal percentage 
depletion with respect to coal and other hard mineral fossil fuels. The 
percentage depletion deduction is part of the current calculation for 
appropriately measuring taxable income from coal and other mining 
operations. Coal mining requires significant financial commitments to 
long-term projects to deliver a reasonably priced product. Enormous 
amounts of capital must be expended at the front end of coal mining 
projects to realize future returns. With such sizable capital costs, 
cost recovery through percentage depletion has a significant effect on 
the margins and prices at which coal can be profitably sold.

   U.S. ARMY CORPS OF ENGINEERS--REGULATORY AND CIVIL WORKS PROGRAMS

    Background.--The U.S. Army Corps of Engineers' (Corps) Regulatory 
Branch plays a key role in the U.S. economy through the Corps annual 
authorizations of approximately $200 billion of economic activity 
through its regulatory program. NMA supports the inclusion of language 
directing the Corps to dedicate sufficient personnel and financial 
resources needed to support an efficient permit review process. We 
remain concerned about the backlog of surface coal mining permits and 
encourage the Corps to utilize this increased funding expeditiously to 
address this issue as outlined in their statutory authority.
Regulatory Program
    NMA supports increased funding for administering the Corps' Clean 
Water Act (CWA) section 404 permit program. We encourage the Corps to 
utilize this funding to address the backlog of surface coal mining 
permits and to devise a more efficient permitting program.
Civil Works Programs
    NMA opposes the Corps' proposed concept of a new inland waterways 
``lockage fee/tax,'' which would replace the current diesel fuel tax to 
fund improvements to the Nation's inland waterways system. A lockage 
tax would more than double the taxes paid by the towing industry. The 
coal industry ships approximately 185 million short tons of coal 
annually on the inland waterways systems, therefore the cost of a new 
tax will ultimately be borne by the consumers of coal-fueled 
electricity. NMA opposes such a tax increase and urges Congress to 
reject this proposal.
                                 ______
                                 
                   Prepard Statement of Avalence, LLC

    Dear Senator Dorgan and Senator Bennett: I am writing to request 
that you fund DOE Hydrogen and Fuel Cell program at the level of 
support being requested by the National Hydrogen Association and the 
U.S. Fuel Cell Council:

          INDUSTRY PROPOSED DOE HYDROGEN AND FUEL CELL FUNDING
                        [In millions of dollars]
------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
EERE Programs...........................................           220.0
Fossil Energy Programs..................................           118.8
Nuclear Energy Programs.................................             8.5
Science Programs........................................            38.0
                                                         ---------------
      Total.............................................           390.0
------------------------------------------------------------------------

    Avalence is a producer of high-pressure hydrogen generators that 
use solar, wind and other renewable energy to make local, sustainable, 
and emissions-free hydrogen fuel for fuel cell and other hydrogen 
vehicles. Avalence is manufacturing hydrogen fueling stations, many of 
which are powered by renewable energy to create completely local, zero 
emissions fuel.
    The hydrogen economy is starting to happen. At a recent U.S. Senate 
briefing, representatives from major automotive companies like GM and 
Daimler reaffirmed their companies' commitment to producing commercial 
hydrogen fuel cell vehicles by 2015. Several countries such as Germany 
and Japan have hydrogen infrastructure plans in place. DOE development 
and commercialization funding for hydrogen and fuel cells leverages the 
billions of dollars already invested in FCVs by the global automotive 
industry--at the very moment in time that they are deploying the first 
fleets of vehicles and are seeking the hydrogen infrastructure needed 
to bring their vehicles to market.
    New hydrogen production technologies are a critical part of the 
portfolio of clean energy solutions that are emerging to address the 
decline in global oil reserves. Development of advanced hydrogen 
production technologies is being spearheaded throughout the Nation by 
many pioneering small businesses such as Avalence, LLC--small, high 
tech firms with exciting clean energy solutions. Our national energy 
security and the strength of our economy in the new energy age will 
benefit most from a robust national portfolio of hydrogen generating 
technologies that includes not only hydrogen production from fossil 
fuels, but also distributed generation of hydrogen from grid 
electricity and green hydrogen from solar, wind and other renewable 
energy sources.
                                 ______
                                 
Prepared Statement of Cynthia Ramseur, Member, Gulf Coast Conservation 
                 Coalition and Gulf Restoration Network

    Summary of My Testimony.--As I understand it, the Senate 
subcommittee is receiving comments through April 1 regarding the energy 
budget. I was pleased to learn that the President's proposed budget 
does not include funds for studies, investigations or land acquisitions 
for the DOE's proposed Richton Salt Dome Strategic Petroleum Reserve. I 
am writing to ask that you uphold the President's budget request 
regarding the Richton proposal. I sincerely ask that you disallow any 
last-minute requests to add a budget line item for further expenditures 
regarding the proposed Richton SPR. If I understand correctly, over $80 
million have already been spent to date on investigations and studies 
regarding the project: I do not want the Federal Government to continue 
``throwing good money after bad money''.
    Full Testimony.--I am one of 400 plus people who stood up in a 
public hearing on April 10, 2008 in Pascagoula, Mississippi and opposed 
the development of a strategic petroleum reserve at Richton, 
Mississippi. Since that time, the coalition of individuals and 
organizations opposing the project has grown--yet we can not get 
consistent information about the DOE's continued interest in the 
proposed Richton SPR or information about the status of the NEPA 
process.

                        RICHTON PROJECT TIMELINE

    At the April 2008 public hearing DOE announced plans for the 
Richton Strategic Petroleum Reserve 3 days after Hurricane Katrina (Aug 
2005).
    DOE held public hearings for the project in Jackson during the 3-
month period after Katrina.
    DOE presented the plan to Congress in June 2007.
    DOE released EIS in fall of 2007 with construction to begin in 
January 2008.
    At the urging of local concerned citizens, Congressman Gene Taylor 
obtained a pause and public hearings were held in April 2008.
    Supplemental EIS was to be released in June 2008 but was delayed 
until August 2008.
    Supplemental EIS scheduled for release in August was delayed again 
without notice of reschedule.
    Current status?
    I am pleased to learn that funding for the Richton SPR is not 
included in the President's proposed budget; however, I am writing to 
ask that you continue to withhold funding for the proposed SPR at 
Richton disallowing any requests to add in a line item at the last 
minute. If I understand correctly over $80 million have been spent to 
date on investigations and studies regarding the DOE's proposal. I do 
not want the Federal Government to continue ``throwing good money after 
bad money.'' The major problems identified in the initial Environmental 
Impact Statement remain: DOE failed to adequately examine the economic 
and environmental effects of the proposed project. If I understand 
correctly over $80 million have been spent to date on investigations 
and studies regarding the DOE's proposal.
    The proposed SPR expansion at Richton, Mississippi was ill-
conceived, ill-advised and technically flawed. The NEPA process was a 
waste of taxpayer money. Note: The facts and figures presented here 
were collected by a coalition of citizens and organizations led by Gulf 
Coast Conservation Coalition and Gulf Restoration Network; the 
information comes directly from the Department of Energy SPR Web site 
at www.fossil.energy.gov/programs/reserves/.
       the richton spr expansion site--an environmental disaster
    This proposed project is seriously flawed on many levels and DOE 
has refused to honestly evaluate and disclose the dangers. Their 
publications and public statements have misrepresented the facts.
    DOE plans to draw 50 million gallons of fresh water per day from 
the Pascagoula River Merrill, Mississippi every day for 5 to 6 years 
and pipe it to Richton to dissolve underground salt deposits. The loss 
of that water would be harm the fish, animals, and humans that depend 
on the river's abundant flow. The entire Pascagoula River basin would 
suffer as water levels drop and salt water from the Mississippi Sound 
moves further up the river.
    The toxic salty waste would then be pumped 100 miles across 56 
bodies of fresh water to the Gulf of Mexico and dumped near the barrier 
islands. To understand the threat, dissolve 11 pounds of salt in a 5-
gallon bucket of fresh water. Keep stirring until you can dissolve no 
more salt. Now, dump that bucket of salt water onto your garden. Of 
course you wouldn't do this, but that is exactly what DOE wants to do 
to our coastal waters--10 million 5-gallon buckets every day.
    Communities on the coast depend on wells for their drinking water 
supplies. The underground aquifer that feeds our wells is replenished 
by surface water between the coast and Hattiesburg. How would the 
aquifer be affected by removing 50 million gallons of water from the 
Pascagoula River each day?
    DOE predicts a minimum of 56 brine spills from a 100-mile Richton 
brine disposal pipeline. At the existing SPR sites DOE records list 227 
spills in a 20 year period that released 64,014,000 gallons of toxic 
waste. The average spill was 282,000 gallons. Yet, DOE says that salt 
waste spills would not cause damage to the Pascagoula River and the 
adjoining woods and farmland.
    In order to remove oxygen from the brine waste to protect the 
pipelines from rust, DOE would add 360 gallons of ammonium bisulfite 
each day. Ammonium bisulfite is listed as a hazardous chemical by the 
U.S. Occupational Safety and Hazard Administration. The U.S. Coast 
Guard classifies it as a marine pollutant. DOE plans to dump this toxic 
chemical into our coastal waters with the brine waste.
    Currents, tides and ship traffic would allow brine waste into the 
Mississippi Sound, the largest estuary on our coast. Remarkably, DOE 
did not consider tides or winds in the initial Environmental Impact 
Statement and we have yet to get information on the Supplemental EIS.
    Our barrier island passes are key corridors for the larvae and post 
larvae of economically important fish and shellfish to move between the 
gulf and Mississippi Sound. These fragile young organisms may not 
survive the ``brine barrier'' created by the salt waste. Local experts 
in marine life and the seafood industry are deeply alarmed. But DOE has 
not considered the problem. They have not contacted the Gulf Coast 
Research Laboratory (GCRL) or other local experts who volunteered their 
expertise when these and other problems were brought to DOE's attention 
during the public meetings in April 2008.
    The Pascagoula River was listed this year as America's ninth most 
endangered river. The proposed water withdrawal would take place in 
critical habitat for endangered and threatened species.
    To recap the environmental concerns, approximately 80 billion 
gallons of low oxygen, toxic, salt brine waste (roughly 10 times the 
average salinity of the gulf waters) would be dumped into the gulf, 
only 4 miles south of Horn Island Pass and directly in line with the 
Pascagoula Ship Channel. The loss of fresh river water would threaten 
our drinking water supplies and harm the river system. The pipeline 
would leak brine into the Pascagoula River and the woods and farmland. 
The salt waste would create a dead zone in our coastal waters and 
degrade fisheries, destroy critical habitat, and pollute important 
waters necessary for the growth of juvenile fish and shellfish.

           THE RICHTON SALT DOME SPR--AN ECONOMIC BOONDOGGLE

    Currently, the existing SPR sites are 92 percent full. Oil from the 
SPR has been used only twice during its 20-year history:
  --After Hurricane Katrina shut down 25 percent of the domestic supply 
        of petroleum, the United States used only 1.5 percent of the 
        SPR.
  --During the first gulf war only 2 percent of the SPR was used.
    DOE says that the project would create only 10 to 20 permanent jobs 
on the coast and only 100 in Richton after construction is completed. 
Degrading our river and gulf ecosystems for such a small number of 
permanent jobs is a catastrophe and a disgrace. Worse, DOE failed to 
consider the loss of existing jobs. Apparently, DOE does not value our 
local industrial workers and fishermen. And what about the coast's 
growing tourism industry?
    DOE says that the proposed tank farm site and deep water dock 
required by the project would create only 10 to 20 new jobs while 
consuming up to 49 acres of prime industrial land in the Pascagoula 
Port. Current industrial uses of land in the port provide far more jobs 
per acre. A 49-acre site should produce more than 500 jobs. Do we want 
to lose 450 future jobs on the coast?
    Private landowners who sell their property for the storage site in 
Richton and pipeline rights-of-way are the big beneficiaries of this 
expensive publicly funded project. There is very little public benefit. 
Even DOE acknowledges that their contractors would use ``in-migrating'' 
workers for this work instead of local Mississippi residents.
    Based on the cost of oil at about $70/bbl, the Richton project 
would cost approximately $11 billion for just 18 days worth of oil. 
There are far better ways for America to spend $11 billion. Instead of 
buying a hole in the ground, America should invest in increased 
efficiency and renewable energy systems that would give our children 
cleaner water, better jobs, and a more secure nation.
    The withdrawal of 50 million gallons of water per day for 5 to 6 
years from the Pascagoula River could jeopardize Jackson County's 
ability to supply cooling water to existing and future industries. As a 
recent example, look at the building moratoriums and economic 
disruptions in Georgia as a result of overuse of the Chattahoochee 
River.

    THE RICHTON SPR EXPANSION SITE--ANOTHER EXAMPLE OF FAT CATS AND 
                   WASHINGTON DUMPING ON MISSISSIPPI

    DOE announced the Richton SPR project 3 days after Katrina struck. 
Within 4 months after Katrina public hearings were completed in 
Jackson. No meetings were held on the coast. Virtually no one from the 
coast knew of the plan; most coast citizens were still concerned with 
immediate recovery needs.
    DOE dodged and ignored public input. Rather than rely on the local 
experts at the Gulf Coast Research Laboratory, they hired a Washington 
contractor to conduct the entire evaluation of the project's effects on 
the coast. None of the project team has ever been on the Pascagoula 
River, the Mississippi or the Gulf of Mexico in Mississippi.
    A citizen outcry in 2008 prompted public meetings finally won coast 
residents an opportunity to participate. More than 400 people attended, 
including businessmen, scientists, and fishermen. They detailed the 
proposed project's many problems, they offered a wealth of information, 
and volunteered their help. Now, a year later, DOE has released the 
supplemental study and still have not bothered to talk to GCRL and 
other local experts who know the river and the coastal waters.
    Again, I urge the Senate Committee on Appropriations Subcommittee 
on Energy and Water Development to keep funding for the proposed 
Richton Salt Dome SPR out of the Federal budget. These are tough 
economic times for everyone and we do not need our Government to spend 
any more resources on DOE's proposed project. Thank you for your 
consideration.
                                 ______
                                 
                   Prepared Statement of Julia O'Neal

  U.S. DEPARTMENT OF ENERGY STRATEGIC PETROLEUM RESERVES RICHTON SALT 
                              DOME PROJECT

    I strongly support the cancellation of all previous funding for the 
Richton project in the President's fiscal year 2011 budget request for 
the Department of Energy (DOE) and urge the Senate Committee on 
Appropriations Subcommittee on Energy and Water Development and its 
members to support this portion of the proposed budget.
    Along with many others, particularly the Gulf Conservation 
Coalition and the Gulf Restoration Network, I herewith voice my 
objections to the DOE's choosing the most expensive site for the 
expansion of the SPR (the next most expensive, Big Hill, Texas, was 
less about 15 percent of the cost of Richton, largely because of the 
330 miles of pipeline required in Mississippi); the fact that the 
Environmental Impact Statement (EIS) has not been finalized per NEPA 
requirements; and the extensive water pollution and environmental 
destruction the Richton Salt Dome Project would create.
    Others have done an excellent job on the cost and detailed comments 
on the EIS. I would like to highlight the politics of this project. Our 
family farm is about 30 miles north of Biloxi. Katrina was a big 
setback for this area, which has always been poor anyway. The coming of 
the casinos to the Mississippi gulf coast made a big economic change 
there, but the isolated, uneducated culture persists only a few miles 
inland. Because developers never were interested in South Mississippi, 
much of it remains in its natural state--natural, that is, post the 
massive harvest of the longleaf pine at the turn of the last century. 
Most people have no idea what a gem we have in, for instance, the 
largest unregulated river system in the lower 48, the Pascagoula River. 
People are just beginning to tap the potential for ecotourism in an 
area that hosts an annual abundance of neotropical migrating birds, 
clear sandy streams and creeks, and lots of native flora and fauna.
    Mississippi's Governor at the time of Katrina, Haley Barbour, was a 
significant actor in Cheney's Energy Task Force--known to have 
recommended (on behalf of his lobbying client, the Southern Company) 
that George W. Bush renege on his campaign promise to cut emissions 
(http://www.sourcewatch.org/index.php?title=Haley_Barbour). Just weeks 
before Katrina, the Sierra Club released a film connecting the Energy 
Task Force to Barbour's attempt to open up the inner Mississippi gulf 
coast at the barrier islands to oil and gas drilling (http://
www.sierraclub.org/tv/episode-storm.asp, see Episode 6, ``Storm in the 
Gulf ''). Katrina taught us, again, how much we need those undisturbed 
barrier islands.
    Barbour had more Energy Task Force business to conduct. Some 
little-noticed Federal legislation sponsored by then-Representative 
Chip Pickering only allowed DOE to look at previously considered sites, 
or those nominated by a Governor, for expanding the SPR (the Pickering 
Strategic Petroleum Reserve Amendment to the Energy Policy Act of 
2005). Then, on October 18, 2005, just weeks after Katrina, public 
scoping meetings for expansion of the SPR were held in Jackson. Jackson 
oilman Julius Ridgeway, who had contributed $70,000 to the Republican 
Party, testified that his family owned 75 percent of the salt and 
storage rights under the dome (http://www.fossil.energy.gov/programs/
reserves/spr/jackson_meeting_transcript.pdf). Ridgeway announced his 
``cooperation and support'' and Pickering called it ``the largest 
Federal construction project in Mississippi history.'' In 2006, Barbour 
contacted Energy Secretary Samuel Bodman and Deputy Secretary Clay Ball 
offering two sites for the SPR (U.S. Department of Energy Executive 
Secretariat Correspondence Control). In the same year, Bodman's former 
chief of staff, Eric Burgeson, joined Barbour's lobbying firm (http://
www.muckety.com/Eric-Robert-Burgeson/11067.muckety). On February 14, 
2007, Bodman announced Richton would be the site of the new SPR 
facility.
    None of this is illegal of course. But such conflict of interest 
does not serve the American taxpayers' best interests.
    The part of the State that would be most affected by this project 
was otherwise engaged on October 18, 2005. We were looking for water, 
gas, food and shelter, and trying to get out from under massive fallen 
trees. (See the second paragraph of Ronnie Blackwell's 2007 column for 
our confusion about the local SPR site-choice process: http://
ronnieblackwell.com/Wordpress/?p=71).
    The EIS, which cost the DOE $3.7 million, was conducted by ICF 
International, the firm that incompetently conducted the ``Road Home'' 
program in Louisiana after Katrina. I have seen (and can produce on 
request) an e-mail to David Johnson at the DOE from Ian Frost, a 
consultant for ICFI, dated June 6, 2007, that discusses a U.S. Fish and 
Wildlife Service request for an additional U.S. Geological Survey study 
relative to water flow. The e-mail suggests that the consultants are 
more interested in helping DOE get the project built than doing a 
thorough EIS.
    The Richton Salt Dome project aims to pump 50 million gallons of 
water per day out of the Pascagoula and Leaf Rivers. The water will be 
pumped (using lots and lots of fossil fuel) into a land formation 
called the Richton Salt Dome. Instead of mining the salt and selling it 
to the people up north who say they need it for de-icing roads, the 
salt will be mixed with perfectly clean, even potable, water, and 
pumped through the salt dome. Then the highly salted water (``brine'') 
will be pumped into the Gulf of Mexico (using lots more fossil fuel for 
that pump job), where the excess salt in the water will do in marine 
life, including the endangered Gulf Sturgeon. The brine should pretty 
much end oysters, shrimp and fishing in the Mississippi Sound. Any 
aquatic species, plant or fish or mammal, which depends on the brackish 
combination of fresh and salt water will be destroyed. The Salt Dome 
project will deliberately turn pristine water into brine and create a 
Dead Zone in the gulf where it is dumped.
    Meanwhile, about 2 years ago, not-so-far-away Tampa completed a 
$150 million desalination plant. They need fresh water; we apparently 
don't.
    Three years after the rushed meeting in Jackson, about which we 
knew little, the DOE had a final EIS. We on the coast were dumbstruck, 
and our Representative, Gene Taylor, insisted that public hearings be 
conducted in the area that would be affected, which had never taken 
place previously (http://www.gulfcoastnews.com/
GCNnewsRichtonSaltDomeHearingsTaylor012408.htm). So the DOE 
condescendingly scheduled three ``open meetings'' (http://
gulfconservationcoalition.com/docs/USDOE.SUP.EIS.Meeting.Notice.PDF).
    And what do we U.S. citizens get for our $3.5-$4 billion? We will 
have 160 million gallons of unrefined oil, supposedly enough to run the 
United States for 2 weeks. Here's what has to be built just to deliver 
the crude to the Chevron refinery: http://fossil.energy.gov/programs/
reserves/spr/Richton_WebSite_Fact_Sheet.pdf. You can almost hear the 
simple slide presentation, but behind it lie a lot of dead birds and 
fish. And note that one-half the oil goes to a Naval Station, not to 
civilians or businesses.
    What about the environmental consequences? Well, the DOE has 
studied them carefully: http://www.fossil.energy.gov/programs/reserves/
publications/Pubs-SPR/2006_SPR_EIS.html.
    Click on chapter 3, section 3.6, ``Water Resources.'' Richton 
surface water analysis begins on p. 3-130. There are four pages of 
tables describing the impact on creeks and streams--generally the same 
phrase ``Impaired use for aquatic life support.'' Originally, I thought 
``N/A'' in the tables must mean ``not affected.'' Nope: ``not 
available.'' They didn't bother. For most of the surface water in the 
vicinity of Richton, the impact of the salt dome project is 
``impaired'' or ``not available.'' It is hard for me to believe that 
the impairment extends so far upstream into tributaries . . . even to 
Black Creek, a U.S. Fish and Wildlife Service designated ``Wild and 
Scenic River.''
    After 2 weeks, then what? No water, no fish, no birds, and, 
presumably, the emergency oil supply is gone. Why not just spend the 
$3.5 billion this project will cost on solar panels for American homes? 
At least they would last longer than 2 weeks--and a little fan, a 
little light, a few communication devices like TV or radio or Internet, 
all that means a lot in an emergency. We know. We lived through 
Katrina, and everything was not OK after 2 weeks.
    Despite promises, we never saw any revisions to the EIS based on 
our many comments in 2008. To our knowledge, no scientists we 
recommended were consulted. The hearings were meant to placate the 
public, not to listen.
    At a time when no one seriously questions that burning fossil fuels 
is changing our climate far more rapidly than we can control, our 
Government can't seem to get off the teat. First we dig up the oil, 
then we dig another hole and put it back in the ground. It's stupid, 
dirty, and dangerous to the water we need.
                                 ______
                                 
     Prepared Statement of the Coalition of Northeastern Governors

    The Coalition of Northeastern Governors (CONEG) is pleased to 
provide this testimony to the Senate Committee on Appropriations 
Subcommittee on Energy and Water Development regarding fiscal year 2011 
appropriations for the U.S. Department of Energy (DOE). The CONEG 
Governors request funding for the following Energy Efficiency and 
Renewable Energy Programs: $300 million for the Weatherization 
Assistance Program and $30 million for the Innovation in Weatherization 
Program, at least $75 million in the base appropriations for the State 
Energy Program, and $230 million for the Building Technologies Program. 
In addition, the Governors request at least $129 million for the Energy 
Information Administration, and sufficient funding for maintenance and 
operation of the Northeast Home Heating Oil Reserve. The Governors 
support the President's request for increased funding of solar energy, 
wind energy and electricity reliability programs; and also urge the 
committee to ensure that, through the U.S. Department of Energy, $7.5 
million is provided to maintain the critical networks and market 
development work of the National Biomass Partnership (previously known 
as the Regional Biomass Energy Program).
    The Governors recognize the daunting fiscal challenges facing the 
subcommittee this year, and thank you for your past support for these 
vital programs. Continued investment in these very successful energy 
programs is a crucial step toward achieving the Nation's energy 
security, economic and environmental goals.

          WEATHERIZATION ASSISTANCE AND STATE ENERGY PROGRAMS

    The Nation's current economic situation has placed a new emphasis 
on the benefits of the Weatherization Assistance Program (WAP) and the 
State Energy Program (SEP). Working with all 50 States, the District of 
Columbia and U.S. Territories, these successful programs allow States 
to quickly and efficiently implement energy saving technologies and 
practices, creating green jobs and achieving real savings for families 
struggling with unaffordable home energy costs. The Governors thank the 
subcommittee for providing substantial funding for these crucial 
programs in the American Recovery and Reinvestment Act (ARRA). While 
there have been some challenges at the State and Federal level in 
ramping-up these programs and meeting new ARRA program requirements, 
States and the Federal Government have worked together to find 
effective solutions. More than one-half of the SEP funds (over $1.8 
billion) are committed, and spending of WAP funds is accelerating 
rapidly and on target to reach the goal of weatherizing 600,000 homes 
by March 2012. Continued base funding is needed in fiscal year 2011 to 
help sustain valuable green jobs and to realize and effectively assess 
the continuing energy and environmental benefits of these programs.
    Weatherization Assistance Program.--The CONEG Governors request 
$300 million in fiscal year 2011 for the WAP, plus $30 million for 
continuation of the Innovation in Weatherization program. 
Weatherization is an immediate and effective tool to manage the energy 
use of low-income households. The need continues to be great. Forty-
nine percent of these households are occupied by the elderly or 
disabled; and these households can spend as much as 20 percent of their 
annual income on home energy bills compared to just 3 percent by other 
households. Since its inception in 1976, WAP has weatherized more than 
6.25 million low-income residences across the county. In addition to 
the stimulus funds, the program uses nearly $1 billion in Federal, 
State, local, utility, and private funds to reach more than 150,000 
homes each year.
    Through a State-managed network of more than 900 local 
weatherization providers, WAP increases residential energy efficiency. 
The program, which provides specialized training and career 
development, creates a workforce trained in the most advanced 
assessment and installation techniques. Weatherization service 
providers perform comprehensive computerized energy audits of each 
home, and provide a package of efficiency measures tailored to the 
individual needs of each household.
    Many of these weatherization measures include inexpensive, yet 
effective upgrades such as installing insulation; sealing ducts; and 
tuning and repairing heating and cooling systems. In addition, the 
program uses a ``whole house'' approach, incorporating advanced 
technologies to address comprehensive energy usage in low-income homes, 
as well as related health and safety improvements. DOE estimates that 
the program returns $1.67 in energy-related benefits for every $1 
invested.
    This successful public-private partnership creates considerable 
investments in local economies across the country; provides continued 
professional development for workers; and contributes to increased home 
values, and the health and safety of the Nation's most vulnerable 
citizens. The program yields benefits that are far-reaching and long-
lasting.
    The goal of the complementary Innovation in Weatherization program 
is to demonstrate new ways to weatherize low-income homes while 
lowering the Federal cost for residential energy retrofits. Through 
partnerships with organizations such as non-profits, labor unions, and 
private contractors, the program strives to obtain $3 in non-Federal 
contributions for every $1 invested by DOE.
    State Energy Program.--The CONEG Governors request at least $75 
million in the base appropriations for the SEP in fiscal year 2011. 
Ensuring this base funding level is critical for the SEP to continue as 
the nationwide cornerstone of the State-Federal-private partnership for 
many energy efficiency and conservation programs. Especially for the 
smaller States, the base SEP program allows them to dramatically expand 
program delivery and leverage non-Federal resources with Federal funds. 
SEP is vital to achieving energy efficiency and conservation in energy 
end-use sectors such as buildings, industrial, agriculture, 
transportation, and power generation. The program, which has a proven 
track record of effectiveness, assists States' initiatives that help 
realize national goals of greater energy efficiency; reduced energy 
costs; development of alternative and renewable energy resources; and 
reduced reliance on imported sources of energy. The SEP also helps 
States in their critical emergency preparedness activities, improving 
the security and reliability of energy infrastructure, and preparing 
for natural disasters.
    SEP funding provides States with the flexibility to tailor their 
renewable energy and energy efficiency programs to maximize the 
effectiveness of the program's resources. The Northeast States have 
used SEP funds to support projects to update emergency plans to 
anticipate and respond to potential shortages of electric power, 
natural gas and deliverable fuels. SEP funds have also been used by 
State agencies to assist in reducing energy use in commercial and 
institutional buildings, fleets, and equipment; perform small business 
energy audits; and provide public information and education to local 
residents, small businesses, farmers, and others to make them aware of 
opportunities to reduce energy consumption and energy bills.
    The modest (non-ARRA) Federal funds provided to the SEP are an 
efficient and effective Federal investment, yielding substantial and 
extensive energy and economic benefits. States can ensure that the 
energy improvements are delivered, since most SEP work is undertaken 
through leveraged agreements and reimbursable contracts. According to 
the most recent Oak Ridge National Laboratory study, $1 in SEP funding 
yields: $7.22 in annual energy cost savings; $10.71 in leveraged 
funding; annual energy savings of 47,593,409 million source BTUs; and 
annual cost savings of more than $333 million. The environmental 
benefits are equally as impressive resulting in an annual reduction of 
carbon emissions of 826 million metric tons--the same amount produced 
by 582,000 automobiles in a single year.

                         BUILDING TECHNOLOGIES

    The CONEG Governors request $230 million in fiscal year 2011 for 
the Building Technologies Program (BTP). The program has created unique 
and effective partnerships with States, industry, national 
laboratories, universities and manufacturers to improve the energy 
efficiency of new and existing buildings, and the equipment and systems 
within them.
    According to the Department of Energy, buildings account for more 
than 70 percent of the electric energy consumed in the United States 
and are responsible for 38 percent of total U.S. carbon dioxide 
emissions. With roughly 15 million new buildings projected to be built 
by 2015, a tremendous opportunity exists for the development and 
deployment of energy efficient technologies and building practices. The 
potential environmental benefits and energy and cost savings are 
significant.
    BTP develops and promotes deployment of technologies to make new 
and existing homes and buildings less energy intensive. One of the 
strategic goals of BTP is to create net zero energy buildings that, 
through a combination of on-site renewable energy and increased 
efficiency, can generate an equal or greater amount of energy than they 
consume from the grid. The program pursues this goal through 
complementary activities that include R&D; development and improvement 
of equipment standards and analysis; and introduction of new advanced 
technologies and the widespread use of highly efficient technologies 
already in the market.
    BTP also collaborates with other DOE programs as well as partners 
of the highly successful ENERGY STAR program to increase awareness, 
availability and purchase of energy efficient appliances, lighting and 
windows. According to DOE, in 2006, ENERGY STAR saved 170 billion 
kilowatt hours--or almost 5 percent of the total 2006 electricity 
demand--and helped avoid greenhouse gas emissions equivalent to those 
from 25 million automobiles.

                   ENERGY INFORMATION ADMINISTRATION

    The Governors support fiscal year 2011 funding for the Energy 
Information Administration (EIA) at least at the level of $129 million. 
EIA is the Nation's foremost source of reliable independent 
information, analyses and forecasts on the energy produced, imported 
and consumed in the United States. As Congress and the administration 
continue to develop and debate critical energy and environmental 
strategies, EIA is increasingly and consistently called upon to provide 
unbiased, timely and reliable information. In addition, States rely on 
EIA data as the core of their information for energy emergency 
planning. New requirements included in the Energy Independence and 
Security Act of 2007, as well as the evaluation of an increasingly more 
complex and interdependent energy industry has created a vastly 
increased workload for EIA and the need for more rigorous data 
collection and analysis.
    A modest increase in funding in fiscal year 2011 will help ensure 
that EIA can continue to provide the most accurate and reliable 
information on the energy markets and industry.

                   NORTHEAST HOME HEATING OIL RESERVE

    The CONEG Governors request sufficient fiscal year 2011 funding for 
maintenance and operation of the Northeast Home Heating Oil Reserve. 
The Nation's heightened emphasis on energy reliability and security 
places renewed importance on the Reserve.
    Almost 70 percent of the 7.7 million households heating primarily 
with home heating oil are in the Northeast, making the region 
particularly vulnerable to the effects of supply disruptions and price 
volatility. The Northeast region is literally at the end of the energy 
product pipeline. Any disruption along the delivery infrastructure 
anywhere in the country negatively impacts the Northeast. The Reserve 
is strategically placed in ports along the northeast coast to respond 
rapidly and efficiently to any emergency supply interruption. The 
Reserve is designed to provide an emergency supplemental supply over a 
10 day delivery period--the time required for ships to carry heating 
oil from the Gulf of Mexico to New York Harbor--in the event of a 
supply disruption or shortage in the Northeast. Adequate funding will 
ensure the Reserve is maintained in a high state of readiness and 
capable of completing an immediate drawdown if needed.

                     RENEWABLE AND RELIABLE ENERGY

    Renewable, reliable energy contributes to the achievement of 
multiple regional and national goals, including lowering greenhouse gas 
emissions, increasing and diversifying domestic energy supply, creating 
new jobs, and enhancing the Nation's energy security. A strong Federal 
partner and consistent and sustained funding for solar energy, wind 
energy and electricity reliability programs are essential. Therefore, 
the Governors support the President's request for increased funding for 
these important programs.
    The Governors also request that the subcommittee ensure that, 
through the U.S. Department of Energy, $7.5 million is provided to 
maintain the critical networks and market development work of the 
National Biomass Partnership (previously known as the Regional Biomass 
Energy Program). The Partnership, a collaboration of five regional 
biomass energy programs created by Congress, is a critical link in the 
chain of research, resource production and technology commercialization 
that is essential to bringing bioenergy technologies successfully into 
the marketplace.
    The States contribute significant resources to support the 
development of biomass fuels, technology, and infrastructure. The 
Partnership has demonstrated its ability to expedite deployment of the 
biomass fuels, technology, and infrastructure that is necessary to 
reach common goals of States and the Federal Government. In the 
Northeast alone, the Northeast Regional Biomass Program (NRBP) directly 
influenced $24 million in biomass investments--69 percent of the 
overall biomass investment made in the region in 2003. Working with 
State, Federal and private sector officials, the NRBP has provided 
bioenergy education and training to nearly 3,000 people in the region 
and contributed to State-developed bioenergy policies and programs. 
However, the absence of a strong Federal partner threatens this State-
private sector effort to better coordinate the institutional and 
physical infrastructure for deployment of sustainable biomass fuels and 
bioenergy technologies.
    In conclusion, the Coalition of Northeastern Governors (CONEG) 
request that you provide $300 million for the Weatherization Assistance 
Program and $30 million for the Innovation in Weatherization Program, 
at least $75 million in the base appropriations for the State Energy 
Program, $230 million for the Building Technologies Program, at least 
$129 million for the Energy Information Administration, and $7.5 
million for the work of the National Biomass Partnership. In addition, 
the Governors support the President's request for increased funding of 
solar energy, wind energy and electricity reliability programs, and 
sufficient funding for maintenance and operation of the Northeast Home 
Heating Oil Reserve.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology

    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2011 appropriation for the 
Department of Energy (DOE) science programs. The ASM is the largest 
single life science organization in the world with more than 40,000 
members. The ASM mission is to enhance the science of microbiology, to 
gain a better understanding of life processes, and to promote the 
application of this knowledge for improved health and environmental 
well being.
    The ASM supports the administration's fiscal year 2011 budget of 
$5.1 billion for the DOE Office of Science, a 4.4 percent increase from 
fiscal year 2010. The ASM endorses the administration's pledge to 
double funding for the DOE Office of Science by fiscal year 2017. The 
Office of Science funds intramural and extramural research that might 
not be undertaken otherwise due to its complexity or cutting edge and 
theoretical nature. However, such research leads to the technological 
innovations needed to enhance our economy, our workforce, and our 
environment.
    The DOE's Office of Science is the largest sponsor of basic 
research for the physical sciences in the United States, and also 
supports substantial life sciences research. It supports more than 
7,000 individual research projects at more than 300 academic 
institutions, and 10 DOE national laboratories. It also provides access 
to leading edge research facilities for extramural investigators, 
including an estimated 26,000 that will use these facilities in fiscal 
year 2011.

              BIOLOGICAL AND ENVIRONMENTAL RESEARCH (BER)

    The Office of Biological and Environmental Research, within the DOE 
Office of Science, oversees research and facilities that support DOE's 
energy, environment, and basic research missions. BER sponsored 
research provides the foundational science underpinning DOE's goals for 
development of clean bioenergy sources, remediation and long term 
stewardship of legacy environmental contamination and understanding the 
impacts of climate change on Earth's ecosystems.
    BER programs enable solutions for some of the Nation's most 
difficult energy related and environmental challenges by advancing our 
basic understanding of climate change, biofuels, carbon sequestration, 
remediation of subsurface contaminants, and interactions of biological 
and physical systems. Wide ranging studies of microbes are central to 
all of these efforts and include pioneering studies of the genetic 
potential of individual organisms and microbial communities in complex 
environments, as well development of new bioinformatics tools for 
effectively managing and utilizing large datasets to advance genome 
enabled scientific research.

                            GENOMIC SCIENCE

    The BER Genomic Science program (formerly Genomics: GTL) 
accelerates the development of practical solutions to energy and 
environmental problems by understanding the integrated biological 
systems of microbes and plants that govern their structure and 
function. This program uses high throughput genome sequencing and 
cutting-edge systems biology research techniques to understand key 
biological processes, ranging from molecular-scale networks of single 
cells to community scale interactions of ecosystems. In addition to 
directly supporting DOE mission driven research efforts at academic 
institutions and DOE national laboratories, publicly accessible genomic 
and metagenomic sequence data produced by DOE facilities encourage and 
support innovation while helping to solve environmental problems and 
energize commercial biotechnology in the United States. Addressing 
complex environmental and energy problems requires innovative, cross 
cutting research. The Genomic Science program supports a wide range of 
interdisciplinary research efforts with a strong microbiological 
component. For example, a recent program, ``Biological Systems Research 
on the Role of Microbial Communities in Carbon Cycling'' seeks to 
develop new integrated research efforts in genome enabled systems 
biology, environmental microbiology, and modeling of biogeochemical 
processes aimed at understanding how shifts in environmental variables 
impact microbially mediated carbon cycling. Gaining better quantitative 
knowledge of these processes is critical for predicting the storage or 
release of carbon from ecosystems and potential levels of 
CO<INF>2</INF>, methane, and other atmospheric greenhouse gases.

                      JOINT GENOME INSTITUTE (JGI)

    BER funding supports the DOE Joint Genome Institute (JGI), which 
has sequenced over 450 microbial genomes, more than 200 ``metagenomes'' 
of microbial communities, and 25 plant genomes with energy and 
environmental significance. The JGI provides access for external 
researchers to its state of the art sequencing and bioinformatic 
capabilities. Current sequencing capacity (about four tera-base pairs 
per year) is continually expanding with advances in sequencing 
technology and computing. JGI researchers generate results that push 
the boundaries of genomics, sequencing organisms that degrade 
cellulose, capture carbon, and transform environmental contaminants. 
Their discoveries help stakeholders make decisions about the selection 
of new bioenergy crops and cost effective bioenergy production.

                       BIOENERGY RESEARCH CENTERS

    BER supports three DOE Bioenergy Research Centers (BRCs, 
established in 2007) tasked with developing innovative strategies for 
biofuels production. When created, the multidisciplinary Centers 
brought together teams of researchers from 18 of the Nation's leading 
universities, 7 DOE national laboratories, 1 nonprofit organization, 
and a range of private companies. Their mission is to perform 
fundamental research addressing barriers to economic production of 
energy from cellulosic biomass, and drastically to reduce the Nation's 
consumption of fossil fuels. Goals include identification of next 
generation bioenergy crops, discovery of enzymes and microbes that 
degrade biomass, and creation of microbe-mediated models of fuel 
production of bioethanol and other biofuels. Each center applies 
cutting edge technologies and research methods for a wide range of 
biomass sources while managing massive data sets in the search for 
tomorrow's clean energy.
    Headquartered at DOE's Oak Ridge National Laboratory, the 
University of Wisconsin-Madison, and DOE's Lawrence Berkeley National 
Laboratory, the three BRCs are investigating microbial processes that 
can convert diverse crops, such as switchgrass and poplar, into usable 
fuels. Specific examples include the BioEnergy Science Center's 
approaches for screening samples from natural thermal springs to 
identify enzymes and microbes that effectively transform biomass at 
high temperatures, and to genetically engineer a lignocellulose 
degrading microbe for ethanol production. Researchers at the Great 
Lakes Bioenergy Research Center are developing more refined metabolic 
models of in microbes to enable design of metabolic engineering 
strategies for enhanced biofuel production. The Joint BioEnergy 
Institute is pursuing synthetic biology research on microbial synthesis 
of a variety of hydrocarbon compounds with higher energy content than 
ethanol and better compatibility with existing fuel distribution 
infrastructure.

                      BASIC ENERGY SCIENCES (BES)

    The Office of BES, administered within the Office of Science, 
supports fundamental research to understand, predict, and control 
matter and energy at electronic, atomic, and molecular levels, thus 
providing the foundations for new energy technologies and supporting 
DOE missions in energy, environment, and national security. The 
portfolio supports work in the natural sciences, emphasizing 
fundamental research in materials sciences, chemistry, geosciences, and 
aspects of biosciences. BES also operates sophisticated state of the 
art equipment and facilities open to investigators from private 
institutions, universities, and national laboratories. Research 
highlights include determination of the structure and organization of 
the highly efficient light harvesting complex in green sulfur bacteria, 
elucidation of protein synthesis mechanisms by methane producing 
bacteria, characterization of critical components of algal light 
harvesting complexes, and determination of the biosynthetic pathway for 
methane production from CO<INF>2</INF> and hydrogen.
    In 2009, BES Energy Biosciences evolved into two complementary and 
synergistic programs, Photosynthetic Systems and Physical Biosciences. 
Both programs support unique areas of fundamental research on plant and 
non-medical microbial systems.

                         PHOTOSYNTHETIC SYSTEMS

    The BES Photosynthetic Systems program supports fundamental 
research on the biological conversion of solar energy to chemically 
stored forms of energy, bringing together biology, biochemistry, 
chemistry, and biophysics approaches to study natural photosynthesis 
and related processes. Advances in genomics technologies such as 
metabolomics along with increased availability of plant genomic 
sequences are also providing new opportunities to leverage the 
strengths of the Photosynthetic Systems program in molecular biology 
and biochemistry with powerful capabilities in imaging and computation. 
Example topics include light harvesting, exciton transfer, charge 
separation, transfer of reductant to carbon dioxide, and the 
biochemistry of carbon fixation and carbon storage. Emphasized areas 
are those involving strong intersections between biological sciences 
and energy-relevant chemical sciences and physics, such as in self 
assembly of nanoscale components, efficient photon capture and charge 
separation, predictive design of catalysts, and self-regulating/
repairing systems. The program aims to provide a critical scientific 
knowledge base that can inspire the roadmap for artificial 
photosynthesis and enable new strategies and technologies for more 
efficient generation of biomass as a renewal energy source.

                          PHYSICAL BIOSCIENCES

    The BES Physical Biosciences program combines experimental and 
computational tools from the physical sciences with biochemistry and 
molecular biology. The goal is increased fundamental understanding of 
the complex processes that convert and store energy in plants and non 
medical microbes, including archaea. Examples of research supported by 
this program include studies that investigate the mechanisms by which 
energy transduction systems are assembled and maintained, the processes 
that regulate energy relevant chemical reactions within the cell, the 
underlying biochemical and biophysical principles determining the 
architecture of biopolymers and the plant cell wall, and active site 
protein chemistry that provides a basis for highly selective and 
efficient bioinspired catalysts. Combined with efforts in molecular 
biology and biochemistry, increased use of physical science and 
computational tools (ultrafast laser spectroscopy, current and future 
x-ray light sources, quantum chemistry) to probe spatial and temporal 
properties will give us an unprecedented architectural and mechanistic 
understanding of biological systems and allow the incorporation of 
identified principles into the design of bio-inspired synthetic or 
semi-synthetic energy systems.

                                 EPSCOR

    The BES administered Experimental Program to Stimulate Competitive 
Research (EPSCoR) also supports a significant sector of the Nation's 
energy research, distributing university grants in a number of States 
across the country. EPSCoR's interdisciplinary program areas include, 
among many others: biological and environmental science, advanced 
computer science, renewable energy science, climate change, genomics, 
and science education. EPSCoR has traditionally provided academic 
incubators for innovation and economic recovery.

           RESEARCH INFRASTRUCTURE AND THE NATION'S WORKFORCE

    More than 30,000 scientists and engineers work at DOE laboratories 
and technology centers, but many more are supported through grants and 
fellowships, or the use of cutting edge facilities and equipment that 
often are one of a kind. An example was last September's announcement 
of up to $12.5 million in Recovery Act funding for at least 80 graduate 
fellowships to U.S. students pursuing advanced STEM-related degrees, 
through the Office of Science's new Graduate Fellowship program.
    DOE's Office of Science has also initiated an Early Career Research 
Program, designed to bolster the Nation's scientific workforce by 
providing support to exceptional researchers during the crucial early 
career years when many scientists do their most formative work.
    Another Office of Science program, Workforce Development for 
Teachers and Scientists, specifically targets workforce shortages and 
provides college undergraduates and K-12 teachers with DOE laboratory 
experiences, designed to attract more young Americans into the STEM 
workforce.
    The Office oversees 10 world class facilities: the Ames, Argonne, 
Brookhaven, Lawrence Berkeley, Oak Ridge, Pacific Northwest, and 
Princeton Plasma Physics national laboratories, plus the Fermi, Thomas 
Jefferson, and SLAC accelerator facilities. These institutions 
encourage use by outside researchers and students, typically without 
cost, if results are posted for public knowledge. Each SC facility is 
an invaluable resource of unique research tools for scientific 
specialists. The Environmental Molecular Sciences Laboratory at the 
Pacific Northwest National Laboratory has hosted more than 10,000 
scientists from all 50 States and more than 60 countries since its 
opening in 1997. This year, the DOE will permit extramural use of 
roughly 1.3 billion supercomputer processor hours at its Argonne and 
Oak Ridge facilities, awarded to researchers whose projects would be 
impossible without petascale (quadrillion calculations per second) 
computing.

                               CONCLUSION

    The ASM supports increased funding for the DOE Office of Science in 
fiscal year 2011 and urges Congress to fund the Office of Science with 
at least $5.1 billion. The diverse Office of Science programs and their 
successes advance the DOE's strategic mission to sustain the pace of 
scientific discovery and to educate and train a vital scientific 
workforce. Global climate change, clean energy, and pristine 
environments are challenges that demand sustained responses from the 
United States' science and technology sectors. DOE funded science and 
engineering are integral to our Nation's search for solutions. The 
Office of Science leads this effort with notable basic and applied 
energy research, which often is unique in its complexity, technical 
requirements, or high risk, high impact design.
    The ASM appreciates the opportunity to provide written testimony 
and would be pleased to assist the subcommittee as it considers the 
fiscal year 2011 appropriation for the DOE.
                                 ______
                                 
  Prepared Statement of the Electric Drive Transportation Association

    The Electric Drive Transportation Association (EDTA) is the cross-
industry trade association promoting the advancement of electric drive 
technology and electrified transportation and we are writing regarding 
the fiscal year 2011 request for the Department of Energy's Vehicle 
Technologies and other electric drive programs.
    Our members include vehicle manufacturers, battery and component 
manufacturers, utilities and energy companies, and smart grid and 
charging infrastructure developers. We are committed to realizing the 
economic, security, and environmental benefits of displacing oil with 
battery electric, hybrid, plug-in hybrid and fuel cell vehicles.
    The Nation is moving toward an electrified fleet and the electric 
drive industry is advancing into the marketplace as rapidly as 
possible. Electric drive is already in use in passenger cars, 
commercial trucks, neighborhood electric vehicles, public transport 
buses, tractors and ground support equipment. As the industry invests 
in research and development, advanced manufacturing and coordinated 
deployment initiatives, the Department of Energy's continued commitment 
to fast-tracking electrified transportation is critical to our success.
    We support the fiscal year 2011 budget's focus on advancing 
electric drive vehicle technologies that will reduce petroleum 
consumption and air pollutants while increasing energy security and 
global competitiveness. Like the electric drive industry itself, the 
Department of Energy is undertaking crosscutting efforts to move 
electric drive vehicles and infrastructure forward.
    In particular, we believe that the requested increases for 
batteries and electric drive research and development (in a separate 
Vehicle Technologies program in the fiscal year 2011 request) can 
accelerate critical cost reduction and performance advancements. The 
additional efforts funded in the Technology Integration account's Clean 
Cities program will support the industry's own efforts to expand 
deployment of electric drive vehicles and recharging infrastructure. 
Establishment of a batteries and energy storage ``innovation hub'' in 
the Office of Science ensure that we continue pushing for the next 
breakthroughs even as we are moving electric drive vehicles into the 
market and the mainstream.
    In addition to these essential investments, we also see areas in 
which the budget request misses key opportunities to advance a diverse 
portfolio of electric drive vehicles. Specifically, the Department of 
Energy has established a program and a pathway for building U.S. 
manufacturing capacity for advanced vehicles in the Advanced Technology 
Vehicle Manufacturing (ATVM) program. Although the program had more 
applicants establish electric drive manufacturing in the United States 
than funds, the fiscal year 2011 budget does not request any additional 
new award resources for the program. Additional funds for the ATVM 
program will promote industry investment in U.S. manufacturing, speed 
the vehicles to market and help build the foundation of the green jobs 
economy.
    Another area in which the request is missing an opportunity is in 
the hydrogen and fuel cell programs, specifically as it relates to 
development of fuel cell electric vehicles and hydrogen refueling 
infrastructure. Fuel cell electric vehicles are important electric 
vehicle options because of their performance in diverse vehicle 
applications. The industry, working with the Department, has met 
critical program milestones in reducing cost, enhancing performance and 
deploying fuel cell electric vehicles for real world use. Looking 
beyond today's fleet, the National Academy of Science has also 
emphasized that achieving U.S. energy security and environmental goals 
will require a portfolio of advanced technology vehicles, which needs 
to include zero-emission fuel cell options.
    The fiscal year 2011 budget request maintains the Department's 
commitment to hydrogen and fuel cell research, which we appreciate and 
support. However, at $37 million below last year's funded level--a 21 
percent cut in funding--the commitment is a tepid one. The request 
would eliminate all fuel cell electric vehicle deployment activities in 
Technology Validation and ``defer'' funding for early market 
development. This short-sighted approach undercuts the industry's own 
investments, slows momentum to commercialization and will hurt consumer 
confidence in emerging markets.
    We urge you to extend the Technology Validation demonstration for 
an additional year to provide technology insertion and to ensure that 
funding for vehicle and infrastructure deployment, market 
transformation, as well as education and other enabling activities, is 
sufficient to enable the industry to build on technology and market 
achievements.
    As a partner in the effort to establish a secure and sustainable 
transportation sector, the Department of Energy is accelerating 
technology breakthroughs, promoting investment in manufacturing 
capacity and speeding deployment of vehicles and infrastructure. We are 
pleased that Department's fiscal year 2011 budget builds on its 
commitment to transportation electrification with increases for 
vehicles and recharging infrastructure development and deployment. We 
also respectfully ask that you improve on that effort by supporting 
advances in the full electric drive portfolio: battery electric, hybrid 
and fuel cell electric vehicles.
    We thank you for your consideration.
                                 ______
                                 
           Prepared Statement of the Nuclear Energy Institute

    The Nuclear Energy Institute \1\ (NEI) supports fiscal year 2011 
funding for the following Department of Energy programs and the Nuclear 
Regulatory Commission:
---------------------------------------------------------------------------
    \1\ The Nuclear Energy Institute is the industry's policy 
organization, whose broad mission is to foster the beneficial uses of 
nuclear technology in its many commercial forms. Its membership, more 
than 350 corporate members in 17 countries, includes every U.S. utility 
that operates a nuclear power plant as well as international utilities, 
plant designers, architect and engineering firms, uranium mining and 
milling companies, nuclear service providers, universities, 
manufacturers of radiopharmaceuticals, universities, labor unions and 
law firms.
---------------------------------------------------------------------------
  --Innovative Technology Loan Guarantee Program Office--$38 million 
        for administrative expenses and $36 billion in new loan 
        guarantee authority for nuclear power projects
  --Fuel Cycle Research and Development--$201 million
  --Reactor Concepts Research, Development and Demonstration--$195 
        million
  --Nuclear Energy Enabling Technologies--$99.3 million
  --Integrated University Program--$45 million
  --Advanced Test Reactor User Facility--$20 million
  --Idaho Facilities Management--$177.5 million
  --Radiological Facilities Management--$66.8 million
  --Environmental cleanup at DOE sites--$6 billion
  --Nuclear Regulatory Commission budget--$1 billion
    America's nuclear energy facilities in 2009 continued a decade of 
exemplary performance. Nuclear energy continues to surpass all other 
electricity sources with an industry average capacity factor of 90.5 
percent. This reliability enabled the Nation's 104 reactors to produce 
approximately 800 billion kilowatt-hours of electricity--enough for 
about 80 million homes--at production costs lower than coal and natural 
gas-fired power plants. Nuclear power plants in 31 States generate more 
than 70 percent of the U.S. electricity that comes from carbon-free 
sources. NEI believes the budget proposed for DOE's Office of Nuclear 
Energy is indicative of the administration's belief that nuclear energy 
is essential to America's future electricity supply, energy security 
and greenhouse gas emission reduction goals.

   URANIUM ENRICHMENT D&D FUND TAX UNDUE BURDEN ON UTILITY RATEPAYERS

    NEI opposes the proposed $200 million annual tax on utilities to 
pay yet again for the decommissioning and decontamination fund at DOE 
uranium enrichment facilities.
    The Obama administration is seeking reinstatement of the uranium 
enrichment decontamination and decommissioning fund, with a proposed 
tax on electric utilities of $200 million a year through 2026. Electric 
utilities have already paid twice for decommissioning and 
decontamination at uranium enrichment plants that originally were 
operated by DOE--first as part of the price for uranium enrichment 
services from the facilities and again under provisions of the Energy 
Policy Act of 1992. Under the 1992 law, the tax on utilities generated 
$2.25 billion, adjusted for inflation. The President's fiscal year 2011 
budget would impose the tax yet a third time for cleanup at these 
sites, representing a new tax on all Americans. This proposal is 
unnecessary given the Federal fund for this cleanup program has a 
balance of $4.6 billion. A proposal to reinstate the fund in the fiscal 
year 2010 budget was defeated by Congress.

    INDUSTRY SUPPORTS $36 BILLION FOR INNOVATIVE TECHNOLOGIES LOAN 
                           GUARANTEE PROGRAM

    The nuclear industry appreciates the support provided by the 
subcommittee for the DOE loan guarantee program for nuclear energy 
plants and uranium fuel cycle facilities. NEI urges the subcommittee to 
approve the administration's proposal to add $36 billion in loan volume 
for nuclear energy plants. The industry has demonstrated the need for 
this new authority: 10 nuclear power projects reportedly submitted Part 
II loan guarantee applications representing $93.2 billion in loan 
volume. Two uranium enrichment projects submitted applications seeking 
$4.8 billion, more than double the available amount.
    The loan guarantee program for nuclear energy is self-financing, 
with project sponsors responsible for underwriting the cost of 
providing the credit support to the Federal Government. Properly 
implemented, there will be no cost to the taxpayer. In addition, 
reducing the cost of capital will reduce project costs and lower 
electricity prices for all consumers. Southern Co. projects that its 
$3.4 billion share of the $8.3 billion loan guarantee for two reactors 
at the Vogtle plant in Georgia is expected to save consumers $15 
million to $20 million in interest costs annually over the life of the 
loan. The nuclear industry is confident that new nuclear generating 
capacity will be competitive and is not aware of any credible 
mainstream analysis that shows otherwise. In last year's National 
Academies' report, America's Energy Future, new nuclear capacity 
competes well against all other baseload options in a carbon-
constrained world.
    NEI believes the loan guarantee program's credibility and integrity 
rest on demonstrable proof that the lender's interest is well-
protected. NEI supports rigorous due diligence being conducted by the 
DOE loan guarantee program office. In addition to legal, financial and 
market analysis of proposed projects, DOE will use an independent 
engineer to monitor construction progress and certify that construction 
is proceeding according to plan before authorizing each month's draw 
against the guaranteed loan. DOE's due diligence process, together with 
the fact that new nuclear power plants will be competitive, should 
ensure that the probability of default--and thus risk to the taxpayer--
is extremely low. NEI urges Congress to support DOE's request to fully 
cover the program's administrative costs in fiscal year 2011, which 
will result in a net zero appropriation given offsetting collections 
from loan applicants for nuclear energy projects.

    ENSURING ADEQUATE FUNDING FOR THE NUCLEAR REGULATORY COMMISSION

    The industry supports fiscal year 2011 funding at the NRC's 
requested level. However, the industry recommends that NRC 
appropriately, and more expeditiously, resolve long-standing regulatory 
issues. The industry applauds the continued oversight of the NRC by 
Congress to prioritize agency actions. The agency should be more 
transparent in its budgeting to reveal planned staffing and resource 
needs by individual divisions. This would demonstrate to Congress, the 
public and the industry, which pays 90 percent of the NRC's budget, 
that the budget fairly reflects those activities that should be 
allocated toward licensee-specific charges rather than general license 
fees. NEI supports continuation of the Integrated University Program, 
which includes support for universities and community colleges.

                INTEGRATED USED FUEL MANAGEMENT PROGRAM

    The administration's decision to withdraw the construction license 
application for a Federal repository at Yucca Mountain, Nevada is not a 
repudiation of the Government's obligation under the Nuclear Waste 
Policy Act to dispose of used nuclear fuel from commercial reactors and 
defense applications. NEI does not support the termination of the Yucca 
Mountain repository project. Any effort to shut down the site and 
remediate it is premature. Numerous State and local governments and the 
National Association of Regulatory Utility Commissioners are seeking 
admission to the NRC licensing proceeding to oppose DOE's withdrawal of 
the application. Several opponents also have brought suit to stop this 
action. The project should proceed and be funded so that the technical 
review of the license application is completed. If the NRC licensing 
proceeding for the project is terminated, it should be done in a manner 
that would permit it to be restarted. Project records, tests, samples, 
etc. should be preserved so that they can be used should the project be 
resumed.
    If the Yucca Mountain project is terminated, consumer payments into 
the Federal Nuclear Waste Fund should be suspended for the period of 
time for which there is no waste management program against which to 
assess costs. Termination of the Yucca Mountain project does not affect 
the NRC's pending revision to its ``waste confidence'' findings nor 
affect the standard contract for used reactor fuel management between 
DOE and utilities.
    NEI supports the work of the Blue Ribbon Commission on America's 
Nuclear Future, but recommends that the NRC continue technical review 
of the Yucca Mountain license application to completion (with the 
adjudicatory proceeding held in abeyance) to inform the deliberations 
of the commission. The industry supports a three-part integrated used 
fuel management strategy that includes: (1) On-site storage at reactor 
sites and development of centralized storage at volunteer locations; 
(2) Research, development and demonstration of advanced fuel cycle 
technologies; and (3) Development of a permanent repository.
    The nuclear industry consistently has supported research and 
development of the advanced fuel cycle technologies proposed in the 
Fuel Cycle Research and Development program ($201 million). DOE's plans 
should be brought into compliance with any recommendations of the blue 
ribbon commission that Congress ultimately accepts.

              DEVELOPMENT OF ADVANCED REACTOR TECHNOLOGIES

    The administration has proposed several new initiatives for the 
Office of Nuclear Energy for fiscal year 2011. NEI is encouraged by 
DOE's development of a road map on milestones and annual funding so 
that Congress and the public will support these new program 
initiatives. NEI supports $195 million in funding for the Reactor 
Concepts Research, Development and Deployment program in fiscal year 
2011. Within this program, $103 million in funding would be allocated 
for the Next Generation Nuclear Plant (NGNP) program. Westinghouse 
Electric Co. and General Atomics will begin work on next generation 
reactor designs after being awarded $40 million last month by the 
Department of Energy. Advanced reactor technology can displace the use 
of fuels such as natural gas for producing process heat, thus enhancing 
U.S. energy security, stabilizing energy prices and improving the use 
of finite natural resources.
    NEI also recommends $25.7 million in fiscal year 2011 for the Light 
Water Reactor Sustainability program, focusing on materials science and 
materials performance in reactor operations; $38.8 million for the 
Small Modular Reactors program with the possibility of additional funds 
if justified; and $21.8 million for the continuation of the Generation 
IV program on advanced reactor concepts. NEI supports $99.3 million for 
the new Nuclear Enabling Technologies program, including the Modeling 
and Simulation Hub as suggested by the administration but recommends 
DOE seek industry input for program plans as the hub focuses on 
materials science and improving reactor component manufacturing.

           MAINTAIN FUNDING FOR WORKFORCE AND INFRASTRUCTURE

    Congress in the last 2 years has approved $45 million for an 
Integrated University Program. NEI requests the committee maintain DOE 
and NRC funding for this program to effectively educate technicians and 
professionals for careers in all sectors of nuclear science and 
technology. Additionally, NEI recommends that the subcommittee support 
$5 million for the DOE Research Reactor Infrastructure program for new 
fuel and shipping containers, reactor instrumentation and upgrades, and 
used fuel services. Industry also supports $20 million for the Advanced 
Test Reactor (ATR) National Scientific User Facility at Idaho National 
Lab as part of the lab's $177.5 million facilities management budget in 
fiscal year 2011. This funding supports a vital facility needed to 
evaluate and improve nuclear fuel and materials behavior and 
performance for DOE, university and industry projects.

                         ENVIRONMENTAL CLEAN UP

    NEI supports the budget request of $6 billion for DOE's 
Environmental Management Office.
                                 ______
                                 
          Prepared Statement of the Energy Sciences Coalition

    The Energy Sciences Coalition (ESC) strongly supports the 
administration's goal to double funding for the Department of Energy's 
(DOE) Office of Science between fiscal year 2007 to fiscal year 2017, a 
goal that is consistent with the bipartisan American COMPETES Act and 
the recommendations in the National Academies' 2005 report ``Rising 
Above the Gathering Storm.'' To that end, the ESC supports funding of 
at least $5.121 billion for the Office of Science in fiscal year 2011--
an amount equal to the level requested by the administration for fiscal 
year 2011 and a 4.4 percent increase over fiscal year 2010.
    The ESC is aware of the significant fiscal constraints facing the 
administration and Congress this year. Weighing the economic 
competitiveness and national security value of investments in Office of 
Science programs and facilities, however, we believe that funding for 
the Office of Science of at least the amount included in the budget 
request can easily be justified. The Office of Science is the Nation's 
primary sponsor of basic research in the physical sciences, and the 
facilities and research it supports are vital to ensuring our energy 
security and national competitiveness, meeting our environmental 
challenges, and producing new jobs and innovative technological 
breakthroughs that will fuel our economy.
    Specifically, this funding will:
  --Allow the Office of Science to maintain and strengthen DOE's core 
        research programs at both the DOE national laboratories and at 
        universities;
  --Support investigators at more than 300 academic institutions and 
        from all DOE national laboratories;
  --Enable support for 27,000 PhDs, postdoctoral associates, and 
        graduate students in fiscal year 2011--approximately 2,000 more 
        than were supported in fiscal year 2010;
  --Ensure maximum utilization of DOE research facilities by 26,000 
        researchers from universities, national laboratories, industry, 
        and international partners; and
  --Allow the Office of Science to develop and construct the next-
        generation facilities necessary to maintain U.S. preeminence in 
        research and development in the physical and biological 
        sciences, computing, and many other critical scientific fields.
    The ESC therefore urges Congress to support the administration's 
fiscal year 2011 budget request and invest at least $5.121 billion in 
the DOE Office of Science.

                        ENDORSING ORGANIZATIONS

American Chemical Society
American Institute for Medical and Biological Engineering
American Institute of Physics
American Mathematical Society
American Physical Society
American Society for Engineering Education
American Society for Microbiology
American Society of Plant Biologists
Arizona State University
ASME
Association of American Universities
Association of Public and Land-grant
Universities--APLU
ASTRA, The Alliance for Science &
Technology Research in America
Battelle
Biophysical Society
California Institute of Technology
Council of Energy Research and Education
Leaders
Duke University
Florida International University
Georgia Institute of Technology
Harvard University
Indiana University
Jefferson Science Associates, LLC
Krell Institute
Massachusetts Institute of Technology
Materials Research Society
Michigan State University
North Carolina State University
The Ohio State University
The Optical Society
Oregon State University
Princeton University
Rutgers, The State University of New Jersey
Semiconductor Industry Association
Semiconductor Research Corporation
Society for Industrial and Applied Mathematics
Southeastern Universities Research Association
Stanford University
Stony Brook University
Texas A&M University
Tulane University
The University of California
University of California, Berkeley
University of California, Davis
University of California, Irvine
University of California, Los Angeles
University of California, Merced
University of California, Riverside
University of California, San Diego
University of California, San Francisco
University of California, Santa Barbara
University of California, Santa Cruz
University of Central Florida
University of Chicago
University of Hawaii System
University of Illinois
University of Maryland
University of Massachusetts
University of Michigan
University of Minnesota
University of New Mexico
University of Pittsburgh
University of Southern California
University of Washington
University of Wisconsin-Madison
Vanderbilt University
Washington State University
Washington University in St. Louis
                                 ______
                                 
                   Prepared Statement of IBACOS, Inc.

    IBACOS (Integrated Building and Construction Solutions) urges the 
Subcommittee on Energy and Water Development to provide $46 million for 
the Building America Program at the Department of Energy's (DOE) Office 
of Building Technologies in fiscal year 2011 Appropriations under the 
Office of Building Technologies, Residential Building Integration, 
Energy Efficiency and Renewable Energy. We further urge that the 
following language is included to ensure that the competitively 
selected Building America teams are funded at a percentage comparable 
to their historic funding: Of these funds, $35 million shall be 
provided for the research activities of the competitively selected 
Building America research teams, the Building America lead research 
laboratory, and other national laboratories conducting research to 
achieve Building America's specified energy performance targets.

                           EXECUTIVE SUMMARY

    Residential Buildings currently account for over 20 percent of the 
primary energy consumed by the United States. Since 2000, over 12 
million new homes have been constructed, and each year over a million 
homes are remodeled. Significant energy savings can be achieved at 
minimal increases in construction costs provided that a long term and 
consistent commitment is made to work in partnership with the housing 
industry. DOE's Building America Program has developed an industry-
driven research approach to develop solutions that can reduce the 
average energy use in new housing by 50 percent by 2015, providing 
significant benefits to homeowners in terms of reduced utility bills 
and significant benefits to the U.S. economy by maintaining housing as 
a major source of jobs and economic growth. If building in significant 
energy savings isn't done now, the Nation risks using an extravagant 
amount of energy in the future. In order to reduce reliance on foreign 
energy supplies and to support the stabilization of greenhouse gas 
emissions, we must invest appropriately in research in the areas of 
technology, systems integration, and building and renovating processes 
to upgrade the performance of our housing stock, otherwise, we are 
mortgaging our future.
    Research, development, and outreach activities performed by the 
competitively selected industry Teams in the Building America Program 
are the key element in the DOE strategy to reduce energy consumption in 
residential buildings. The Teams' activities focus on increasing the 
performance of new and existing homes by developing advanced energy 
systems that can be implemented on a production basis, while meeting 
consumer and building performance requirements.
    The Teams have been working on improving efficiency in housing 
since 1992, with successes being embodied in EPA's Energy Star Home 
program and DOE's Builders Challenge, and they are now focused on the 
more difficult task of meeting DOE's goals to create strategies to 
achieve 50 percent whole house savings by 2015, and ultimately Zero 
Energy Homes (ZEH)--homes that produce as much energy as they use on an 
annual basis--broad spread in the market by 2025.

             A NEW FRONTIER IN RESEARCH--ZERO ENERGY HOMES

    The research needed to develop systems and strategies to achieve 
DOE's short and longer term goals is not simply applying lessons 
learned; rather, fundamental research is still required. This R&D, 
performed by the Building America Teams, is truly high-need, high-risk, 
high-payoff research.
    The research required to meet the goals of 50 percent savings and 
ZEH is costly and high risk:
  --Significant basic research is required to develop and integrate new 
        technologies into homes before they are proven effective enough 
        to be applied in the field.
  --This research is costly and risky, and will never be undertaken by 
        the industry alone.
  --The life cycle of this research is significantly longer than that 
        of comparable industries.
  --The homebuilding industry is extremely fragmented, with 
        homebuilders having little ability to drive research, and a 
        significantly lower than average financial commitment to 
        investing in research.
  --Builders need successful business models to apply related to 
        effectively and profitably integrating new technologies and 
        strategies.
    The research required to meet the goals of 50 percent savings and 
ZEH is also high-payoff for the following reasons:
  --Once constructed, homes have a long lifespan, providing the 
        opportunity for a durable long term reduction in energy use.
  --Effective strategies to reduce energy use will positively impact 
        consumers, as well as the Nation's energy demand.
  --Successful research into integration strategies will allow new, 
        high-risk technologies to be adopted more quickly and 
        effectively, and can identify code barriers that might prevent 
        energy efficiency and market adoption.

    BUILDING AMERICA COMPETITIVE TEAMS: SUCCESSES IN THE REAL WORLD

    The work of the Teams allows industry leadership to drive cost 
effective solutions that move us toward Zero Energy Homes. Building 
America Builder partners have shown that homes with energy savings up 
to 40 percent can be cost competitive and valued by consumers in 
today's marketplace. These homes have lower energy bills and operating 
costs, and increased building durability as well as occupant safety, 
health, and comfort. The teams have been instrumental developing cost 
effective solutions at the 30 percent and 40 percent energy saving 
levels currently used by regional builders and divisions of national 
builders such as Pulte Homes, David Weekly Homes, K Hovnanian Homes, 
Beazer Homes, Centex Homes, Imagine Homes, Ideal Homes, Veridian Homes, 
Tommy Williams, to name a few. The more than 500 private sector 
partners who work with the Teams are experts in home construction, 
building products and supply, architecture, engineering, community 
planning, and mortgage lending. All construction material and labor 
costs for homes and communities constructed by Building America Teams' 
builders are provided by DOE's private sector partners.
    In addition to performing the fundamental research needed to 
advance the energy efficiency of our Nation's housing stock, the 
Building America Teams also provide recommendations to a broad range of 
residential deployment partners including the EPA's Energy Star Homes 
Program, HUD's Partnership for Advancing Technologies in Housing 
Program, DOE's Builders Challenge, and many industry associations and 
universities.
    DOE's Role in the Residential Buildings Research Partnerships:
  --Catalyzing research in residential construction necessary to 
        increase the energy performance, and bringing together industry 
        partners to leverage research dollars and expertise.
  --Matching advanced product research programs to the system 
        integration efforts of the Building America Teams to ensure 
        realistic approaches to increasing energy performance.
  --Reducing risk and increasing reliability of emerging technologies.
  --Providing scientific expertise through the involvement of the 
        National Renewable Energy Laboratory (NREL) and other national 
        laboratories.
  --Sharing critical information about research with several thousand 
        associated building industry professionals and leveraging 
        information through EPA, HUD, and private sector energy 
        efficiency programs.
    Program Goals:
  --Reduce energy use in America's housing stock by 50 percent by 2015 
        and provide ZEH broad spread in the market by the year 2025, 
        integrating renewable energy when and where practical.
  --Research and develop the systems and strategies necessary to allow 
        our Nation to deliver high performance houses in order to 
        increase our national energy security.
    Program Status:
    Through the competitively selected Teams, Building America works 
closely with America's lead production builders, who produce 
approximately 50 percent of the Nation's new housing stock. More than 
30,000 homes have been constructed in 34 States with energy savings up 
to 40 percent. While potentially up to 30 percent of the Nation's 
builders could reasonably achieve a 30 percent energy saving target, it 
is estimated that less than 1 percent of the builders can achieve 50 
percent. To develop solution sets to help builders move forward to the 
50 percent level, all areas of energy use in the house must be 
addressed. This means increased complexity on the part of the builder 
and all associated trade partners, suppliers, and manufacturers, which 
translates to significantly more effort on the part of each Building 
America Team lead. Increased funding is needed to address DOE's energy 
efficiency goals, and provide the increased need for technical support 
to lead builders, contractors, and suppliers for effective research and 
participation in the program. The Building America research to date has 
shown that to achieve the 50 percent and ZEH goals, every energy 
related system in the house must be analyzed and strategies for energy 
savings developed. This level of effort is significantly greater than 
for the 30 percent or 40 percent goals, where only major energy end 
uses in the house needed to be addressed. On a forward moving basis, 
the stated DOE goals of the program are unreachable without significant 
Team funding.
    Recommendation for Fiscal Year 2011 Funding:
    Provide $46 million, for the Building America Program at the DOE's 
Office of Building Technologies in fiscal year 2011 appropriations 
(under the Office of Building Technologies, Residential Building 
Integration). This does not include new funding to initiate a retrofit 
research and development program. Additionally, include language as 
follows to ensure that the competitive teams are funded at a percentage 
comparable to their historic funding:

    ``Of these funds, $35 million shall be provided for the research 
activities of the competitively selected Building America research 
teams, the Building America lead research laboratory, and other 
national laboratories conducting research to achieve Building America's 
specified energy performance targets''
                                 ______
                                 
       Prepared Statement of the National Hydropower Association

    The National Hydropower Association (NHA) \1\ appreciates the 
opportunity to submit this statement regarding hydropower Research and 
Development funding priorities for the fiscal year 2011 appropriations 
budget cycle.
---------------------------------------------------------------------------
    \1\ NHA is a non-profit, national trade association dedicated to 
promoting the Nation's largest renewable resource and advancing the 
interests of the hydropower and new ocean, tidal, conduit and instream 
hydrokinetic industries and the consumers they serve.
---------------------------------------------------------------------------
    NHA requests a minimum of $100 million in fiscal year 2011 Energy 
and Water Appropriations for the Department of Energy's Waterpower 
Program to support initiatives across all hydropower technology 
sectors. The types of technologies covered are conventional hydropower 
including pumped storage and emerging technologies that access the 
energy in ocean waves, and the flowing water in rivers, man-made 
channels and those caused by tides.
    A $100 million funding level will go far to support a national goal 
to double U.S. capacity of renewable hydropower, the research needed to 
increase production and create 700,000 new industry sector jobs across 
every State of the country.
    Investment in hydropower R&D will drive innovation across the 
economy and maintain American competitiveness and create jobs. In 
addition, the Nation's largest and most reliable renewable electricity 
resource will be positioned to address the multiple challenges of 
global climate change, increasing demand for clean energy, U.S. energy 
security and national economic recovery.

            HYDROPOWER'S CURRENT AND POTENTIAL CONTRIBUTION

    The goal of the National Hydropower Association and its members is 
to provide clean, climate-friendly, reliable baseload electricity today 
and in the future through the responsible development and expanded use 
of conventional hydropower, pumped storage and new technologies, such 
as ocean and tidal energy and small irrigation power.
    As the largest source of renewable electricity in the United 
States, currently providing 7 percent of U.S. generation and avoiding 
225 million metric tons of carbon emissions a year, hydropower is 
poised to do more. Recent studies demonstrate that the Nation's 
hydropower capacity could double by 2025 mostly by maximizing existing 
infrastructure and without the need to build new impoundments.\2\
---------------------------------------------------------------------------
    \2\ In fact, of the approximately 80,000 dams in the U.S. only 
about 3 percent have hydropower facilities associated with them.
---------------------------------------------------------------------------
    The evidence supporting these projections is credible, current and 
prolific. For example, more than 50,000 MW of new hydropower capacity 
is in the Federal Energy Regulatory Commission (FERC) pipeline awaiting 
review and approval for development, with additional projects on the 
drawing board for consideration.
    Second, applications for DOE Waterpower program funding 
opportunities last year far outnumbered available funds--both for new 
and conventional technologies. For example, in the most recent funding 
announcement on November 4, 2009, the Department of Energy awarded $32 
million to 7 projects to pursue upgrades to existing hydropower 
facilities, although dozens more projects submitted applications.
    Finally, new studies project the doubling (or even tripling) of 
hydropower's capacity by 2025. According to an October 2009 report 
conducted by Navigant Consulting, approximately 60,000 MW of new 
hydropower is possible by 2025. This represents enough electricity to 
power every household in Los Angeles, New York and Chicago. In addition 
to providing affordable and clean power, the report found that 60,000 
MW of new hydropower capacity also will result in 700,000 cumulative 
direct and indirect American jobs, with an additional 700,000 induced 
jobs.\3\
---------------------------------------------------------------------------
    \3\ http://hydro.org/Jobs%20Study/
NHA_JobsStudy_Final%20Report_Final_Sept%2020.pdf.
---------------------------------------------------------------------------
    However, development of some of this capacity requires necessary 
and needed R&D investment (both short and long term) in order to 
advance the state of the technology, study potential impacts, 
understand the extent of the developable resource, and more. In 
particular, Government funding is needed at the front end when private 
investments would not recoup the full value of the resulting social 
good. This is especially true in the case of basic research and 
development investments, where the private sector tends to under-
invest.

  HYDROPOWER'S R&D NEEDS SPAN ALL INDUSTRY SECTORS--CONVENTIONAL, NEW 
              HYDROKINETIC TECHNOLOGIES AND PUMPED STORAGE

    Although conventional hydropower is one of America's longest 
serving electric generation resources, the industry is on the vanguard 
of new technology development and project expansion.
    Technology advancements in the industry will allow facilities to 
add capacity and increase generation reduce impacts on environmental 
resources, and maximize water use efficiency in a time of increasing 
and competing needs for water from both power and non-power users.
    Maximizing the existing hydropower system, as well as building on 
existing non-powered dams, are some of the lowest cost options per 
kilowatt hour for increasing renewable energy generation. However, 
these projects are also larger, more capital intensive up-front, 
experience longer development timelines due to licensing, manufacturing 
and construction, and require Government R&D support to prove out 
technology advancements to Federal and State resource managers as well 
as other stakeholders.
    For the ocean and tidal energy and instream hydrokinetic 
industries, the potential resources are tremendous with marine projects 
that could be sited close to load centers in the Northwest, California, 
Florida, and the Northeast as well as inland waterway projects that 
could be sited throughout the country. In addition, hydrokinetics may 
serve pressing power needs in remote communities as a distributed power 
resource, such as in Alaska.
    The wave, tidal, and instream hydrokinetic industry is making great 
strides toward commercialization, but still requires significant R&D 
support to move beyond pilot projects to larger scale deployment, 
refine the technologies, answer potential environmental impact 
questions, and reduce higher project costs.
    Research and development is also needed to maximize the full 
potential of hydropower pumped storage projects for use as transmission 
system tools to provide energy storage, grid reliability and other 
ancillary services. Pumped storage has the proven ability to provide 
the firming benefits needed to support the growth of other variable 
renewable technologies, such as wind and solar.
    Federal research, development and deployment programs are critical 
to bringing these technologies and new projects to fruition and to 
build the human and technological capital needed to perform 
breakthrough research and transfer those innovations to the market. As 
we have testified in the past, NHA analyzed the 2007 EPRI report \4\ 
and has concluded that it provided a useful model and roadmap from 
which to guide activities under the DOE Waterpower R&D program. As 
such, this statement recommends, and incorporates by reference, the 
suite of initiatives identified in NHA's fiscal year 2010 statement to 
the House and Senate Appropriations Committees. These directives are 
intended to address the needs left unfunded by the previous DOE R&D 
program for hydropower and would expand the Department's efforts.
---------------------------------------------------------------------------
    \4\ Assessment of Waterpower Potential and Development Needs, 
Number 1014762, EPRI, March 2007, http://my.epri.com/portal/
server.pt?Abstract_id=000000000001014762.
---------------------------------------------------------------------------
    NHA also encourages Congress and the Department to pursue new 
horizon initiatives, like climate forecasting and modeling and 
additional energy/water nexus issues that may affect energy production 
in the coming years.
    Congress has recognized the need for research, development and 
deployment of new advanced technologies, both for conventional 
hydropower and the ocean, tidal and instream hydrokinetic industries. 
NHA directs attention to title IX, section 931 in the Energy Policy Act 
of 2005 as well as the Energy Independence and Security Act of 2007.

              THE IMPORTANCE OF THE DOE WATERPOWER PROGRAM

    The Obama administration and the Congress are setting ambitious and 
aggressive goals for renewable energy development in the United States. 
Such aggressive goals require aggressive funding for research into 
renewable energy technology development and assistance in technology 
deployment.
    The Department of Energy is the Government agency charged with 
meeting these goals and ensuring that cost-effective technologies are 
brought to market and add to a diversified energy portfolio and NHA 
strongly supports their work particularly that of the Waterpower 
program.
    At this critical time when we are relying on our innovate 
industries to deliver power from renewable resources in an efficient 
and economical way, we cannot allow initiatives to fall victim to 
funding setbacks. Throughout the years, the hydropower R&D program has 
been severely underfunded. This was felt most acutely during the middle 
of the last decade when the program was zeroed out--the only renewable 
resource to receive such treatment.
    Looking forward, we see the mission of the Waterpower program as 
one that conducts R&D to improve the technical, societal, and 
environmental benefits of hydropower and hydrokinetic resources, and 
that also coordinates with other Federal agencies and industry, 
including both private and public entities involved with development, 
is also critical.
    One example of the important areas of growth for the hydropower 
industry is increasing capacity at existing projects operated by the 
Army Corps of Engineers and the Bureau of Reclamation.
    Project developers are reporting a need for better coordination, 
more resources and process improvements for working with the Federal 
system. Toward that end, DOE's ability to facilitate communication 
across the various Government agencies--from the Federal hydropower 
operators to the Federal Energy Regulatory Commission to the resource 
protection agencies--is crucial and funding should be directed to 
support its work in providing information and technical support to 
assist project development.

                               CONCLUSION

    While funding levels for DOE's Waterpower research and development 
program have increased from zero funding in fiscal year 2006 to $50 
million in fiscal year 2010, more is required to fully support this 
important resource.
    Under a comprehensive R&D program funded at $100 million for fiscal 
year 2011, hydropower will be positioned to offer economic, 
environmental, and energy benefits simultaneously through 
comprehensive, well-designed initiatives. Funds are needed to support 
all technologies through important on-going and new work on resource 
assessments, advanced hydropower turbine designs, technology testing 
for new ocean, tidal, and instream hydrokinetic applications, 
environmental impact studies, climate and hydrology modeling, grid 
integration and the role of hydro in firming variable energy resources.
    By accelerating the funding for the DOE Waterpower R&D program, the 
United States could soon realize the tremendous energy and 
environmental benefits of maximizing our existing hydropower projects 
and infrastructure as well as the suite of emerging wave, tidal, and 
hydrokinetic technologies.
                                 ______
                                 
       Prepared Statement of the American Wind Energy Association

                              INTRODUCTION

    America's wind energy industry experienced a record year of growth 
in 2009. Industry deployed more than 10,000 megawatts (MW) nationwide, 
amounting to approximately 40 percent of the country's new electrical 
capacity and enough to power 2.4 million homes. Although wind systems 
are commercially deployable today, keeping America's domestic wind 
industry competitive with other generation sources requires increased 
research, development, and deployment (RD&D) funding to reduce costs 
and improve reliability.
    Therefore, the American Wind Energy Association (AWEA) requests a 
funding level of $186.5 million for fiscal year 2011, which is an 
increase of $63.5 million above the President's Congressional budget 
request for the Department of Energy (DOE) Wind Energy Program. Of this 
amount, AWEA requests that $16 million be designated for power system 
integration and transmission development for ``variable generation'' 
sources like wind and solar energy. The $16 million could be 
appropriated to either the Wind Energy Program within the Office of 
Energy Efficiency and Renewable Energy (EERE) or to the Office of 
Electricity Delivery and Energy Reliability (OE).
    DOE provides important technical support, guidance, information, 
and limited cost-shared funding for efforts to explore and develop wind 
energy resources. AWEA commends the DOE Wind Energy Program for 
successfully developing programs that are consistent with the wind 
industry's long-term needs. Regardless of whether OE or EERE receives 
grid integration and transmission development funds, it is crucial that 
both entities work together and with experts at DOE national 
laboratories--particularly the National Renewable Energy Laboratory--to 
help utilities resolve variability-related issues related to grid 
integration.
    AWEA's funding request of $63.5 million above the President's 
Congressional budget request of $123 million is a significant increase, 
but was carefully determined via a months-long process involving more 
than 80 wind industry stakeholders through the AWEA Research and 
Development Committee. Expert stakeholders identified the funds needed 
to overcome constraints to meeting the DOE's scenario of wind energy 
providing 20 percent of our Nation's electricity by 2030 (20 percent 
Wind Energy by 2030. July 2008).\1\
---------------------------------------------------------------------------
    \1\ U.S. Department of Energy, ``20 percent Wind Energy by 2030'' 
(July 2008), http://www.20percentwind.org/20p.aspx?page=Report.
---------------------------------------------------------------------------
                                OVERVIEW

    For years, the DOE Wind Energy Program has provided essential help 
to the wind industry by supporting technology advancements and 
identifying and addressing other hurdles to wind energy development. 
However, more work is necessary. Wind power is still constrained by 
difficulties in market acceptance and the need for improvements in 
cost, performance, and reliability. The DOE's 20 percent Wind Energy by 
2030 report assumes that capital costs must be reduced by 10 percent 
and that turbine efficiency must increase by 15 percent to reach the 
goal of providing 20 percent of our Nation's electricity from wind by 
2030. The DOE report clearly identifies a need for continued Federal 
investment in wind RD&D by stating, ``In a functional sense, wind 
turbines now stand roughly where the U.S. automotive fleet stood in 
1940. \2\ '' As our Nation turns to wind power to meet more of its 
energy needs, it is crucial for DOE to increase funding to improve wind 
turbine reliability and reduce costs.
---------------------------------------------------------------------------
    \2\ ibid.
---------------------------------------------------------------------------
    Achieving 20 percent of U.S. electric power from wind, with the 
critical help of RD&D, would:
  --Create 500,000 jobs, generating over $1 trillion in economic impact 
        by 2030;
  --Reduce natural gas demand by approximately 7 billion cubic feet/
        day--nearly one-half of the current consumption in the electric 
        sector;
  --Decrease natural gas prices by approximately 12 percent, saving 
        consumers approximately $128 billion;
  --Avoid 825 million tons of carbon dioxide emissions in the electric 
        sector in 2030, equivalent to 25 percent of expected electric 
        sector emissions; and
  --Reduce cumulative water consumption in the electric sector by 17 
        percent in 2030 (one-third of which would come from the arid 
        West).
    The DOE Wind Energy Program currently receives approximately $84 
million annually. In comparison, the RD&D budgets for many other 
traditional and emerging energy sources are much higher. For fiscal 
year 2010, non-defense nuclear RD&D energy programs will receive at 
least $787 million, coal programs will receive $404 million, and solar 
and biomass energy will receive $247 million and $220 million, 
respectively. A higher Federal funding level for wind energy RD&D will 
help ensure that wind energy remains competitive with other forms of 
energy.

                IMPORTANCE OF DOE'S WIND ENERGY PROGRAM

    The DOE Wind Energy Program has a strong history of success, and 
the cost-shared industry/Government research and development activities 
at DOE and NREL have played an important role in keeping the cost of 
wind energy competitive with other energy sources. AWEA strongly 
believes that a funding amount of $186.5 million, provided by the 
subcommittee, would reflect the importance and impact of the Wind 
Program's work. OE and EERE should work closely with other national 
laboratories and organizations, such as NREL and the Utility Wind 
Integration Group (UWIG), to resolve grid integration challenges 
associated with wind energy development.

                   SPECIFIC WIND INDUSTRY PRIORITIES

    A team of more than 80 members of AWEA and advisors from industry 
and academic institutions identified a $63.5 million deficit in annual 
DOE funding necessary to support the RD&D and related programs needed 
to realize the vision of providing 20 percent of America's electricity 
from wind by 2030. We respectfully urge that Federal funding be 
provided for four specific areas as follows:
  --Systems Integration and Transmission Expansion ($16 million)
  --Wind Turbine Technology and Reliability ($38 million)
  --Small Wind Turbines--100kW and Smaller ($5.5 million)
  --Community Wind ($4 million)

Systems Integration and Transmission Expansion
    The systems integration program area focuses on the power system 
operations issues of integrating variable, non-dispatchable power 
sources, like wind energy, into the power system. Wind generators in 
some regions, especially those with small control areas located outside 
Regional Transmission Organizations, are already being denied 
interconnection because operational limits for the integration of 
variable generation have been reached. Yet, numerous studies from the 
United States and Europe (with significant involvement from DOE-funded 
experts) have shown that even minor changes to operations can 
accommodate much greater amounts of wind. Areas of special focus 
include developing and analyzing additional sources of system 
flexibility, expanding and implementing power system operation tools, 
and supporting interconnection-wide integration studies and plans.
    Transmission expansion is a key area of focus for meeting the 20 
percent by 2030 wind energy goal. This area of funding should focus on 
issues related to expanding the transmission grid to increase access to 
areas with rich wind resources. Emphasis should also be placed on 
making the grid more robust, efficient, and reliable. This will help 
power to flow across regions, which will be critical to integrating 
large amounts of wind energy into the system.

Wind Turbine Technology and Reliability
    Aiding improvements in wind system technology and reliability is a 
key component of the AWEA R&D Committee Action Plan. This area focuses 
on the development of turbine components to reduce capital costs, 
improve performance, and enhance equipment reliability to achieve the 
20 percent vision by 2030. This includes developing lower-cost towers, 
more reliable gearboxes and generators, advanced blade sensors and 
controls, and streamlined manufacturing processes. AWEA also recognizes 
the need to reduce the cost of offshore wind energy technology in order 
for offshore sources to provide the estimated 54 gigawatts (GW) of the 
300 GW needed to meet the 20 percent goal by 2030.

Small Wind Turbines (100 kilowatts and Smaller)
    Greater Federal funding for small wind systems, those with 
capacities of 100 kilowatts (kW) or less, would help the small wind 
industry provide homes, farms, and small businesses with their own 
domestic, on-site wind generators. Increased funding for the small wind 
industry should be used to establish market deployment programs, 
streamline installation techniques, advance technological components, 
and improve tools to assess wind resources.

Community Wind
    Community-scale wind projects, generally those whose economic 
benefits flow directly into the communities that host them, face 
greater commercialization challenges than do traditional wind power 
projects. Currently, very few Federal programs support community wind 
development. Many developers lack technical or financial resources, and 
the limited size of community wind projects often make them less 
attractive to experienced developers. Funding is needed to create and 
support a two-part Department of Energy Community Wind Initiative. The 
first part would create a technical assistance center to provide 
developers with wind resource data; technical, economic, and financial 
modeling of potential projects; permitting and brokerage assistance; 
outreach support, and other essential resources. The second part would 
fund multi-million dollar competitive DOE grants, over several years, 
to qualified community wind organizations to support permitting 
applications, interconnection and transmission agreements, 
environmental studies, view-shed acceptance, equipment procurement, and 
other essential aspects of development.

                               CONCLUSION

    The President and Congress have called for a bolder commitment to 
the development of domestic renewable energy resources, particularly 
wind energy, to meet our Nation's growing energy demand. Continued 
investments in wind energy RD&D are delivering value for taxpayers by 
fostering the development of a domestic energy source that strengthens 
our national security, provides rural economic development, spurs new 
high-tech jobs, and protects the environment.
    While the wind industry continues adding new generation capacity, 
challenges still exist. Continued support for DOE's Wind Energy Program 
is vital to helping wind become a more prominent energy source, which 
will benefit the economy and environment. To ensure that funding levels 
are commensurate with the President's call for more renewable energy, 
AWEA urges the subcommittee to provide $186.5 million for the Wind 
Energy Program and OE in fiscal year 2011. Along with other key Federal 
policies, both new and sustained, greater RD&D funding through DOE will 
help transform the 20 percent wind vision into reality.
    AWEA appreciates this opportunity to provide testimony on DOE's 
fiscal year 2011 Wind Energy Program budget before the House 
Appropriations Subcommittee on Energy and Water Development. We thank 
the subcommittee for its time and attention to our request.
                                 ______
                                 
    Prepared Statement of the Federation of American Societies for 
                          Experimental Biology

    On behalf of the Federation of American Societies for Experimental 
Biology (FASEB), I respectfully request an appropriation of $5.24 
billion for the Department of Energy, Office of Science in fiscal year 
2011. This figure is in keeping with President Obama's vision for 
doubling the DOE SC budget. Further, it will enable the Office of 
Science to continue supporting essential research programs that enhance 
human health and quality of life, invigorate the economy, bring the 
Nation closer to energy independence, and drive scientific innovation.
    FASEB is composed of 23 societies representing more than 90,000 
members, making it the largest coalition of biomedical research 
associations in the United States. Our mission is to improve human 
health and welfare by promoting progress and education in biological 
and biomedical sciences.
    The Office of Science is dedicated to investing in ``the most 
exciting and daring research that human kind has ever conceived.'' The 
programs and facilities of the DOE SC enable important discoveries in 
computational sciences, environmental and biological sciences, and 
energy sciences. For example, DOE scientists are developing tools such 
as hollow glass microspheres, tiny glass capsules that are one-half the 
width of a human hair, which have applications ranging from targeted 
drug delivery to hydrogen storage for batteries. Additionally, work at 
the DOE national laboratories is increasing the capabilities of 
supercomputers, allowing for more efficient access to data and faster 
processing speeds. This and other research funded by the DOE SC drives 
cutting-edge science and technological innovations that ensure our 
Nation's safety, bolster our Nation's economy, and improve the day-to-
day lives of the American people.
    More than 25,000 researchers from various Government agencies, 
academic institutions, and private industry use the DOE SC's state-of-
the-art laboratories and research facilities every year. The national 
laboratory system is the most advanced of its kind and permits the 
agency to support vital research in a variety of fields, as well as 
interdisciplinary research that extends the basic research of many 
other Federal agencies. In fact, much of the research funded by non-DOE 
science agencies would not be possible without the DOE's dedicated 
research infrastructure. At the Brookhaven National Laboratory the 
synchrotron particle accelerator, with its ability to produce intense 
light at a variety of wavelengths, is being used by medical scientists 
from the National Institutes of Health. In research funded by the 
National Institute of General Medical Sciences, X-rays from the 
synchrotron are being used to study the structure of proteins involved 
in Alzheimer's disease. The Office of Science also provides support to 
many graduate students and early-career postdoctoral researchers. 
Almost one-half of the DOE SC's research funding supports projects at 
over 300 academic institutions nationwide.

             DISCOVERIES THAT IMPROVE HEALTH AND WELL-BEING

    DOE-supported scientists are making remarkable contributions to 
human health.
  --Restoring Sight to Patients With Vision Loss.--In conjunction with 
        the National Science Foundation and the National Eye Institute, 
        the DOE Office of Science helped to fund a team of 
        ophthalmologists, engineers, and neuroscientists to create the 
        first ever artificial retina. The groundwork for this 
        development was laid by more than a century's worth of basic 
        research into the structure and function of the eye. By drawing 
        on the work of anatomists, biochemists, electrophysiologists 
        and others, scientists were able to create a device delicate 
        enough not to damage the eye yet complex enough to provide 
        visual input to the human brain. The resulting artificial 
        retina has been shown to restore some level of sight to those 
        who have lost vision due to retinal disease. By 2011, the 
        research team expects to start clinical testing on a version 
        that will allow reading and facial recognition. These studies 
        are bringing new hope to patients who have gone decades without 
        sight.
  --Improving Bone Regeneration.--Following a fracture, the process of 
        bone proliferation and healing takes several weeks, even 
        months. A research team funded by the DOE SC is currently 
        developing safe, effective, and inexpensive implant materials 
        to improve this process and shorten healing time. They have 
        identified a growth factor known as lysophosphatidic acid (LPA) 
        that promotes bone regeneration with no detectable toxicity. 
        What's more, LPA can be manufactured at the fraction of the 
        cost of the other bone healing stimulators that are currently 
        available. The next step is for researchers to combine LPA with 
        a hydrogel that, when injected around a damaged bone, will 
        release the growth factor in a controlled manner. This research 
        has the potential to significantly reduce recovery time for the 
        8 million Americans who suffer bone fractures every year.
  --Mitigating the Impact of Low Dose Radiation.--The DOE Low Dose 
        Radiation Research Program funds basic research to determine 
        the effects of exposure to low doses of radiation. Researchers 
        long ago established that ionizing radiation, which is present 
        in a wide range of occupational settings, can lead to breast 
        cancer by causing genetic mutations. Recent research DOE has 
        funded, however, has revealed that exposure to ionizing 
        radiation also acts as a carcinogen by affecting the cell 
        proteins responsible for cell-to-cell communication and 
        cellular structure. Thus exposure may result in breast or other 
        types of cancer, even where genetic mutations are not 
        detectible, and the damage can amplify by translating to 
        subsequent generations of cells. Understanding the fundamental 
        cell biology of radiation exposure paves the way for the 
        development of treatments for and protections against low-dose 
        radiation.

                 CLEANER AND MORE SECURE ENERGY FUTURE

    Discoveries in fundamental energy sciences funded by DOE SC are 
already changing the way we use energy and paving the way for the next 
generation of environmentally-friendly, sustainable energy sources. 
Specifically, the Department's newly-formed Advanced Research Projects 
Agency-Energy (ARPA-E) is working on technologies to meet our most 
pressing energy needs.
  --Hydrogen Technologies.--Hydrogen is one of the most abundant 
        elements on the planet, making it an appealing clean energy 
        alternative. However, almost all hydrogen is locked up in water 
        and other compounds. Researchers at the Savannah River National 
        Laboratory are working to advance the most promising method of 
        extracting hydrogen from water--the Hybrid Sulfur Process. This 
        two-step reaction is driven by electricity and heat, both of 
        which can be generated by a nuclear reactor. This simple, 
        efficient process is slated to be used in conjunction with 
        next-generation nuclear plants and has the potential to produce 
        enough hydrogen to power more than 1 million fuel cell cars.
  --Carbon Capture Technologies.--Natural systems use an enzyme known 
        as carbonic anhydrase (CA) to convert carbon dioxide to 
        bicarbonate, which can then be transported out of tissue. A 
        program funded through ARPA-E is working to apply this process 
        to make the use of fossil fuels less environmentally damaging. 
        The program will develop membrane technology for separating 
        carbon dioxide from flue gas streams, using synthetic forms of 
        CA. The synthetic analogue was created to be more robust than 
        naturally-occurring CA, and thus able to function in harsh 
        environments. This membrane technology developed by the DOE SC 
        is one of many ways currently being explored to increase the 
        efficiency of and reduce the cost involved in carbon capture.

               RECOGNIZING THE IMPORTANCE OF DOE RESEARCH

    In 2007, the passage of the America COMPETES Act demonstrated 
Congress' commitment to U.S. science and technology. Now, Congress has 
the opportunity to reassert this commitment by both reauthorizing 
America COMPETES and supporting the goal of doubling the budgets of DOE 
SC, NSF and NIST. Funding DOE SC based on the plan outlined in the 
President's budget will allow DOE to greatly enhance its groundbreaking 
research portfolio and permit it to confront current and future energy 
and health challenges. In keeping with this vision for doubling DOE SC 
budget, FASEB recommends an appropriation of $5.24 billion for the 
Department of Energy, Office of Science in fiscal year 2011.
                                 ______
                                 
        Prepared Statement of the National Carbon Capture Center

    Mr. Chairman and members of the subcommittee: Southern Company 
operates the U.S. Department of Energy's (DOE's) National Carbon 
Capture Center (NCCC) (http://nationalcarboncapturecenter.com) at the 
Power Systems Development Facility (PSDF) in Wilsonville, AL for DOE's 
National Energy Technology Laboratory (NETL) and several industrial 
participants.\1\ The PSDF was conceived as the premier advanced coal 
power generation research and development (R&D) facility in the world 
and has fulfilled this expectation. NETL responded to the need for 
cost-effective carbon dioxide (CO<INF>2</INF>) capture technologies by 
establishing the NCCC with a focus on conducting R&D to advance 
emerging CO<INF>2</INF> control technologies to commercial scale for 
effective integration into either combustion or Integrated Gasification 
Combined Cycle (IGCC) processes. The NCCC will accomplish this goal by 
providing a test-bed for Government, industrial, and university 
projects to conduct meaningful tests in an industrial setting. I would 
like to thank the Senate for its past support of the NCCC and request 
the subcommittee's continued support as the NCCC responds to the need 
for developing cost-effective CO<INF>2</INF> capture technology for 
coal-fueled power generation. This statement supports the 
administration's budget request for DOE coal R&D which includes about 
$39.6 million for work at the NCCC. These funds are necessary to 
conduct the future test program developed in collaboration with DOE 
which includes wide-ranging support of the DOE Carbon Sequestration 
Technology Roadmap.
---------------------------------------------------------------------------
    \1\ Current NCCC participants include Southern Company, the 
Electric Power Research Institute (EPRI), American Electric Power, 
Luminant, NRG, Peabody Energy, Arch Coal, Inc., and Rio Tinto.
---------------------------------------------------------------------------
    A key feature of the NCCC is its ability to test new carbon capture 
technologies for coal-based power generation systems at an integrated, 
semi-commercial scale. Integrated operation allows the effects of 
system interactions, typically missed in un-integrated pilot-scale 
testing, to be understood. The semi-commercial scale allows the 
maintenance, safety, and reliability issues of a technology to be 
investigated at a cost that is far lower than the cost of commercial-
scale testing. Capable of operating at pilot to near-demonstration 
scales, the NCCC is large enough to produce data to support commercial 
plant designs, yet small enough to be cost-effective and adaptable to a 
variety of technology research needs.
    In addition to semi-commercial scale testing, the NCCC will serve 
as a test bed for cost-effective technology screening by providing 
slipstreams of actual syngas from coal gasification and flue gas from 
coal combustion. Future test work at the NCCC will include the scale-up 
and continued development of several CO<INF>2</INF> capture 
technologies being developed either at DOE's NETL facility, at private 
R&D laboratories or at the NCCC. The DOE program for CO<INF>2</INF> 
capture in coal-fueled power plants is divided into three areas: post-
combustion capture for conventional pulverized coal plants, pre-
combustion capture for coal gasification power plants, and oxy-
combustion processes which produce a more CO<INF>2</INF>-rich flue gas 
than conventional combustion for easier CO<INF>2</INF> capture. The 
NCCC's CO<INF>2</INF> capture efforts would address all three areas.
    Southern Company also supports the goals of the Clean Coal 
Technology Roadmaps developed by DOE, EPRI, and the Coal Utilization 
Research Council (CURC). These Roadmaps identify the technical, 
economic, and environmental performance that advanced clean coal 
technologies can achieve over the next 20 years. Over this time period 
coal-fired power generation efficiency can be increased to over 50 
percent (compared to the current fleet average of 32 percent) while 
producing de minimis emissions and developing cost-effective 
technologies for CO<INF>2</INF> management.

                                SUMMARY

    The United States has historically been a leader in energy 
research. Adequate funding for fossil energy research and development 
programs, including environmental and climate change technologies will 
provide our country with secure and reliable energy from domestic 
resources while protecting our environment. Current DOE fossil energy 
research and development programs for coal, if adequately funded, will 
assure that a wide range of electric generation options are available 
for future needs. Congress faces difficult choices when examining near-
term effects on the Federal budget of funding energy research. However, 
continued support for advanced coal-based energy research is essential 
to the long-term environmental and economic well being of the U.S. 
Prior DOE clean coal technology research has already provided the basis 
for $100 billion in consumer benefits at a cost of less than $4 
billion. Funding the administration's budget request for DOE coal R&D 
and long-term support of the Clean Coal Technology Roadmap can lead to 
additional consumer benefits of between $360 billion and $1.38 
trillion.\2\ But, for benefits to be realized, the critically important 
R&D program in the Clean Coal Technology Roadmap must be conducted.
---------------------------------------------------------------------------
    \2\ EPRI Report No. 1006954, ``Market-Based Valuation of Coal 
Generation and Coal R&D in the U.S. Electric Sector'', May 2002.
---------------------------------------------------------------------------
    One of the key national assets for achieving these benefits is the 
NCCC. The fiscal year 2011 funding for the NCCC needs to be about $39.6 
million to complete the construction and begin operation of new 
facilities to test technologies that are critical to the goals of the 
DOE Carbon Sequestration Technology Roadmap and to the success of the 
development of cost-effective climate change technologies that will 
enable the continued use of coal to supply the Nation's energy needs. 
The major accomplishments at the NCCC to date and the future test 
program planned by DOE and the NCCC's industrial participants are 
summarized below.

                NCCC (FORMERLY THE PSDF) ACCOMPLISHMENTS

    The NCCC test-bed has operated successfully for many years in 
support of U.S.-DOE's advanced coal program. Skilled staff from 
disciplines essential for a successful research program has gained 
experience by designing and operating the test equipment and by working 
with vendors to develop and improve their technologies. The NCCC has 
developed testing and technology transfer relationships with over 50 
vendors to ensure that test results and improvements developed at the 
NCCC are incorporated into future plants. In some instances, testing 
has eliminated technologies from further consideration. Such screening 
is valuable in that it concentrates R&D effort on those technologies 
most likely to succeed and is an essential part of managing the U.S.-
DOE's financial resources. Major subsystems tested and some highlights 
of the test program at the NCCC include:
    Transport Reactor.--The Transport Reactor has been operated 
successfully on sub-bituminous, bituminous, and lignite coals as a 
pressurized combustor and as a gasifier in both oxygen- and air-blown 
modes and has exceeded its primary purpose of generating gases for 
downstream testing. Since modifications were made in 2006, subsequent 
testing with air-blown gasifier operations has indicated substantial 
improvements in syngas heating value and carbon conversion. This 
transport technology is projected to be the lowest capital cost coal-
based power generation option, while providing the lowest cost of 
electricity and excellent environmental performance.
    Advanced Particulate Control.--Two advanced particulate removal 
devices and 28 different filter elements types have been tested to 
clean the product gases, and material property testing is routinely 
conducted to assess their suitability under long-term operation. The 
material requirements have been shared with vendors to aid their filter 
development programs.
    Filter Safe-Guard Device.--To enhance reliability and protect 
downstream components, ``safe-guard'' devices that reliably seal off 
failed filter elements have been successfully developed.
    Coal Feed and Ash Removal Subsystems.--A key to successful 
pressurized gasifier operation is reliable operation of the coal feed 
system and ash removal systems. Developmental work on the pressurized 
coal feed systems has increased the understanding and optimization of 
their performance. Modifications developed at the NCCC and shared with 
equipment suppliers allow current coal feed equipment to perform in a 
commercially acceptable manner. An innovative, continuous process has 
also been designed and successfully tested that reduces capital and 
maintenance costs and improves the reliability of fine and coarse ash 
removal.
    Syngas Cooler.--Syngas cooling is of considerable importance to the 
gasification industry. Devices to inhibit erosion, made from several 
different materials, were tested at the inlet of the gas cooler and one 
ceramic material has been shown to perform well in this application.
    Advanced Syngas Cleanup.--A slipstream unit has provided 
flexibility in testing numerous syngas contaminant removal technologies 
to improve emissions and reduce costs in IGCC gas clean-up.
    Sensors and Automation.--Significant progress with sensor 
development and process automation has been achieved. More than 20 
instrumentation vendors have worked with the NCCC to develop and test 
their instruments under realistic conditions. Development of reliable 
and accurate sensors for the gasification process has concentrated on 
coal feed, Transport Gasifier, and filter systems. Automatic 
temperature control of the Transport Reactor has been successfully 
implemented.
    Fuel Cell.--Two test campaigns were successfully completed on 0.5 
kW solid oxide fuel cells manufactured by Delphi on syngas from the 
Transport Gasifier marking the first time that a solid oxide fuel cell 
(SOFC) has been operated on coal-derived syngas. Also, a NETL-erected 
SOFC multi-cell array test skid was successfully tested at NCCC 
directly on coal syngas.
    CO2 Capture.--Slipstream CO<INF>2</INF> capture testing has been 
completed on both simulated and actual syngas and results have been 
used to design larger test equipment.

                        NCCC FUTURE TEST PROGRAM

    Developing technology options that will reduce CO<INF>2</INF> 
emissions is a primary goal for future work at NCCC. These technologies 
will be screened in close collaboration with NETL for selection for 
testing at the NCCC. This facility will serve as a productive test-bed 
for developing advanced technology and is capable of operating from 
bench- and pilot-scale to near demonstration scales allowing results to 
be scaled to commercial application. The NCCC will concentrate on 
developing cost-effective, commercially viable carbon capture 
technology for coal-fueled power plants through scale-up and continued 
development of several technologies (including for example those being 
developed either at DOE's facilities or by third party technology 
developers).
    For both new and existing power plants, post-combustion capture 
technology must be made more efficient and cost-effective. In post-
combustion capture, CO<INF>2</INF> is separated from the flue gas in a 
conventional coal-combustion power plant downstream of the pulverized 
coal boiler. Many post-combustion capture technologies need to be 
proven and integrated in an industrial power plant setting. Activities 
at the NCCC for post-combustion capture technology will include:
    Pilot-Scale Test Modules.--Pilot-scale test modules of advanced 
post-combustion technologies will be designed, installed, and operated 
in an existing pulverized coal plant adjacent to the NCCC. The test 
modules' flexible design will allow the testing of a wide range of 
technologies on actual flue gas.
    Technology Screening.--Available solvents developed by NETL, third 
party developers and the NCCC will be screened to assess readiness for 
testing at the site using improved contacting devices that are now 
under development.
    Alternative Solvent Processes.--Alternative solvents with lower 
heats of regeneration and more compact, lower cost gas-liquid 
contacting equipment will be developed and tested.
    Advanced Technology.--Compact membrane contactors and solid phase 
CO<INF>2</INF> sorbents, currently being investigated by DOE-NETL and 
private companies, will be assessed and installed. NCCC will provide 
such technologies a scaled-up testing platform as development progress 
warrants.
    In pre-combustion capture, CO<INF>2</INF> is separated from the 
syngas in a coal gasification power plant upstream of combustion in the 
gas turbine. Research and development activities at NCCC for pre-
combustion capture technology for application to gasification-based 
power generation include:
    Advanced CO2 Capture Systems.--New solvents and gas-liquid 
contacting devices will be assessed on air-blown and oxygen-blown 
syngas. New CO<INF>2</INF> separation technologies (sorbents or 
membranes) will be scaled-up and tested based on fundamental R&D 
progress by third party developers.
    Water Gas Shift Enhancements.--New water gas shift reactor 
configurations and sizes are planned for testing at the NCCC. The 
operation of shift catalysts when exposed to syngas at the NCCC will be 
optimized and their technical and economic performance will be 
evaluated.
    Advanced Syngas Cleanup.--New advanced syngas cleanup systems will 
be tested for reducing hydrogen sulfide, hydrochloric acid, ammonia, 
and mercury to near-zero levels.
    Regarding oxy-combustion, system studies will be used to evaluate 
the commercial feasibility of operating the Transport Reactor in oxy-
combustion mode. Based on study results, oxy-combustion test priority 
will be determined in collaboration with NETL.
    In developing a cost-effective advanced coal power plant with 
CO<INF>2</INF> capture, all process blocks within the power plant must 
be optimized in addition to the capture block. Including CO<INF>2</INF> 
capture in an advanced coal power plant will increase the plant cost of 
electricity, so opportunities to reduce cost in every part of the 
process will be explored. With highest priority being given to low-cost 
CO<INF>2</INF> capture process development, projects that reduce 
overall capital and operating costs will also be included in the NCCC 
test plan to partially offset incremental cost increases from 
CO<INF>2</INF> capture addition. These cost reduction projects include 
technology development for syngas cleanup, particulate control, fuel 
cells, sensors and controls, materials, and feeders.
                                 ______
                                 
           Prepared Statement of the Gulf Restoration Network

    I am writing on behalf of Gulf Restoration Network (GRN), a network 
of over 50 local, regional and national environmental, environmental 
justice, social justice, and public interest groups dedicated to 
uniting and empowering people to protect and restore the natural 
resources of the Gulf of Mexico region. The President's fiscal year 
2011 budget request for the Department of Energy proposes the 
cancellation of $71 million in balances from prior year appropriations 
for an expansion of the Strategic Petroleum Reserve (SPR) at a site 
near Richton, Mississippi and assumes the use of these balances to 
partially fund the regular operations and management activities of the 
SPR.\1\ The SPR program is part of the Office of Petroleum Reserves, 
which in turn is part of the Office of Fossil Energy in the Department 
of Energy. GRN commends this decision, and strongly urges the Senate 
Committee on Appropriations Subcommittee on Energy and Water 
Development to support this portion of the budget request. The 
cancellation of this funding for the proposed expansion of the SPR near 
Richton (hereinafter referred to as the Richton project) is a good 
fiscal, environmental and policy decision.
---------------------------------------------------------------------------
    \1\ ``Appendix, President's Budget of the United States 
Government,'' (fiscal year 2011):430.
---------------------------------------------------------------------------
    The proposed Richton project is a poor choice for a number of 
reasons: (1) it is estimated to cost at least $16.8 billion,\2\ a price 
tag that will likely only continue to grow; (2) the Richton site would 
require at least 330 miles of pipeline, increasing the likelihood of 
oil or brine spills into the environment; \3\ and (3) this project 
would be the first time that DOE has ever relied upon an inland 
freshwater source to mine the salt, an experimental proposal that 
worries many scientists familiar with the variable water flows of the 
Pascagoula River.
---------------------------------------------------------------------------
    \2\ Construction cost estimates from ''Strategic Petroleum 
Reserve's New Richton Mississippi Site,'' United States Department of 
Energy: http://www.fossil.energy.gov/programs/reserves/spr/
Richton_Fact_Sheet-Rev2_12-7-07.pdf. Petroleum price estimates based on 
``Short-Term Energy Outlook,'' United States Energy Information 
Administration (March 2010): http://www.eia.doe.gov/emeu/steo/pub/
mar10.pdf.
    \3\ ``Strategic Petroleum Reserve's New Richton Mississippi Site,'' 
United States Department of Energy: http://www.fossil.energy.gov/
programs/reserves/spr/Richton_Fact_Sheet-Rev2_12-7-07.pdf.
---------------------------------------------------------------------------
                           COSTS AND FUNDING

    The Richton project should not be receiving large Federal 
investments because the Department of Energy has not completed the 
Federal mandated National Environmental Policy Act (NEPA) process and 
released its Record of Decision (ROD). As this Federal mandated process 
could ultimately lead to a decision to not move forward with the 
Richton project, any large-scale Federal funding should wait for the 
completion of the NEPA process. Also, a recent public statement 
indicates that ``DOE believes funds for expansion could better be 
utilized to ensure ongoing operational readiness of the existing SPR.'' 
\4\ The Senate should respect the DOE's priorities and cancel past 
funding for this project.
---------------------------------------------------------------------------
    \4\ Kirgan, Harlan. ``Salt Dome put on hold,'' Mississippi Press, 
March 24, 2010: http://blog.gulflive.com/mississippi-press-news/2010/
03/richton_salt_dome_expansion_project_funds_redirected.html.
---------------------------------------------------------------------------
    Furthermore, the construction costs for the Richton project are 
estimated to be $4 billion, and while estimates for the cost of filling 
the storage area depend on variations in oil prices, the initial fill 
of the site, based on projected 2010 crude prices, could range between 
$12.8-$13.6 billion.\5\ Using a conservative estimate, this represents 
an expense of $16.8 billion or well over one-half of the DOE's proposed 
budget for this year. Although this expense would likely be spread out 
over multiple years, it still would involve a significant outlay of 
Federal funds for questionable benefits to taxpayers.
---------------------------------------------------------------------------
    \5\ Construction cost estimates from ''Strategic Petroleum 
Reserve's New Richton Mississippi Site,'' United States Department of 
Energy: http://www.fossil.energy.gov/programs/reserves/spr/
Richton_Fact_Sheet-Rev2_12-7-07.pdf. Petroleum price estimates based on 
predicated crude prices in 2011 ``Short-Term Energy Outlook,'' United 
States Energy Information Administration (March 2010): http://
www.eia.doe.gov/emeu/steo/pub/mar10.pdf.
---------------------------------------------------------------------------
    The Department of Energy considered several different sites as 
potential locations for an expansion of the SPR, and the Richton site 
was the most expensive project, and arguably the most environmentally 
harmful. Halting this destructive and costly project is a great way to 
begin shifting away from yesterday's problems and start addressing the 
daunting issues of tomorrow.

                   ENVIRONMENTAL AND ECONOMIC IMPACTS

    Coastal Mississippi relies on its water resources and wetlands to 
maintain a thriving commercial and recreational fishing industry, 
promote tourism, and provide industry with their freshwater and 
transportation needs. Nationally significant water resources like the 
Pascagoula River, the Mississippi Sound, and the Gulf of Mexico are 
integral to the coastal economy and environment. Unfortunately, the 
plan for the Richton project could threaten these same resources. In 
fact, this plan to hollow out a series of underground salt caverns 
requires the withdrawal of 50 million gallons of water per day from the 
Pascagoula River for 5-6 years.\6\ This water would be used to dissolve 
underground salt, and then the polluted and extremely salty byproduct 
would be pumped off the coast of one of Mississippi's barrier islands. 
These actions could have significant impacts on the area's environment, 
including reduction in water flows in the Pascagoula River that could 
impact coastal estuaries, and a large, salty Dead Zone where the 
polluted water is released.
---------------------------------------------------------------------------
    \6\ ``Final Environmental Impact Statement for Site Selection for 
the Expansion of the Nation's Strategic Petroleum Reserve,'' United 
States Department of Energy (2006).
---------------------------------------------------------------------------
    Furthermore, according to Department of Energy estimates, the 330 
miles of pipelines necessary to complete this project will harm or 
destroy over 1,500 acres of wetlands and lead to at least 56 brine 
spills and 19 oil spills during the construction and initial fill of 
the site.\7\
---------------------------------------------------------------------------
    \7\ ``Final Environmental Impact Statement for Site Selection for 
the Expansion of the Nation's Strategic Petroleum Reserve,'' United 
Department of Energy (2006).
---------------------------------------------------------------------------
                               CONCLUSION

    The Richton project is bad policy for the Nation, and bad policy 
for the people of coastal Mississippi. For years, citizens in 
Mississippi and throughout the country have been working to stop this 
expensive and destructive project from moving forward. In fact, 
thousands of people have contacted Secretary of Energy Steven Chu, as 
well as their congressional representatives, over the last year to 
voice their opposition to this boondoggle. Congressman Gene Taylor, who 
represents Mississippi's 4th, the district that will be most impacted, 
and Senator Roger Wicker of Mississippi have also expressed significant 
reservations with the project as currently conceived. It is heartening 
to see that this proposed budget takes into account the public's input.
    GRN strongly supports the cancellation of all previous funding for 
the Richton project in the President's fiscal year 2011 budget request 
for the Department of Energy and we urge the Senate Committee on 
Appropriations Subcommittee on Energy and Water Development and its 
members to support this portion of the proposed budget.
                                 ______
                                 
    Prepared Statement of the US Fuel Cell Council and the National 
                          Hydrogen Association

    On behalf of the members of the fuel cell and hydrogen industries, 
we thank you for consistently funding the Department of Energy's (DOE) 
hydrogen and fuel cell technology programs. Fuel cell and hydrogen 
technologies are a crucial part of the portfolio of advanced energy 
technologies that will help achieve the Nation's oil and greenhouse gas 
reduction goals. DOE and other supporting estimates show that domestic 
hydrogen fuel cells in light duty vehicles, for instance, could reduce 
oil imports by as much as 3.5 billion barrels per year within 40 years, 
reduce greenhouse gas emissions by 1.1 billion tons per year, and save 
consumers $25 trillion over the succeeding 50 years. These are key 
public investments, and DOE's programs continue to advance the pace of 
technology and bring down costs.
    As the subcommittee develops the fiscal year 2011 Energy and Water 
Appropriations recommendations, we urge you to provide $390 million for 
the Fuel Cell and Hydrogen Technologies Programs managed by the Energy 
Efficiency and Renewable Energy (EERE), Science, Fossil Energy (FE) and 
Nuclear Energy (NE) organizations at the Department of Energy--a 23 
percent increase vs. $316 million appropriated for 2010. This amount 
would fully fund the critical research, development, demonstration and 
deployment (RDD&D) of these advanced technologies in order to make them 
competitive with the conventional ones they need to replace in cost, 
reliability and performance, and respond to our industry's main 
priority: deployment of early commercial systems and an advanced fuel 
cell vehicle demonstration. A detailed list of our program priorities 
and funding requirements are included in this testimony.
    The fiscal year 2011 DOE request for EERE is $137 million, down $43 
million (-24 percent) from the current 2010 Appropriation of $180.1 
million (including last year's funded earmarks). These cuts propose 
eliminating funding for market transformation for fuel cells in early 
markets; education activities; and Federal purchase initiatives, while 
curtailing all new vehicle deployments under the Technology Validation 
program. DOE also chose to reduce the Fossil Energy coal to hydrogen 
program by $5.8 million. Similarly, at a time when funding for the 
Solid State Energy Conversion Alliance (SECA) program should be 
increased to support the megawatt-class demonstration effort, the DOE 
request is flat. This budget sends a damaging message to our industry, 
our Nation and the world, threatens to weaken U.S. leadership and 
unbalances the Nation's energy portfolio.
    More importantly, by making cuts to fuel cell and hydrogen 
technology programs, especially early market deployment, hydrogen 
infrastructure and fuel cell vehicles, and FE fuel cell research and 
development, DOE is sending negative signals to investors, 
manufacturers, auto makers, hydrogen gas suppliers, supply chain 
partners, potential customers, and other Federal agencies, local, State 
and foreign governments. The lead U.S. energy agency should fully 
embrace fuel cells and hydrogen infrastructure as an integral component 
of a comprehensive clean energy package to meet our national greenhouse 
gas reduction targets. Even worse, hydrogen and fuel cell industries 
could move offshore and the United States could lose as many as an 
estimated 675,000 potential net, new jobs.
    A robust public-private partnership, exemplified by DOE Technology 
Validation programs focused on cost reduction and early deployment, 
will accelerate commercialization and the benefits that accrue with 
marketplace success.

         STRENGTHENING FEDERAL HYDROGEN AND FUEL CELL PROGRAMS

    Proposal.--Fund DOE Fuel Cell and Hydrogen programs at enhanced 
historical levels; revise to reflect program success and current 
priorities. Restore reductions proposed by the Obama administration for 
fiscal year 2011.

EERE Programs--$220 Million
    The hydrogen and fuel cell programs in the Department of Energy's 
Hydrogen, Fuel Cell and Infrastructure Technologies Program support the 
development of fuel cells, their fuels and supporting infrastructure. 
The program has made exceptional progress in a few short years, helping 
dramatically reduce the volume production cost of fuel cells and the 
consumer cost of hydrogen fuel, testing and evaluating more than 125 
fuel cell vehicles in real world operation (U.S.-wide, over 300 
vehicles have driven 3 million miles), and helping deploy more than a 
thousand fuel cell systems to Federal agencies and early private sector 
adopters to improve energy efficiency and security of supply with low 
or zero emissions.
    Hydrogen and fuel cells have been a largely domestic suite of 
technologies, and, over the past two decades, the United States has 
continued to be the recognized leader in their development. 
Indifference to encouraging commercialization allows other nations, 
particularly Germany, South Korea, Japan, and China, to capture the 
lead in establishing and commercializing these technologies, reaping 
the economic benefits of associated job growth and export revenue. DOE 
analysis projects that transitioning to a hydrogen economy would yield 
a net increase in U.S. employment of 58,010 to 182,840 by 2020 and 
184,560 to 677,070 by 2035.
    Fuel cell technologies are a crucial part of the portfolio of 
advanced energy technologies that will achieve the Nation's energy 
policy and greenhouse gas reduction goals. DOE and other supporting 
estimates show that domestic hydrogen fuel cells in light duty 
vehicles, for instance, could reduce oil imports by as much as 3.5 
billion barrels per year within 40 years, reduce greenhouse gas 
emissions by 1.1 billion tons per year, and save consumers $25 trillion 
over the succeeding 50 years.
    Robust public-private partnerships focused on cost reduction and 
early deployment will accelerate commercialization and the benefits 
that accrue with marketplace success.
    Vehicle and Infrastructure Market Deployment: $45 Million.--Support 
for initial sales, backed by a real-world vehicle and fuel testing and 
evaluation program, is essential to accelerating the transition to 
commercial market. DOE should extend the Technology Validation program 
for an additional year with technology insertion ($15 million), and 
initiate a Vehicle and Infrastructure Market Deployment program. As 
their Technology Validation program is winding down, DOE now needs to 
evolve to support early market volumes of FCVs and related 
infrastructure consistent with a commercial transition. DOE Proposal: 

$11.0 million
    Market Transformation: $45 Million.--The Market Transformation 
Program provides technical and financial support for purchase or lease 
of fuel cell systems entering the marketplace. The program creates U.S. 
jobs, improves security of air travel and communications, and enables a 
commercial transition in early markets. DOE supports the program but 
has deferred funding--and thus deferred job creation--to 2012. DOE 
should continue Market Transformation activities in all market sectors. 
Congress should expand the program to include State agencies and 
private sector customers and clarify that all fuel cell technologies 
are eligible. DOE Proposal: $0.0
    Fuel Cell R&D: $67 Million.--DOE's robust program of cost reduction 
via research into materials, catalysts and components should continue. 
Distributed fuel cells systems provide energy efficiency and security 
benefits; DOE's program should continue. DOE Proposal: $67.0 million
    Hydrogen Fuels R&D: $40 Million.--Hydrogen is one of a portfolio of 
fuels that together will achieve U.S. energy security while meeting 
greenhouse gas reduction goals. Improved hydrogen storage will reduce 
vehicle cost and improve capability, and will enable efficient use of 
hydrogen as a storage strategy for intermittent renewable resources, 
such as wind and solar power. Hydrogen from biomass uses a renewable 
domestic energy source and provides greater greenhouse gas reductions 
than biofuel combustion. DOE Proposal: $40.0 million
    Enabling Activities: $18 Million.--These programs prepare local 
communities for fuel cell installations, fueling stations and fuel cell 
vehicles, and help DOE evaluate program options.
  --Systems Analysis gives DOE tools to evaluate the program and 
        calculate public benefits. ($5 million)
  --Safety, Codes and Standards development sets safety rules and 
        product standardization guidelines, and trains local 
        enforcement officials and first responders. ($9 million)
  --Education informs the public and potential customers about these 
        technologies to break down awareness barriers. ($2 million) DOE 
        Proposal: $14.0 million.
    Manufacturing Research: $10 Million.--Improvements in manufacturing 
are a critical component in cost reduction; DOE's program should 
continue and expand. DOE Proposal: $5.0 million
  --Paying for These Enhancements Within the EERE Program.--Program 
        Direction (+43 percent) and Program Support (+94 percent) enjoy 
        large gains that go far beyond any associated subprogram level 
        of effort increases--totaling +55 percent over fiscal year 
        2010, at $287.3 million (vs +5 percent for EERE generally). 
        These funds are generally rather loosely programmed, leaving 
        generous margins for unnamed discretionary spending. They have 
        not been as carefully explained as other program elements. Some 
        of their expected functions might be more explicitly included 
        within definite program areas--for example, technology 
        advancement, commercialization and market development. We also 
        believe that the next stage of the H-Prize should see modest 
        funding from these allocations.

Fossil Energy Programs: $118.8 Million
    SECA Program: $70 Million.--The Solid State Energy Conversion 
Alliance (SECA) is a cost shared public-private partnership developing 
high temperature Solid Oxide fuel cells for power generation. SECA's 
development targets to date have been met ahead of schedule, but 
continued support is needed to move to the megawatt scale demonstration 
phase. Commercial Solid Oxide fuel cells will make possible a 60 
percent efficient coal fired power plant and kilowatt-scale solid oxide 
fuel cell modules for grid-independent distributed generation. 
Additionally, it will make it easier and cheaper to sequester 
CO<INF>2</INF> from coal. Fully funding the SECA program at $70 million 
would assure continued progress and save jobs threatened by the 
administration's proposal. DOE Proposal: $50.0 million
    Fuels--Hydrogen from Coal Research: $17.8 Million.--The Fuels 
activity helps reduce technological market barriers for the reliable, 
efficient and environmentally friendly conversion of coal to hydrogen. 
This specifically focuses on developing technologies that reduce costs 
and facilitate the production of ultra high-purity hydrogen from coal. 
Research for both stationary and transportation applications should 
continue. DOE Proposal: $12.0 million
    Hydrogen Turbines: $31.0 Million.--Hydrogen turbine development 
efforts implement projects that will enable efficient, clean, and cost 
effective hydrogen fueled turbines for coal-based integrated 
gasification combined cycle power systems that capture and store 
CO<INF>2</INF>. DOE program should continue. DOE Proposal: $31.0 
million

Nuclear Energy Programs: $8.5 Million
    Advanced Reactor Concepts: $8.5 Million.--The Advanced Reactor 
Concepts program, an expanded version of the Generation IV research and 
development (R&D) program, sponsors research and development for 
further safety, technical, economical, and environmental advancements 
of innovative nuclear energy technologies. Specific guidance 
encouraging DOE to continue R&D on High Temperature Electrolysis and 
thermochemical cycles from the former Nuclear Hydrogen Initiative 
should be included. DOE Proposal: $0.0

Science Programs: $38 Million
    The Office of Science includes funding for a variety of important 
materials activities with applications for hydrogen and fuel cell 
technologies, and which is spread between a number of Science program 
areas. DOE Proposal: $38 million

Total fiscal year 2011 Proposed: $390 million
Total fiscal year 2011 DOE Request: $268 million
Total fiscal year 2010 appropriation: $316 million

    Further Background.--The national German industry agreements across 
manufacturers, energy suppliers and utilities have set the stage for 
wide public-private cooperation that could be readily adopted by the 
United States, and clearly illustrates the pace of how fuel cell 
vehicle and fueling infrastructure rollout can be solved. Similar 
efforts are underway in Japan and Korea, and will soon evolve in China. 
Moreover, the South Korean Government, through the adoption of targeted 
sliding subsidies, has jumped to the lead in the deployment of 
stationary CHP and residential fuel cells, which will decrease costs 
while drastically increasing fuel efficiency and reducing greenhouse 
gas emissions. A link to a government and industry webinar from 
February 17, 2010 is http://www.hydrogenassociation.org/webinar/
17feb10.asp
    A Senate briefing from March 5, 2010 also included a review from 
GM, Daimler and Linde, all participants in the German agreements. 
Presentations can be found at http://www.hydrogenassociation.org/
policy/briefing_5mar10.asp.
                                 ______
                                 
               Prepared Statement of NuScale Power, Inc.

    Dear Mr. Chairman and ranking member: On behalf of NuScale Power of 
Corvallis, Oregon we request that the subcommittee approve the 
President's budget request of $38.8 million for small, modular reactors 
within the Office of Advanced Reactor Research Development and 
Demonstration. Our request is directed at both the research portion for 
advanced SMR's and especially the commercialization cost-share portion 
for up to two light water reactor SMR's designs.
    It is also our request that language be included to clarify that 
Government-industry cost-sharing include but not be limited to NRC fees 
and other related work activities leading to the submission of a Design 
Certification Document to the NRC. This later clarification is 
consistent with other previous Government-industry cost shared 
programs. We would be happy to discuss ways to control the taxpayer's 
long-term financial commitment to such a program for SMR's.
    The President has recognized the need for nuclear power as part of 
a comprehensive energy, environment and employment strategy for this 
country, including new financial incentives. The specific request for 
funding of small, modular reactors reflects the opportunity these new, 
innovative plant designs offer to strengthen our ability to achieve 
those goals. Small, modular reactor technologies build on a rich 
history of American innovation and world class nuclear design and 
operations. In particular, they will expand the potential market for 
new nuclear plants by reaching smaller markets, and they would do so 
while minimizing the magnitude of the financial challenge posed by 
larger nuclear plant designs.
    The NuScale design was originally developed by Oregon State 
University, working with Idaho National Laboratory and Nexant-Bechtel, 
as part of a Department of Energy funded research program and validates 
the effectiveness of such programs in bringing new technologies to the 
market. In addition to developing the design, this program funded the 
development of a one-third scale ``test facility'' at Oregon State 
University, uniquely positioning the NuScale technology for licensing. 
NuScale Power is a privately funded company which was formed in 2007 
for the sole purpose of commercializing this design under a Technology 
Transfer Agreement with Oregon State University.
    Much has been accomplished already in this ambitious undertaking:
  --Some 30 highly-skilled engineers and contractors now work for 
        NuScale and as many more work for the company under contract 
        with U.S. companies. We expect to triple that number in the 
        next 12-18 months.
  --Two separate panels of independent experts have evaluated the 
        safety of the NuScale plant and their conclusions have been 
        confirmed by a Level 1 Probabilistic Risk Assessment. These 
        results were presented to the NRC in September 2009 and showed 
        NuScale has achieved a safety margin that is exponentially 
        greater than the already large margins of existing nuclear 
        power plants.
  --In 2008, NuScale organized a Customer Advisory Board with senior 
        executives representing five major utilities in the United 
        States. In February 2009, one of those companies, Energy 
        Northwest, entered a Memorandum of Understanding with NuScale 
        to explore the siting of a NuScale plant in their system.
  --In a report prepared by the Electric Power Research Institute, 
        NuScale was identified as the first small, modular reactor 
        vendor to fully vet a Customer Requirements Document with its 
        potential customers. In NRC parlance this means NuScale is 
        already working with customers to make its plant ``market 
        ready.''
    All these efforts to date have been funded by private investments. 
Notwithstanding these encouraging developments, significant financial 
barriers remain before this technology can reach the market. The costs 
to prepare and submit an application for design certification and the 
subsequent costs for NRC review can be daunting and pose financial 
challenges that are increasingly difficult in the current economic 
climate. Customers too are concerned about the incremental costs of 
first of a kind investment. We are encouraged that the independent 
Nuclear Regulatory Commission staff--with the support of all three 
newly appointed Commissioners--is preparing for the submission of new 
SMR designs in the coming years in order to conduct the proper public 
safety evaluation, design and operating licensing certification. But if 
America is to maintain its place in the global market, and if the full 
potential of this new technology is to impact the domestic market in 
support of the President's energy goals, the cost-sharing proposal in 
the current budget request would make a vital difference.
    Yes, much has been accomplished. And yes, there is much work yet to 
be done. We ask for your support in these efforts.
                                 ______
                                 
 Prepared Statement of the Coalition for the Commercial Application of 
                         Superconductors (CCAS)

    CCAS respectfully requests that $45 million be included as a line 
item for High Temperature Superconductivity R&D in the fiscal year 2011 
budget for the Department of Energy, Office of Electricity Delivery and 
Energy Reliability.
    The President's proposed fiscal year 2011 budget for the DOE Office 
of Electricity Delivery and Energy Reliability (OEDER) contains a 
greatly reduced budget for High Temperature Superconductivity (HTS) of 
$4,860,000 under the label Advanced Cables and Conductors. Further, the 
intent is to eliminate all spending on HTS R&D and demonstrations in 
fiscal year 2012.
    Since its inception in 1988, the HTS program has enjoyed the 
strong, bipartisan support of Congress. Substantial progress toward 
commercialization has been achieved. Over this period, American 
taxpayers have made a major investment, alongside private capital, to 
ensure that the dramatic HTS materials discoveries made in the United 
States in the late 1980s are translated into beneficial products for 
United States consumers. We have also supported this investment to 
ensure a strong U.S. position in an emerging, very large, globally 
competitive field involving multiple applications and the concomitant 
high quality research and manufacturing jobs that will be realized.
    HTS is a game changing development for energy generation, 
transmission and distribution for the 21st century and many thousands 
of high quality research and manufacturing jobs hang in the balance. 
While the United States still leads the world in HTS R&D and pre-
commercial demonstrations, the leadership position in this critical 
technology has eroded substantially over the past 5 years as many 
foreign governments, particularly Korea, China, Japan, and Europe are 
increasing their support for HTS R&D as they realize the large number 
of jobs and the export value of the high tech products that potential 
leadership will bring.
    HTS R&D has brought the technology from a laboratory materials 
discovery in Houston in 1987 to pre-commercial demonstration insertions 
in the U.S. electric power grid. Benefits are a 60-70 percent reduction 
in resistive power losses versus any other conductor; substantial 
reduction in right-of-way requirements; extremely high power 
transmission capability at reduced voltages; improved aesthetics and 
security from underground cable location; and a major reduction in 
carbon footprint from greatly improved power transmission and 
distribution efficiency. HTS R&D is also bringing major size and weight 
benefits to transformers and generators and creating unique 
opportunities to limit the spread of fault currents and attendant grid 
system blackouts thereby enabling a smarter transmission and 
distribution grid. These developmental products are at the prototype 
demonstration stage. The HTS R&D conducted in OEDER has also 
underpinned advances in superconductor wire development that are being 
used in other applications. Examples are a degaussing system for the 
Navy, now being tested at sea as a means to reduce or eliminate the 
magnetic signature of ships making them invisible to mines; and a full 
size HTS electric ship drive motor also under evaluation by the Navy at 
the Philadelphia shipyard. Both of these products effect a 50 percent 
reduction in both size and weight versus conventional approaches, gains 
typical of superconductor based products. In science, HTS is the only 
way in which to achieve higher magnetic field strength essential to 
advance today's accelerator and collider technology. This high magnetic 
field capability is equally applicable to advances in NMR and MRI for 
scientific and medical research. For more information: www.ccas-
web.org.
    The United States is in an international race to commercialize HTS 
wire and cable applications for the power grid. Now is not the time to 
cut HTS R&D funding when the technology is just a few years from large 
scale commercialization. The fledgling industry cannot afford to bear 
the total cost of development at this time, which makes U.S. Government 
support essential. The $45 million annually over the next few years is 
needed to ensure an internationally competitive position for the United 
States in a technology, invented and largely developed here, that will 
be a major commercial jobs creator with attendant benefits for national 
security. Funding of demonstration projects within DOE has typically 
been allocated on a competitively bid, cost share basis.
    CCAS is a U.S. non-profit organization and members are involved in 
the end-use, manufacture, development and research of superconductor 
based systems, products and related technologies. Members comprise 
large and small corporations, research institutions, National 
Laboratories and universities with operations in most States.
                                 ______
                                 
    Prepared Statement of the National Association of State Energy 
                               Officials

    Mr. Chairman and members of the subcommittee, I am Phil Giudice of 
Massachusetts and chair of the National Association of State Energy 
Officials (NASEO). NASEO is submitting this testimony in support of 
funding for a variety of U.S. Department of Energy programs. 
Specifically, we are testifying in support of no less than $125 million 
for the State Energy Program (SEP), which is equal to the 
authorization. SEP is the most successful program operated by DOE in 
this area. This should be base program funding, with no competitive 
portion. SEP is focused on direct energy project development, where 
most of the resources are expended. SEP has set a standard for State-
Federal cooperation and matching funds to achieve critical Federal and 
State energy goals. We also support $300 million for the Weatherization 
Assistance Program (WAP). These programs are successful and have a 
strong record of delivering savings to low-income Americans, 
homeowners, businesses, and industry. We also support an increase in 
the budget for the Energy Information Administration (EIA) to $145 
million, including an increase for EIA's State Heating Oil and Propane 
Program, in order to cover the added costs of increasing the frequency 
of information collection, the addition of natural gas, and increasing 
the number of State participants. EIA's state-by-state data is very 
helpful. EIA funding is a critical piece of energy emergency 
preparedness and response, and there are significant new EIA 
responsibilities under the Energy Independence Security Act of 2007 
(``EISA''). EIA conducted a study of their capabilities and resources 
under section 805 of EISA, and this study supports increased funding. 
NASEO continues to support funding for a variety of critical buildings 
programs, including Building Codes Training and Assistance, Energy 
Star, the commercial buildings initiative, residential energy 
efficiency and Building America, at a level of $257 million in fiscal 
year 2011. NASEO also supports base funding (in addition to any 
congressionally-directed projects) for the Office of Electricity 
Delivery and Energy Reliability (``OE''), at least at the fiscal year 
2011 request of $186 million. Specific funding should be provided for 
the Division of Infrastructure Security and Energy Restoration of no 
less than $18 million, which funds critical energy assurance 
activities. We also strongly support the R&D function and Operations 
and Analysis function within OE. The industries program should be 
funded at a $150 million level to promote efficiency efforts and to 
maintain U.S. manufacturing jobs, especially in light of the loss of 
millions of these jobs in recent years. Additionally funding should be 
provided to support sections 451 and 453 of EISA, relating to combined 
heat and power and other waste heat recovery programs.
    Formula SEP funding provides a basis for States to share best 
practices among themselves. These best practices (even without stimulus 
funds) allow States to get a great deal accomplished. These types of 
activities include revolving loans, utility-based programs, energy 
service performance contracts, etc.
    In January 2003, Oak Ridge National Laboratory (ORNL) completed a 
study and concluded, ``The impressive savings and emissions reductions 
numbers, ratios of savings to funding, and payback periods . . . 
indicate that the State Energy Program is operating effectively and is 
having a substantial positive impact on the Nation's energy 
situation.'' ORNL updated that study and found that $1 in SEP funding 
yields: (1) $7.22 in annual energy cost savings; (2) $10.71 in 
leveraged funding from the States and private sector in 18 types of 
project areas; (3) annual energy savings of 47,593,409 million source 
BTUs; and (4) annual cost savings of $333,623,619. The annual cost-
effective emissions reductions associated with the energy savings are 
equally significant: (1) Carbon--826,049 metric tons; (2) VOCs--135.8 
metric tons; (3) NO<INF>X</INF>--6,211 metric tons; (4) fine 
particulate matter (PM10)--160 metric tons; (5) SO2--8,491 metric tons; 
and (6) CO--1,000 metric tons. The energy cost savings is much higher 
today, in light of higher prices.

                    STIMULUS FUNDING IMPLEMENTATION

    We want to thank the subcommittee for the tremendous support 
provided in the stimulus package for a variety of State and local 
funding initiatives, including $3.1 billion for the State Energy 
Program, $5 billion for the Weatherization Program, $3.2 billion for 
the Energy Efficiency and Conservation Block Grant and $300 million for 
the Energy Star appliance rebate program, etc.
    This is a major task. We are working closely with the Department of 
Energy's, Energy Efficiency Renewable Energy Division (Cathy Zoi), the 
Office of Weatherization and Intergovernmental Programs (Claire 
Johnson), Matt Rogers in the DOE Secretary's office, NETL and Golden, 
the DOE General Counsel (Scott Harris), to implement these programs as 
quickly as possible. We have had regular calls with all the State 
energy officials to address implementation questions. We have also had 
a series of regional conference calls among the States, and we have 
seven regional coordinators helping to share ``best practices'' among 
the States. NASEO is cooperating with the other State and local 
organizations to share best practices and provide information to 
officials at all levels of government in order to more effectively 
coordinate this effort. We are convinced that these funds are helping 
to engineer major positive changes in the U.S. economy and as the 
economy rebounds this will help create ``Green Jobs'' and major energy 
improvements that will improve all sectors of the economy.
    NASEO believes it is important to maintain base levels of 
appropriations for critical programs, such as SEP and Weatherization, 
in order to avoid a huge decrease in funding after a rapid stimulus 
increase.
    With respect to ARRA spending for SEP, of the $3.1 billion 
appropriated, over $1 billion is now under contract and work is being 
implemented. Another $1 billion has been committed to projects, 
including awards. We expect the remainder to move quickly. We and DOE 
are working through the barriers that slowed spending, including NEPA 
compliance, Davis-Bacon wage rates, Buy-American clauses, historic 
preservation, lead paint requirements and general procurement issues. 
It is important to stress that the key figures are the ``commitment'' 
and ``contracted'' amounts, because that is when people get hired and 
work commences. States generally do not pay until projects are actually 
completed and milestones are met. We do not pay-up front in most cases. 
In economics jargon, the Federal spending figure is actually a lagging 
indicator.
    Industrial Energy Program.--A funding increase to a level of $150 
million for the Industrial Technologies Program (ITP) is warranted. 
This is a public-private partnership in which industry and the States 
work with DOE to jointly fund cutting-edge research in the energy area. 
The results have been reduced energy consumption, reduced environmental 
impacts and increased competitive advantage of manufacturers (which is 
more than one-third of U.S. energy use). The States play a major role 
working with industry and DOE in the program to ensure economic 
development in our States and to try to ensure that domestic jobs are 
preserved. State energy offices are working effectively with DOE on the 
``Save Energy Now'' campaign. Funding for distributed generation and 
specific funding for sections 451 (including the Clean Energy 
Applications Centers) and 453 of EISA is critical and should be 
included above the $150 million proposal.
    Examples of Successful State Energy Program Activities.--The States 
have implemented thousands of projects. We have previously supplied to 
subcommittee staff examples of programs implemented under ARRA. Here 
are a few representative examples.
    Alabama.--The State has dedicated $25 million for an energy 
revolving loan fund for business and industry, and has dedicated $5 
million for energy efficient school retrofit grants.
    California.--The State has committed to a comprehensive residential 
building retrofit program, retrofits for municipal and commercial 
buildings, a finance program for municipalities, State building 
retrofits through revolving loans ($25 million), clean energy business 
financing, low-interest loans for local governments and ``Green Jobs'' 
workforce training ($20 million), etc.
    Hawaii.--This State is focused on energy efficiency and renewable 
energy projects intending to supplement existing efforts. For example, 
promotion of Energy Star upgrades for hotels, technical assistance to 
develop green buildings and other energy efficient buildings, have been 
two major projects. Funds have supplemented the public benefits 
program, the county energy efficiency efforts and alternative fuel 
efforts.
    Iowa.--This State has committed substantial funding to municipal 
energy efficiency projects and green jobs initiatives. They have also 
instituted an energy loan program. Funding has supplemented programs 
and projects conducted under the $100 million Iowa Power Fund.
    Kentucky.--$14 million has been dedicated to the Green Bank of 
Kentucky for energy efficiency financing for public buildings by 
utilizing revolving loans. In addition, funds were provided for an 
advanced energy efficient battery initiative, commercial office 
building energy efficiency retrofits, industrial facility energy 
efficiency retrofits, Home Performance with Energy Star, utility smart 
grid activities and $10 million for energy efficiency in K-12 schools.
    Louisiana.--$25.7 million has been committed to energy efficiency 
retrofits in higher education buildings, $15.7 million is dedicated to 
retrofits of commercial buildings and energy efficiency for new and 
existing homes, and $10 million has been committed to renewable energy 
development.
    Mississippi.--$17 million was dedicated for energy efficient public 
buildings, including retrofits, performance contracting and building 
energy codes and $10 million was allocated for renewable energy 
projects, smart meters on public facilities and support for community 
college workforce training. An additional $10 million was slated for 
businesses to implement energy efficiency or renewable energy upgrades.
    Missouri.--This State's extensive residential energy efficiency 
program is providing loans, grants and rebates to homeowners to install 
energy efficiency measures. Funding has also been provided to train 
residential energy auditors. They have also initiated an industrial and 
manufacturing energy efficiency initiative, as well as an agricultural 
energy program.
    Montana.--$22.3 million has been allocated to State universities, 
community colleges and other State facilities for energy efficiency 
projects; 87 projects are underway. A revolving loan program has been 
set up for homeowners and small businesses to install alternative 
energy systems. Additional funds have been dedicated to renewable 
energy demonstration projects.
    New Jersey.--$7 million has been committed to fund solar 
installations on multi-family buildings, $4 million for residential 
energy efficiency financing, $4 million for multi-family energy 
efficiency loans, $17 million for municipal energy efficiency 
incentives, $6 million for State building energy efficiency and an 
additional $15 million for grants and loans for energy efficiency and 
renewable energy applications.
    North Dakota.--The State instituted a high efficiency furnace 
rebate program to help victims of the 2009 spring floods. The State 
also instituted a statewide energy efficiency and renewable energy 
rebate program in partnership with rural electric cooperatives, 
municipally-owned utilities and the investor-owned utilities. Projects 
have included blender pumps for retailers (e.g. West Fargo, Minot, 
Grand Forks, Edgeley, Wyndmere and Bowman) and flare gas electricity 
generation (Williams County).
    Ohio.--$42.6 million has been allocated for a variety of renewable 
energy activities, including manufacturing, waste-to-energy and 
biofuels, $8 million has been dedicated to energy efficiency and 
geothermal for new and existing buildings, $30 million is capitalizing 
a revolving loan program for all sectors, and $15 million is committed 
to energy efficiency for industry.
    Rhode Island.--Funds have been provided for a green building 
initiative in State facilities, a commercial/industrial energy 
efficiency initiative, building code upgrades and energy efficient 
transportation, $8.4 million has been allocated for renewable energy 
loans, $2.3 million has been allocated for a residential energy 
efficiency initiative with approximately $7.5 million in leveraged 
funds projected. Larger (utility scale) renewable projects received $5 
million.
    South Dakota.--$20.5 million has been dedicated to a State 
revolving loan for public buildings, with $3 million for a limited 
number of grants. Activities include energy efficiency retrofits, LEED 
ratings, on site generation, etc.
    Tennessee.--This State has committed its resources to three major 
solar initiatives including a solar and economic development program, 
creating a Tennessee Solar Institute at ORNL and creating a large solar 
farm.
    Texas.--$137.8 million has been allocated for public sector 
building energy efficiency, including revolving loans for schools, 
hospitals, municipalities, public colleges, etc. and $52 million has 
been allocated for a competitive renewable energy grant program. Energy 
sector training projects have been granted to junior colleges and 
technical institutes. Transportation efficiency programs have also been 
funded.
    Utah.--Funds have been allocated for residential and commercial 
energy training, advanced energy efficiency for buildings, whole home 
audit programs, builder rebates for high performance home building, 
direct installation for insulation, energy efficiency in State 
buildings, grants for energy efficiency in public schools, revolving 
loans for public schools and competitive grants for highly innovative 
energy efficiency projects. Renewable energy projects for State-owned 
buildings and public schools have also been funded. The $10 million in 
loans for State agencies is projected to leverage $60 million in other 
funds.
    Washington.--Approximately $20 million was allocated for a energy 
efficiency and renewable energy loan and grant program. Over 10 times 
the amount of available funds was requested by potential recipients. 
Additional funding of $5 million was provided for energy efficiency 
credit enhancements (supporting $50 million in total project 
expenditures). Funding was also allocated for energy efficiency in 
agricultural uses and community wide residential and commercial energy 
efficiency pilots received $14 million in grants.
    West Virginia.--Almost $13 million has been dedicated to energy 
efficiency projects in higher education buildings and K-12 schools. 
State buildings also received funds for energy efficiency projects. A 
green collar jobs training program was also initiated.
                                 ______
                                 
                       Prepared Statement of ASME

    Mr. Chairman, ranking member and members of the subcommittee: The 
ASME Energy Committee is pleased to provide this testimony on the 
fiscal year 2011 budget request for research and development (R&D) 
programs in the Department of Energy (DOE).

           INTRODUCTION TO ASME AND THE ASME ENERGY COMMITTEE

    The 127,000-member ASME is a nonprofit, worldwide educational and 
technical Society. It conducts one of the world's largest technical 
publishing operations, holds more than 30 technical conferences and 200 
professional development courses each year, and sets some 600 
industrial and manufacturing standards, some of which have become de 
facto global technical standards. The Energy Committee of ASME's 
Technical Communities comprises 40 members from 17 Divisions of ASME, 
representing approximately 40,000 of ASME's members.
    ASME has long advocated a balanced mix of energy supplies to meet 
the Nation's energy needs, including advanced clean coal, petroleum, 
nuclear, natural gas, waste to energy, biomass, solar, wind and 
hydroelectric power. ASME also supports energy efficient building and 
transportation technologies, as well as transmission and distribution 
infrastructure sufficient to satisfy demand under reasonably 
foreseeable contingencies. Only such a portfolio will allow the United 
States to maintain its quality of life while addressing future 
environmental and security challenges. Sustained growth in the energy 
systems on which the United States depends will also require stability 
in licensing and permitting processes not only for power generating 
stations but also for transmission and transportation systems.
    A forward-looking energy policy will require enhanced and sustained 
levels of funding for R&D, as well as Government policies that 
encourage deployment and commercialization. While the Energy Committee 
supports much of the fiscal year 2011 budget request, especially the 
increases in funding for fundamental scientific research. The Energy 
Committee also wishes to emphasize that a balanced approach to our 
energy needs is critical and that we remain concerned about the 
decrease in funding for fossil energy, which is essential to meeting 
our national energy needs now and in the future.

                            CRITICAL ISSUES

    The Energy Committee would like to point out some critical energy 
issues:
  --Additional investment guarantees for construction of new electrical 
        capacity, especially nuclear facilities, must be enacted in 
        future legislation. These guarantees will enable lower 
        financing costs for a variety of energy technologies and fuel 
        sources that will be available for the American public. 
        Extending these programs further into the future will allow a 
        reasoned rate of increase in construction and application of 
        these technologies for electric generation. It is critical that 
        non-biased, critical analysis of known potential energy/
        environmental/technical benefits and impacts drive allocation. 
        These must consider capacity value (reliable contribution to 
        load trends) of resources as well as capacity factor, and also 
        losses from proximity or remoteness from load. These additions 
        translate to much more efficient use of subsidy dollars.
  --There is a critical shortage of trained personnel in the workforce 
        at all levels. This includes scientists and engineers who will 
        conduct research, those who will operate and maintain the 
        systems, as well as people in building trades that will be 
        essential for the construction of our energy systems and in 
        industry that will manufacture the components. ``Regaining our 
        ENERGY Science and Engineering Edge'' or ``RE-ENERGYSE,'' a 
        program being conducted jointly by the DOE EERE and the 
        National Science Foundation (NSF) and geared to young 
        scientists and engineers, is a positive step toward addressing 
        this chronic issue. We would like to see this program honored 
        in fiscal year 2011.

                             FOSSIL ENERGY

    The fiscal year 2010 budget request of $760 million for fossil 
energy represents a $190 million decrease over the fiscal year 2010 
appropriation; a 20 percent decrease over the fiscal year 2010 budget 
request. Fossil Energy Research and Development would be reduced by $85 
million to $586 million; however, much of this is covered by stimulus 
funding in the near term. Funding for Natural Gas Technologies and for 
Unconventional Fossil Energy Technologies would be eliminated. The 
budget for the Strategic Petroleum Reserve would be suspended. The 
Energy Committee encourages funding for coal research programs and 
urges a restoration to at least the levels appropriated for fiscal year 
2010 in future years when the stimulus funding has been expended. The 
effective use of coal in today's environment demands an increase in 
efficiency and a decrease in release of environmentally harmful waste 
streams. Coal remains a critical resource for our Nation and its 
economy; however, and we must continue to invest in technological 
advancements that will reduce emissions for this energy. The use of 
more efficient processes for coal combustion, such as advanced 
integrated gasification combined cycle (IGCC) technology, combined with 
carbon sequestration will allow the United States to utilize its coal 
resources in a more environmentally sound and cost effective manner. We 
encourage strong and consistent funding for these programs now and in 
future years.

           ADVANCED RESEARCH PROJECTS AGENCY-ENERGY (ARPA-E)

    The Energy Committee supports the $300 million budget request for 
the Advanced Research Projects Agency-Energy (ARPA-E). This is a 
worthwhile endeavor for the DOE as we seek to accomplish technological 
breakthroughs in energy technology.

                             NUCLEAR ENERGY

    The Energy Committee is pleased to see an overall increase in the 
DOE Nuclear Energy budget to $912 million in fiscal year 2011, a $42 
million increase over the fiscal year 2010 appropriated amount. 
However, the Energy Committee is discouraged at the discontinuation of 
the Generation IV Nuclear Energy Systems program. The Energy Committee 
is curious to see how the proposed Reactor Concepts RD&D program 
distinguishes itself from the traditional R&D program under the Office 
of Nuclear Energy. Nuclear energy, as a low-carbon, non-greenhouse gas-
emitting resource, is a critical component of a diverse U.S. power 
generation mix and should play a larger role in the Nation's base power 
supply. Sustained increases in nuclear power research are justified by 
the imperative of reliable, low cost, low emissions electricity.
    Before its cessation in the fiscal year 2009 Omnibus Appropriations 
bill, the Global Nuclear Energy Partnership (GNEP) program was a vital 
means to enhancing the future of safe, reliable, nuclear power through 
the establishment of international centers for nuclear fuel cycle 
services for nations both large and small. Although no funding is 
provided for GNEP, the Advanced Fuel Cycle Initiative, now called Fuel 
Cycle R&D, would receive $201 million in funding in fiscal year 2011, a 
$65 million increase. The ASME Energy Committee remains hopeful that 
the administration, with the aid of Congress, will eventually 
reconsider the discontinuation of GNEP, which continues to exist as an 
international collaborative effort, but minus U.S. participation.

                 ENERGY EFFICIENCY AND RENEWABLE ENERGY

    The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in research, development and deployment of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. The fiscal year 2011 request of $2.35 billion, $112 million 
above the fiscal year 2010 appropriated amount, provides a broad and 
balanced set of approaches to address the urgent energy and 
environmental challenges currently facing our Nation. Most of the key 
EERE programs, including Biomass, Solar, Wind, Geothermal, Building 
Technologies, Vehicle Technologies, and Industrial technologies, have 
received sizable increases in funding to support the growth of 
renewable energy. The Energy Committee encourages Congress to include 
waste-to-energy as an important component of the Country's Renewable 
Energy portfolio to provide it with the same benefits as energy from 
biomass.
    The RE-ENERGYSE program is slated to receive $50 million as part of 
the fiscal year 2011 request. Facing a deficit of engineers in the 
United States, the Energy Committee believes that this could be an 
effective step toward replenishing our Nation's workforce by 
encouraging young people to pursue science and engineering. Therefore, 
the Energy Committee strongly supports full funding for the RE-ENERGYSE 
program, something that did not receive funding for the fiscal year 
2010 appropriation.
    The Energy Committee believes that the development of 
transportation fuel systems that are not petroleum based is a critical 
part of our future national energy policy. The fiscal year 2011 budget 
for biomass and bio-refinery systems R&D is slated to receive no 
increase at $220 million for fiscal year 2011, identical to the fiscal 
year 2010 appropriated amount. It should be noted that this program did 
receive $777 million as part of the American Recovery and Reinvestment 
Act (Public Law 111-5). Therefore, the Energy Committee supports the 
current appropriation and encourages Congress to ensure that these 
research programs continue to receive adequate funding. We are also 
pleased to see the $325 million increase in the effort related to 
vehicle technologies emphasizing plug-in hybrid electric vehicles.
    The integration of all cost effective electric generating 
technologies into the operation of the electricity distribution system 
is critical to economic operation of the national electric grid. The 
Energy Committee believes that R&D related to the integration of the 
electric grid and its control as a truly national system is imperative 
for the growth of effective and economic energy generation technologies 
and we encourage full funding for such research.

             SCIENCE AND ADVANCED ENERGY RESEARCH PROGRAMS

    The Energy Committee is pleased by the increased request for the 
Office of Science (OS) which restores the funding trajectory mandated 
in the America Competes Act of 2007 (Public Law 109-69). The fiscal 
year 2011 budget proposal of $5.12 billion is an increase of $217 
million over the fiscal year 2010 appropriation. OS programs in high 
energy physics, fusion energy sciences, biological and environmental 
research, basic energy sciences, and advanced scientific computing, 
serve, in some small way, every student in the country. These funds 
support not only research at the DOE Laboratories, but also the work at 
a large number of universities and colleges. We believe that basic 
energy research will also improve U.S. energy security over the long 
term, through its support for R&D on cellulosic ethanol and other next-
generation biofuels, advanced battery and energy storage systems, and 
fusion. The Energy Committee strongly supports the budget request for 
the Office of Science, as well as the proposed doubling track for the 
office by fiscal year 2017.

                           OTHER DOE PROGRAMS

    DOE is also very active in areas outside of R&D. The environmental 
remediation program that funds the decommissioning and decontamination 
of old DOE facilities is one such research area. The Energy Committee 
questions the advisability of flat funding for the Environmental 
Management program. The Yucca Mountain Waste Repository is a critical 
part of the environmental cleanup activity. Termination of this project 
will only extend and increase the final cost of the environmental 
management program. The energy committee does not support this backward 
step. The coming resurgence in the commercial nuclear arena is likely 
to deplete the trained professionals available for this program as 
engineers choose to move to the more stable commercial environment. 
Congress should appropriate the funds to ensure that this work is 
accomplished in an expeditious manner.

                               CONCLUSION

    Members of the ASME Energy Committee consider the issues related to 
energy to be one of the most important issues facing our Nation. The 
need for a strong and coherent energy policy is apparent. We applaud 
the Administration and Congress for their understanding of the 
important role that scientific and engineering breakthroughs will play 
in meeting our energy challenges. In order to promote such innovation, 
strong support for energy research will be necessary across a broad 
range of technology options. DOE research can play a critical role in 
allowing the United States to use our current resources more 
effectively and to create more advanced energy technologies.
    Thank you for the opportunity to offer testimony regarding both the 
R&D and other parts of the proposed budget for the DOE. The ASME Energy 
Committee is pleased to respond to requests for additional information 
or perspectives on other aspects of our Nation's energy programs.
                                 ______
                                 
        Prepared Statement of the Gulf Coast Research Laboratory

    I am writing to you as a marine biologist with over 40 years of 
experience in fisheries science. I would like to share my concerns with 
you about the proposed plans to construct an expansion site for the 
Strategic Petroleum Reserve (SPR) at Richton in Perry County, 
Mississippi.
    The Richton Site differs from DOE's four existing Strategic 
Petroleum Reserve (SPR) sites located in other States and these 
differences were not adequately addressed in the original Environmental 
Impact statement. The Richton project is the first SPR to place the 
brine diffuser in a marine environment near a barrier island pass and 
the use of diffusion models designed for other locations to explain 
circulation processes in Mississippi waters is totally inappropriate 
and not based on ``sound science''. The physiography of the Mississippi 
Bight and circulation patterns within this region are unique. There are 
serious concerns that the Pascagoula River Basin will suffer as a 
result of the project's withdrawal of 50 million gallons of water per 
day for a period of 5 to 6 years concurrent with the daily diffusion of 
42 million gallons of toxic salt brine (236 ppt) waste at a discharge 
site south of Horn Island Pass. This site is directly in line with the 
Pascagoula Ship Channel and may serve as a conduit for movement of 
brine northward. Based on the best available oceanographic models for 
the area, there is the probability that the brine will not diffuse as 
it does in other areas, but will actually enter the Mississippi Sound 
with a component of the discharge moving westward along the south side 
of the barrier islands toward the Chandeleur Islands in Louisiana. This 
would create a ``brine pool'' within the Sound and would establish a 
``brine barrier'' across the island passes. Mississippi's barrier 
island passes are key corridors for the transport of larvae and 
postlarvae of economically important fish and shellfish to and from the 
Mississippi Sound and the effect of a ``brine barrier'' on these 
fragile life stages may be catastrophic.
    The Pascagoula River is the largest unaltered, undammed river 
system in the United States and is considered a ``Natural Treasure''. 
There is concern that salt water intrusion resulting from the vast 
discharge of brine south of Horn Island Pass coupled with decreased 
freshwater flow may alter coastal ecosystems and impact rare, 
threatened, and endangered species (14 listed by the Mississippi 
Department of Marine Resources). Mississippi is dependent on its water 
resources and wetlands to maintain commercial and recreational 
fisheries and protection of these natural resources is a priority for 
the people of Mississippi.
                                 ______
                                 
                 Prepared Statement of Energy Northwest

    Energy Northwest is writing to express its support for the 
President's fiscal year 2011 budget request of $38.9 million for the 
Department of Energy's small, modular nuclear reactor (SMR) program. 
This funding will help avoid delays in the Federal licensing by the 
Nuclear Regulatory Commission for such projects.
    The President's budget request would support public/private 
partnerships to advance mature SMR designs, and research, development 
and demonstration of innovative SMR technologies and concepts.
    Energy Northwest is a joint operating agency headquartered in 
Richland, Washington and comprised of 28 publicly owned utilities from 
across Washington State. The agency owns and operates four electric 
generating plants: Columbia Generating Station (nuclear power plant), 
Packwood Lake Hydroelectric Project, Nine Canyon Wind Project and White 
Bluffs Solar Station. As part of Energy Northwest's evaluation of 
options for meeting future wholesale power supply needs of its members, 
the concept of building a small reactor that could be grouped with 
other modules to meet future load group is currently being studied.
    At a time when the United States is charting an energy course to 
increase national energy security and promote greater development of 
low- or no-carbon emission resources, SMRs hold great promise. 
Potential benefits of SMRs include providing utilities greater 
flexibility in terms of capital investment, financing, siting and 
sizing.
    Thank you for the opportunity to submit these views.
                                 ______
                                 
      Prepared Statement of the American Public Power Association

    The American Public Power Association (APPA) is the national 
service organization representing the interests of over 2,000 municipal 
and other State and locally owned utilities throughout the United 
States (all but Hawaii). Collectively, public power utilities deliver 
electricity to 1 of every 7 electric consumers (approximately 45 
million people). We appreciate the opportunity to submit this statement 
outlining our fiscal year 2011 funding priorities within the Energy and 
Water Development Subcommittee's jurisdiction.
    Renewable Energy Production Incentive (REPI).--APPA requests $5 
million for the Renewable Energy Production Incentive (REPI). The 
Department of Energy's REPI program was created in 1992's Energy Policy 
Act (EPAct) as a counterpart to the renewable energy production tax 
credits made available to for-profit utilities, and was reauthorized 
through 2016 in the Energy Policy Act of 2005 (EPAct05). EPAct05 
authorizes DOE to make direct payments to not-for-profit public power 
systems and rural electric cooperatives at the rate of 1.5 cents per 
kWh (1.9 cents when adjusted for inflation) from electricity generated 
from a variety of renewable projects. While the program had been zeroed 
out in recent years by the Bush and Obama administrations, Congress has 
consistently restored funding at $5 million until last year. In fiscal 
year 2010, the REPI program received no funding. As Congress works 
toward adopting a Federal renewable portfolio standard and a climate 
change mitigation program, REPI becomes increasingly more important to 
not-for-profit utilities. Several non-profit utilities that have been 
relying on the program to help fund renewable programs, have been 
abandoned by the lack of funding. While the demand for the program is 
truly $25 million, $5 million would restore funding.

                POWER MARKETING ADMINISTRATIONS (PMA'S)

    Power Marketing Administration Proposals.--In past years, various 
measures have been proposed for all four PMAs that would have had the 
effect of raising the rates for PMA customers. We appreciate that the 
fiscal year 2011 request does not include these types of proposals.
    Purchase Power and Wheeling.--We urge the subcommittee to authorize 
appropriate levels for use of receipts so that the Western Area Power 
Administration (WAPA), the Southeastern Power Administration (SEPA) and 
the Southwestern Power Administration (SWPA) can continue to purchase 
and wheel electric power to their municipal and rural electric 
cooperative customers. Although appropriations are no longer needed to 
initiate the purchase power and wheeling (PP&W) process, the 
subcommittee continues to establish ceilings on the use of receipts for 
this important function. The PP&W arrangement is effective, has no 
impact on the Federal budget, and is supported by the PMA customers who 
pay the costs. We support an increase over the funding levels of the 
administration's budget for fiscal year 2011, which are as follows: 
$553.6 million for Western Area Power Administration (WAPA); $88.6 
million for Southeastern Power Administration (SEPA); and $49 million 
for Southwestern Power Administration (SWPA).
    Storage for High-level Nuclear Waste.--APPA is disappointed in the 
administration's lack of support for the Department of Energy used 
nuclear fuel management program. However, we support efforts by the 
administration to study alternatives to Yucca Mountain and request a 
funding level of $340 million for the Office of Radioactive Waste 
Management at the Department of Energy.
    Nuclear Loan Guarantees.--APPA is pleased with the administration's 
request of $54.5 billion for DOE Loan Guarantees for Innovative Energy 
Technology and encourages the subcommittee to maintain this level of 
funding.
    Department of Energy Waterpower Program.--APPA requests $100 
million for fiscal year 2011 for the DOE's Waterpower Program. At a 
time when utilities around our country must focus on finding carbon-
free sources of energy, the importance of hydropower research and 
development is more important than ever before. Not only is hydropower 
a renewable resource, but it can be used as baseload generation to back 
up more intermittent renewables such as wind and solar power.
    Energy Conservation.--APPA appreciates the funding increases for 
energy efficiency programs provided in the President's budget. The 
budget funding levels for fiscal year 2011 are as follows: Building 
Technologies--$231 million; Industrial Technologies--$100 million; 
Federal Energy Management Program--$42 million; and Vehicle 
Technologies--$325 million. We urge the subcommittee to maintain these 
funding levels. We however encourage the subcommittee to increase 
funding for the EPA ENERGY STAR program over the requested amount of 
$55.4 million.
    Weatherization and Intergovernmental Activities.--We are pleased 
that the administration has requested $385 million for the 
Weatherization program in fiscal year 2011, a 30 percent increase from 
fiscal year 2010 and we encourage the subcommittee to maintain that 
level of funding.
    Clean Coal Power Initiative (CCPI) and FutureGen.--APPA is 
disappointed that the budget did not include funding for large scale 
commercial applications of carbon capture and sequestration technology. 
The American Recovery and Reinvestment Act (ARRA) included $800 million 
for the CCPI Round 3 program and we encourage the subcommittee to 
include funding for a CCPI round 4 program. Funding for FutureGen was 
made available in the ARRA. APPA strongly believes as concerns grow 
over climate change and the effects of man-made emissions from 
combustion of fossil fuels, the FutureGen project will be critical in 
nearing us to the goal of the world's first near-zero-emissions coal 
fired plant. We urge the subcommittee and the Congress to work with the 
administration on finding an appropriate role and funding level for the 
FutureGen project.
    Fuel Cells.--APPA was disappointed with the funding request of $50 
million for fiscal year 2011 for fuel cell related research and 
development. This is a 7 percent decrease from fiscal year 2010 levels. 
We urge the subcommittee to allocate additional funding for this 
program for fiscal year 2011.
    Fuels and Power Systems.--We recommend these funding levels for the 
following programs: Innovations for Existing Plants--increase from $65 
million to $84 million; Advanced Integrated Gasification Combined 
Cycle--increase from $55 million to $80 million; Turbines--increase 
from $31 million to $45 million; Carbon Sequestration--increased from 
$143 million to $150 million; Fuels--support the President's request; 
Advanced Research--support President's request of $48 million.
    Navajo Electrification Demonstration Program.--APPA supports full 
funding for the Navajo Electrification Demonstration Program at its 
full authorized funding level of $15 million. The purpose of the 
program is to provide electric power to the estimated 18,000 occupied 
structures in the Navajo Nation that lack electric power. This program 
has been consistently underfunded.
    Federal Energy Regulatory Commission (FERC).--The fiscal year 2011 
budget requests $315 million for FERC, an increase over fiscal year 
2010 levels. APPA supports this increase.
                                 ______
                                 
 Prepared Statement of the American Society of Agronomy, Crop Science 
       Society of America and the Soil Science Society of America

    The American Society of Agronomy, Crop Science Society of America, 
and Soil Science Society of America (ASA-CSSA-SSSA) are pleased to 
submit the following funding recommendations for the Department of 
Energy for fiscal year 2011. For the Office of Science, ASA, CSSA, and 
SSSA recommend a funding level of $4.9 billion, a 10 percent increase 
over fiscal year 2010 ($4.47 billion). For the Office of Energy 
Efficiency and Renewable Energy, we recommend a funding level of $2.4 
billion, a 7 percent increase over fiscal year 2010. Specifics for each 
of these and other budget areas follow below.
    With more than 25,000 members and practicing professionals, ASA-
CSSA-SSSA are the largest life science professional societies in the 
United States dedicated to the agronomic, crop and soil sciences. ASA-
CSSA-SSSA play a major role in promoting progress in these sciences 
through the publication of quality journals and books, convening 
meetings and workshops, developing educational, training, and public 
information programs, providing scientific advice to inform public 
policy, and promoting ethical conduct among practitioners of agronomy 
and crop and soil sciences.

                 DEPARTMENT OF ENERGY OFFICE OF SCIENCE

    ASA-CSSA-SSSA understand the challenges the Senate Energy and Water 
Appropriations Subcommittee faces with the tight budget for fiscal year 
2011. We also recognize that the Energy and Water Appropriations bill 
has many valuable and necessary components, and we applaud the 
subcommittee for funding the DOE Office of Science in the fiscal year 
2010 Omnibus Appropriations bill at $4.470 billion. For fiscal year 
2011, ASA, CSSA, and SSSA recommend a funding level of $4.9 billion, a 
10 percent increase over fiscal year 2010. Congress approved the 
America COMPETES Act of 2007 (Public Law 110-69), recognizing that an 
investment in basic (discovery) scientific research is essential to 
providing America the brainpower necessary to maintain a competitive 
advantage in the global economy and keep U.S. jobs from being shipped 
overseas. Such an investment is needed to keep U.S. science and 
engineering at the forefront of global research and development in the 
biological sciences and geosciences, computing and many other critical 
scientific fields. The Office of Science supports graduate students and 
postdoctoral researchers early in their careers. Nearly one-third of 
its research funding goes to support research at more than 300 colleges 
and universities nationwide. Moreover, approximately one-half of the 
users at Office of Science user facilities are from colleges and 
universities, providing further support to their researchers. The 
Office of Science also reaches out to America's youth in grades K-12 
and their teachers to help improve students' knowledge of science and 
mathematics and their understanding of global energy and environmental 
challenges. This recommended funding level of $4.9 billion is critical 
to ensuring our future energy self-sufficiency and as a means to 
address major environmental challenges including global climate change. 
Finally, a funding level of $4.9 billion will allow the Office of 
Science to: maintain and strengthen DOE's core research programs at 
both the DOE national laboratories and at universities; provide support 
for 1,000 PhDs, postdoctoral associates, and graduate students in 
fiscal year 2011; ensure maximum utilization of DOE research 
facilities; allow the Office of Science to develop and construct the 
next generation facilities necessary to maintain U.S. preeminence in 
scientific research; and enable DOE to continue to pursue the 
tremendous scientific opportunities outlined in the Office of Science 
Strategic Plan and in its 20 Year Scientific Facilities Plan.

                         BASIC ENERGY SCIENCES

    Within the Office of Science, the Basic Energy Sciences (BES) 
Program is a multipurpose, scientific research effort that fosters and 
supports fundamental research to expand the scientific foundations for 
new and improved energy technologies and for understanding and 
mitigating the environmental impacts of energy use. ASA, CSSA, and SSSA 
support a fiscal year 2011 funding level of $1.75 billion, a 7 percent 
increase over fiscal year 2010, for BES. The portfolio of programs at 
BES supports research in the natural sciences by focusing basic 
(discovery) research on, among other disciplines, biosciences, 
chemistry and geosciences. Practically every element of energy 
resources, production, conversion and waste mitigation is addressed in 
basic research supported by BES programs. Research in chemistry has 
lead to the development of new solar photoconversion processes and new 
tools for environmental remediation and waste management. Research in 
geosciences leads to advanced monitoring and measurement techniques for 
reservoir definition. Research in the molecular and biochemical nature 
of photosynthesis aids the development of solar photo-energy 
conversion.
    Within the Basic Energy Sciences Program, the Chemical Sciences, 
Geosciences, and Energy Biosciences subprogram supports fundamental 
research in geochemistry, geophysics and biosciences. For Chemical 
Sciences, Geosciences, and Energy Biosciences subprogram ASA-CSSA-SSSA 
recommend $341.5 million for fiscal year 2011, a 15 percent increase 
over the fiscal year 2010 funding level. The Geosciences Research 
Program supports research focused at developing an understanding of 
fundamental Earth processes that can be used as a foundation for 
efficient, effective, and environmentally sound use of energy 
resources, and provide an improved scientific basis for advanced energy 
and environmental technologies. The Biosciences Research Program 
supports basic research in molecular level studies on solar energy 
capture through natural photosynthesis; the mechanisms and regulation 
of carbon fixation and carbon energy storage; the synthesis, 
degradation, and molecular interconversions of complex hydrocarbons and 
carbohydrates; and the study of novel biosystems and their potential 
for materials synthesis, chemical catalysis, and materials synthesized 
at the nanoscale.

                 BIOLOGICAL AND ENVIRONMENTAL RESEARCH

    Within the Office of Science, the Biological and Environmental 
Research (BER) Program, for more than five decades, has advanced 
environmental and biological knowledge that supports national security 
through improved energy production, development, and use; international 
scientific leadership that underpins our Nation's technological 
advances; and research that improves the quality of life for all 
Americans. BER supports these vital national missions through 
competitive and peer-reviewed research at national laboratories, 
universities, and private institutions. In addition, BER develops and 
delivers the knowledge needed to support the President's plan to make 
America energy independent. ASA-CSSA-SSSA support a 10 percent increase 
for BER which would bring the funding level to $664.6 million for 
fiscal year 2011. ASA, CSSA, and SSSA support a variety of programs 
within BER including the Life Sciences subprogram which supports 
Terrestrial Ecosystem Science (which we recommend funding for at $29.9 
million for fiscal year 2011), Terrestrial Carbon Sequestration 
Research (we recommend $5.1 million for this program) and the Genomes 
to Life (GTL) program. Within Genomes to Life (GTL) are programs 
supportive of bioenergy development including GTL Foundation Research, 
GTL Sequencing, GTL Bioethanol Research, and GTL Bioenergy Research 
Centers, all playing an important role in achieving energy independence 
for America. We recommend a 12 percent increase over fiscal year 2010 
for the Subsurface Biogeochemical Research program, with suggested 
funding for the program totaling $55.9 million in fiscal year 2011. 
Also within BER is the Environmental Remediation subprogram and its 
Environmental Remediation Sciences Research program, both critical 
programs to advancing tools needed to clean up contaminated sites.
    ASA, CSSA, and SSSA recommend a funding level of $305.7 million, a 
7 percent increase over fiscal year 2010 for BER Climate and Earth 
System Modeling. Within this subprogram the Climate Change Research 
Division supports important areas of climate change research including 
the Ameriflux and a network of research sites.

 DEPARTMENT OF ENERGY OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY

    Biomass is currently the only clean, renewable energy source that 
can help to significantly diversify transportation fuels in the U.S. 
DOE's Energy Efficiency and Renewable Energy Biomass Program is helping 
transform the Nation's renewable and abundant biomass resources into 
cost competitive, high performance biofuels, bioproducts, and biopower. 
The Office of Energy Efficiency and Renewable Energy (EERE) manages 
America's investment in the research and development (R&D) of DOE's 
diverse energy efficiency and renewable energy applied science 
portfolio. For the Office of Energy Efficiency and Renewable Energy, we 
recommend a funding level of $2.4 billion, a 7 percent increase over 
fiscal year 2010. The fiscal year 2011 EERE budget should continue to 
maintain focus on key components of the AEI and Twenty in Ten including 
the Biofuels Initiative to develop affordable, bio-based transportation 
fuels from a wider variety of feedstocks and agricultural waste 
products. Note: ASA-CSSA-SSSA strongly oppose the use by the Department 
of the term ``agricultural wastes''. Crop residues, e.g., corn stover, 
play a very important role in nutrient cycling, erosion control and 
organic matter development. Recent studies have shown that excessive 
removal of crop residues from agricultural lands can lead to a decline 
in soil quality. By no means should they ever be referred to as 
``wastes''.

                    BIOMASS AND BIOREFINERY SYSTEMS

    Within EERE, the Biomass and Biorefinery Systems R&D program plays 
an important role providing support for Regional Biomass Feedstock 
Development Partnerships and Infastructure Core R&D programs, both 
within Feedstock Infrastructure. For the Biomass and Biorefinery 
Systems R&D program, we recommend a 7 percent increase for fiscal year 
2011 which would bring funding to $235 million. Activities included 
within this program are resource assessment, education, sustainable 
agronomic systems development, and biomass crop development. The 
mission of the Biomass Program is to develop and transform our 
domestic, renewable, and abundant biomass resources into cost-
competitive, high performance biofuels, bioproducts and biopower 
through targeted RD&D leveraged by public and private partnerships. 
ASA, CSSA, and SSSA support $39.58 million in funding for the Feedstock 
program (formerly the Feedstock Infrastructure program).

                        CLIMATE CHANGE RESEARCH

    ASA, CSSA, and SSSA urge the subcommittee to continue to provide 
strong support for Climate Change Research to the following programs as 
follows: U.S. Global Change Research Program (USGCRP), DOE allocation 
of $176.9 million. This program will increase our understanding of the 
impacts of global climate change and also develop tools and 
technologies to mitigate these impacts.

                   BASIC AND APPLIED R&D COORDINATION

    The Office of Science continues to coordinate basic research 
efforts in many areas with the Department's applied technology offices. 
Within this area is Carbon Dioxide Capture and Storage R&D for which we 
recommend $20,055,000.

                         NATIONAL LABORATORIES

    The Office of Science manages 10 world-class laboratories, which 
often are called the ``crown jewels'' of our national research 
infrastructure. The national laboratory system, created over a half-
century ago, is the most comprehensive research system of its kind in 
the world. Five are multi-program facilities including the Oak Ridge 
National Laboratory.

              NATIONAL ENERGY TECHNOLOGY LABORATORY (NETL)

    NETL's Carbon Sequestration Program is helping to develop 
technologies to capture, purify, and store carbon dioxide 
(CO<INF>2</INF>) in order to reduce greenhouse gas emissions without 
adversely influencing energy use or hindering economic growth. 
Terrestrial sequestration requires the development of technologies to 
quantify with a high degree of precision and reliability the amount of 
carbon stored in a given ecosystem. Program efforts in this area are 
focused on increasing carbon uptake on mined lands and evaluation of 
no-till agriculture, reforestation, rangeland improvement, wetlands 
recovery, and riparian restoration. ASA, CSSA, and SSSA urge the 
subcommittee to direct the Department to increase funding for its 
terrestrial carbon sequestration program, specifically The Regional 
Carbon Sequestration Partnerships, which are collaborations between 
Government, industry, universities, and international organizations 
funded by DOE to determine the most suitable technologies, regulations, 
and infrastructure needs for carbon capture and sequestration.

                  OAK RIDGE NATIONAL LABORATORY (ORNL)

    ORNL is one of the world's premier centers for R&D on energy 
production, distribution, and use and on the effects of energy 
technologies and decisions on society. Clean, efficient, safe 
production and use of energy have long been our goals in research and 
development. At ORNL, unique facilities for energy-related R&D are used 
both for technology development and for fundamental investigations in 
the basic energy sciences that underpin the technology work.
    Thank you for your thoughtful consideration of our requests.
                                 ______
                                 
   Prepared Statement of the Coal Utilization Research Council (CURC)

                              INTRODUCTION

    This statement is submitted on behalf of the membership of the Coal 
Utilization Research Council (CURC), an organization of coal-using 
utilities, coal producers, equipment suppliers, universities and 
institutions of higher learning, and several State government entities 
interested and involved in the use of coal resources and the 
development of coal-based technologies.\1\
---------------------------------------------------------------------------
    \1\ Several members of CURC are not-for-profit organizations 
designated as such for Federal tax law purposes. Such organizations are 
prohibited in whole or in part from undertaking advocacy activities 
with respect to Federal Government appropriations. This written 
statement could be construed as such an activity. Membership 
contributions made to CURC by these organizations are not used for 
these advocacy purposes; rather such contributions are utilized to 
undertake analyses and other educational activities as provided by 
CURC.
---------------------------------------------------------------------------
               THE IMPORTANCE OF THE DOE/FE RD&D PROGRAM

    CURC believes there is a serious disconnect in public policies 
regarding CCS technology. On one hand, we observe general agreement 
among policy makers that large reductions in GHG emissions in the 2030-
2050 timeframe are essential to meet climate goals under discussion; 
that improved technologies are key to meeting those goals; that CCS is 
a crucial technology; and that public sector-private sector 
collaboration is necessary to launch CCS technology. On the other hand, 
based on budgets requested and enacted for the past several years and 
proposed for fiscal year 2011, we observe an unwillingness to provide 
the public share of resources necessary to develop and enable 
deployment of CCS within the timeframe set forth by those defining 
emission reduction targets. Insufficient public resources means we are 
falling farther and further behind and there is less expectation each 
passing year that CCS will be ready for widespread commercial use by 
2020.
    With the advent of a greenhouse gas regulatory program in this 
country, it is vitally important that affordable and reliable carbon 
capture and storage (CCS) technologies be available to minimize the 
economic impacts upon the American consumer while continuing to allow 
the Nation to reap the economic and energy security benefits associated 
with using our most abundant domestic fossil fuel resource. Recent 
analyses by both the EPA and the DOE/EIA have concluded that successful 
development and deployment of CCS technology can reduce the cost of 
compliance with GHG legislation by one-half. Hence, an effective coal-
CCS RD&D program is essential for meeting environmental goals, 
enhancing our country's energy security, insuring adequate supplies of 
energy at affordable prices, as well as preserving American industrial 
competitiveness and growing American jobs in domestic and global 
markets.

                        SPECIFIC RECOMMENDATIONS

    CURC offers the following recommendations for fiscal year 2011 
funding for the Coal RD&D program.
    Clean Coal Power Initiative.--DOE did not request any funding in 
fiscal year 2010 or fiscal year 2011 for large scale commercial 
applications of CCS technology, noting that $800 million was provided 
in the American Recovery and Reinvestment Act (ARRA) for the CCPI Round 
3 program. The number of CCS-related projects that are underway is 
insufficient to meet the programmatic goal of establishing CCS 
technologies ready for commercial deployment by 2020. CURC believes 
that an expanded CCPI program is integral to the commercialization of 
CCS technologies, and therefore, in the strongest terms possible, CURC 
recommends that the fiscal year 2011 budget include funding to initiate 
a CCPI Round 4 program. Congress is encouraged to appropriate at least 
$50 million in fiscal year 2011 to be augmented in fiscal year 2012 
with funds sufficient to then conduct a CCPI 4 solicitation.
    FutureGen.--Funding for FutureGen has been made available through 
the ARRA. CURC reiterates its support for this project as an important 
and necessary step in the demonstration of an integrated CCS system. 
This integration of electricity generation with CCS is fundamental to 
the learning necessary to make CCS a commercial reality.

                         FUELS & POWER SYSTEMS

  --Innovations for Existing Plants (and Advanced Combustion).--The 
        administration's request for fiscal year 2011 includes an 
        increase in this line item to $65 million, compared to $52 
        million enacted in fiscal year 2010. CURC recommends a budget 
        of $84 million that should be used to support technologies that 
        increase the efficiency of coal conversion to energy and that 
        contribute to reducing the costs of carbon capture from 
        combustion-based power generation--for both new and existing 
        steam power plants. To achieve these goals funds should be 
        allocated to address specific needs for advanced combustion, 
        including oxy-combustion and next generation oxy-combustion 
        process cycles, advanced solvents for post combustion capture, 
        the high temperature materials program for ultrasupercritical 
        cycles, as well as emphasis on other new power plant 
        efficiency-improving techniques which do not depend on steam 
        temperature and pressure leaving the boiler. Finally, the 
        implementation of post-combustion carbon capture will place 
        increased demands on what are already scarce supplies of 
        cooling water, and, as a result, research on water management 
        technologies for coal-fired power plants need to be an 
        important component of the IEP program; recommend $4 to $6 
        million for water management programs.
  --Advanced Integrated Gasification Combined Cycle.\2\--Funding 
        provided for IGCC technology has consistently fallen short of 
        the amounts deemed necessary to launch the next generation of 
        this technology as defined in the CURC-EPRI Technology Roadmap. 
        The administration's request for fiscal year 2011 is a further 
        decrease from these already insufficient funding levels. CURC 
        recommends that the funding for this line item be increased 
        from the requested $55 million to at least $80 million. This 
        increased budget is important to achieve:
---------------------------------------------------------------------------
    \2\ It is also important to note that advances in this area not 
only support advanced IGCC but support all gasification programs in 
general, including industrial gasification, hydrogen and fertilizer 
production, SNG, and coal-to-liquids programs and to these ends this 
program should encompass the concept of advanced gasification 
technology.
---------------------------------------------------------------------------
    --Advances in coal feed systems;
    --Low-cost oxygen production (such as ITM oxygen); \3\
---------------------------------------------------------------------------
    \3\ This program should include sufficient funding to insure that 
the 100-ton per day ITM Intermediate Scale Test Unit will be completed 
and operations commenced.
---------------------------------------------------------------------------
    --Advanced gasifier designs (including the gasifier itself; its 
            major components such as feed injection/pumping and 
            refractory materials, as well as gasifier modifications to 
            achieve less costly air separation);
    --Warm syngas cleanup for sulfur and other coal-based syngas 
            contaminants (such as mercury and arsenic);
    --Hydrogen/CO<INF>2</INF> separation and recovery (including 
            advanced membrane systems);
    --CO<INF>2</INF> capture at elevated pressure (to reduce 
            CO<INF>2</INF> compression costs); and
    --Studies and RD&D aimed at the integration of these advanced 
            gasification technologies to significantly reduce overall 
            gasification capital costs and improve overall 
            efficiencies.
  --Turbines.--The latest generation of advanced gas turbines (the 
        ``G'' and ``H'' class of turbines) is not ready to meet the 
        demands of IGCC plants with high levels of CO<INF>2</INF> 
        capture. Reduced funding in the last few years has delayed 
        progress and jeopardized DOE's 2012 goal of developing advanced 
        turbines capable of operating on 100 percent hydrogen. The 
        Turbines program needs an additional $14 million, for a total 
        of $45 million in fiscal year 2011. Technical focus areas for 
        this funding should include:
    --Promising material systems (base alloys, bond coats and thermal 
            barrier coatings) for hot gas path parts including rotating 
            and stationary airfoils;
    --Technology for enhanced cooling effectiveness of hot gas path 
            parts;
    --Methods for containing by-pass flows in the combustor-expander 
            transition piece and the airfoil tip-casing interface; and
    --Continuation of work with the NETL in-house research group, other 
            national laboratories and U.S. universities to assess 
            combustor designs and the fundamentals associated with 
            hydrogen combustion and turbine subsystems.
    It is important to note that all carbon fuels, including natural 
gas, will need to capture CO<INF>2</INF> in order to achieve the levels 
of reduced CO<INF>2</INF> concentrations being proposed in various 
climate change legislation now under consideration by Congress.
  --Carbon Sequestration.--Funding under this program offers the 
        appearance of being slightly below the $160 million level 
        recommended by CURC. However, this DOE program includes 
        approximately $50 million for CO<INF>2</INF> capture, whereas 
        the CURC roadmap places capture activity with the IGCC and IEP 
        programs. The result is that CURC believes the fiscal year 2011 
        Carbon Sequestration request falls significantly short of 
        needs, and this shortfall will result, for example, in the 
        slow-down of some of the Regional Carbon Sequestration 
        Partnership projects. Ultimately, the vast majority of 
        CO<INF>2</INF> sequestration will likely take place in saline 
        formations and even under the seabed. As a consequence the 
        majority of funding for this program should be focused on 
        sequestration into saline formations rather than for 
        CO<INF>2</INF> hydrocarbon recovery or other CO<INF>2</INF> re-
        use projects. Moreover, some ongoing tests are with non-
        anthropogenic CO<INF>2</INF>, or non-power system 
        CO<INF>2</INF>, whereas experience integrating commercial scale 
        capture at power systems with injection into saline formations 
        is the foundation for broad deployment of CCS. At a minimum the 
        funding level for this program should be increased to $150 
        million versus the $143 million requested.
  --Fuels.--CURC supports the President's budget recommendation for 
        hydrogen from coal, research for hydrogen separation membranes 
        for power production, and developing components for process 
        intensification to reduce the capital cost of power systems. 
        CURC believes that coal-to-substitute natural gas (C-SNG) 
        systems are commercial and that these systems may provide a 
        relatively low cost mechanism to provide the large volume of 
        CO<INF>2</INF> needed to simulate commercial power plant 
        CO<INF>2</INF> injection processes. Also, gasification of coal 
        and biomass (zeroed out in the fiscal year 2011 Request) 
        combined with CCS may be a useful pathway to provide 
        transportation fuels with a lower CO<INF>2</INF> footprint than 
        conventional sources of these fuels.
  --Advanced Research.--The budget request for Advanced Research 
        focuses on sensors and controls, advanced materials, and new 
        computer simulation activities for capture and storage of 
        CO<INF>2</INF>. The new computer simulation activities would 
        boost overall Advanced Research funding by $20 million from $28 
        million (fiscal year 2010) to $48 million (fiscal year 2011). 
        CURC supports a balanced advanced research program at DOE or 
        through the newly created ARPA-E program where use of a portion 
        of the funds is tightly integrated with the overall coal R&D 
        program with clear deliverables which will address barriers or 
        any technology ``gaps'' to meeting DOE's objective of 
        commercial deployment of CCS by 2020. To achieve this end this 
        program directly supports externally funded applied research 
        programs carried out by university and industry-based 
        organizations that are seeking research results which are 
        responsive to the current marketplace. The AR program or an 
        ARPA-E program also should vigorously support new initiatives 
        that promise ways to cost-effectively prevent or capture 
        CO<INF>2</INF> from the use of carbon-based fuels. This type of 
        basic research looks beyond today's technologies to the next 
        generation and private sector funds may not be readily 
        available. Again, we believe a strong relationship between 
        industry, academia and DOE is vital.
  --University and Workforce Training and Education.--CURC additionally 
        recommends that the DOE budget be available to support academic 
        or university based programs to build up the expertise that is 
        declining in coal technology research and development 
        activities. A well funded advanced research program, as well as 
        university based programs, can help replenish the scientists 
        and engineers needed to create the coal utilization systems and 
        carbon management systems of the future. Also, appropriations 
        should be made to reinstate programs to train the skilled 
        trades workforce needed to construct and operate the energy 
        industry of tomorrow including the utilization of CCS 
        technologies.
  --Fuel Cells.--The DOE Solid State Energy Conversion Alliance (SECA) 
        program is ready to move into MW-scale demonstrations. A 
        primary objective of the program is the development of high 
        temperature solid oxide fuel cells (SOFC) for integration with 
        advanced coal gasification systems. Fuel cells offer the 
        promise of a step change in the way electricity is generated in 
        the future and, if successful, could provide highly efficient, 
        cost-competitive systems capable of capturing nearly all of the 
        CO<INF>2</INF> from the conversion process, minimizing water 
        requirements for the system and greatly reducing emissions of 
        other criteria pollutants.

Title XVII Loan Guarantee Program
    Consistent with the loan guarantee capacity already provided or 
sought for other energy sources ($65.5 billion for renewables and 
energy efficiency and $56.5 billion for nuclear power) and given the 
potential impact of widely deployed CCS technology upon CO<INF>2</INF> 
reductions globally, it is recommended that loan guarantee authority 
for fossil energy and CCS projects be increased by $20 billion. There 
appears to be very significant interest among CCS-related fossil fuel 
projects for use of loan guarantees if made available.

 SUMMARY AND COMMENTS ON SIGNIFICANT ISSUES RELATED TO THE FISCAL YEAR 
                          2011 BUDGET REQUEST

    The programs administered and supported through the Department's 
Fossil Energy office have been distinguished by efforts to foster 
collaboration with industry research, development and demonstration 
efforts, as well as a broad spectrum of university research 
organizations. These programs between industry, Government and the 
academic community have enabled participants to actively engage in each 
part of the technology development chain from basic research to applied 
research and development and then demonstration and early commercial 
deployment. Implementing a restructuring of the FE budget into four new 
cross-cutting program areas could facilitate even greater partnering 
opportunities, focus programs upon the critical issues surrounding CCS 
development, quickly identify and address technology gaps, and create 
greater transparency in defining and exhibiting program goals and 
accomplishments. During this restructuring, the benefits of 
collaboration should be an important consideration if it is 
contemplated that there will be any new and significant involvement of 
other Federal laboratories that have little or no historical ties to 
the industries that rely upon coal and benefit from collaboration 
through the FE program.
    CURC supports the request to increase the Department's advanced 
research budget so long as increases are inclusive and extend funding 
support to research efforts at universities and industry participants 
in all regions of the country wherever the competency and excellence 
exists. CURC also supports the request to increase the computationally 
based research (subject to the comments below) budget. The new emphasis 
upon computational modeling is conceptually attractive as a means to 
reduce the amount of time and funding required in fully developing, 
demonstrating and deploying technology. This funding should be 
implemented through existing structural models already established by 
NETL for industry--university collaborative research--and we recommend 
such an approach which will use structures in place and further support 
already successful collaboration. Finally, if these new programs are to 
be accepted by industry as a tool to create substitutes for ``steel in 
the ground'' then it is essential that industry be involved in the 
development of the computer models to insure that practical 
considerations in the construction and operation of power plants or 
industrial facilities are taken into account. Therefore, industry 
should be consulted to determine if computer models are an appropriate 
surrogate for actual plants being constructed and if yes, and funding 
is to be provided, then direct industry input is recommended when 
constructing the models themselves.
    Beyond basic research CURC is expressly concerned that no funding 
is requested to initiate a next CCPI solicitation for advanced coal and 
CCS demonstrations. If we are to successfully develop a portfolio of 
advanced technologies to utilize coal efficiently and with minimal 
environmental impact then we must continue support for demonstration 
projects.
                                 ______
                                 
            Prepared Statement of the University of Chicago

    My name is Donald Levy and I am Vice President for Research and 
National Laboratories at the University of Chicago. The University of 
Chicago manages, supports, and engages with two major Federal research 
centers: Argonne National Laboratory and the Fermi National Accelerator 
Laboratory (Fermilab). The University's management and operations 
responsibility for Argonne dates back to its founding in 1946 as the 
Nation's first national laboratory, and is a direct descendant of the 
University of Chicago's Metallurgical Laboratory, part of the World War 
II Manhattan Project. In partnership with Universities Research 
Association, the University of Chicago was awarded the M&O contract by 
the Department of Energy for Fermilab in 2007. Argonne and Fermilab are 
leaders in ensuring U.S. competitiveness in the global economy, and 
providing unmatched science talent and capacity for the Midwest and the 
Nation. The fundamental science and applied research that takes place 
in them, often in collaboration with the University of Chicago and 
numerous other universities across the country, continues to push the 
frontiers of scientific discovery, energy security, environmental 
sustainability and national security. I am pleased to testify in strong 
support for the administration's proposed fiscal year 2011 budget 
request of $5.1 billion for the Office of Science.

              THE DEPARTMENT OF ENERGY'S OFFICE OF SCIENCE

    The Department of Energy's Office of Science (SC) is the steward of 
10 national laboratories--including the Argonne National Laboratory and 
Fermi National Accelerator Laboratory. This system of national 
laboratories provides direct and vital support for the mission of the 
Department's science programs and represents the most comprehensive 
research infrastructure system of its kind in the world. A high level 
of collaboration among all of the national laboratories with the 
university community and industry in the use of world-class scientific 
equipment and supercomputers, facilities, and multidisciplinary teams 
of scientists increases their collective contribution to DOE and the 
Nation. The national laboratories sponsored by the SC enables the 
United States to remain at the forefront of discovery science. They 
ensure that facilities and projects of great scale are part of the 
Nation's scientific infrastructure and provide the foundation for 
translating the results of discovery science into technological 
applications.
    SC is also one of the Nation's largest supporters of peer-reviewed 
basic research, providing 40 percent of Federal support in the physical 
sciences while supporting approximately 25,000 Ph.D.s, graduate 
students, undergraduates, engineers, and support staff at more than 300 
universities and at all 17 DOE laboratories. In fiscal year 2010, the 
Office of Workforce Development for Teachers and Scientists expects to 
support over 1,100 undergraduates in research internships at the DOE 
laboratories and nearly 300 K-16 educators. SC is proposing to increase 
the Graduate Fellowship Program to support approximately 400 graduate 
students in the out-years.
    The subcommittee is faced with very tight fiscal constraints and a 
difficult set of choices. Given that situation, the fiscal year 2011 
DOE budget for SC deserves the subcommittee's strong support for the 
following reasons: It invests in science for national needs in clean 
energy, the environment and materials research; it provides vital 
support for national scientific user facilities relied on by 
universities and industry working on research that can't be performed 
anywhere else in the United States; and it supports scientific and 
technological education and related workforce development.
    The fiscal year 2011 budget request makes much needed investments 
to harness the power of American ingenuity. This request will help 
create clean energy jobs, expand the frontiers of science, reduce 
dependence on foreign oil, and help curb the carbon pollution that 
threatens our planet. If one advance could transform America's 
prospects, it would be having a range of clean, efficient and renewable 
energy technologies, ready to power our cars, our buildings and our 
industries, at scale, while creating jobs and protecting the planet. If 
we want to own those future technologies, there is only one path: 
sustained support for research.
    We should not count on private industry alone to make the necessary 
investments. Since 1980, research investment by U.S. energy companies 
paralleled the drop in public research. By 2004, corporate energy R&D 
stood at just $1.2 billion in today's dollars. This level might suit a 
cost-efficient and technologically mature fossil-fuel-based energy 
sector. However, it is very much out of step with any industry that 
depends on innovation.
    The lesson is that while industry must support development and 
commercialization, only Government can prime the pump of research. 
Congress funded the basic research that spawned the information 
technology revolution and the biotechnology revolution. Today, to spark 
an energy revolution, Congress--and this subcommittee in particular--
must lead again.
    The potential, from the economy to global security to climate, is 
boundless. Yet we are not the only ones who have noticed. If we fail to 
make major strategic investments in energy research now, we will find 
ourselves overtaken by our competitors, from China and India to Germany 
and Japan. Other countries have the money and motivation, and they are 
chasing the technology almost as fast as we are. We must make sure that 
in the energy technology markets of the future, we have the power to 
invent, produce and sell, not the obligation to buy.
    The handwriting is clearly on the wall--the Great Wall.

                ARGONNE AND FERMI NATIONAL LABORATORIES

    In the coming years, the Argonne National Laboratory will pursue 
major initiatives that support the Department of Energy's research 
goals to create innovative and transformational solutions to the 
Nation's grand scientific challenges. These initiatives have 
inspirational goals that will keep Argonne at the very forefront of 
scientific discovery and engineering excellence. Three of the major 
initiatives: Hard X-ray Sciences, Leadership Computing, and Materials 
and Molecular Design and Discovery, emphasize the development of next 
generation scientific tools and materials. Five other major 
initiatives: Energy Storage, Alternative Energy and Efficiency, Nuclear 
Energy, Biological and Environmental Systems, and National Security, 
directly address practical energy, environment and security challenges. 
A number of these initiatives, in areas such as computational sciences, 
molecular design and biological and environmental systems are being 
conducted in close collaboration with the University of Chicago's core 
research capabilities.
    Fermilab's world-class scientific research facility allows 
qualified researchers from around the world to conduct fundamental 
research at the frontiers of high-energy physics and related 
disciplines. Thousands of scientists have used Fermilab's particle 
accelerators and experiments to study the universe at the smallest and 
largest scales. The extraordinary technology developed for particle 
physics has often led to real-life applications--from accelerators for 
cancer treatment to the World Wide Web. Fermilab's broad scientific 
program pushes forward on the three interrelated frontiers of particle 
physics. Each uses a unique approach to making discoveries, and all 
three are essential to answering key questions about the laws of nature 
and the cosmos.
    Among the initiatives proposed by the Office of Science of 
particular importance to the University of Chicago, Argonne and 
Fermilab are:
  --Basic Energy Sciences program support for upgrades to Argonne's 
        Advanced Photon Source (APS). The high-brilliance x-rays 
        produced at the APS--the brightest in the Western Hemisphere--
        has been instrumental in developing new and improved energy 
        sources, bettering the environment, battling diseases, 
        improving technologies, unlocking the secrets of our planet and 
        universe, and furthering the education of today's and 
        tomorrow's scientists. We urge the subcommittee to provide 
        strong encouragement to DOE to support vital future performance 
        enhancements in the APS;
  --Advanced Scientific Computing Research program support for 
        Argonne's Leadership Computing Facility. The application of 
        state-of-the-art supercomputers to modeling and simulation can 
        play breakthrough roles linked to our energy security, climate 
        change and sharpen America's competitive edge. The applications 
        also provide benefits to program offices and their external 
        users throughout the Department of Energy. We urge the 
        subcommittee to support the fiscal year 2011 budget request and 
        remain committed to a robust funding path in future years in 
        order to fully achieve the next level of computational power 
        needed to address the next series of important large-scale 
        challenges;
  --The High Energy Physics Program, including continued support for 
        Tevatron Collider research, enhancements for the neutrino 
        physics program and complex wide infrastructure improvements;
  --The newly proposed Energy Innovation Hub for Batteries and Energy 
        Storage--which will focus on integrating from fundamental 
        research through potential commercialization of electrical 
        energy storage relevant to transportation and the electric 
        grid; and
  --Vital support for individual investigator, small group, and Energy 
        Frontier Research Centers (EFRCs) in areas complementing the 
        initial suite of 46 EFRCs awarded in fiscal year 2009.

                               CONCLUSION

    As President Obama made clear in his remarks to the National 
Academy of Sciences in April 2009, the public sector must invest in 
research and innovation not only because the private sector is 
sometimes reluctant to take large risks, but because the rewards will 
be broadly shared across the economy. Leading requires assembling a 
critical mass of the best scientists and engineers to engage in 
mission-oriented, cross-disciplinary approaches to addressing current 
and future energy challenges. To develop clean energy solutions and 
maintain the U.S. leadership role in science and innovation, the 
Department must cultivate the science, technology, engineering, and 
mathematics workforce of the next generation. The University of Chicago 
strongly supports the administration's goal to double funding for the 
DOE's Office of Science between fiscal year 2007 to fiscal year 2017, a 
goal that is consistent with the recommendations in the National 
Academies' 2005 report Rising Above the Gathering Storm. To that end, 
the University of Chicago strongly supports funding of at least $5.1 
billion for SC in fiscal year 2011--the amount requested by the 
administration.
    The subcommittee is faced with a difficult and probably thankless 
job--the allocation of too few resources among a wide variety of worthy 
and compelling public policy objectives. Some of these objectives are 
near term and funding provided for them can lead to tangible benefits 
such as the cleanup of nuclear waste sites or water and flood 
protection projects funded through the Corps of Engineers. The benefits 
of investing in research are less visible in the near term. However, 
they are essential to the long term health and economic vitality of the 
Nation. Appreciating the difficult budget environment the subcommittee 
must confront, the University of Chicago respectfully requests the 
maximum support possible for the important research programs of DOE in 
the context of the fiscal year 2011 appropriations process.
    Thank you for the opportunity to provide these views.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                           Mathematics (SIAM)

    Summary.--This written testimony is submitted on behalf of the 
Society for Industrial and Applied Mathematics (SIAM) to ask you to 
continue your support of the Department of Energy (DOE) Office of 
Science by providing $5.121 billion in fiscal year 2011. In particular, 
we urge you to provide significant support for the Applied Mathematics 
Program within the Office of Science. We also emphasize the importance 
of support for graduate students, post-doctoral fellows, and early 
career researchers.
    My name is Douglas Arnold and I am the President of the Society for 
Industrial and Applied Mathematics (SIAM). Today I am submitting this 
written testimony for the record to the Subcommittee on Energy and 
Water Development of the Committee on Appropriations of the U.S. 
Senate.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
government agencies and laboratories all over the world. In addition, 
SIAM has over 400 institutional members--colleges, universities, 
corporations, and research organizations.
    First, I would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the Department of Energy (DOE) Office of Science and its 
support for mathematics, science, and engineering in enabling a strong 
U.S. economy, workforce, and society. In particular, we thank you and 
your colleagues for the significant increases in funding provided for 
the Office of Science's mathematical and computing programs in the 
fiscal year 2010 Consolidated Appropriations bill.
    Today, I submit this testimony to ask you to continue your support 
of the DOE Office of Science in fiscal year 2011 and beyond. In 
particular, we request that you provide the Office of Science with 
$5.121 billion, the level requested by the President for this agency in 
his fiscal year 2011 budget. This represents a 4.4 percent increase 
over the Office's fiscal year 2010 appropriated level and would 
continue the effort to double funding for the Office of Science, as 
endorsed by Congress in the America COMPETES Act and by the President 
in his fiscal year 2011 budget request.
    The Nation faces critical challenges in energy, including in energy 
efficiency, renewable energy, improved use of fossil fuels and nuclear 
energy, future energy sources, and reduced environmental impacts of 
energy production and use. As DOE and the research community design a 
long-term strategy to tackle these issues, the tools of mathematics and 
computational science (theory, modeling, and simulation) have emerged 
as a central element in designing new materials, predicting the impact 
of new systems and technologies, and better managing existing 
resources. Already, mathematical and computing researchers in 
universities, national laboratories, and industry are providing 
insights that propel advances in such fields as climate modeling, 
nanotechnology, biofuels, genomics, and materials fabrication.

          THE ROLE OF MATHEMATICS IN MEETING ENERGY CHALLENGES

    SIAM members come from many different disciplines, but have a 
common interest in applying mathematics in partnership with 
computational science toward solving real-world problems. DOE was one 
of the first Federal agencies to champion computational science as one 
of the three pillars of science, along with theory and experiment, and 
SIAM deeply appreciates and values DOE activities.
    In August 2007, an independent panel of mathematicians reviewed the 
challenges and strategic plans of all units of DOE in order to better 
define the goals for the DOE Applied Mathematics Program, which is 
located within the Office of Advanced Scientific Computing Research 
(ASCR) in the Office of Science.\1\ The panel considered a broad and 
varied array of questions that the DOE must answer in the coming years. 
A representative subset of such questions includes:
---------------------------------------------------------------------------
    \1\ Applied Mathematics at the U.S. Department of Energy: Past, 
Present and a View to the Future. A Report by an Independent Panel from 
the Applied Mathematics Research Community, May 2008. Available on line 
at http://brownreport.siam.org/Document%20Library/
Brown_Report_May_08.pdf.
---------------------------------------------------------------------------
  --Can we predict the operating characteristics of a clean coal power 
        plant?
  --How stable is the plasma containment in a Tokamak?
  --How quickly is climate change occurring and what are the 
        uncertainties in the predicted time scales?
  --How quickly can an introduced bio-weapon contaminate the 
        agricultural environment in the United States?
  --How do we modify models of the atmosphere and clouds to incorporate 
        newly collected data of possibly new types?
  --How quickly can the United States recover if part of the power grid 
        became inoperable?
    In these and many other cases, the answer is dependent on improved 
understanding of complex systems. (These are systems that have high 
levels of uncertainty, lack master plans, and are susceptible to 
breakdowns that could have catastrophic consequences. Understanding 
complex systems helps mitigate these risks and facilitate the 
development of controls and strategies to make systems more efficient.) 
In light of this broad need, the panel recommended that DOE focus on 
three strategies for addressing the gaps in our understanding.
  --Predictive modeling and simulation of complex systems.
  --Mathematical analysis of the behavior of complex systems.
  --Using models of complex systems to inform policy makers. (This 
        includes advancing the mathematics that supports risk analysis 
        techniques for policy-making involving complex systems that 
        include natural and engineered components, and economic, 
        security, and policy consequences.)

                 DEPARTMENT OF ENERGY OFFICE OF SCIENCE

    Activities within ASCR play a key role in supporting research that 
begins to fulfill the needs described above. Particularly critical 
programs include: the Applied Mathematics program, the Scientific 
Discovery through Advanced Computing (SciDAC) program, and programs to 
maintain the pipeline of the mathematical workforce. SIAM supports the 
$426 million requested for ASCR for fiscal year 2011, while urging that 
the increase in funding be more balanced among ASCR programs and not 
entirely directed to investments in computing hardware. Without 
investments in algorithm research, software development, and 
partnerships between mathematicians, disciplinary researchers, and 
computer and computational scientists, we cannot realize the full 
benefit of new high performance computers or effectively develop the 
next generation of such computers.
    The applied mathematics and computational science and engineering 
work supported by the Applied Mathematics Program is a necessary 
element for many of the flagship efforts of the Office of Science and 
other units of DOE. Therefore, partnerships within the Department are 
critical for applying mathematics to key challenges in effective 
creation and use of a variety of energy sources. SIAM supports ASCR 
plans to initiate new partnerships with other DOE offices such as the 
Office of Electricity Delivery and Energy Reliability, the Office of 
Nuclear Energy, and the Office of Environmental Management. SIAM also 
supports the proposed activity on uncertainty and climate change within 
the Biological and Environmental Research Office, and the proposed 
activity on Computational Design of Advanced Engines within the Basic 
Energy Sciences Office.

        SUPPORTING THE PIPELINE OF MATHEMATICIANS AND SCIENTISTS

    Investing in the education and development of young scientists and 
engineers is a major step that the Federal Government can take to 
ensure the future prosperity and welfare of the United States. 
Currently, the economic situation is negatively affecting the job 
opportunities for young mathematicians--at universities, companies, and 
other research organizations. It is not only the young mathematicians 
who are not being hired who will suffer from these cutbacks. The 
research community at large will suffer from the loss of ideas and 
energy that these graduate students, postdoctoral fellows, and early 
career researchers bring to the field, and the country will suffer from 
the lost innovation.
    Maintaining the pipeline of the mathematical workforce with 
programs that fund research and students is especially important 
because of the foundational and cross-cutting role that mathematics and 
computational science play in sustaining the Nation's economic 
competitiveness and national security, and in making substantial 
advances on societal challenges such as energy and the environment. DOE 
programs support the educational and professional development of the 
researchers who will, at universities, companies, and the national 
laboratories, tackle the research problems (such as the complex system 
modeling described above) needed to change energy usage in this 
country. These young mathematicians and computational scientists are 
the drivers and employees of the clean energy economy.
    Within the Office of Advanced Scientific Computing Research, the 
Computational Science Graduate Fellowship program is a highly 
successful and model program that enables students to receive robust 
training in mathematics and also learn to interface with a wide variety 
of other fields. We request that strong support for this program 
continue, as well as ongoing support for post-doctoral fellows at DOE 
national laboratories and universities. In addition, we endorse DOE's 
proposed continuation in fiscal year 2011 of the Office of Science 
Early Career Research Awards and Graduate Fellowships programs begun 
with funding from the American Recovery and Reinvestment Act.
    We are also supportive of the proposed DOE education initiative, 
RE-ENERGYSE (REgaining our ENERGY Science and Engineering Edge). We too 
believe in the core goal of raising the number of students studying in 
areas that contribute to the fundamental understanding of energy 
science and engineering systems. In particular, we support graduate 
research fellowships in relevant fields, such as applied mathematics, 
and programs that encourage universities to establish multidisciplinary 
research and education programs, such as in computational science, 
which is a key element in projects studying and creating clean energy 
capabilities.

                               CONCLUSION

    The programs in the Office of Science, particularly those discussed 
above, are important elements of DOE's efforts to fulfill its mission. 
They contribute to the goals of dramatically transforming our current 
capabilities to develop new sources for renewable and low-carbon energy 
supplies and improve energy efficiency, positioning the United States 
to lead on climate change policy, technology, and science, and 
facilitating DOE's effort to increase U.S. competitiveness by training 
and attracting the best scientific talent into DOE headquarters and 
laboratories, the American research enterprise, and the clean energy 
economy.
    SIAM is aware of the significant fiscal constraints facing the 
administration and Congress this year, but we note that, in the face of 
economic peril, Federal investments in mathematics, science, and 
engineering create and preserve good jobs; stimulate economic activity; 
and help to maintain U.S. pre-eminence in innovation, upon which our 
economy depends.
    I would like to conclude by thanking you again for your ongoing 
support of the DOE Office of Science and the actions you have already 
taken to enable DOE and the research and education communities it 
supports, including thousands of SIAM members, to undertake the 
activities that contribute to the health, security, and economic 
strength of the United States. The DOE Office of Science needs 
sustained annual funding increases to maintain our competitive edge in 
science and technology, and therefore we respectfully ask that you 
continue your robust support of these critical programs into the 
future.
    I appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM and look forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2011 appropriations process.
                                 ______
                                 
                    Prepared Statement of GE Energy

    Overview.--The following testimony is submitted on behalf of GE 
Energy (GE) for the consideration of the subcommittee during its 
deliberations regarding the fiscal year 2011 budget requests for the 
Department of Energy (DOE). In particular, GE recommends: (1) in the 
Renewable Energy budget, support for the new Offshore Wind Technology 
program; (2) in the Fossil Energy program, greater focus on carbon 
capture technologies for new plants and increased investment in 
integrated gasification combined cycle technology; (3) in Nuclear 
Energy, support for additional nuclear loan guarantee authority; and 
(4) funding in Electricity Delivery and Energy Reliability to 
accelerate smart grid deployment.
    Renewable Energy.--GE supports the request for $49 million in 
funding for the new Offshore Wind Technology Program. Investment in 
pilot projects will enhance learning, improve infrastructure, and pave 
the way for commercial scale offshore wind to become a reality in the 
United States.
    For emerging offshore as well as maturing onshore applications, 
blades and drive trains are the most critical wind turbine components. 
Research and development into advanced materials, advanced 
manufacturing, design for logistics, advanced power conversion, and 
drive train systems can increase energy production, increase 
reliability, reduce material cost, and lower the overall cost of 
energy. New power generation technologies, such as higher torque 
density generators, can be adapted to wind. As penetration of wind 
energy increases, significant advances are needed to develop solutions 
for grid integration of this variable resource. Government investment 
in these areas, when combined with industry cost share, can 
significantly accelerate technology advancements beyond what industry 
can accomplish on its own.
    Fossil Energy.--In Coal R&D, within the Fuels and Power Systems 
line item, an $8 million reduction is being proposed for the Advanced 
Integrated Gasification Combined Cycle program while funding for the 
Innovations for Existing Plants program would be increased by $13 
million. GE is concerned that these funding changes indicate a 
fundamental and troubling shift in DOE's emphasis. The increased 
funding for Existing Plants will be focused on small-scale pilots--
essentially returning to the bench. This is a flawed strategy. It 
implies DOE's acceptance of the long time span--over a decade or more--
from bench to commercial deployment. Over this timeframe, while the 
creation of jobs associated with commercializing CCS is delayed, 
existing plants that would benefit will be moving closer to retirement, 
and therefore unlikely to warrant investment in new technology to 
extend their lives.
    Rather than focusing taxpayer dollars in numerous small pilot scale 
cleaner coal experiments, the time has come to invest in technology 
enhancements applicable to new cleaner coal plants and proven 
technologies for carbon capture such as gasification within integrated 
gasification combined cycle (IGCC). In contrast to combustion 
technology, gasification is well suited for carbon capture and proven 
in commercial chemical applications. IGCC with carbon capture is 
commercially available to the utility industry today. However the 
higher initial capital cost of IGCC combined with the additional cost 
and parasitic loads from carbon capture currently place it at a 
disadvantage relative to power generation from natural gas. If coal 
with its economic, jobs and infrastructure benefits is to continue in 
our energy mix, improvements in IGCC cost and performance are needed to 
reach cost-parity with natural gas. While we believe much of the cost 
gap can be closed through deployment of IGCC with carbon capture, 
further technology improvements in IGCC have the highest chance of 
making their way to commercial deployment and reducing the ultimate 
costs of CCS.
    We therefore recommend that the fiscal year 2011 budget for IGCC be 
increased by $25 million for total funding of $80 million, with the 
increase focused on the development of key cost and performance 
enhancements consisting of (1) IGCC construction optimization ($6 
million); (2) syngas cooler fouling prevention ($4 million); (3) 
fundamental gasification modeling ($4 million); (4) startup and 
shutdown optimization ($2 million); (5) HAPS characterization ($2 
million); (6) advanced instrumentation and controls ($4 million); and 
(7) trace metals balance and detection ($3 million).
    Water Management (Innovations for Existing Plants).--Large amounts 
of water are needed to produce or extract energy, and large amounts of 
energy are needed to treat or transport water. What is more, 
CO<INF>2</INF> capture increases raw water usage by up to 125 percent, 
depending on the underlying technology. In order to achieve DOE's 
aggressive goals of reducing freshwater withdrawals and consumption 50 
percent by 2015 and 70 percent by 2020, water-related R&D funding is 
needed. Yet DOE requested no new funding for the water management 
subprogram under the Innovations for Existing Plants program in fiscal 
year 2011. GE believes that funding for water R&D should be provided in 
the amount of $40 million for innovative water reuse technologies and 
demonstration projects including: cooling tower blowdown reuse, Flue 
Gas Desulphurization (FGD) wastewater reuse and recovery, ash pond 
solids reduction, and treatment and reuse of produced water from 
unconventional oil and natural gas production to further reduce 
environmental impacts and operational costs of upstream energy 
processes. Support also is needed to advance reuse/treatment 
technologies for the conversion of impaired wastewater streams into 
sources of renewable water in areas of water scarcity, reducing the 
need to use energy to transport water over long distances and to 
support electricity generation.
    Clean Coal Power Initiative (CCPI).--The CCPI plays a vital role in 
validating and testing advanced technology. The significant number of 
applications in response to the CCPI-3 solicitation demonstrates 
industry's interest in undertaking CCS-related coal projects. DOE 
should move forward with a new CCPI-4 solicitation. Any future CCPI 
solicitations must acknowledge current economic realities, including 
constriction in the capital markets and the difficulty that utilities 
have in justifying rate recovery for any non-compulsory additional 
capital or operating cost. DOE should (1) increase emphasis and 
evaluation weighting on the financial viability of projects; (2) tailor 
technical requirements so that they do not compromise financial 
viability; and (3) structure the program so that sufficient time and 
funding are available to complete front-end engineering designs (FEEDs) 
and sequestration site characterizations and access evaluations. The 
latter will allow a utility to provide accurate cost data to its 
regulators and demonstrate that it has a sequestration resource with 
sufficient capacity for the life of its plant.
    Advanced Turbines.--GE recommends funding of $45 million in fiscal 
year 2011 to maintain needed progress in the Advanced Turbines program 
for the development of enabling technologies for high efficiency 
hydrogen turbines for advanced gasification systems with carbon 
capture. The program is on target to enable future advanced coal-fueled 
IGCC power plants to offset much of the performance penalties 
associated with carbon capture while also achieving very low 
NO<INF>X</INF> emissions.
    In addition, in view of the significant role that natural gas fired 
generation will play in a low carbon energy future, Congress should 
support efforts to develop technologies to drive efficiency in new 
turbines and the Nation's existing gas turbine fleet, as proposed in 
H.R. 3029 and S. 2900. GE urges the subcommittee to consider an annual 
investment of $85 million as envisioned in this legislation. Efficiency 
improvements from implementing technology on new advanced turbines or 
retrofitting existing gas turbines will result in reduced emissions and 
reduced CO<INF>2</INF> for the same power output.
    Nuclear Energy: New Plant Activities and Loan Guarantees.--Although 
there has been significant interest in new plant development, only a 
fraction of the utilities that applied for Combined Operating Licenses 
(COLs) in the United States are proceeding with new plant projects on 
their original timelines. GE Hitachi Nuclear Energy (GEH) commends DOE 
for the highly successful NP2010 program to license and assist in the 
development of standardized advanced plant designs, but more needs to 
be done. In particular, GEH supports the President's call to 
significantly grow the nuclear loan guarantee program, as it 
underscores the benefits of nuclear power while addressing the capital-
intensive nature of nuclear plant deployment. Congress should provide 
the requested $36 billion in loan guarantee authority for nuclear power 
projects in fiscal year 2011, and should also recognize that providing 
loan guarantees for other advanced nuclear technologies is critical to 
ensuring a competitive landscape in the United States. GEH recommends 
that the new Nuclear Energy Enabling Technologies (NEET) program be 
expanded to address near term challenges such as domestic nuclear 
manufacturing capabilities, simulation and training programs to support 
near term deployment of generation III+ reactor designs, and the 
application of advanced modularization and construction techniques to 
help reduce new plant capital costs. The Reactor Concepts RD&D and Fuel 
Cycle R&D requests are both critical for the deployment of new 
technologies such as PRISM and Global Laser Enrichment (GLE), and GEH 
believes that the programs should be provided sufficient funding.
    Non-proliferation and Spent Fuel Minimization.--GEH supports used 
nuclear fuel recycling as a means to fully close the nuclear fuel 
cycle, minimize nuclear proliferation risks and provide an alternative 
to a large permanent repository. It is in the best interest of national 
security that U.S. technology be used to close the fuel cycle in a 
manner that does not result in separated plutonium. GEH looks forward 
to working with the Blue Ribbon Commission on America's Nuclear Future 
and the Congress to discuss ways to address fuel cycle challenges and 
to support the further development of advanced small modular reactors 
like GEH's PRISM reactor.
    International Nuclear Energy Cooperation.--As interest in civil 
nuclear power grows around the world, it is critical that the United 
States lead in efforts to insure that the industry grows in a 
responsible manner. DOE must have resources to support President 
Obama's call for a new framework for civil nuclear cooperation. GEH 
supports the funding request to initiate this new program.
    RE-ENERGYSE/Workforce Development.--GEH applauds the recognition 
that the Government can be a partner in encouraging students to pursue 
careers in clean energy. GEH is a strong supporter of the industry 
program for a uniform nuclear curriculum and also has a Nuclear 
Maintenance Technicians Program with the local community college. These 
kinds of programs are critical to our continued development of the next 
generation of nuclear workers.
    Electricity Delivery and Energy Reliability: Clean Energy 
Transmission and Reliability.--GE strongly supports the inclusion of 
funding for R&D on the dynamic analysis capability of a phasor 
measurement unit (PMU)-based network in the Transmission Reliability 
and Renewables Integration subprogram. When coupled with power 
electronic devices, phasor data can provide grid operators with the 
capability to rapidly respond to and correct power quality problems. 
Government investment in PMU-based networks can significantly improve 
the ability of grid operators to maintain reliability, particularly as 
operators face the need to integrate increasing amounts of intermittent 
generation.
    GE commends DOE for establishing the new Advanced Modeling Grid 
Research subprogram. Advanced modeling capabilities will serve as a 
critical tool in the modernization of the electric grid by assisting 
grid operators in identifying the technical limits of conventional grid 
technologies, and facilitating development of new technologies and 
solutions to respond to a changing energy mix and an increasingly 
responsive consumer base. In addition, advanced modeling capabilities 
can enable grid operators and power systems planners to aggregate, 
analyze, and act upon the vast quantities of data collected by smart 
grid technologies, thereby unlocking the full potential of the smart 
grid. DOE should expand industry participation in this program to fully 
leverage work already underway.
    Smart Grid Research and Development.--The smart grid can 
fundamentally change the way electricity is generated, transmitted, and 
consumed, thereby delivering substantial improvements in the efficiency 
and reliability of our Nation's electric grid. Additional research is 
needed in areas such as the integration of plug-in hybrid electric 
vehicles and advanced management of distribution voltage. In addition, 
GE views as essential DOE's continued support for ongoing efforts to 
establish smart grid standards through the National Institute of 
Standards and Technology.
    GE is concerned that the Power Electronics subprogram emphasizes 
basic science over technology application. GE recommends that Congress 
provide support for DOE to conduct research into applications of power 
electronics to support smart grid technologies.
    Energy Storage.--While GE supports further research into energy 
storage technologies, we are concerned that this program places 
disproportionate emphasis on lithium-ion battery technology. Industry 
has conducted a great deal of research and development into a range of 
advanced battery technologies, including sodium-metal-halide, zinc 
bromide, and vanadium redox. To foster further innovation in this 
promising field, GE recommends that the focus of the energy storage 
program be broadened to encompass a range of battery storage 
chemistries and technologies. The program should cover all potential 
storage modalities, including flywheel technology.
    Cyber Security for Energy Delivery Systems.--GE recommends that 
Congress restore funding to the fiscal year 2010 level, and that DOE, 
to support smart grid deployment, determine the most appropriate next-
generation communications and control system technologies, as well as 
the cyber security requirements for each.
                                 ______
                                 
     Prepared Statement of the Biomass Energy Research Association

                                SUMMARY

    This testimony pertains to fiscal year 2011 appropriations for 
biomass energy research, development, and demonstration (RD&D) 
conducted by the Department of Energy (DOE) Office of Energy Efficiency 
and Renewable Energy (EERE), Biomass Program (OBP). This RD&D is funded 
by the Energy and Water Development bill, under Energy Supply and 
Conservation, Energy Efficiency and Renewable Energy. BERA recommends a 
total appropriation of $360 million in fiscal year 2011 for Biomass and 
Biorefinery Systems R&D. This is an increase of $140 million over the 
U.S. Department of Energy request for fiscal year 2011 for this 
programmatic area. Specific lines items are summarized below (also see 
Table 1).
  --$30 million for Feedstocks (regional partnerships, high yield 
        feedstocks, simpler/cheaper algae routes).
  --$130 million for Conversion Technologies, distributed as follows:
    --$50 million for Biochemical Conversion (emphasis on low cost 
            sugars, advanced fuels, traditional plus non-traditional 
            conversion routes, e.g., aqueous processing, chemical 
            catalysis).
    --$80 million for Thermochemical Conversion (conversion to oils, 
            long chain hydrocarbons, or other fuels/intermediates via 
            pyrolysis, gasification, and non-traditional routes; low 
            cost reactive intermediates such as CO and hydrogen).
  --$100 million for Integrated Biorefineries. (Systems integration, 
        risk reduction through technology demonstrations, sustained 
        support for first-of-a-kind projects).
  --$20 million for Sustainability and Analysis to assess life cycle 
        impacts.
  --$80 million for Biopower for pilot scale RD&D on decentralized 
        applications; studies to assess cost, environmental impacts, 
        and permitting issues; RD&D to address performance and other 
        issues for larger scale boiler repowering.

                               BACKGROUND

    On behalf of BERA's members, we would like to thank you, Mr. 
Chairman, for the opportunity to present the recommendations of BERA's 
Board of Directors for the high-priority programs that we strongly urge 
be continued or started. BERA is a non-profit association based in the 
Washington, DC area. It was founded in 1982 by researchers and private 
organizations conducting biomass research. Our objectives are to 
promote education and research on the economic production of energy and 
fuels from biomass, and to serve as a source of information on biomass 
RD&D policies and programs. BERA does not solicit or accept Federal 
funding.

  TABLE 1.--FISCAL YEAR 2011 BIOMASS & BIOREFINERY SYSTEMS R&D, ENERGY
             SUPPLY & CONSERVATION, DOE/EERE BIOMASS PROGRAM
                        [In millions of dollars]
------------------------------------------------------------------------
            Program Area                 Description of RD&D      Total
------------------------------------------------------------------------
Feedstocks.........................  Regional feedstock             30.0
                                      partnerships.
                                     Research to improve energy
                                      crops, including super
                                      high yields: achieve 10
                                      to 25 dry tons/acre/year
                                      via R&D compared with the
                                      2 to 7 dry tons/acre/year
                                      possible today.
                                     Plants species amenable to
                                      thermochemical (e.g.,
                                      high lignin) and
                                      biochemical (e.g., more
                                      easily processed lignin)
                                      processes.
                                     Simpler, less expensive
                                      algae production.
Conversion Technologies:             Conversion to next             50.0
 Biochemical.                         generation biofuels/
                                      processes (broader range
                                      of liquid fuels beyond
                                      ethanol).
                                     Reduction of sugar costs
                                      through cheaper enzymes
                                      and other routes.
                                     Non-traditional
                                      technologies such as
                                      aqueous phase processing,
                                      chemical catalysis.
Conversion Technologies:             Next generation biofuels       80.0
 Thermochemical.                      and processes that can
                                      use a range of feedstocks
                                      (pyrolysis, gasification,
                                      other routes).
                                     Low cost reactive
                                      intermediates such as CO
                                      and hydrogen.
                                     Synthetic routes to expand
                                      beyond Fischer-Tropsch
                                      fuels.
Integrated Biorefineries...........  Risk reduction through        100.0
                                      demonstrations of
                                      biochemical and
                                      thermochemical conversion
                                      technologies in
                                      biorefineries, sustained
                                      support for first-of-a-
                                      kind projects, and
                                      underwriting of loan
                                      guarantees.
Analysis and Sustainability........  Life cycle analysis of new     20.0
                                      technology pathways.
                                     Land use issues.
Large Scale Biopower...............  RD&D at pilot scale for        80.0
                                      decentralized biopower
                                      applications.
                                     Studies to analyze cost,
                                      permitting, and
                                      environmental issues.
                                                                --------
      TOTAL........................  ..........................    360.0
------------------------------------------------------------------------

    There is a growing urgency to diversify our energy supply, develop 
technologies to utilize indigenous and renewable resources, reduce U.S. 
reliance on imported oil, and mitigate the impacts of energy on climate 
and the environment. The benefits are many--economic growth, new 
American jobs, enhanced environmental quality, and fewer contributions 
to climate change. Economic growth is fueled and sustained in large 
part by the availability of reliable, cost-effective energy supplies. A 
diversified, sustainable energy supply is critical to meeting our 
energy challenges and maintaining a healthy economy with a competitive 
edge in global markets. Biomass can diversify U.S. energy supply in 
several ways:
  --Biomass is the single renewable resource with the ability to 
        directly replace liquid transportation fuels.
  --Biomass can be used as a feedstock to supplement the production of 
        chemicals, plastics, and materials now produced from crude oil.
  --Gasification of biomass produces a syngas that can be utilized to 
        supplement the natural gas supply, generate electricity, or 
        produce fuels and chemicals.
  --Biomass can be used directly or in combination with coal to 
        diversify our electricity supply.
    While biomass will not solve all our energy challenges, it can 
certainly contribute to the diversity of our supply, and do so in a 
sustainable way, while minimizing impacts to the environment or 
climate. Goals could be to reach at least the 10 percent to 15 percent 
levels in both the electricity generation and motor vehicle 
transportation sectors by the 2020 to 2030 decade, up from on the 1 
percent to 25 percent levels today in these two sectors. Unlike solar 
and perhaps wind, biomass will be constrained to far below 100 percent, 
due to land use and water availability concerns. However, biomass can 
be developed from a minor role to a major role in a diversified, 
domestic and renewable energy supply for the United States, based on an 
expansion of our Nation's agriculture and forest products industries. 
The Energy Independence and Security Act (EISA) of 2007 mandates 
increased use of alternative fuels, with a substantial portion to come 
from cellulosic biomass. A Federal Renewable Portfolio Standard (RPS) 
is now under consideration (many States have already passed such 
legislation) which would increase the use of renewables for 
electricity, including biopower. To meet the EISA goals and potentially 
a Federal RPS will require aggressive support for RD&D to move 
technology forward and reduce technical and economic risk.
       overall bera recommendations for us doe/eere biomass rd&d
  --Pursue a Balanced Approach to Biomass R&D [All R&D Areas].--It is 
        important for DOE to pursue a balanced approach to biomass R&D. 
        This means striking a balance between the involvement of 
        national labs, academia, and industry to take advantage of 
        their distinctive strengths, rather than relying heavily on 
        national laboratories, as in the past. The DOE should also 
        pursue a balance between understanding fundamentals, advancing 
        the technology, applying the technology, and integrating the 
        technology. There has been a particular neglect of 
        understanding fundamentals to provide a technology platform 
        that would catalyze development of better technologies and 
        enhance commercial success. Technology breakthroughs are needed 
        because the scale (large) and the costs (too high) are barriers 
        for the technology development pathways needed to meet today's 
        energy and climate challenges. Mechanisms are needed to ensure 
        that fundamental research and new processes and science get 
        into the hands of the companies most likely to deploy the 
        breakthroughs.
  --Make Investments to Bring Down the Cost of Sugars From Biomass 
        [Biochemical and Thermochemical Conversion R&D].--One key to 
        competiveness is reducing the cost of producing reactive 
        intermediates from biomass. For biological systems, this means 
        getting low cost sugars, as expensive sugars result in 
        expensive products whether the product is ethanol or an 
        advanced, infrastructure-compatible (drop-in) fuel. Making a 
        drop-in fuel from expensive sugars is a pathway for failure. 
        Similarly, for thermochemical approaches, the key is getting 
        low cost reactive intermediates such as CO and hydrogen. The 
        balance advocated in Item 1 can help reduce the cost of making 
        such intermediates. Include advanced biological routes that 
        better integrate simplified combined biological methods with 
        pretreatment to reduce enzyme costs dramatically, as enzymes 
        followed by pretreatment are the major cost items that are 
        susceptible to change.
  --Provide Support for Both Traditional and Non-traditional Conversion 
        Routes [Conversion Technologies].--We recommend that while both 
        biological and thermochemical processes be funded, greater 
        emphasis should be given to thermochemical conversion for 
        transportation fuels and substitutes for other petroleum-
        derived products to mitigate our dependency on imported oil. 
        Thermochemical technology has been historically under-funded 
        despite its potential to produce more infrastructure-compatible 
        fuels. Biofuels R&D should be expanded beyond just ethanol and 
        Fischer-Tropsch products. We advocate funding for chemical 
        catalysis (rather than just fermentation) to broaden the 
        spectrum for products from sugars; new catalysts and synthetic 
        routes are needed. In addition to the traditional focus of 
        biological and thermochemical routes, it is important to 
        support new emerging technologies such as aqueous phase 
        processing of biomass to diesel and jet fuel substitutes.
  --Reduce the Risk of New Fuel Production Technology Via 
        Demonstrations, Loan Guarantees, and Sustained Support for 
        First-of-a-kind Projects [Integrated Biorefineries].--It is 
        important that DOE and the Congress understand the substantial 
        challenges of introducing new fuel production technology, 
        particularly in a market with large swings in prices. A fortune 
        can be made when oil prices are high--and twice as many 
        fortunes lost when they drop. A key approach is for DOE to 
        ``buy down'' risk in a meaningful way to compensate for the 
        huge fluctuations, and enable a few first-of-a-kind projects to 
        succeed. DOE must also provide sustained support and avoid 
        dropping projects prematurely. Technology demonstrations reduce 
        technical and economic risk and accelerate the potential for 
        private investment. A high level of guarantee is vital--as 
        introducing any new fuel in today's petroleum-heavy market is 
        extremely challenging. The capital costs for petroleum 
        processing are paid off, making it a cash producer, while a 
        biofuels facility must cover not only cash costs but make a 
        high return on capital to compensate for first time risk. This 
        is a heavy lift for first-of-a-kind technology.
  --Pursue Simpler and Less Expensive Systems for Utilizing Algae 
        [Feedstocks].--Much simpler and less expensive systems are 
        needed, especially to harvest algae. This technology 
        advancement should be pursued before other any new large scale 
        projects are initiated.
  --Increase Support for High Yield Feedstocks.--The cost efficient 
        production and handling of energy crops--which is necessary for 
        any significant impact on our national needs--continues to be a 
        major cost and issue. However, it historically has been given a 
        disproportionally small portion of funding.
  --Conduct RD&D to Enable Greater Use of Decentralized Biopower.--A 
        substantial increase over the requested $50 million should be 
        made to support hands-on, applied RD&D to accelerate use of 
        biopower. The bulk of these funds should go to RD&D rather than 
        paper studies. Research activities of at least a pilot scale 
        are a priority. While expensive, these are where the real path 
        to commercialization happens. Biopower RD&D activities should 
        emphasize decentralized generation (5-50 MW), which plays to 
        biomass's strengths (flexibility in delivery, broad 
        applicability, localized/sustainable power) and environmental 
        benefits (less transmission lines, less fuel hauling, less 
        intrusiveness, more efficient/CHP). Biomass can also be pursued 
        for centralized generation (large power) as a strategy for 
        reducing greenhouse gases, and may be more attractive than 
        other renewables as it is readily available and can be 
        combusted much like coal. Large power uses may have a role for 
        building biomass fuel supply infrastructure via fuel supplies 
        developed locally with low capital cost because the coal plant 
        is already built. RD&D could potentially focus on performance 
        issues related to re-powering boilers with biomass.
  --Conduct Studies Needed to Assess Cost, Permitting, and 
        Environmental Issues Related to Biopower.--Studies are needed 
        to inform industry, Congress, and the general public, but 
        should not be the primary focus of biopower efforts. The cost 
        and time for permitting of plants is already a significant 
        factor in biomass industrial use and is growing. Permitting 
        processes should be reviewed with a goal of facilitating 
        industry growth by making permitting as simple, quick, and 
        reasonable as possible. Regulators and companies need to be 
        confident that they can obtain permits for biomass power or 
        fuel plants. A scoping study of potential technologies meeting 
        near-term scale-up potential or useable in retrofitting 
        existing facilities could be useful, if it facilitates 
        permitting or building of plants or retrofits. Detailed cost 
        estimates for potential power generation and biomass conversion 
        facilities could stimulate serious consideration from the 
        business community raise awareness of successful DOE projects. 
        Assessment of potential GHG emission reductions is needed to 
        clarify the impacts on fossil energy and fossil CO<INF>2</INF> 
        that result from biomass crops, harvesting, energy from 
        forests, etc., and moving to power plants. The goal is a fair 
        net CO<INF>2</INF> and net energy reduction value compared to 
        fossil alternatives.
  --Leverage Results From Existing/Ongoing Work on Biomass to Support 
        Biopower Efforts.--Cost-benefit analysis on feedstock type and 
        delivery systems, for example, is not entirely unique to power 
        and similar studies conducted for biomass feedstocks and 
        biofuels can be leveraged to understand the biopower landscape.
                                 ______
                                 
        Prepared Statement of The University of Texas at Austin

   CONTINUE FUNDING FOR U.S. DEPARTMENT OF ENERGY (DOE) OIL AND GAS 
         RESEARCH PROGRAMS, INCLUDING RPSEA (EPACT SECTION 999)

    I appreciate your leadership efforts and support for oil and 
natural gas research. I urge you to continue to support and grow 
important fossil energy research and development (R&D) in the fiscal 
year 2011 Energy and Water Appropriations bill.
    The President's fiscal year 2011 budget request to Congress 
recommends repeal of section 999 of the Energy Policy Act of 2005 
(EPACT), which funds RPSEA, the industry-led research consortium. The 
President's budget also recommends elimination of the (already paltry) 
DOE Office of Fossil Energy budget for oil and gas R&D.
    Although I can, perhaps, understand the political underpinnings of 
these administrative recommendations, I find the recommendations to be 
short-sighted and hard to reconcile with the stated and real needs of 
our Nation. These needs include, but are not limited to: (1) access to 
vital energy as we try to recover from a recession and the largest 
increase in deficit spending ever; (2) energy to get the U.S. economy 
back on its feet; (3) access to increased domestic energy for national 
security; (4) keeping and adding (non-government) American jobs, such 
as those the domestic energy industry provides; and (5) science and 
technology innovation in fossil energy in U.S. universities.
    I have been engaged in energy production and research for nearly 
three decades. In the past 2 years, I have visited many of the premier 
energy locations and facilities:
  --Hydro in Norway
  --Wind in Denmark and West Texas
  --Geothermal in Iceland
  --Solar in Spain and California
  --Biofuel in the United States
  --Carbon sequestration in the United States
  --Liquefied natural gas (LNG) in Qatar and shale gas in the United 
        States
  --Oil in the Middle East and the United States
  --Nuclear in France and the United States
    During these visits I have met one-on-one with industry, 
government, and academic leaders, including:
  --CEO of BP, London
  --CEO of Statoil, Norway
  --CEO of Chesapeake, Oklahoma
  --CEO of BP Capital, Dallas
  --CEO of RasGas, Qatar
  --CEO of Kuwait Energy
  --CEO of Abengoa Solar, Spain
  --CEO of Renewable Energy Corporation, California
  --Deputy CEOs of Kuwait Oil and Bahrain Petroleum
  --President of Denbury, Texas
  --Vice President of Shell Offshore, Louisiana
  --Director of MIT Energy Initiative and former U.S. Under Secretary 
        of Energy
  --Director of U Texas Energy Institute and former U.S. Under 
        Secretary of Energy
  --Director of Energy Institute at Stanford
  --President of Iceland
  --U.S. Under Secretary of Energy
  --Minister of Oil, Bahrain
  --Director of the OECD Nuclear Energy Agency, Paris
  --Deputy Director of the IEA, Paris
  --Leading scientists and engineers across several energy sectors
    Perhaps most important from these visits, I have learned that there 
are no silver bullets in energy. We cannot turn off coal and switch on 
solar. We cannot turn off natural gas and turn on wind. To imply 
otherwise is disingenuous. Innovation in renewable energy is exciting 
and as the decades unfold these sources of energy will improve, address 
the intermittency, storage, cost, energy density, storage and 
transmission challenges, and become more prevalent! Meanwhile, nations 
have and will continue to use ``the energy they have, where they have 
it,'' and thus the transition to a non-fossil-fuel future will take 
many decades and will be unevenly distributed among developed, 
developing, and undeveloped nations. It is not a matter of political 
will but rather a matter of economics, scale, infrastructure, access, 
thermodynamics, and kinetics.
    Many large and developing nations continue to ramp up their 
acquisition and use of fossil fuels. This is a reality. Philosophical 
hope notwithstanding, the United States is getting its tail whipped as 
the National Oil Companies (e.g., PetroChina, Petrobras, Petronas, 
Total, Statoil, ARAMCO, and others) build on their own national 
resource base and strong government support to become major 
international players. At the same time, the few surviving 
International Oil Companies (ExxonMobil, Shell, BP, Chevron, and 
ConocoPhillips) struggle to compete, as evidenced by layoffs in the 
past year and continued mergers and acquisitions. Combined, the public 
companies of the world control less than 10 percent of world oil 
reserves. Read and digest that line again, and then think about U.S. 
security and the health of the economy as we attempt to transition into 
the future.
    Energy research is vital to stay competitive and meet the energy 
needs of our Nation. That includes research in fossil energy, which 
together supply 85 percent of our energy demand. Research is needed in 
areas such as unconventional oil, unconventional gas, carbon 
sequestration, extreme environment (Arctic, deep water, subsalt, 
subvolcanic, etc.) conventional oil and gas, and nanotechnology 
applications in oil and gas, to name just a few.
    Policy makers need to get past the notion that research support of 
fossil energy should only be supported privately. That notion is 
politically motivated, and to continue to promulgate it is hurting our 
Nation. Federal-private partnerships are everywhere and just as 
important in fossil energy as they are in renewable energy, biotech, 
pharmaceuticals, agriculture, or high tech. U.S. universities are 
woefully under funded with regard to Federal support for fossil energy. 
We are naively and idealistically giving away the U.S. science and 
engineering advantage in fossil energy research. To what end?
    I strongly support increasing DOE oil and gas research funding. 
This includes the RPSEA program, which has been instrumental in 
providing Federal support of crucial research in unconventional onshore 
natural gas and ultra-deepwater oil and gas, both of which are critical 
to U.S. energy security (affordable, available, reliable, and clean). 
RPSEA provides competitive grant monies to universities, which in turn 
leverage those monies significantly by partnering with industry. DOE 
fossil energy used to have a similar program--when they had a budget. I 
cannot say it emphatically enough: A real budget needs to be 
reinstated! Students and faculty benefit directly from research funding 
and from the insight they each can gain from working on these research 
projects. Unfortunately, this kind of research is not supported by NSF 
or other blue-sky programs.
    Both DOE fossil programs and RPSEA provide tremendous value to our 
country, creating and supporting jobs and increasing technology 
development for small and independent companies. Independent companies 
are the drivers behind the dramatic increase in natural gas reserves 
that the United States is enjoying today. Although they lack research 
facilities and staff, they are voracious fast-adapters of useful 
technology. Thus, the Federal investments we make in research funding 
are paid back many times over.
    A few final thoughts as you consider this important decision:
  --Developing nations (China, India) are aggressively pursuing and 
        acquiring energy and other resources around the globe. Ignoring 
        our huge domestic fossil energy resource base is tantamount to 
        capitulation on an international scale.
  --The United States should be conducting resource assessments of all 
        of its continental shelf areas, and we should encourage energy 
        companies to pursue these resources. Companies are willing to 
        make the huge capital outlays required to explore and develop 
        resources safely and cleanly, if they are allowed to do so. The 
        consumer and the Nation will reap the benefits, and the 
        environmental track record in the offshore is impressive and 
        well established.
  --Hydraulic fracturing has been the key to the resurgence of gas 
        production and reserves in the United States in recent years. 
        This technology is not new--it has been in use for over 50 
        years in hundreds of thousands of wells--but it has recently 
        been refined for maximum impact in unconventional gas systems, 
        particularly in horizontal wellbores. Hydraulic fracturing has 
        a safe and environmentally clean track record. Claims to the 
        contrary are unsubstantiated or fabricated and should be 
        challenged at every opportunity.
    I understand Congress' budget constraints, but it is essential to 
maintain a robust fossil energy R&D program aimed at maximizing our 
domestic fossil-energy resources. Natural gas development should be at 
or near the top of the list of the Nation's priorities. New and 
promising areas of natural gas development, such as the Barnett, 
Bakken, Marcellus, Haynesville, and Fayetteville shale, have been made 
possible through advances in technology, many of which were funded 
through DOE's research efforts and are now augmented by Roseau's 
efforts.
    Your support of fossil energy oil and natural gas R&D programs, as 
evidenced by continuing funding for RPSEA (EPACT section 999), provides 
the resources to power America's economic recovery, the new workforce 
to do it, and a solid energy foundation for the future.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                            Research (UCAR)

    On behalf of the University Corporation for Atmospheric Research 
(UCAR) and the larger university community involved in Earth sciences 
research and education, I submit this written testimony for the record 
of the Senate Committee on Appropriations, Subcommittee on Energy and 
Water Development, and Related Agencies. DOE's programs and initiatives 
in science and education directly support university and laboratory 
communities. They are also key to building a broad-based national 
resiliency to handle the great challenges of the future, including 
climate change. DOE is on the frontlines building the capacity needed 
to address these challenges, maintain a competitive advantage for the 
United States internationally, and secure an economically and 
environmentally sustainable future.
    For these reasons, I urge the subcommittee to fund the President's 
full fiscal year 2011 budget request for the DOE Office of Science at 
$5.121 billion and the Office of Energy Efficiency and Renewable Energy 
(EERE) at $2.355 billion. Furthermore, it is critical that the 
subcommittee take every step to ensure that the DOE's Science budget 
stays on track to double this decade, as authorized by the America 
COMPETES Act of 2007.
    UCAR is a consortium of 75 universities that manages and operates 
the National Center for Atmospheric Research (NCAR) on behalf of the 
National Science Foundation and the university community. UCAR and NCAR 
serve as national hubs for research and education for the atmospheric 
and Earth system sciences community. UCAR also houses community 
programs that bring geosciences communities together to address large-
scale, integrated research and education challenges. Our mission is to 
better understand the behavior of the atmosphere and related global 
systems and to help communities, States, and nations use this 
information to sustain and improve life on Earth.
    I applaud the DOE's ongoing leadership in the management of 
programs to develop clean, alternative sources of energy, enhance 
national security and independence from foreign oil, address climate 
change, and educate the workforce for the emerging global clean energy 
economy. With the following, I specifically want to highlight several 
science research and education programs that represent the DOE's 
critical investments toward a more resilient and adaptable society.

                   CLIMATE AND EARTH SYSTEM RESEARCH

    The Office of Biological and Environmental Research (BER) within 
the DOE Office of Science makes fundamental contributions to the 
Nation's premier climate and Earth system models. Such models provide 
the scientific foundation for national and international decisionmaking 
on climate change--how we should respond to climate change, whether we 
should adapt or mitigate, etc.
    In particular, BER provides indispensible support to the Community 
Climate System Model (CCSM), which is being released this year in its 
fourth major iteration for use in the U.N. Intergovernmental Panel on 
Climate Change's (IPCC) Fifth Assessment Report, expected for release 
in 2014. A comprehensive and sophisticated model for analyzing Earth's 
past, present, and future, CCSM contributed the most simulated data of 
any global model to the IPCC's 2007 Fourth Assessment Report. It is 
providing decisionmakers around the world with a clearer picture of 
what the impact of sustained climate change will be on a global scale.
    CCSM is also laying the scientific foundation for higher-
resolution, downscaled models which will provide regional and local 
predictions about the impacts of climate change. This regional, 
downscaled approach is BER's stated focus for climate and Earth system 
modeling research in fiscal year 2011. Regional and local predictions 
will help States, communities, businesses, and individuals develop 
effective long-term strategies to minimize damages of climate change 
impacts, by either adapting or mitigating.
    Thanks in part to BER support, the Nation's climate models are 
becoming more realistic, incorporating more precise and complex natural 
and now human processes that are shaping the global climate. While 
uncertainties will always persist, these new capabilities will allow 
the climate science community to address the new class of societally 
relevant questions in a way that has never been done in the past. CCSM 
4, for example, will for the first time feature fully interactive 
carbon and sulfur cycles, as well as dynamic vegetation, aerosol 
effects on clouds, carbon chemistry, natural carbon sequestration via 
land surface and oceans, and interactions between the carbon cycle and 
climate.
    Frontiers for climate modeling in fiscal year 2011 include 
understanding more fully how aerosols affect cloud formation, and in 
turn radiative forcing, and how modes of natural climate variability 
(e.g., the El Nino Southern Oscillation, Pacific Decadal Oscillation, 
and Northern Annular Mode) will change as atmospheric greenhouse gas 
concentrations continue to increase. Feedback cycles such as high 
latitude ocean-ice interaction and methane release from Arctic 
permafrost are also areas of study where scientists still have much to 
learn and models still need improvement.
    Understanding and responding to climate change extends far beyond 
the capabilities of any one laboratory or agency. This is a broad, 
interagency effort, in which DOE is a key partner. New contributions to 
the design and scientific content of CCSM will not come from NCAR 
alone. While CCSM is housed and managed at NCAR, it is an open source 
climate model, which means that scientists across the Nation and the 
world make contributions and improvements.
    In order to develop more accurate, increasingly realistic, and 
higher resolution climate models, with better predictive capabilities 
for individuals, businesses, and communities, I urge you to fund the 
Office of Biological and Environmental Research (BER) within the DOE 
Office of Science at the President's full fiscal year 2011 budget 
request of $627.0 million. BER support is critical to the university 
community's most important and recognized climate modeling work.

                 ADVANCED SCIENTIFIC COMPUTING RESEARCH

    Also within the DOE's Office of Science, Advanced Scientific 
Computing Research (ASCR) delivers leading edge computational and 
networking capabilities to scientists nationwide, enabling advances in 
computer science and the development of specialized software tools 
necessary to research the major scientific questions being addressed by 
the Office of Science and the larger university community.
    ASCR's continued progress is of particular importance to 
atmospheric scientists involved with climate model development, because 
an enormous amount of computing power is required to address the 
interaction of the Earth's systems and global climate change. The 
complex nature of the climate processes being simulated in climate 
models requires very advanced software engineering to compute 
efficiently at the petascale. For this reason, ASCR played a critical 
role in developing the computing and networking resources for the U.S. 
contributions to the IPCC Fourth Assessment Report, and ASCR is one of 
the most important resources supporting the next generation of state-
of-the-science climate simulation tools for this country.
    Because the complex and high-resolution climate scenarios produced 
using the CCSM are too processor intensive to be run at NCAR alone, 
they are outsourced to the DOE's Leadership Computing Facilities, 
located at Oak Ridge National Laboratory (OLCF), where a 2.33 petaflop 
system is openly available to the scientific community, and also at 
Lawrence Berkeley National Laboratory/NERSC, Argonne National 
Laboratory, and Lawrence Livermore National Laboratory. Last year, 
scientists at NCAR and the University of Wisconsin used Oak Ridge's 
OLCF to simulate abrupt climate change and shed new light on an 
enigmatic period of natural global warming in Earth's relatively recent 
history. The work was featured in the July 17, 2009 issue of the 
journal Science and provides valuable new data about the causes and 
effects of global climate change. The scientists used nearly a million 
processor hours in 2008 to run one-third of their simulation. With 4 
million processor hours allocated for 2009-2011, they will complete the 
simulation, capturing climate from 14,000 years ago to the present and 
projecting it 200 years into the future.
    The results of this research and other research like this are 
brought to the broader scientific communities through another ASCR 
program, the Scientific Discovery through Advanced Computing (SciDAC) 
program. SciDAC facilitates the transfer of basic research efforts into 
computational science applications through direct partnerships between 
ASCR-supported applied mathematicians and computer scientists. In the 
case of climate change, there is a growing demand for the development 
of tools that will help inform decisionmakers about the options for 
addressing and adapting to climate change. With computation and 
simulation, scientists can model what is known about the Earth's 
systems, identify uncertainties of the models, and determine the 
observational data and experiments needed to further refine and improve 
the models.
    I urge you to fund the Advanced Scientific Computing Research 
(ASCR) within the DOE Office of Science at the President's full fiscal 
year 2011 budget request of $426.0 million. ASCR provides critical 
processor capacity and computational tools like SciDAC that are 
essential to predictive climate change research at high resolutions and 
over large time scales.

           WORKFORCE DEVELOPMENT FOR TEACHERS AND SCIENTISTS

    The DOE Office of Science's education programs, like the Workforce 
Development for Teachers and Scientists (WDTS) Program, are also 
essential to strengthening our Nation's resilience to modern challenges 
like climate change. DOE is taking a leadership role in educating and 
training the Nation's science, technology, engineering, and mathematics 
(STEM) workforce and facilitating the development of the knowledge and 
expertise that will prepare us to address energy and environmental 
challenges.
    WDTS aims to recruit and train a pipeline of highly skilled and 
diverse STEM workers to meet our Nation's innovation and 
competitiveness challenges. To this end, WDTS sponsors workforce 
training and education programs, often based at DOE's national 
laboratories, that motivate students and educators to pursue careers 
that will contribute to both basic and applied science.
    WDTS has also launched the DOE Office of Science Graduate 
Fellowship Program to support U.S. graduate students pursuing degrees 
in areas of basic science and engineering, for up to 3 years of study. 
The goal of the Fellowship is to encourage talented students to pursue 
research-focused graduate studies in physics, chemistry, biology, 
mathematics, computer science, engineering, and environmental science.
    Programs like WDTS have produced tens of thousands of leading 
scientists, engineers, and technicians who have dedicated their careers 
to working on the great challenges of the day, including climate 
change, while pursuing answers to many of the most important scientific 
questions in physics, chemistry, biology, environmental and atmospheric 
science, and other areas of basic science. Their work will be critical 
to our Nation's success in the 21st century.
    I urge you to fund the Workforce Development for Teachers and 
Scientists (WDTS) program within the DOE Office of Science at the 
President's full fiscal year 2011 budget request of $35.6 million. We 
must ensure that the next generation workforce is better prepared to 
address growing energy and environmental challenges.

                          RENEWABLE ENERGY R&D

    Federal investment in the scientific research and technology 
development involved with renewable energy is one of the most important 
investments we can make in our Nation's future and our ability to build 
resilience to economic and environmental challenges. Renewable energy 
conveys numerous cross-cutting benefits to society, including reducing 
our dependence on foreign oil, transforming the clean energy economy, 
decentralizing the energy market, providing new high-tech jobs, 
reducing the human toll on the environment, and mitigating global 
climate change.
    Our national research universities, along with DOE laboratories and 
an emerging private sector, are driving the country's growth in 
renewable energy and increasing the efficiency of new technologies. One 
example of such collaboration includes an NCAR partnership with DOE's 
National Renewable Energy Laboratory (NREL) and the regional utility 
company, Xcel Energy, to develop sophisticated wind forecasts for 
operational use. These provide critical information to select the most 
productive locations for new wind turbine farms, better integrate wind-
generated electricity into the power grid, and make critical decisions 
about powering down traditional coal- and natural gas-fired plants when 
sufficient winds are predicted.
    Given the critical importance to the Nation of developing 
economically and environmentally sustainable technologies for producing 
energy, I recommend that the subcommittee fully fund the President's 
fiscal year 2011 budget request for the Office of Energy Efficiency and 
Renewable Energy at $2.355 billion.

    RE-ENERGYSE (REGAINING OUR ENERGY SCIENCE AND ENGINEERING EDGE)

    Within the Office of Energy Efficiency and Renewable Energy (EERE), 
RE-ENERGYSE is a broad educational effort designed to inspire students 
and workers to study and pursue careers in science, engineering, and 
entrepreneurship related to clean energy. Today at U.S. universities, 
opportunities to pursue clean energy education are far and few in 
between. RE-ENERGYSE will help universities and community colleges 
develop cutting edge programs, with redesigned and new curricula to 
produce tens of thousands of highly skilled U.S. workers who can 
sustain American excellence in clean energy in industry, trades, 
academia, the Federal Government, and national laboratories.
    RE-ENERGYSE will also benefit from plans to partner with the 
National Science Foundation for program evaluation. This partnership 
will build on the scientific and engineering expertise of both agencies 
in the energy field and benefit from NSF's successful track record of 
integrating research with education in programs it has developed and 
administered over the past two decades.
    I urge the subcommittee to fund RE-ENERGYSE at the President's 
fiscal year 2011 request of $50.0 million.
    I want to thank the members of the subcommittee for their continued 
leadership in supporting basic and cutting-edge scientific research and 
in promoting education and workforce development in the environmental 
and other Earth sciences.

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
